<html>
<title> - INVESTIGATION INTO ALLEGATIONS OF JUSTICE DEPARTMENT MISCONDUCT IN NEW ENGLAND</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
INVESTIGATION INTO ALLEGATIONS OF JUSTICE DEPARTMENT MISCONDUCT IN NEW 
                           ENGLAND--VOLUME 2
=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION
                               __________

                     FEBRUARY 13, 14, AND 27, 2002
                               __________

                           Serial No. 107-56
                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform




                     U.S. GOVERNMENT PRINTING OFFICE
78-662                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001













                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Tennessee            BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                         Jim Schumann, Counsel
                         Chad Bungard, Counsel
                         Matthew Rupp, Counsel
                     Robert A. Briggs, Chief Clerk
                Nick Mutton, Assistant to Chief Counsel
                 Phil Schiliro, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    February 13, 2002............................................     1
    February 14, 2002............................................    93
    February 27, 2002............................................   641
Statement of:
    Duke, Steven, esq., Yale University law professor............   706
    Garo, Victor, esq., attorney for Joseph Salvati..............   668
    Harrington, Edward F., senior Judge, Federal District Court, 
      former assistant U.S. attorney.............................   107
    Lawrence, Frederick M., esq., Boston University law professor   686
    McGuigan, Austin, former Connecticut chief State's attorney..   674
    Miller, Marteen, former public defender; Edwin Cameron, 
      former investigator; and Tim Brown, former detective 
      sergeant, Somona County Sheriff's Office...................    31
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, exhibit 18.....................................   129
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Exhibit 8................................................   120
        Exhibits 9 and 10........................................   122
        Exhibit 11...............................................   125
        Prepared statements of............................. 7, 102, 648
        Prepared statement of Mr. Gershman.......................   643
        Prepared statement of John Cavicchi......................    94
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statements of................ 44, 746
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   664
    Delahunt, Hon. William D., a Representative in Congress from 
      the State of Massachusetts:
        Exhibit 15............................................ 151, 179
        Exhibit 16...............................................   182
        Letter dated July 31, 1973...............................    84
    Duke, Steven, esq., Yale University law professor, prepared 
      statement of...............................................   708
    Duncan, Hon. John J., a Representative in Congress from the 
      State of Tennessee, prepared statement of..................    19
    Garo, Victor, esq., attorney for Joseph Salvati, prepared 
      statement of...............................................   672
    Harrington, Edward F., senior Judge, Federal District Court, 
      former assistant U.S. attorney, prepared statement of......   110
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Exhibit 18...............................................   140
        Exhibits 20 and 21.......................................   142
        Exhibit 25...............................................   167
        Exhibit 26...............................................   172
        Exhibit 27...............................................   175
    LaTourette, Hon. Steven C., a Representative in Congress from 
      the State of Ohio:
        Exhibits 2 and 3.........................................    57
        Exhibits 4 and 5.........................................    65
        Exhibit 6................................................    71
    Lawrence, Frederick M., esq., Boston University law 
      professor, prepared statement of...........................   690
    McGuigan, Austin, former Connecticut chief State's attorney, 
      prepared statement of......................................   680
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Exhibit 2................................................    52
        Prepared statements of................................. 24, 653
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    15











  THE CALIFORNIA MURDER TRIAL OF JOE ``THE ANIMAL'' BARBOZA: DID THE 
 FEDERAL GOVERNMENT SUPPORT THE RELEASE OF A DANGEROUS MAFIA ASSASSIN?

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:49 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Barr, Morella, Horn, 
LaTourette, Duncan, Waxman, Kucinich, Norton, Cummings, 
Tierney, Clay, Watson, and Delahunt.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy chief counsel; 
Mark Corallo, Director of Communications; Thomas Bowman, senior 
counsel; Chad Bungard and James J. Schumann, counsels; Robert 
A. Briggs, chief clerk; Robin Butler, office manager; Elizabeth 
Frigola, deputy communications director; Joshua E. Gillespie, 
deputy chief clerk; Nicholis Mutton, assistant to chief 
counsel; Corinne Zaccagnini, systems administrator; Phil 
Barnett, minority chief counsel; Jon Bouker, minority counsel; 
Michael Yeager, minority deputy chief counsel; Ellen Rayner, 
minority chief clerk; and Earley Green, minority assistant 
clerk.
    Mr. Burton. The Committee on Government Reform will come to 
order. I ask unanimous consent that all Members and witnesses' 
written and opening statements be included in the record. 
Without objection, it is so ordered.
    I ask unanimous consent that all articles, exhibits, 
extraneous or tabular material referred to be included in the 
record and without objection it's so ordered.
    I ask unanimous consent that a binder of exhibits for this 
hearing be included in the record and without objection it's so 
ordered. I also ask unanimous consent that questioning on the 
manner under consideration proceed under clause 2J(2) of House 
rule XI and committee rule 14 in which the chairman and ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning, not to exceed 60 minutes 
divided equally between the majority and the minority. Without 
objection, it's so ordered.
    I also ask unanimous consent that Representatives Frank, 
Delahunt and Meehan be permitted to participate in today's 
hearing. Without objection it's so ordered. The reason for 
that, of course, is that they are from the region in question 
and they are very knowledgeable about this issue. Since it 
affects their constituency, we think it's appropriate for them 
to be here.
    I want to start off by repeating a few sentences from my 
opening statement before last week's hearing. The U.S. 
Department of Justice allowed a lying witness to send men to 
death row. It stood by idly while innocent men spent decades 
behind bars. It permitted informants to commit murder.
    The U.S. Department of Justice and the FBI tipped off 
killers so they could flee before they were caught. It 
interfered with local investigations of drug dealing and arms 
smuggling. Then when people went to the authorities with 
evidence about murders, some of them ended up dead.
    Now, those are strong accusations and the thing that is so 
bad about it is it is true. We know of at least three or four 
people who were innocent of murders that spent time in jail. 
Mr. Salvati spent 30 years in jail for a crime he didn't 
commit. All the way up to the head of the FBI, Mr. Hoover, knew 
it.
    He got the death penalty. Nobody said a word. And his 
sentence was commuted to life imprisonment. Finally, after 30 
years, thanks to his hard efforts, his wife and his lawyer, who 
are here with us today, he was released. But 30 years is 
something you can't give back.
    There was a man in Rhode Island, we understand, who spent 
18 years in prison for a crime he did not commit. It is just 
unbelievable.
    What I said was word for word of what I said last week. And 
the Justice Department official sat in front of this committee 
and they nodded their heads. They said they would cooperate 
with the committee's investigation and then they hung tough and 
said we could not see the documents relative to the 
investigation that we subpoenaed.
    We are in the middle of an elaborate shell game. The 
Justice Department knows we are justified in wanting to see the 
documents that we subpoenaed. The Justice Department knows that 
we have good reason to review the documents. They know that if 
we don't our investigation will be harmed. If they were doing 
an investigation, they would want to review the same documents 
themselves. They would insist on it, for the same reason we 
have to insist on it.
    I want to digress just a minute and say that I have this 
horrible feeling in my gut that there are other people in 
prison who are innocent of crimes like Mr. Salvati, who are 
still there. A more horrible feeling is that some of those 
people were put to death who were innocent and the Justice 
Department knew it. The reason I am very concerned is because 
we can't get the Justice Department to cooperate with us. They 
won't let us see documents.
    That means we are not going to be able to find out if there 
are people who were in prison who are innocent or who died who 
were innocent or who may still be there. We need to find out if 
there are rogue FBI agents who were involved in these kinds of 
atrocities who are still working for the Justice Department. We 
need to find out who people were who were putting innocent 
people in jail, who knew they were innocent, and make sure they 
are held accountable.
    That is the only way the criminal justice system in this 
country can be cleaned up and make sure that these sorts of 
things never happen again. This is America. This is not Soviet 
Russia. This is not some Third World country. This is the 
United States, the land of the free and the home of the brave. 
We believe in fairness, equality and in justice. When we find 
out innocent people are being sent to jail and the authorities 
that put them in jail know they are innocent and even give them 
the death penalty to protect mafia and underworld informants, 
that in itself is more than criminal, in my opinion.
    For decades Federal law enforcement did terrible things up 
in New England and they were successful in covering it up. Now, 
the Justice Department today, in 2002, continues to make it 
hard to find out what happened. We are not going to tolerate 
that. I want to emphasize two important points. First, the 
Justice Department has never said that our review of these 
documents would harm an ongoing investigation.
    Second, the Justice Department has never said that our 
review of these documents would compromise secret Grand Jury 
information. The simple fact of the matter is, they don't want 
us to see these documents for possibly a number of reasons, 
some of which I just alluded to, and that's unacceptable.
    I am not going to belabor the point about how unhappy I am 
with the Justice Department. They just don't seem to care that 
they are putting hurdles before the committee. Rest assured, we 
will do everything we can to get to the bottom of what 
happened. I just hope at some point the Attorney General and 
the President who are getting really bad advice, will do the 
right thing and tell their staffs to cooperate with the 
Congress of the United States which has oversight 
responsibilities.
    Last year we held a hearing about the 1965 murder of Teddy 
Deegan. Joe ``The Animal'' Barboza lied on the witness stand 
and innocent men got the death penalty, including Mr. Salvati. 
Only a Supreme Court ruling in another case prevented the death 
penalty from being carried out. Otherwise, Mr. Salvati wouldn't 
be here today.
    Still two men died in prison. Another served 34 years 
before he was cleared. Mr. Salvati served 30 years before he 
was exonerated. The FBI knew Barboza was lying and they covered 
it up.
    Today, we are going to focus on a second chapter in the 
life of Joe ``The Animal'' Barboza. By the mid-1960's, Barboza 
was an accomplished killer. The Justice Department believed he 
had murdered at least 26 people. Barboza was described by FBI 
Director Hoover as ``a professional assassin responsible for 
numerous homicides and acknowledged by all professional law 
enforcement representatives in New England to be the most 
dangerous individual known.'' And yet they were working with 
this guy, putting innocent people in jail.
    The FBI knew what kind of man Barboza was from microphone 
surveillance of mob figures. For example, here is a story 
passed along to FBI Director Hoover. He was told that Barboza 
was going to kill a man by burning down the man's house. Either 
the fire would do the job or he would shoot the man as he ran 
from the burning building.
    When Barboza was told the man's aged mother lived in the 
house and would also be killed, Barboza said that it wasn't his 
fault and he didn't care. After Barboza lied in the Deegan 
murder prosecution the FBI created the Witness Protection 
Program specifically for him. He was moved to Santa Rosa, CA.
    Predictably enough, he killed again. For a while he got 
away with the murder. Shortly after the murder in California 
Barboza went back to Massachusetts. He got into another legal 
problem and was put into Walpole Penitentiary. While he was 
there he told a career criminal in the cell next to him about 
the murder that he committed in California.
    That inmate proceeded to tell people about the latest 
murder, but the Justice Department did not care. It was OK for 
Barboza to get away with murder, literally. In fact, the 
Federal Government wanted to cover up Barboza's involvement in 
the murder in California.
    The man Barboza confided in, William Geraway, did write one 
letter to the District Attorney in Santa Rosa. That is how he 
finally got caught. Investigators were sent from California to 
Massachusetts. In fact, Mr. Cameron who is here with us today 
was one of those investigators. While the Justice Department 
didn't seem to care much about the murder committed by their 
star witness, the community of Santa Rosa cared.
    Geraway provided the names of eyewitnesses, the location of 
the body and other critical details. Santa Rosa prosecutors 
were able to indict Joe ``The Animal'' Barboza in spite of the 
opposition and obstruction of the Federal Government.
    Today we will hear from three men who were involved in this 
tragic episode. They are here to help us understand something 
about what happened a long time ago. It's my understanding that 
when my staff contacted today's witnesses, some said they had 
been waiting for 30 years for someone to call about this. No 
one ever had, so you probably weren't holding your breath any 
more. But we did call, better late than never.
    I just want to say that I am really grateful to all three 
of you for being here. Sorry you had to wait so long. You have 
been cooperative. You tried to help us as much as possible. You 
dug up old documents, made time for our questions and 
voluntarily came to Washington to testify. I really want to 
thank you for that.
    Marteen Miller was the most experienced public defender in 
Santa Rosa, CA. In 1971, when California decided to prosecute 
Joe ``The Animal'' Barboza for murder, the case was assigned to 
Mr. Miller. You probably never thought you would have a client 
like him, did you?
    Mr. Miller. No, I did not, sir.
    Mr. Burton. Ed Cameron was the investigator for the Sonoma 
County District Attorney during the Barboza case. Mr. Cameron 
was part of everything that was happening during the Barboza 
investigation and trial. I know you had some health problems 
recently and I appreciate your being here with us.
    Tim Brown was a detective sergeant with the Sonoma County 
Sheriff's Office. He also played a prominent role in the 
Barboza murder investigation and he learned some important 
facts from local FBI agents that the Boston FBI did not want 
him to know. We appreciate you being here as well.
    What they told us already was enough for me to call this 
hearing. So far, we have learned that, one, the Federal 
Government went to extraordinary lengths to help Barboza get 
away with the California murder.
    Two, all of tomorrow's witnesses, each an important Federal 
Government official, testified on Barboza's behalf at his trial 
for the California murder. Former FBI supervisor, Chuck Hiner, 
who was interviewed, told us that he got a call from Dennis 
Condon, one of the FBI agents up in Boston and he told us that 
Denny said he would be a character witness for this murderer, 
Barboza.
    Barboza's defense lawyer was helped by the Federal 
Government. The prosecutors were snubbed when they sought help. 
The murder weapon was given to the FBI for analysis. It was 
conveniently lost for a period of time. The FBI in Boston was 
told that two of the witnesses against Barboza were going to be 
assassinated. The FBI in Boston showed no interest in helping 
to prevent the murders from being carried out. Fortunately, 
they were not carried out.
    Investigator Ed Cameron flew out to Boston to talk to the 
Justice Department officials. The climate was so hostile he 
stored his papers in a hotel safe. He later came to believe 
that someone broke into his room and searched his briefcase. 
Barboza ultimately took a plea bargain for the Wilson murder 
because he was pretty sure he was going to be found guilty.
    He served less than 4 years for the murder, even though he 
had committed dozens of murders and killed while he was in the 
Witness Protection Program.
    Tapes were made of Barboza's conversations when he was in 
jail in Santa Rosa. These tapes, which helped solve at least 
one additional murder, were given to the FBI. The FBI either 
lost these tapes or will not provide them to the committee. 
Doug Ahlstrom, the FBI agent who was given these tapes, will 
not cooperate with this committee.
    Everyone on this committee understands that when you are 
fighting organized crime you won't be working with angels. 
Witnesses will often be untrustworthy. They may be killers 
themselves. Well, we might have to work with the underworld, 
but we don't have to sell our souls to the devil. We can't let 
the FBI become complacent in putting innocent people in prison.
    If we help a witness who has cooperated, we certainly can't 
tolerate further murders. Nothing should ever give a government 
informant or a witness a license to kill. That, however, is 
what seems to have happened in the case of Joe ``The Animal'' 
Barboza and in the case of Vincent Flemmi and in the case of 
Whitey Bulger as well. Mr. Bulger is still on the 10 most 
wanted list.
    In the case of Stevie Flemmi, that was the rifleman, wasn't 
it? Stevie ``The Rifleman'' Flemmi who loved killing as well. 
For 30 years the Justice Department turned a blind eye to 
witnesses and informants who committed murder.
    After he lied and sent Joe Salvati and others to prison for 
life, the animal got dumped on an unsuspecting community in 
California. He then killed someone else. From that time forward 
the United States didn't owe him anything. It certainly didn't 
owe him enough to help him get away with murder.
    To come to any other conclusion would be to turn our back 
on everything that this system we, this system of justice, 
stands for. Congress recently gave the administration sweeping 
new powers to deal with the terrorists who committed the 
atrocities of September 11th. We were all deeply touched by 
this tragedy.
    A former lawyer on this committee, one of my former 
lawyers, was in one of those planes and was killed. I don't 
regret for a minute giving the government the powers that it 
asked for after September 11th. But with power comes 
responsibility. It has to be used wisely.
    The Justice Department has the power to protect, but it 
also has the power to destroy people's lives, people like Joe 
Salvati. I think every person in a position to wield these new 
powers standards should take a few hours to sit down and think 
about what happened to Joe Salvati, his wife Marie and their 
four children. Thirty years were taken out of all their lives. 
They should take some time and reflect on today's testimony and 
the things we are going to talk about tomorrow.
    They should think about secrecy. They should consider the 
words of Federal District Court Judge Wolfe that he used in 
Boston when he forced the government to admit its treacherous 
use of Whitey Bulger and Stevie Flemmi as informants.
    Judge Wolfe quoted Lord Acton when he said, ``Everything 
secret degenerates, even the administration of justice.''
    Thirty years ago it would have been unthinkable for the 
Federal Government to knowingly try to put men in the electric 
chair for crimes they didn't commit, just as it's unthinkable 
that the same thing could happen today. But it does happen. Our 
laws are administered by human beings.
    I hope everyone that follows these hearings understands 
what we are doing today is not an exercise in academics. We 
don't want there to ever be another case like Joe Salvati's.
    I would just like to end by saying that the American people 
and the media have only partially focused on this. We have a 
lot of things that are going on right now that are very 
important, the Enron Investigation. We have campaign finance 
reform on the floor. We've got the war going on.
    But in my opinion there's nothing more important than 
making sure that Americans are treated fairly in the criminal 
justice system. If any part of our government is putting 
innocent people in jail for life or giving them the death 
penalty knowing they are innocent, then my gosh, we've got to 
correct that and we have to correct it quickly.
    I think, in my opinion, that's just as important as the 
terrorist problems we are facing right now because in fact it's 
terrorism being fostered on American citizens who are innocent 
and that's something we can't tolerate.
    Mr. Waxman.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.001
    
    [GRAPHIC] [TIFF OMITTED] T8662.002
    
    [GRAPHIC] [TIFF OMITTED] T8662.003
    
    [GRAPHIC] [TIFF OMITTED] T8662.004
    
    [GRAPHIC] [TIFF OMITTED] T8662.005
    
    [GRAPHIC] [TIFF OMITTED] T8662.006
    
    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
start where you left off. There are a lot of things happening 
in the world. I want to commend you for making sure that we 
investigate any perversion of justice because what this country 
has always stood for is fairness and justice.
    We are today examining allegations of FBI and Justice 
Department misconduct in their dealings with Joseph Barboza, a 
violent criminal who turned State's evidence in several high 
profile organized crime prosecutions in New England. I very 
much welcome this hearing.
    In the 1960's Joseph Barboza was well known to the FBI and 
law enforcement authorities in Massachusetts. He worked as an 
enforcer and killer for organized crime groups in New England. 
To avoid a lengthy prison sentence, he decided to work with the 
government in major Federal and State organized crime 
prosecutions.
    Mr. Barboza's testimony led to the conviction of some of 
the most notorious mafia figures in New England at the time, 
including a mafia boss, Raymond Patriarca, as well as two of 
his top lieutenants and other members of the mafia.
    The Federal and State prosecutors involved in the 
prosecutions won great praise for their work. J. Edgar Hoover 
gave personal commendations to the agents who helped develop 
the cases. At the time, the convictions won by way of Joseph 
Barboza were a mark of professional accomplishment, and they 
established practices in the Boston office of the FBI that 
lasted for decades.
    Today the history of the Federal Government's dealings with 
Joseph Barboza no longer stands as an achievement, but as an 
egregious example of law enforcement abuses.
    From this committee's investigation and materials uncovered 
by the Justice Department Task Force investigating related 
allegations, several things are clear. Mr. Barboza gave false 
testimony in the trial of six defendants in 1968 for the murder 
of Edward Deegan. This resulted in the wrongful conviction of 
Joseph Salvati and possibly others.
    The FBI agents who worked with Mr. Barboza in connection 
with that State prosecution knew or should have known that his 
testimony was false. Federal officials withheld crucial 
exculpatory evidence in the Edward Deegan murder trial and 
denied the defendants in that case a fair trial.
    After the trial, the Justice Department relocated Mr. 
Barboza to California where he killed again. During his trial 
for murder in California, the Justice Department and the FBI 
worked on Mr. Barboza's behalf to assist in his defense. With 
the assistance of the Justice Department, Mr. Barboza made a 
plea agreement that minimized the term of his imprisonment and 
allowed him back on the streets.
    I think all of us on this committee would agree that the 
Justice Department and the FBI lost their way. No ends, not 
even the laudable goal of eliminating organized crime, justify 
these means.
    Before Robert Mueller was confirmed as Director of the FBI, 
he told a Senate committee that, ``The measure of an 
institution is how it responds to its mistakes.'' He went on to 
say that it was his highest priority to restore public 
confidence in the FBI. I commend Mr. Mueller for his commitment 
to this priority, but I do not understand why the Justice 
Department and President Bush continue to impede this 
committee's investigation into these matters by asserting 
executive privilege over potentially important documents.
    I urge President Bush to reverse course and to direct his 
administration to cooperate fully with this committee. That's 
the only way that we in the Congress and the general public can 
understand this unfortunate episode.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.035
    
    [GRAPHIC] [TIFF OMITTED] T8662.036
    
    Mr. Burton. Thank you, Mr. Waxman.
    Mr. Horn, do you have an opening statement?
    Mr. Horn. I don't want an opening statement. I would like 
to get to the questions.
    Mr. Burton. OK. Well, we will get to those very, very 
quickly then.
    Mr. Duncan.
    Mr. Duncan. Mr. Chairman, let me say once again how much I 
appreciate your courage and persistence in having hearings on 
this matter. I will say once again, as I said last week, when 
you opened up your statement last week and you repeated this 
opening paragraph again today, I serve on three full committees 
and six subcommittees. This is my 14th year in the Congress. I 
have participated in probably several thousand committee and 
subcommittee hearings during that time.
    I said last week I have never heard a more shocking 
statement made in any committee or subcommittee hearing that I 
have ever participated in than your opening paragraph.
    In case anybody here, in case they did not hear that or 
their minds were some place else, I want to repeat that. The 
chairman said, ``The U.S. Department of Justice allowed a lying 
witness to send men to death row. They stood by idly while 
innocent men spend decades behind bars. They permitted 
informants to commit murder. It tipped off killers so they 
could flee before they were caught. It interfered with local 
investigations of drug dealing and arms smuggling.
    ``Then when people went to the Justice Department with 
evidence about murders, some of them ended up dead.''
    I can tell you this: I spent 7\1/2\ years as a criminal 
court judge trying felony criminal cases. I mentioned that in 
here before. The first year I ran for Congress, 302 out of 309 
of the Knoxville City Police Department officers ran an ad 
endorsing me for election. The Knox County Sheriff's Department 
did the same thing. I think that I have supported law 
enforcement as much as anybody possibly could.
    But there's a reason why our founding fathers wanted most 
of our law enforcement to be local and there's a reason why 
most or many people who have thought about this do not want us 
to create a Federal police state.
    You know, our lowest paid law enforcement officials are our 
local police officers. Next are the State and then our highest 
paid law enforcement officials are the Federal officials. Many 
of them never see a real criminal unless they are mugged on the 
way to their cars after work.
    We give the lowest pay to our people who are out there 
fighting the street crime, the real crime that people want 
fought. Then when we read about cases such as this Barboza case 
that we are going to hear about today where the Special Agent 
in Charge of the Boston office told J. Edgar Hoover, ``I 
Barboza was a professional assassin responsible for numerous 
homicides and acknowledged by all professional law enforcement 
representatives in New England to be the most dangerous 
individual known.''
    Then we had Barboza taking a plea agreement for a murder in 
California and serving less than 4 years, even though he had 
committed dozens of murders, dozens of murders. His own lawyer 
called him, ``one of the worse men on the face of the earth.'' 
When asked about the short prison term for Barboza of less than 
4 years, his lawyer said that was pretty amazing. ``I figured 
out that was how it worked when you had friends in the FBI.''
    That's really sad, that when you have friends in the FBI 
you can commit dozens of murders and get out with a sentence of 
less than 4 years.
    But a man who has done nothing at all and who is totally 
innocent has to serve 30 years. I do not believe that the 
people of this country feel that the Justice Department was set 
up to protect murderers like Barboza. I am totally amazed at 
what I am hearing at these hearings. I am more than amazed. I 
am shocked. I am going to do what I can in my small way to call 
attention to this.
    I am going to go on C-Span and I am going to talk about 
this. I am really embarrassed and ashamed and saddened that the 
Justice Department is continuing to try to withhold documents 
from the chairman and from this committee and try to continue 
this cover-up. The whole thing is just shocking.
    I appreciate your calling these hearings and letting me 
participate. Thank you, Mr. Chairman.
    [The prepared statement of Hon. John J. Duncan follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.031
    
    [GRAPHIC] [TIFF OMITTED] T8662.032
    
    [GRAPHIC] [TIFF OMITTED] T8662.033
    
    [GRAPHIC] [TIFF OMITTED] T8662.034
    
    Mr. Burton. Thank you, Judge Duncan.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. With your permission 
and that of the other members of the committee, I would like 
unanimous consent to just put my remarks on the record so we 
can get to the witnesses.
    Mr. Burton. Without objection, it's so ordered.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.007
    
    [GRAPHIC] [TIFF OMITTED] T8662.008
    
    [GRAPHIC] [TIFF OMITTED] T8662.009
    
    [GRAPHIC] [TIFF OMITTED] T8662.010
    
    [GRAPHIC] [TIFF OMITTED] T8662.011
    
    [GRAPHIC] [TIFF OMITTED] T8662.012
    
    Mr. Burton. Mr. Delahunt.
    Mr. Delahunt. I thank you, Mr. Chairman. Again, as I have 
stated on previous occasions, let me commend you for moving 
forward with this. Also, let me commend the witnesses. I am 
sure they are here with some ambivalence. But what you are 
doing today is very important.
    We don't have a democracy if we have a justice system whose 
integrity is at risk. What you experienced and what I 
anticipate your testimony will reveal, your experience in 
California in the late 1960's and early 1970's did not stop 
then. It continued. It continued in the Boston area and at some 
level I presume elsewhere all over this country, in the 1970's, 
in the 1980's and the 1990's.
    Again, a justice system that has integrity is so critical 
to a healthy vibrant democracy. In the notice put out by the 
committee, and maybe I could inquire through the chair to Mr. 
Wilson, chief counsel. There was an indication that possibly a 
representative of the Department of Justice would be here. If I 
could inquire, is there a representative of the Department of 
Justice here?
    Mr. Burton. We'll have the department here for testimony 
tomorrow. The other case you were talking about, which we might 
as well bring up at this time was that one of the agents that 
was involved in the case at hand couldn't be here, he said, 
because of health problems.
    We subpoenaed him and he will submit to a sworn deposition 
next week, so we will get his testimony as well.
    Mr. Delahunt. Again, the question I would pose to the 
Department of Justice is many of these documents which we have 
been provided with have names and possibly important 
information redacted.
    I think the Department of Justice has the obligation to 
inform the committee of the rationale for the redaction. I 
think that's important that we can further realize what we are 
dealing with here. I think I do see a representative of the 
Department of Justice in the audience. Maybe at some point in 
time he can respond to that question. Who is responsible for 
the redaction of some materials and names in the documents that 
were presented and provided to the committee?
    Mr. Burton. If he is not prepared for that today, we will 
try to get that information tomorrow and you can ask that 
question then.
    Ms. Watson, did you have any comments?
    Ms. Watson. I just want to say that I am pleased to be part 
of this committee that continues to search for truth and 
justice at a time when our integrity is being questioned and 
there are tremendous scandals and cover-ups, I think we have to 
do everything we can publicly to dig it out, bring it forward 
and clear it up and let justice prevail.
    I just came back from Cuba. This weekend I had maybe a 5 or 
6 hour meeting with President Fidel Castro. When our 
``Ambassador'' used a hard line, we repeated the language to 
him and he said, well, America appears to be hypocritical and 
gave us the names of five, as he called them, innocent Cubans 
that are in Federal prisons. He pointed out that one of them 
was in Lompoc in the State that I represent.
    What can you say? You sit there in a chagrin fashion. We 
must clear these issues up. We must bring them public. We must 
reform. If we are going to be the leader of the free world, we 
need to model a kind of behavior that says these kinds of 
crimes and cover-ups cannot exist in America.
    Thank you so much, Mr. Chairman.
    Mr. Burton. The gentle lady yields back her time.
    We will now hear testimony from our witnesses who are here 
today. We want to thank you once again for coming all the way 
from out in sunny California to be here. You all live in 
southern California, don't you? You all have nice tans. You 
look good. Oh, one of you is living in Nevada? Well, it is warm 
there, too.
    Mr. Marteen Miller, Mr. Edwin Cameron and Tim Brown, would 
you please rise and be sworn?
    [Witnesses sworn.]
    Mr. Burton. I think we will start at my left. Mr. Miller, 
would you like to make an opening statement?

  STATEMENTS OF MARTEEN MILLER, FORMER PUBLIC DEFENDER; EDWIN 
 CAMERON, FORMER INVESTIGATOR; AND TIM BROWN, FORMER DETECTIVE 
            SERGEANT, SOMONA COUNTY SHERIFF'S OFFICE

    Mr. Miller. No, sir. I will waive that.
    Mr. Burton. OK. Well, you can answer questions.
    Mr. Cameron, do you have an opening statement?
    Mr. Cameron. No. I will waive that.
    Mr. Burton. Just answer questions, OK.
    Mr. Brown.
    Mr. Brown. No, sir. I will waive that.
    Mr. Burton. Very well, we will get on with the questions 
then. I think this is one of the first panels we have ever had 
that did not have an opening statement. That's why I wasn't 
ready for the questions.
    OK, we will proceed under the 5-minute rule today. Mr. 
Cameron, you were the police officer and the investigator for 
the Sonoma County District Attorney's office. If that correct?
    Mr. Cameron. Yes, sir.
    Mr. Burton. Is it fair to say that when you were 
investigating a murder committed by Joseph Barboza the FBI and 
the Justice Department did not help you very much? Is that 
correct?
    Mr. Cameron. It would be more than fair to say that we did 
not get any cooperation from the Federal Government.
    Mr. Burton. From the FBI?
    Mr. Cameron. The FBI.
    Mr. Burton. When you began your investigation, did you know 
that Joe ``The Animal'' Barboza had been described to J. Edgar 
Hoover as a professional assassin responsible for numerous 
homicides and acknowledged by all professional law enforcement 
to be the most dangerous individual known?
    Mr. Cameron. When we originally got the letter telling us 
that we had a body in California? No, I did not know that.
    Mr. Burton. Mr. Brown, did you know when you started that 
was how the FBI described Mr. Barboza?
    Mr. Brown. No, sir, not at the time that it began.
    Mr. Burton. Did you know that the FBI, Mr. Cameron, 
believed that he committed at least 26 murders?
    Mr. Cameron. Not when we began. Later I found that out.
    Mr. Burton. So, at the beginning none of you knew that?
    Mr. Cameron. No, sir.
    Mr. Burton. Mr. Miller, when you started the case the 
prosecution had two eyewitnesses, another witness who had all 
the facts right, a body and a client with a very bloody past. I 
think you told our lawyers that you thought it would take the 
jury about 2 minutes and that the prosecution's case was a lead 
pipe cinch. Do you recall telling us that?
    Mr. Miller. That's substantially correct. I did not have 
too much hope at the beginning of the trial, but sometimes 
things go poorly for you and sometimes they break for you. I 
think we rolled 7s and 11s in that case.
    Mr. Burton. So, you thought that this was potentially a 
death penalty case for Mr. Barboza?
    Mr. Miller. It was a death penalty case, yes.
    Mr. Burton. And you did not hold out much hope for him 
because of the evidence involved.
    Mr. Miller. Well, there is always hope, but I have to 
address reality.
    Mr. Burton. Mr. Brown, you were a detective sergeant with 
the Sonoma County Sheriff's office. Is that right?
    Mr. Brown. Yes, sir.
    Mr. Burton. Joe Barboza was alleged to have killed someone 
outside of Santa Rosa. We'll get into the specifics later, but 
from our interview of you it sounds as though the Justice 
Department didn't really want Barboza to go to prison for the 
murder he committed. Is that right?
    Mr. Brown. Yes. That's correct.
    Mr. Burton. At the time of the Barboza prosecution, you 
were the public defender, Mr. Miller?
    Mr. Miller. Yes, sir.
    Mr. Burton. And as the most experienced attorney in the 
office, you handled all the murder cases, correct?
    Mr. Miller. That's correct.
    Mr. Burton. Did the FBI provide significant help in your 
defenses of Barboza?
    Mr. Miller. Well, they were very friendly to me when I went 
back to Massachusetts as far as getting into Walpole and so on, 
and telling me where to stay and so on, and offering any 
assistance that they could give. But the evidence in the case, 
realizing that they had an individual to whom Mr. Barboza had 
made a statement about the case. They had two eyewitnesses to 
the case. The body was found exactly where Mr. Geraway said it 
would be found.
    The trauma was exactly the way Mr. Geraway described it and 
the witnesses that testified in that trial also said that they 
witnessed the case. So, there was no real evidentiary help that 
the FBI could have given me in relation to that case.
    If I may add gratuitously, I think what you should be 
looking at, I think, is what happened post-trial. In my 40 
years as a criminal defenses lawyer, I have never seen a 
situation where someone goes into prison with a second degree 
murder charge getting out in as short a time as he did.
    Obviously, I asked if they could appear, just for color's 
sake. There was nothing in their testimony in relation to the 
actual killing in the case. The FBI was held in such esteem 
that if I could call them as a witness and have them say 
substantially anything, relevant or not, that would be a point 
in my favor.
    Mr. Burton. Did they agree to appear as ``character 
witnesses?''
    Mr. Miller. Well, I wouldn't say character witness. My 
apologies, Mr. Cameron, I know you weren't the attorney, but I 
was surprised that there was an objection made by the 
prosecution asking what the relevancy was. All I wanted to do 
was place before the jury the color of the FBI in my favor, in 
any way I could.
    Mr. Burton. But the FBI did agree to testify in support of, 
to a degree, Mr. Barboza?
    Mr. Miller. Oh, well, sure, yes. May I continue just for a 
moment?
    Mr. Burton. Sure.
    Mr. Miller. I think it may clear something. Maybe I was 
naive, but I knew that the FBI did not want Mr. Barboza to get 
the death penalty. They were absolutely fearful of that. My 
rationale was they were afraid that if he got the death penalty 
he would have nothing to lose, he would then recant his 
testimony and the pay-off for the mafia would be remuneration 
financial to his ex-wife and his children. So, maybe there's a 
lot more to it, after your opening statement, and there 
probably was. But at the time my feeling was that the FBI's 
interest in this case was solely to keep Mr. Barboza from 
recanting his testimony and I had no reason to believe other 
than recanting against people that were actually guilty.
    Mr. Burton. Well, we are trying our best to get to the 
bottom of that. That's why we are working so hard to get the 
documents in question.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Let me broaden out 
the question a little bit with the hope that you can give us 
some help. Starting with you, Mr. Cameron, your recollection 
back on this period of time, what would you tell us about your 
observations as to whether or not any of the law enforcement 
people involved, the Federal law enforcement people that were 
involved in that case at that time did anything that could be 
perceived to have obstructed the pursuit of justice in that 
particular case.
    Mr. Cameron. Our office, I called. It has been a number of 
years ago. I am the one who said, ``Why has it taken 30 years 
to get to this place?'' I waited that long. We called back for 
background information. We got that information which was 
publicly known at the time.
    Whenever we asked them for any help, in our case to buck it 
up, I would call back and make a request. I don't know how many 
times I called, but I would say numerous. I never ever got a 
return telephone call, once ever.
    Mr. Tierney. Do you remember the names of any particular 
agents that you were trying to reach at that time?
    Mr. Cameron. When I would call? No. The two fellows we were 
attempting to deal with were Condon and Rico.
    Mr. Tierney. And that's the sum total of what you can tell 
us about specifics with regard to possible obstructions or 
interferences with your prosecution of that case?
    Mr. Cameron. I can only tell you what happened to me. I 
didn't like the feeling. You know, you are a cop long enough, 
you get gut feelings. I had never had a gut feeling in a law 
enforcement establishment before. When I got back to Boston on 
one of the trips, I put my papers in the hotel safe and I fixed 
my briefcase with a hair to see is somebody would open it. We 
left, I came back and somebody had opened it.
    Now you have to keep in mind that we are dealing with the 
mafia and the FBI. I am not here to damn them because they are 
brother law enforcement officers. I don't like being here 
because I am going to do that, I think. But I don't know who 
opened it, but something opened it.
    Mr. Tierney. You had no idea who had access to your room?
    Mr. Cameron. Nobody should have.
    Mr. Tierney. Mr. Miller, some of the information that staff 
put together before this indicated that at one time you believe 
that one of the Federal officers, either Rico or Condon, 
offered to testify and you were uncomfortable with the nature 
of that testimony. You thought that they were perhaps not going 
to be as straightforward as they should have?
    Mr. Miller. No. That was probably my mistake in talking 
with them. You know, in 40 years as a criminal defense lawyer, 
you get involved with all spectrums, both sides of the fence. 
What I was trying to get at is that it is kind of common 
knowledge among criminal defense lawyers and even prosecutors 
that sometimes when the Federal Bureau of Investigation witness 
gets into trouble, I am not saying that he is going to perjure 
himself, but he gets into trouble where his answers may not be 
helpful to him and he will announce that he wants to go into 
chambers and then will claim that to answer that question would 
be a breach of national security. So, that was the import of 
that. But not, there was no offer by any of the agents that I 
called to proffer anything other than the truth.
    Mr. Tierney. Was there any occasion when any of those 
agents refused to testify about a particular matter, claiming 
that it was an issue of either national security or----
    Mr. Miller. Yes. I think it was on an insignificant point. 
I think it was Mr. Hyland that asked, I think it was Mr. 
Condon, asked him about the Deegan matter, some specifics, and 
he declined to answer on the basis of advice from the Attorney 
General.
    Mr. Tierney. Mr. Miller, what was the plea that was finally 
entered?
    Mr. Burton. Excuse me, I want to make sure that we don't 
miss anything on that point. There was some question about 
national security or something that dealt with the law 
enforcement at the FBI level regarding the Deegan murder that 
they didn't want brought out in court?
    Mr. Miller. That's correct. However, he did not use, the 
transcript did not use the words ``national security'' but the 
import would be, in further questioning that's what he would 
have said. He said that he would not answer that question based 
upon the advice of the attorney general.
    Mr. Burton. Regarding the Deegan murder?
    Mr. Miller. Any specifics in that regard.
    Mr. Burton. I thank the gentlemen for yielding.
    Mr. Tierney. Let me ask, have any of you gentlemen been 
contacted by the Federal Bureau of Investigation or any of its 
officers or agents prior to this hearing, since you were 
subpoenaed or asked to come here to testify?
    Mr. Miller. No, sir.
    Mr. Cameron. No.
    Mr. Tierney. Mr. Miller, I started to ask you just briefly, 
what were the terms of the plea agreement that was finally 
entered in that case in terms of disposition?
    Mr. Miller. Well, we were along in the case, a few months 
in the case. I felt that we were on top of the case, however 
you never really know what can happen. It was a death penalty 
case. I think the prosecution, especially Mr. Hyland, was very 
experienced and saw what might be happening.
    So, we had a discussion. I offered to plead Mr. Barboza to 
second degree murder and I think it was an in determinant 
sentence at that time, 5 years up and so on. He had parole to 
do in Massachusetts. So, I figured he would do his parole time 
and we would run it concurrent so he would have little if any 
time to do in the California penal system.
    Mr. Hyland agreed to that. Then, lo and behold, I guess he 
doesn't do any time in Massachusetts and he comes to 
California, and to be perfectly honest, was calling my office 
from time to time from prison, just like he owned it, and was 
released very early. So, in my personal opinion, if there was 
any impropriety with the FBI it was only in terms of the amount 
of time, but again----
    Mr. Tierney. Let me ask you, what happened between the 
beginning of the case when your assessment of the case was that 
the prosecution had a very strong case and the client was in 
trouble and that point in time when the prosecution was all 
ready to dive into a second degree murder with short time in 
California?
    What were the circumstances during the trial that would 
have, in your judgment as an attorney, led a seasoned 
prosecutor to decide to fold?
    Mr. Miller. Well, No. 1, I think Mr. Geraway became very 
emotional on the stand because of a question I asked him and 
lost a lot of credibility.
    No. 2, there was two eye witnesses who made three separate 
tape recording statements to the police or the investigators. 
Naturally, they were probably afraid of Mr. Barboza, so they 
were trying to protect themselves in the first tape. Then there 
was the third tape where they said exactly what Mr. Geraway 
said.
    I think where the prosecution made an egregious error they 
allowed me to cross-examine extensively on the first tape, then 
on the second tape and then on the third tape. I think I cross-
examined the witnesses for over 3 or 4 days. So, the jury is 
sitting there saying, what is going on there? How can they 
change their stories and so on?
    Mr. Tierney. And this was a seasoned prosecutor?
    Mr. Miller. Well, I'll tell you that I was examining one of 
the witnesses and one of the prosecutors objected and Mr. 
Cameron objected on the basis that I was trying to proffer 
something that wasn't even real.
    Mr. Cameron, as I recall, tapped him on the shoulder and 
gave him a copy of the police report.
    Mr. Tierney. Do you recall that, Mr. Cameron?
    Mr. Cameron. Yes, I do.
    Mr. Tierney. Give me your impression of the qualifications 
of the prosecutor during that trial if you would.
    Mr. Cameron. I work for a lot of attorneys and I work for 
him specifically. That was my duty. I wasn't assigned to 
anybody else but the D.A. He is probably the finest, toughest 
guy I ever worked for. You asked why we took the second degree. 
I can tell you why we took the second degree. We didn't have as 
witnesses a bus full of nuns that witnessed the killing. They 
weren't the best in the world, two convicted murders or two 
ladies.
    But we did have a pretty dead bang capital murder case. We 
were going to call the FBI. For some reason we found out that 
they were going to testify for the defense. That happened and 
we had a meeting shortly after they testified. I wanted a first 
degree on Barboza but realistically our office knew that we 
weren't going to get it.
    You have to keep in mind this was in the early 1970's. 
Everybody had nothing but the highest respect for the FBI.
    Mr. Tierney. Can I take one or two more questions on this? 
Thank you. When is it that you became aware that the FBI would 
not testify for the prosecution but would testify for the 
defense?
    Mr. Cameron. During the trial. Sometime during the trial.
    Mr. Tierney. Were you privy to the conversations between 
the prosecutor and the agents?
    Mr. Cameron. I'm not sure that we had more than a very 
brief meeting yes, I was privy to it, but it was a very brief 
conversation with them.
    Mr. Tierney. What were your expectations of the testimony?
    Mr. Cameron. Oh, we expected they were going to tell us 
about the background of Barboza, what he was about, what kind 
of a man he was. He had testified for them and we expected 
that. We didn't expect him to say yeah, everything he had ever 
said was truthful and righteous.
    What effect that testimony had on us is that when we came 
back and Mr. Fahey and myself and Mr. Hyland, the District 
Attorney, thought we had better take a second degree murder 
because they had injured us that badly with their testimony.
    Mr. Tierney. In all of your experience before that trial 
and since that trial, have you ever seen an occasion where the 
FBI agents take the stand and serve essentially as character 
witnesses to a man charged with murder.
    Mr. Cameron. Absolutely not.
    Mr. Tierney. Thank you. Thank you for your indulgence.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. We left off with Mr. 
Burton. Mr. Miller, I might add, was public defender for Mr. 
Barboza in the Clay Wilson murder trial. The question that was 
really not quite put out was, the FBI, did they give you 
significant help in your defense when you went back to Boston?
    I think you told our staff that the FBI did buy you a 
lobster dinner. Is that right, Mr. Miller?
    Mr. Miller. That is true. That is correct.
    Mr. Horn. Now, Mr. Cameron, you were the prosecution. You 
were working. Did you get a lobster dinner out of the Justice 
Department also?
    Mr. Cameron. Yes.
    Mr. Horn. Now were you getting the facts that you wanted 
out of the FBI?
    Mr. Cameron. No, sir. We got romanced but never kissed.
    Mr. Horn. And it was a tough lobster, I take it.
    Mr. Cameron. I remember it as being good. It didn't cost me 
anything.
    Mr. Horn. Now, do you feel they were just unhelpful or did 
you press them on what you wanted and did they just say, ``We 
can't do it'' or did they just stonewall you?
    Mr. Cameron. They would tell us what was public knowledge 
and that was about it. Of course, we did not know anything 
about Mr. Salvati and the Deegan murder case at the time. I 
could not figure out why we were not getting any help from 
another law enforcement agency.
    I can understand having a Witness Protection Program. I 
understand the reason for it. Every good investigator that I 
have ever met draws a line in the sand when dealing with 
informants. I know that every good investigator that I have 
ever met will help a petty thief if he is willing to give you 
somebody better, up to, my line in the sand was I would never 
help a child molester or a murderer.
    I could never understand in this case why the FBI, the 
epitome of everything that I thought was good about law 
enforcement, crossed the line that I drew, my personal line in 
the sand, which was helping those fellows, and they did.
    Mr. Horn. Did you feel when you got back there, you are 
saying they didn't really interfere, they just sort of didn't 
help. Did any of them help and which were they? Were they one 
or two or three members?
    Mr. Cameron. The most help we got was--but I don't believe 
he was an FBI agent, his name was Reagan. I think he was a 
State policeman. I would say I got the majority of my 
information from him, outside of that which was public 
knowledge.
    Mr. Horn. When you thought through what you needed in the 
California prosecution, is that probably the most memorable 
case you had or were there others?
    Mr. Cameron. Oh no, that's why I remember it as clearly as 
I do 30 years later.
    Mr. Horn. Mr. Brown, is that Barboza case the most 
memorable you ever had?
    Mr. Brown. Yes, beyond a doubt.
    Mr. Horn. Now, you had a murder victim in Sonoma County and 
that was Clay Wilson. You had what you thought was the murder 
weapon, isn't that right?
    Mr. Brown. Yes, sir.
    Mr. Horn. And it was a handgun?
    Mr. Brown. Yes.
    Mr. Horn. And who did you give the handgun to for testing?
    Mr. Brown. We sent it to the FBI laboratory, with slugs, if 
I might add. We dug up the slugs that we thought came from that 
gun. It had the victim's hair on the slugs, both of them. That 
was all sent to the FBI Crime Laboratory.
    Mr. Horn. Well, what happened to your handgun that you sent 
to the FBI laboratory?
    Mr. Brown. It got lost.
    Mr. Horn. Did they ever tell you what happened?
    Mr. Brown. Yes. It was recovered somehow, I think just 
before the trial.
    Mr. Horn. So, what kind of evidence did they have before 
the trial, even though it was later missing?
    Mr. Brown. Well, we had the gun, but we were concerned with 
the chain. I mean, how do you lose a gun in the laboratory? But 
it all worked out. It worked out as the trial began.
    Mr. Horn. I think it was pretty delicate. Did that play a 
real--I mean they didn't say that this handgun was damaged or 
anything and we can't determine that the slugs and everything 
came off that handgun? What did they give you that you could 
use and what didn't they give you?
    Mr. Brown. You know, I can't tell you. I can't remember 
that. I don't remember how it came about as far as--you know, I 
don't remember.
    Mr. Horn. Mr. Cameron, during your investigation you 
traveled to Boston, as we saw. One of the purposes of the trip 
was to get information about Barboza that would help your case. 
Is that correct?
    Mr. Cameron. Yes, sir.
    Mr. Horn. Instead of getting information, you became 
suspicious of the FBI, didn't you?
    Mr. Cameron. I was uncomfortable with them, yes, sir.
    Mr. Horn. In fact, you became so suspicious that you did 
something with your briefcase?
    Mr. Cameron. I did.
    Mr. Horn. Tell us what you did with your briefcase.
    Mr. Cameron. We talked about that a moment ago. I had this 
terribly uncomfortable feeling, so when I left the hotel I took 
a hair and wrapped it around the lock and left it there. I did 
not lock it. I just closed the hasps.
    When I returned, someone was in it.
    Mr. Horn. And you put a hair set to show whether anyone 
tampered with it, but when you returned later it was broken?
    Mr. Cameron. It was broken.
    Mr. Horn. Now, the Wilson murder was discovered because 
William Geraway, a prisoner who was in the cell next to Barboza 
wrote a letter to authorities saying Barboza confessed to the 
murder. After Geraway's letter was received, your office 
decided that you would go the Massachusetts. Is that correct?
    Mr. Cameron. Yes, sir. When we got the letter, yes.
    Mr. Horn. Once you were in Massachusetts, did you meet with 
FBI Agent Dennis Condon?
    Mr. Cameron. We did.
    Mr. Horn. Was the meeting with Agent Condon unusual and how 
so?
    Mr. Cameron. No, I don't believe it was unusual at the 
time. We had no reason to--we were asking them for help, what 
was Barboza about? Is this in fact a good--you know before you 
go out and talk to somebody in Walpole Prison, you want to find 
out what is going on and can they help you? They filled us in 
because we were completely ignorant about Joe Baron. We had no 
knowledge of him at all.
    Mr. Burton. Would the gentlemen yield?
    Mr. Horn. Yes.
    Mr. Burton. In the notes that we have from our legal staff, 
that first meeting you had with Condon, you indicated that it 
was kind of a strained meeting. Do you recall saying that?
    Mr. Cameron. I felt tension. I felt that you would ask a 
direct question and you get--that is what I meant by being 
romanced without being kissed. I felt that they were giving us 
exactly what they wanted to give us and not anything more. I 
don't know why I felt that. It proved to be true, of course.
    Maybe my 30 years of hindsight has reinforced my original 
uneasy feeling.
    Mr. Burton. Why don't you ask a couple more questions, Mr. 
Horn?
    Mr. Horn. In your experience now, and we have that already 
for the record, were law enforcement agencies usually helpful 
if one of their witnesses or informants were accused of a 
crime, particularly murder?
    So, what your feeling was, as the chairman says, you were 
strained about this and maybe a little worried about what you 
were going to get and you didn't seem to get it. Is that 
correct?
    Mr. Cameron. We just didn't know what we were going to get. 
We got what we thought we wanted, but it was not an open and 
free discussion, I think.
    Mr. Horn. You didn't feel that it was cooperative with what 
you wanted to have done, I take it.
    Mr. Cameron. I didn't feel like we were getting the whole 
story.
    Mr. Horn. At one point, your office asked Agent Condon for 
records. What happened? What was his response?
    Mr. Cameron. To my knowledge, sir, we asked the FBI on more 
than one occasions for records. We never received one that I 
can remember.
    Mr. Horn. Did you ask them and they said, ``Sorry, we can't 
do it?''
    Mr. Cameron. I would call and ask for records. I never so 
much as got a return telephone call.
    Mr. Burton. We will come back here in just a minute, Mr. 
Horn.
    Mr. Delahunt.
    Mr. Delahunt. Mr. Cameron, don't feel like you are a member 
of an exclusive club in terms of not receiving records. You 
should be aware that this committee has requested records and 
has not received them.
    Let me direct this question to Mr. Cameron and Mr. Brown, 
if you have knowledge. I think I just heard you say, Mr. 
Cameron, that you had no knowledge of Joe Barboza.
    Mr. Cameron. No, sir. We did not know he was in town. I did 
not know who he was. I had no knowledge of him.
    Mr. Delahunt. You didn't know that he had committed 26 
murders, according to a senior FBI official?
    Mr. Cameron. Prior to going back to Boston, when we got the 
letter we had no idea we had a murderer of that ilk in Santa 
Rosa, CA, no, sir.
    Mr. Delahunt. You were never notified that you had one of 
the most dangerous criminals of that generation living in your 
community?
    Mr. Cameron. We had no idea. Our law enforcement community 
had no idea.
    Mr. Delahunt. No one that you were aware of at the local or 
State or county level in terms of law enforcement was ever 
notified or ever informed regarding the fact that pursuant to a 
deal, Mr. Barboza was relocated to your community?
    Mr. Cameron. We had no idea.
    Mr. Delahunt. Mr. Brown.
    Mr. Brown. No official notification. I had seen him. I was 
with Agent Ahlstrom on a few occasions and I was told by Agent 
Ahlstrom, his words were he is taking care of him and 
babysitting this man. I mean, we had no idea who he was, what 
were the circumstances. That was before we had our homicide.
    Mr. Delahunt. Before the homicide?
    Mr. Brown. Yes, sir.
    Mr. Delahunt. So, you received no notification whatsoever 
from the Federal Government?
    Mr. Brown. No.
    Mr. Delahunt. Given your experience in local and State law 
enforcement, if you had been notified, would you have conducted 
any surveillance? Would you have taken any measures to monitor 
the conduct of Mr. Barboza given what you now know in terms of 
his background?
    Mr. Cameron. I would hope so. We had a young man missing, 
Clay Wilson, who had been missing for some time. We later found 
out that they knew that he was hanging around this guy. As 
backward a policeman as maybe I was in Santa Rosa, CA, I could 
figure out that if we had a guy who killed 26 people in Boston 
and we had a young man missing in California, I would think 
that any cop worth his salt could at least put that piece of 
the puzzle together.
    Mr. Delahunt. You could have deduced that he had a 
proclivity to murder?
    Mr. Cameron. I would think that if one killed 26 people he 
would.
    Mr. Delahunt. Twenty-seven wouldn't be all that difficult.
    Mr. Cameron. Not at all that difficult.
    Mr. Delahunt. Mr. Brown.
    Mr. Brown. At the time period you are after prior to our 
knowledge of Barboza living in Santa Rosa he had been involved 
in several things with our victim, Clay Wilson, at the time. 
There was an ongoing activity as far as some bonds that were 
stolen and weapons.
    But at that time we had no knowledge of what was going on 
with Barboza. But life was the same for him. He was continuing 
his former course of conduct before he came under the Witness 
Protection Program.
    Mr. Delahunt. During that timeframe, did you have 
conversation with Agent Ahlstrom of the FBI regarding Mr. 
Barboza? You said he indicated to you that he was babysitting 
him?
    Mr. Brown. Yes, he told me 1 day, we were having lunch or 
whatever, and he says, ``I'm taking care of this guy'' or I'm 
babysitting him. It was just kind of a trivial little remark. I 
never thought much of it. I mean I really didn't think anything 
of it.
    Mr. Delahunt. Was this prior to the Wilson homicide?
    Mr. Brown. Yes, sir, yes.
    Mr. Delahunt. Did he ever indicate to you that Mr. Barboza 
was one of the most dangerous criminals in the annals of crime 
in America?
    Mr. Brown. No, he didn't. He never discussed it again. I 
saw him. We were together. He talked to him and that was it. We 
never discussed it. I was with Agent Ahlstrom on many 
occasions, but it never came up.
    Mr. Delahunt. In the aftermath of the Wilson homicide, did 
you have any conversation with Agent Ahlstrom or did he offer 
any opinion?
    Mr. Brown. Yes. We were talking regularly, daily, after 
things happened.
    Mr. Delahunt. What did he say to you? Of course you had a 
missing person, until you received the information from an 
inmate in Walpole, not from any law enforcement source.
    Mr. Brown. Yes. You know, I want to apologize. After we had 
our body and the thing was rolling along, that is when we had 
our daily meetings. Well, we would meet three or four times a 
week in the meetings and just discuss what was going on. He 
would assist me with certain things, up to a point.
    Mr. Delahunt. Up to a point? Did he give you an opinion as 
to the veracity of the Geraway statement regarding the 
commission of the murder by Barboza?
    Mr. Brown. OK, before we charged Barboza, are you after? Is 
that the time period?
    Mr. Delahunt. Right.
    Mr. Brown. When things started rolling along, when Mr. 
Cameron went back to Boston, things started moving, as far as 
activity with Agent Ahlstrom. But I never really knew the 
magnitude until we had our body. I mean, that's when things 
blossomed and all this information came out.
    Mr. Delahunt. That is when you came to a certain 
realization.
    Mr. Brown. Yes, that's when things started to happen.
    Mr. Delahunt. But something was really funny here.
    Mr. Brown. Yeah.
    Mr. Burton. The gentleman's time has expired. Judge Duncan?
    Mr. Duncan. Thank you very much, Mr. Chairman. Let me 
apologize. I had to slip out and participate in a meeting on 
the subcommittee on which I chair, so I didn't get to hear a 
lot of the questions. But I understand I have been told some of 
the questions that were asked.
    Mr. Miller, let me ask you this: You spent 40 years as a 
criminal defense lawyer. I can tell you that from my experience 
I think that's about the most difficult kind of law that 
anybody can practice.
    The Barboza case was potentially a death penalty case, as I 
understand it.
    Mr. Miller. More than potentially. At the outset, as I said 
before, I had little optimism but things just developed. May I 
interject, because something was stated, I think Mr. Hyland, 
the main prosecutor there, was probably the finest prosecutor 
that I have ever known and gone against.
    The assistant, Fahey, is not too bad either. So, I just 
wanted to clear that up. Go ahead, sir.
    Mr. Duncan. I can tell you that I have been involved in 
several, in fact quite a few death penalty cases. I am just 
wondering, I am told by the staff that these two FBI agents, 
Rico and Condon and Edward Harrington who was the head of the 
Organized Crime Task Force at the time that they all testified 
for Barboza. Is that correct?
    Mr. Miller. Well, they were subpoenaed by me, called by me 
as witnesses and responded to my questions, yes, sir.
    Mr. Duncan. Had you ever had a Justice Department attorney 
testify for a client facing a murder charge before or an FBI 
agent?
    Mr. Miller. I am really being serious and thinking about 
it. I have had lots and lots of murder cases. I don't think so, 
but maybe. I do not recall, no, sir.
    Mr. Duncan. I can tell you I handled several murder cases 
also. It is very unusual.
    Mr. Miller. Yes.
    Mr. Duncan. That is an understatement or that is putting it 
lightly.
    Mr. Miller. I agree with you.
    Mr. Duncan. I understand, Mr. Cameron, that you and Mr. 
Brown both, separately, went to Massachusetts and met with the 
FBI.
    Mr. Cameron. Yes.
    Mr. Duncan. Would you tell me, before you went there did 
you think that you would get help or assistance or at least 
cooperation from the FBI and would you tell me what your 
reactions were, your feelings were after you had been there, 
both of you?
    Mr. Cameron. I certainly thought we were going to get help 
and more background information, possibly to use it as 
testimony in our trial, if we could get it in. We didn't get 
any help or much help. Like I said, we got romanced but not 
kissed.
    Mr. Duncan. Mr. Brown.
    Mr. Brown. There was an agent at the New Bedford field 
office, I believe it was the New Bedford field office, that 
assisted us when we brought Barboza back to California. I 
didn't have any real contact with the FBI as far as Boston was 
concerned, up to that point. But that agent, and I cannot 
remember his name, he was more than cooperative. I mean that 
man helped us. I mean I can't say enough about him positive. 
But he did assist us in getting Barboza out of town.
    Mr. Cameron. We did get assistance from a fellow by the 
name of Reagan, but I believe he was a State policeman. He was 
terrific.
    Mr. Duncan. Did you get the impression, though, that the 
FBI did not want Barboza to be prosecuted to the fullest extent 
possible?
    Mr. Cameron. At the initial contact, no, I can't say that I 
got that impression. I got the impression that something was 
definitely wrong. You know, it is a little odd to get a letter 
from a prisoner, convicted murderer, saying, I want to freely 
tell you about a conversation another murderer had with him.
    So, I thought that was strange and I wondered what he was 
supposedly going to get out of it. You know, it is a give and 
take.
    Mr. Duncan. Let me ask you this, Mr. Brown: I understand 
that you had an Agent Ahlstrom of the Santa Rose FBI office who 
did tell you at some point that Barboza had killed 26 people. 
Is that correct?
    Mr. Brown. Yes, sir. That's correct.
    Mr. Duncan. Did that shock you or surprise you at the time?
    Mr. Brown. Well, yeah. I mean it is a shock. He is living 
there. In fact at one time I lived about three blocks from 
where his house was. His children went to school. I mean he 
lived a regular life on appearances. Yes, it was a shock. In 
fact I would like to say on behalf of Agent Ahlstrom I probably 
learned more through him about things than I did from any other 
source. The day he told me that, I mean it knocked my socks 
off.
    I thought, ``How come we didn't know?'' Then you 
understand, well, it is a bigger picture than what we had.
    Mr. Duncan. My time is up. Let me just ask one last 
question: How do you gentlemen feel now knowing that this man 
who committed 26 murders, I mean it is almost mind boggling, 
was protected or assisted and a man who was innocent was kept 
in prison for 30 years? Does that not shock you? I mean where 
is the justice?
    Mr. Brown. You know, it is a shocking thing, but I think 
what you men are doing here is going to iron things out a 
little bit. As far as that man doing prison time, we had no 
knowledge of that, but Barboza's lifestyle and his history of 
things and moving to our area, back in the 1970's it was a 
podunk place, nice place to live, nice place to raise your 
family and they brought him there, which is probably a good 
thing for them, but to put him in our environment that we had 
there, it is an atrocity, with no knowledge of it.
    If they would have sat with him and monitored him, maybe 
this would not have happened.
    Mr. Duncan. Mr. Cameron, as a man who spent your life in 
law enforcement, how do you feel about what you are hearing 
here today and about this whole situation?
    Mr. Cameron. I was privileged to watch Mr. Salvati testify 
before this is committee. I think that's a terrible, terrible 
thing. How we in law enforcement could let that happen is 
atrocious.
    Mr. Burton. The gentleman's time has expired. Mr. Clay.
    Mr. Clay. Mr. Chairman, I prefer to ask unanimous consent 
to put an opening statement into the record.
    Mr. Burton. Without objection, it is so ordered.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.013
    
    [GRAPHIC] [TIFF OMITTED] T8662.014
    
    Mr. Clay. Thank you, Mr. Chairman. Mr. Chairman, I just sit 
here in utter amazement listening to your testimony. I really 
want to hear more. So for that reason I would like to yield the 
balance of my time to Mr. Delahunt, if I may. Thank you.
    Mr. Delahunt. I thank the gentleman for yielding. When we 
talk about the sharing of information, if we pause and reflect 
for a moment, and I think you responded, Mr. Cameron, that if 
you had this information maybe Clay Wilson would have been 
alive today. Mr. Brown. Mr. Wilson.
    Mr. Cameron. He might have been, however, I don't know that 
we would have stayed with him 24 hours a day. The sheriff's 
office certainly couldn't have and our office, the District 
Attorney's Investigator staff couldn't have. However, we could 
have put two and two together after Clay Wilson came up 
missing. Had we known Mr. Barboza had done these things? Of 
course we would have put it together then. I hope we would 
have.
    Mr. Delahunt. Well, there's the possibility of prevention. 
That's the point. You know, again, various States now are, for 
example, passing legislation creating a registry of sexual 
offenders. Would you concur that it is appropriate when 
witnesses, particularly those with history of violent behavior 
are relocated to localities and venues where they have the 
potential to wreck violence within a community, that it is 
incumbent upon the Federal Government to notify local and State 
authorities?
    Mr. Cameron. Well, I totally recognize there has to be a 
Witness Protection Program of some kind. I totally understand 
it. What I don't understand and what I haven't understood for 
30 years is why in the world wasn't someone in local law 
enforcement told that we have a guy who killed 26 people living 
amongst our citizens?
    Mr. Delahunt. That's exactly my point. I don't think it is 
something that has to receive publicity, but clearly at a 
minimum, local and State law enforcement, public safety 
officials have to be notified. Mr. Brown.
    Mr. Brown. I would like to go back to that podunk 
statement. I am sorry I said that. I didn't mean that in a 
derogatory term. It was a very nice place to live. But anyway, 
we had a system set up within a department as far as kind of a 
need to know basis. I certainly concur, somebody needs to know 
when you have a subject like Mr. Barboza living in your 
neighborhood.
    But it was again on the basis of need to know, certain 
people. And if you needed to know it. But he didn't go around 
telling everybody about it. But like if the District Attorneys' 
office, somebody should have had knowledge because when things 
start to occur, hopefully before you have a homicide, if 
there's activity around this person you may be able to not have 
a homicide.
    Mr. Delahunt. The question of information sharing, now I 
think it was you, Mr. Cameron, that stated to the committee 
that when you requested documents that they were not forth 
coming. The phone didn't ring.
    Mr. Cameron. No, sir. I can truthfully say I never saw----
    Mr. Delahunt. Let me just pose this to all three of you, 
including you, Mr. Miller, that have an excellent reputation as 
a trial lawyer. Documents can be utilized to impeach the 
credibility of witnesses. I don't know if, you know, whether 
you had any intention to put Barboza on the stand.
    Mr. Miller. I absolutely did have the intention, which I 
did.
    Mr. Delahunt. Well, I can assure you that if you had access 
to the documents in the possession of this committee, 
particularly as it relates to Salvati and others, you would 
have had an abundance of information to impeach the credibility 
of Mr. Barboza, if you happened to be the prosecutor in this 
case.
    So, again, the need for the Federal Bureau of Investigation 
and the Department of Justice to share this information is 
important at many different levels in terms of the ability to 
proceed and successfully prosecute those that are guilty and at 
the same time hopefully to secure the safety of those members 
of a community where an individual who is described by the 
Federal Bureau of Investigation as one of the most dangerous 
criminals ever. This is what happens when we don't provide that 
information. I see my time is up. But I look forward to an 
additional round.
    Mr. Burton. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. Thank you for your 
perseverance on this very important issue.
    I guess I will start off with Mr. Miller. Mr. Miller, as 
Barboza's attorney, you also went to Massachusetts, correct?
    Mr. Miller. That is correct.
    Mrs. Morella. You seem to have had a different experience 
in Boston than Mr. Cameron. You had lots of contact with the 
FBI and they were very friendly, correct?
    Mr. Miller. Correct.
    Mrs. Morella. They took you out to dinner every night on 
their expense account, didn't they?
    Mr. Miller. I assume every night, yes.
    Mrs. Morella. You said that Agent Condon took you under his 
wing. How did he do that?
    Mr. Miller. Well, I think he was the one I was in contact 
with more, more friendly with. He showed me around Boston. I 
think he even told me where Walpole was and the best way to get 
there.
    Mrs. Morella. He told you all the ``ins'' and ``outs?''
    Mr. Miller. I didn't find that unusual.
    Mrs. Morella. I wondered, why did agents Condon and Rico 
say they were willing to help Barboza on the California murder 
charge?
    Mr. Miller. Well, again, you weren't here at the time I 
expressed how naive I probably was, but they were afraid, in my 
mind, that if Mr. Barboza was given the death penalty that he 
would recant his testimony and therefore guilty men would be 
released from incarceration.
    So, that was my take. So, they were going to help me 
ethically, I thought, in any way they could, not necessarily to 
prevent him going to prison, but to prevent his getting the 
ultimate punishment, which is the death penalty because he 
would have absolutely nothing to lose in that situation.
    Mrs. Morella. I had heard that you had said that agents 
Rico and Condon told you that when somebody did them a favor 
they would not back down or wouldn't back off?
    Mr. Miller. Well, if I understand your question that if 
someone does a favor for them in relation to having some bad 
guy convicted, that they would take care of them in the witness 
program. Is that what you meant?
    Mrs. Morella. Kind of.
    Mr. Miller. And further, the better that they treat the 
ones on the Witness Protection Program, the more incentive 
someone would have to become an informant and then take 
advantage of the Witness Protection Program. They made that 
very clear.
    Mrs. Morella. Mr. Brown, you got word that your two eye- 
witnesses might be the targets of an assassination attempt, 
didn't you?
    Mr. Brown. Yes ma'am.
    Mrs. Morella. When you flew to Boston, you sought help from 
the FBI so that you could prevent your witnesses from being 
murdered; is that correct?
    Mr. Brown. No. That happened way after my trips to Boston. 
It happened after we had Barboza back in California. We were 
told by a man that was in our jail in Sonoma County that people 
were being sent from the East Coast to Santa Rosa to shoot our 
witnesses. Is that what you are after?
    Mrs. Morella. Yes. Did you seek help from the FBI?
    Mr. Brown. OK. So, normally we would help, you know. So, we 
contacted the FBI agent, Ahlstrom. Things were in the mill but 
time was going and after several days time is moving and we did 
not get any help.
    Mrs. Morella. So, you got no help, really, which is kind of 
what I am getting at.
    Mr. Brown. Yes, that is right.
    Mr. Burton. Would the gentlelady yield?
    Mrs. Morella. Did this surprise you? Yes, I will certainly 
yield.
    Mr. Burton. What I would like to know about that is the 
person in jail that told you there were going to be hit men out 
there, assassins to kill two witnesses, was he credible?
    Mr. Brown. It was Geraway who started this whole thing with 
his letter to the District Attorney's Office.
    Mr. Burton. He is the one that said that?
    Mr. Brown. Yes, sir.
    Mr. Burton. And he had heard that from whom? From Barboza?
    Mr. Brown. No. We kept them apart.
    Mr. Burton. Where did he get that information?
    Mr. Brown. You know, I don't know. I don't know how it 
happened. I really don't. I can't remember.
    Mr. Burton. But it was Geraway that told you that there was 
going to be a hit?
    Mr. Brown. I am 90 percent sure it was Geraway.
    Mr. Burton. I thank the gentlelady.
    Mrs. Morella. Picking up on that, Barboza's murder of 
Wilson surfaced in a letter sent by William Geraway, a prisoner 
who said that Barboza confessed to him in jail back in 
Massachusetts. After you received Geraway's letter, did Agent 
Ahlstrom start coming around more and asking questions, sir?
    Mr. Brown. Mr. Cameron, his office, received the letter, 
and yes, that's true. As things started to develop, I saw Agent 
Ahlstrom regularly.
    Mrs. Morella. Did Agent Ahlstrom seem concerned by 
Geraway's letter?
    Mr. Brown. You know, I imagine he was concerned, you know. 
But I don't mean this in a derogatory way, but the FBI, they 
get other information. I mean their information source, which 
is their job, and Agent Ahlstrom was gathering. That is how I 
took it at the time.
    Mrs. Morella. So he was concerned about the letter?
    Mr. Brown. Yes.
    Mr. Burton. May I interrupt once more?
    Mrs. Morella. Yes, Mr. Chairman.
    Mr. Burton. In your testimony at the deposition before this 
committee, you said that Ahlstrom told you that he was bothered 
by the fact that Harrington, Rico and Condon were coming out to 
help Barboza.
    Mr. Brown. He said that.
    Mr. Burton. Now, in what context did he say that? I mean, 
did he say, ``We have FBI agents and U.S. Attorneys coming out 
to support this guy.'' Why are they doing that? How did he say 
it?
    Mr. Brown. Agent Ahlstrom was concerned that those 
individuals would be helping the defense. We were sitting in 
the office talking. My opinion of his statement, he is 
concerned that his agency was going to assist the man we were 
trying to prosecute. And that's how I took it.
    Mr. Burton. Was he vehement or what did he say, ``I am 
ticked off about this?''
    Mr. Brown. He was unhappy.
    Mr. Burton. Stronger language than that?
    Mr. Brown. Well, he wasn't swearing, but he was unhappy. He 
was unhappy.
    Mr. Burton. The gentlelady.
    Mrs. Morella. Maybe I have time for one more question, Mr. 
Chairman. Actually, once Barboza was in custody in California 
awaiting trial, did you begin meeting with Agent Ahlstrom 
regularly to discuss Barboza?
    Mr. Brown. Yes.
    Mrs. Morella. I wanted to note that the committee staff 
interviewed Chuck Hiner who was the agent in charge of the--
said that wasn't normal procedure and it was very unusual.
    Mr. Brown. I agree with that. Agent Ahlstrom felt the same 
way and Chuck Hiner was kind of the connection to the East 
Coast through Agent Ahlstrom and to myself. That's how it kind 
of worked. When we needed something, I would talk to Doug 
Ahlstrom. He would talk to Chuck Hiner. The next day Ahlstrom 
would get back to me.
    Mrs. Morella. My time has expired. Thank you.
    Mr. Burton. I thank the gentlelady.
    Mr. Miller. Mr. Chairman, could we take about a 1-minute 
break, a lavatory break?
    Mr. Burton. If I could make one statement, then we will 
take the break. OK?
    Mr. Miller. OK.
    Mr. Burton. I want to make sure that this point that was 
made by the gentlelady is really emblazoned on people's minds 
because here you had the agent in charge of the San Francisco 
FBI, Mr. Hiner, saying that it was not normal procedure for the 
FBI to allow two FBI agents from the East Coast to come out and 
testify on behalf of a man who committed 26 murders, and it was 
very unusual.
    So, this had to be something that was cleared at a higher 
up level and they couldn't figure out why it was. Ahlstrom felt 
the same way.
    We will take about a 5-minute break and then we will be 
right back and go to Mr. Tierney.
    [Recess.]
    Mr. Burton. The committee will come to order again.
    You see, Mr. Miller, we really don't dislike trial 
attorneys. We want to help you guys out. In fact, Mr. Tierney, 
I think you were a trial attorney; weren't you?
    Mr. Tierney. I was.
    Mr. Burton. So, we have a couple of you here in the room. 
Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Miller, to your knowledge at that time, were you of the 
opinion that your client had something on the FBI that he was 
holding or harboring some information that would make them more 
favorably disposed to being kind to him than otherwise might be 
the case?
    Mr. Miller. That wasn't posed in that manner, but Mr. 
Wilson, some months ago in our dialog brought that up. I forget 
what I said, something innocuous probably, but then thinking 
about this over and over, I do recall no specificity, but I do 
recall, ``They owe me and they had better.'' At the time I 
didn't give too much thought about that, but now with the 
revelations forthcoming, that was probably what he had in mind, 
I guess.
    Mr. Tierney. Your best recollection was that Barboza told 
you that ``They owe me, they'd better?''
    Mr. Miller. Yes. He slammed his hand down and said, ``They 
owe me and they better do it.''
    I thought, well, they owe him for his testimony he gave 
against Patriarca and----
    Mr. Burton. If the gentleman will yield very briefly--but 
he did say ``They'd better.''
    Mr. Miller. Yes.
    Mr. Burton. So, that was an implied threat. He was speaking 
rhetorically, but he was saying----
    Mr. Miller. Well, if you dealt with him the way I did over 
those months, I mean he was doing that every minute. This was a 
joke. I assume that my investigator, a very young man, would be 
just talking about the case and he would reach over, very 
strong, and grab him and lift him up in the air, and say, 
``Another word out of you and you are finished.''
    I mean that is the kind of a guy he was. He was banging 
things around. Obviously, he didn't mean that, you know, he was 
just playing with this investigator.
    Mr. Tierney. Whose idea was it to have Mr. Harrington and 
Mr. Rico and Mr. Condon testify on behalf of Mr. Barboza?
    Mr. Miller. I am guilty.
    Mr. Tierney. Now, did you just get that on your own or how 
did you come to that conclusion? It was probably not something 
you did a lot of in the course of your defense work is ask for 
one of the high ranking members of the Justice Department to 
testify on behalf of a murder client.
    Mr. Miller. Well, as a trial lawyer, you understand, you do 
everything you possibly can for the benefit of your client. I 
though it was beneficial to call the FBI man who had nothing 
relevant to testify to but just the color of their office. 
That's what I wanted and I think I got.
    Mr. Tierney. The reason you went to that is that you were 
aware from your client that he had a relationship with him?
    Mr. Miller. Of course, I knew he was in the witness 
program.
    Mr. Tierney. It wasn't your client who said to you I'll 
talk to them and they said they will testify or something of 
that nature?
    Mr. Miller. No.
    Mr. Tierney. Now, Mr. Cameron, at some point you see in the 
exhibits, exhibit 2 in particular, where the prosecutor in the 
case sent the letter both to Attorney General Mitchell and to 
Mr. Hoover of the FBI explaining that this was unusual. He 
thought it would be a house divided if the testimony of those 
three individuals came in, and then asking if the individual, 
Mr. Harrington in particular, was going to testify, you would 
give the courtesy to the prosecutor of at least first speaking 
to him.
    Do you know whether or not that courtesy was ever extended?
    [Exhibit 2 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.015
    
    [GRAPHIC] [TIFF OMITTED] T8662.016
    
    Mr. Cameron. I don't believe it was. Mr. Harrington, now 
this is 30 years ago and as best that I recall, through the 
Sheriff's Department, through Tim or the jail staff, our office 
was informed that Mr. Harrington was there to see Mr. Barboza 
before coming to see us.
    I recall a very brief meeting with Ken Hyland, our District 
Attorney, and myself and Ron Fahey, one of the senior deputies, 
in our office with Mr. Harrington. My boss was unhappy, to say 
the least. He went to the jail to visit Mr. Barboza prior to 
coming to see us. It was very brief.
    Mr. Tierney. Your meeting with Mr. Harrington?
    Mr. Cameron. Mr. Harrington, yes.
    Mr. Tierney. Mr. Miller, when you were meeting with Mr. 
Harrington, Mr. Rico and Mr. Condon prior to their testimony, 
in preparation for it, was their attitude one of reluctance 
that they had been subpoenaed to testify or were they fully 
cooperative? Were they eager? How would you categorize it?
    Mr. Miller. Fully cooperative, yes.
    Mr. Tierney. Did they offer suggestions to you as to what 
their testimony might be?
    Mr. Miller. No. I was responsible for that.
    Mr. Tierney. Now, you agree, don't you, that nothing they 
had to say weighed at all on the issue of mafia or organized 
crime involvement with Mr. Barboza?
    Mr. Miller. Yes, I think it did. What I was saying is that 
their testimony did not relate to any of the evidence in issue 
at the trial.
    Mr. Tierney. No connection at all?
    Mr. Miller. None.
    Mr. Tierney. My time is up. Thank you.
    Mr. Burton. The gentleman from Ohio.
    Mr. LaTourette. Thank you, Mr. Chairman. I apologize for 
not being here a little earlier. We are dealing with an issue 
of pipeline safety in another room.
    Gentlemen, welcome. Mr. Brown, I would like to ask you 
first, while it is our understanding that while Mr. Barboza was 
in custody, you learned that he was getting visits from a 
bookie, I think, by the name of Sharliss. Do you remember that?
    Mr. Brown. Yes.
    Mr. LaTourette. And when you learned Mr. Sharliss' 
background, it is my understanding that you then began taping 
the visits between the bookmaker and Mr. Barboza. Is that also 
correct?
    Mr. Brown. Yes, sir.
    Mr. LaTourette. And as a result of information received 
from the tape recordings that you made, it is my understanding 
that a homicide in Las Vegas may have been cleared as a result 
of the information that you developed?
    Mr. Brown. Yes, sir.
    Mr. LaTourette. Do you recall anything about the specifics 
of that murder?
    Mr. Brown. Evidently, somebody was buried by a real estate 
sign. I don't remember the exact location. I remember the real 
estate sign.
    Mr. LaTourette. OK. I would assume that during the course 
of these meetings between Sharliss and Barboza that from time 
to time there would be information that would be developed or 
you could hear information that you thought might have been of 
interest to the FBI?
    Mr. Brown. Yes, sir.
    Mr. LaTourette. And did you do anything relative to 
cooperating with the FBI?
    Mr. Brown. Yes.
    Mr. LaTourette. Can you tell us what you did?
    Mr. Brown. I would make cassettes. This was a reel-to-reel, 
slow reel. When things were pertinent, I would make a cassette 
of it and give it to Agent Ahlstrom.
    Mr. LaTourette. Let me ask you and Mr. Miller. As I 
understand it, Mr. Barboza came to California in February 1972. 
Then in March 1972 Mr. Harrington, who was the agent in charge 
of the Organized Crime Task Force, if I understand his position 
correctly, came to visit Mr. Barboza. Do you remember that 
meeting occurred?
    Mr. Brown. My memory has been refreshed and now I do 
remember that.
    Mr. LaTourette. Were you, as Mr. Barboza's lawyer, asked to 
attend that meeting?
    Mr. Brown. No, I don't believe I was.
    Mr. LaTourette. Mr. Cameron, are you aware whether or not 
the District Attorney or representatives of the District 
Attorney's office was invited to attend that meeting with Mr. 
Barboza or Mr. Harrington?
    Mr. Cameron. No, we were not.
    Mr. LaTourette. Following Mr. Harrington's visit, however, 
I do understand that the prosecuting attorney's office did 
request some information of Mr. Harrington or a meeting with 
Mr. Harrington to determine what he was doing. Do you recall 
that, Mr. Cameron?
    Mr. Cameron. I do.
    Mr. LaTourette. Was there such a meeting with Mr. 
Harrington?
    Mr. Cameron. There was a meeting in our office in the 
District Attorney's office. I believe Mr. Hyland, the District 
Attorney, Ron Fahey, myself and Mr. Harrington were there. It 
was a very brief meeting. The District Attorney wanted to know 
what he was doing there, what he could do to help our case, if 
anything.
    Frankly, my boss was upset that a member of the Justice 
Department was--I won't use ``interfering,'' but at least not 
giving us information as to why he was there and what he was 
doing and could he help us.
    Mr. LaTourette. Well, I think that leads to not only the 
Harrington visit, but the fact that these fellows were going to 
testify in the upcoming trial. When Mr. Tierney was asking you 
questions, Mr. Miller, a little earlier, one of you made the 
comment that they didn't know anything about this homicide, 
this Clay Wilson homicide. To your knowledge, did they, Mr. 
Miller? They had no facts relative to the homicide that you 
were defending, did they?
    Mr. Miller. Well, I am sure they had the communication from 
Mr. Geraway to Mr. Hyland, the District Attorney. You are 
talking about prior to the trial?
    Mr. LaTourette. Right.
    Mr. Miller. Yes, I am sure that they had that information 
and probably in my discussions we talked about it.
    Mr. LaTourette. But they didn't have any relative--I mean 
they weren't eyewitnesses. They hadn't discovered any. I think 
you made the observation that the only purpose that you could 
see for their testimony was to show the flag or use the 
prestige of their office to show that FBI agents were 
testifying on behalf of Mr. Barboza.
    Mr. Miller. That's correct.
    Mr. LaTourette. Mr. Tierney mentioned two letters. I would 
just like to have those put up on the screens as exhibit 2 and 
3 and, Mr. Chairman, ask that they be admitted into the record 
of this hearing.
    It is my understanding that exhibits 2 and 3 are the 
letters from Mr. Hyland that Mr. Tierney was asking about 
wherein he basically was asking for the courtesy that if Mr. 
Harrington is going to testify, would you be kind enough to 
give us the courtesy of having them come in and chatting with 
us first. Is that what exhibits 2 and 3 are?
    I think, Mr. Cameron, I will ask you that since they appear 
to be letters generated from the office of the District 
Attorney.
    [Exhibits 2 and 3 follow:]
    [GRAPHIC] [TIFF OMITTED] T8662.015
    
    [GRAPHIC] [TIFF OMITTED] T8662.016
    
    [GRAPHIC] [TIFF OMITTED] T8662.017
    
    Mr. Cameron. I am sorry, sir. I was reading.
    Mr. LaTourette. Exhibits 2 and 3, I just want for record 
purposes to make sure that exhibits 2 and 3 are the letters 
that Mr. Tierney was discussing that were sent by Mr. Hyland, 
his District Attorney, expressing his displeasure to both the 
Attorney General and also to Mr. Hoover, I believe, indicating 
that, one, we are not really happy about this, and two, if Mr. 
Harrington is going to testify, could you at least give us 
common courtesy if you are not going to give us usual courtesy.
    Is that what Exhibits 2 and 3 are?
    Mr. Cameron. Yes.
    Mr. LaTourette. Mr. Miller, I apologize again for not being 
here at the beginning. But did your trial practice back when 
this trial was occurring, had you represented murder cases 
before?
    Mr. Miller. Yes, sir, I have.
    Mr. LaTourette. Had you ever seen a situation where a 
Federal law enforcement agent had ever come in and testified on 
behalf of one of your defendants?
    Mr. Miller. No.
    Mr. LaTourette. From chatting with other members of the 
defenses bar, was this something that you had ever even heard 
of in the course of your practice?
    Mr. Miller. I don't know if it came up, but I am sure it 
was something that they probably never heard of.
    Mr. LaTourette. And Mr. Cameron, are you aware, based upon 
your experience, of a Federal law enforcement agent coming into 
court and testifying on behalf of a defendant charged with 
capital murder?
    Mr. Cameron. In my experience, no, sir.
    Mr. LaTourette. Mr. Chairman, I will stop now and wait for 
the next round.
    Mr. Burton. The gentleman yields back his time.
    Let me just ask one quick question here. Mr. Miller, were 
you asked to participate in that meeting with your client and 
Mr. Harrington when he came to visit him?
    Mr. Miller. Not that I recall, sir.
    Mr. Burton. Were you aware that he was going to meet with 
him? I mean you are his defense attorney. And here is a guy who 
was a strike force attorney, prosecuting attorney, up in Boston 
who came in to see your client who you are defending on a 
murder charge. He talked to him and you didn't even know about 
it?
    Mr. Miller. I don't know for sure, but if I had to bet on 
it, I don't think I was aware of it.
    Mr. Burton. I mean you would have wanted to be there, 
wouldn't you? I mean, if somebody of that stature was coming in 
to talk to your client?
    Mr. Miller. Yes.
    Mr. Burton. I guess one could draw the conclusion that they 
wanted this meeting to be just between the two of them?
    Mr. Miller. Well, that would just be a guess.
    Mr. Burton. Let us put it this way. If there's a person of 
that stature who is involved in prosecution of criminals and he 
comes to see a defendant in a murder case, isn't it a little 
bit unusual that he would meet privately with the defendant?
    Mr. Miller. I would go out of my mind, except they were 
so--I thought they were so----
    Mr. Burton. Close?
    Mr. Miller. I thought they were so intent upon his not 
getting the death penalty that they wouldn't do anything to 
hurt me. Otherwise, I would be afraid that they would turn 
against me.
    Mr. Burton. But one could draw the conclusion that they 
wanted their meeting to be between the two of them.
    Mr. Miller. Yes, but again, he may well have asked my 
permission. It has been over 30 years ago and I just don't 
recall.
    Mr. Burton. OK.
    Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I have a question 
for Mr. Cameron, but before I do, well, let me put it in the 
form of a question. You made reference to a Massachusetts State 
Police Officer. Can you repeat his name for the record?
    Mr. Cameron. His name is Reagan.
    Mr. Delahunt. Could it be John Reagan?
    Mr. Cameron. Reagan, Yes, sir.
    Mr. Delahunt. At that time he would have been a lieutenant 
on the State Police?
    Mr. Cameron. He was a lieutenant in the State Police as I 
remember.
    Mr. Delahunt. How would you describe his cooperation with 
your efforts?
    Mr. Cameron. I am positive, I got more information from him 
in whatever time--I am pretty sure he drove us to Walpole State 
Prison. Whatever time it takes to go from Boston to Walpole, I 
remember it is kind of a journey, we got more information on 
that ride from him than we did from the FBI.
    Mr. Delahunt. In full disclosure, Mr. Chairman, I want to 
make it a matter of record that Major John Reagan worked with 
me in a variety of investigations during my tenure as District 
Attorney. He is someone whom I have very fond memories. He was 
a dear friend and someone whom I consider the ultimate 
professional and whose integrity is beyond any reproach. I just 
want to make that a matter of record.
    I have never met Mr. Cameron before except for today. I am 
not surprised that Major John Reagan of the Massachusetts State 
Police provided you whatever information he could regarding 
this particular matter.
    Mr. Cameron. He was a good fellow.
    Mr. Delahunt. Post the plea, if I could just direct your 
attention for a moment to your involvement or the Office of the 
District Attorney's involvement or the police involvement. Were 
you ever notified in terms of transfers in terms of where Mr. 
Barboza was incarcerated?
    Mr. Cameron. I inquired when he first went in our State 
system that I would like to know where he went. I lost him. 
Subsequently, I think he was in Montana, in their State system, 
I believe, but under Federal control.
    Mr. Delahunt. So, he was in a State system. You and Mr. 
Brown were intimately involved in the investigation of the 
Wilson homicide. You requested to be informed, but somehow he 
got lost.
    Mr. Cameron. To me, yes, sir, he was lost.
    Mr. Delahunt. Are you aware or were you ever invited or are 
you aware of anybody in California that received an invitation 
to testify at a parole hearing for Mr. Barboza?
    Mr. Cameron. I was not, sir.
    Mr. Delahunt. You were not invited to testify?
    Mr. Cameron. No, I think I would be one of the last people 
to be invited.
    Mr. Delahunt. They didn't want you there, is that what you 
are saying, Mr. Cameron?
    Mr. Cameron. I would think that I would not be on his list 
of witnesses.
    Mr. Delahunt. Mr. Brown, were you ever invited to testify 
at a parole hearing?
    Mr. Brown. No, sir.
    Mr. Delahunt. In retrospect, I presume that you would have 
been in opposition to allowing or in opposition to having Mr. 
Barboza paroled back into the community?
    Mr. Brown. Yes, sir.
    Mr. Delahunt. Do you have any information relative to the 
parole hearing that must have been held for Mr. Barboza?
    Mr. Brown. No, no, nothing. As Mr. Cameron said, he 
disappeared in the system.
    Mr. Delahunt. He disappeared in the system and then he 
disappeared out to the street.
    Mr. Brown. That's about right.
    Mr. Delahunt. Are you, Mr. Brown and Mr. Cameron aware of 
the fact that Mr. Salvati sought a parole for some 20 years and 
was denied a parole for 20 years?
    Mr. Cameron. I am aware of it now because I watched Mr. 
Salvati's testimony.
    Mr. Delahunt. Right.
    Mr. Cameron. I just met him this morning and I knew nothing 
about his situation at all until last night. Just for the 
record, Mr. Salvati sought parole through his attorney, Mr. 
Garo, I believe commencing in the late 1970's. We don't really 
understand yet, given all of the evidence that has been made 
available to this committee of an exculpatory nature why Mr. 
Salvati was never paroled, but I would hope, Mr. Chairman, that 
we would find out the answers to those particular questions.
    Mr. Burton. You may rest assured, we are going to do our 
best to find out.
    Mr. Delahunt. Thank you, Mr. Chairman.
    Mr. Miller, you seem to have continuing contact with Mr. 
Barboza post his plea.
    Mr. Miller. Very little. He did appear at the courthouse 
after his release. We had a conversation in the judge's 
chambers. After that I recall little or no contact, but my 
investigator, I think, had contact with him after his release 
from prison.
    Mr. Delahunt. Did you represent him at a parole hearing?
    Mr. Miller. No, sir. I wasn't even aware of any parole 
hearing until--I didn't even know if there was a parole hearing 
and are you sure there was one?
    Mr. Delahunt. So, we don't even know if there was a parole 
hearing.
    Mr. Miller. That's correct. I am not aware of one.
    Mr. Delahunt. But the sentence that was imposed, if you can 
help us in terms of California law, was 5 to life?
    Mr. Miller. Yes.
    Mr. Delahunt. And yet he served some 4 years.
    Mr. Miller. I think it was less than that.
    Mr. Delahunt. Less than 4 years. Mr. Cameron, do you know 
how much time Mr. Barboza served?
    Mr. Cameron. No, but I believe it was less than 4 years.
    Mr. Delahunt. Less than 4 years? We don't know if there was 
a parole hearing. You, as his counsel, were never notified as 
to whether there was a parole hearing.
    Mr. Miller. Not that I recall. I was surprised when I found 
out he was out of custody.
    Mr. Cameron. I am sure if our office had been notified we 
would have opposed it.
    Mr. Delahunt. You would have opposed it?
    Mr. Cameron. Absolutely.
    Mr. Burton. We will come back to the gentleman in just a 
few minutes.
    Mr. Miller, you know, I know you are a great defenses 
attorney and I know you have great experience, but it surprises 
me that Mr. Harrington came out there and you didn't know about 
it or didn't get a chance to go. You weren't notified about any 
potential parole hearing. You kind of probably found out he was 
on the street when he came up to you and started talking to you 
in the courtroom.
    You don't think any of that seems a little odd? It's funny, 
don't you think? A little odd, not funny.
    Mr. Miller. Yes. I think he was sent to Deer Park, MT, 
wasn't he, immediately?
    Mr. Cameron. He first went into the State system and I 
don't remember how long he was in the California penal system, 
but he went to Montana shortly after he went into the 
California system.
    Mr. Miller. So, he came out of our system into, I think 
they call it Deer Park, and then he was taken back to 
California. The guard found marijuana in his shoe and he broke, 
he said, ``That just is my luck.'' He hit a guard one with a 
left hook and he would break his jaw.
    So, there he was back in isolation at San Quentin. I talked 
to him and he was manacled. The next thing I knew----
    Mr. Burton. He was out.
    Mr. Miller. No, he was out in some camp somewhere. He was 
making long distance calls to my office.
    Mr. Burton. So, it was not a major security penitentiary?
    Mr. Miller. He went from Deer Park to San Quentin to 
Folsom. At Folsom they had him in a cage, almost. Then, the 
next thing I know he was up around Sonora at one of those----
    Mr. Burton. Nicer ones, yes.
    Mr. LaTourette, I will yield my time to you.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Gentlemen, if I could direct your attention back to the 
exhibit book for just a second. My task here is to sort of make 
a record, so this might be boring, but we will do it as best we 
can.
    Exhibits 4 and 5, if you could take a look at those, Mr. 
Miller, they are unsigned, undated letters from the Attorney 
General of the United States that set out the conditions under 
which Mr. Rico and Mr. Condon may testify on Mr. Barboza's 
behalf. If one of you can just tell me that is what they are, 
then I can ask you some questions.
    [Exhibits 4 and 5 follow:]
    [GRAPHIC] [TIFF OMITTED] T8662.018
    
    [GRAPHIC] [TIFF OMITTED] T8662.019
    
    [GRAPHIC] [TIFF OMITTED] T8662.020
    
    [GRAPHIC] [TIFF OMITTED] T8662.021
    
    Mr. Miller. You said 4 and 5?
    Mr. LaTourette. Yes, sir.
    Mr. Miller. I thought that the authorization came with a 
different exhibit. Oh, yes, 5, yes, instructions to Dennis 
Condon as to what he could and could not testify to.
    Mr. LaTourette. Right. And 4, I think is the one to Mr. 
Rico.
    Mr. Miller. Yes.
    Mr. LaTourette. OK. Were you satisfied, Mr. Miller, despite 
the fact that these restrictions, and they are pretty tight 
restrictions, had been placed on Mr. Condon and Mr. Rico, that 
despite those restrictions that there testimony would still be 
valuable to Mr. Barboza?
    Mr. Miller. Yes.
    Mr. LaTourette. And can you tell us why?
    Mr. Miller. Again, not necessarily as to the content of 
their testimony or the relevance of their testimony, but 
rather, the color of their office as it would shine upon me and 
my client.
    As we have said, it is very unusual to have any law 
enforcement officer testify as a subpoenaed witness for the 
prosecution, especially, if they are FBI and especially if 
there are three of them.
    Mr. LaTourette. The unusual part that occurred a little bit 
later that I want to talk to you about, but it is my 
understanding that when Mr. Condon, Agent Condon, was on the 
stand the prosecutor asked him whether or not he was aware that 
Barboza was negotiating with the mafia to recant his testimony. 
Do you remember him asking that question?
    Mr. Miller. Not exactly, but I do recall--is that when he 
declined to answer?
    Mr. LaTourette. I think it is. Is that your memory, also?
    Mr. Miller. Yes, something along those lines.
    Mr. LaTourette. It is my understanding that he cited the 
instructions he received from the Attorney General and 
basically indicated he could not answer the question.
    Mr. Miller. That's correct.
    Mr. LaTourette. The question I have of you, though, is that 
despite these instructions that sort of limited the amount of 
information they gave on direct testimony, are you aware that 
there was a fellow by the name of Lawrence Hughes? His name 
surfaced in this case, Lawrence Hughes.
    Mr. Miller. Only when my memory was refreshed, yes.
    Mr. LaTourette. OK. And Lawrence Hughes, if I understand 
Mr. Hughes' involvement, it is that he offered--and Mr. 
Cameron, maybe you can help us--he offered to testify against 
Mr. Barboza relative to not only some stolen bonds that he had 
received, but also the fact that allegedly Mr. Barboza 
confessed the Wilson murder to him.
    Is that your recollection, Mr. Cameron?
    Mr. Cameron. Yes, sir. It was during the trial itself that 
he popped up like a mushroom to help our case. I suspected at 
the time, I suspect now, that he was sent out by organized 
crime to help our case.
    Mr. LaTourette. And Mr. Miller, does that fit with your 
refreshed recollection that Mr. Hughes appeared in the middle 
of the case and he was going to offer some rather----
    Mr. Miller. I have no independent recollection of that at 
all, sir.
    Mr. LaTourette. OK. Well, let me then direct you, Mr. 
Cameron, if I can, to exhibit No. 6. Exhibit No. 6 appears to 
be a request to the FBI Director to let Condon, despite the 
restrictions placed upon his testimony in exhibits 4 and 5, but 
a request to the FBI Director to let Mr. Condon come back and 
impeach the prosecution witness, Hughes.
    Am I reading that document correctly?
    [Exhibit 6 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.022
    
    [GRAPHIC] [TIFF OMITTED] T8662.023
    
    [GRAPHIC] [TIFF OMITTED] T8662.024
    
    [GRAPHIC] [TIFF OMITTED] T8662.025
    
    Mr. Cameron. I have never seen this before, sir.
    Mr. LaTourette. OK. Could you just take a minute to study 
it? I think it speaks for the fact that we now have the Justice 
Department and the FBI not only offering up agents to testify 
in the defense case in chief, but when a troublesome witness 
like Mr. Hughes shows up, they now go above and beyond and say 
that, you know what, these FBI guys can come back and call Mr. 
Hughes a liar, further damaging the prosecution's case. So, if 
you could just take a minute to study that, if any of you have 
any insight or recollection, either refreshed or otherwise that 
you can add for the record, I would appreciate it.
    The information specifically that I think that I'm 
referring to is at the bottom of page 3 of exhibit 6. Maybe we 
can go there.
    Mr. Miller. And your question, sir?
    Mr. LaTourette. My question is, do you recall any of this 
occurring. That is that at the time I think you said, Mr. 
Cameron, that Mr. Hughes popped up like a mushroom to give the 
prosecution a hand.
    All I am asking is: Is it a fair characterization of 
exhibit 6, specifically the third page, that a request was 
being made to Mr. Hoover to let Mr. Condon come back and 
impeach the prosecution witness, Mr. Hughes. That's the way, at 
least, it appears to me.
    Mr. Cameron. That's the way it appears to me, sir.
    Mr. LaTourette. Mr. Miller, is that a fair reading by you, 
also?
    Mr. Miller. Yes, sir.
    Mr. LaTourette. Mr. Miller, last, also on the same page of 
exhibit 6 in the second full paragraph, and let me just read 
that. In the second full paragraph it says that ``in an 
interview with Condon and Rico and Strike Force Attorney 
Harrington by the Public Defender, he, the Public Defender, 
requests the results of the FBI interview in September of 
Hughes and the identity of the agent who conducted the 
interview.''
    That paragraph, to me, makes it sound as if you wanted to 
see a copy of the interview of Mr. Hughes by FBI agents. Do you 
ever recall making such a request?
    Mr. Cameron. No, but I am sure if I was aware of it, I 
would have asked for that, yes, which under California law I 
would have been entitled to.
    Mr. LaTourette. OK. Then, last, at the bottom of the last 
page of exhibit 6, which I think is page 4, it says, ``Defense 
is also calling John Doyle, the Chief Investigator, Suffolk 
County District Attorney's Office, Boston, Massachusetts.''
    Did you ever have any contact with John Doyle and the 
Suffolk County District Attorney's Office?
    Mr. Miller. Not that I am aware, nor am I aware of my 
investigator being in touch with him, but he might have been.
    Mr. LaTourette. Since you don't remember any dealings with 
Mr. Doyle, do you know whether the idea to potentially call Mr. 
Doyle as a witness to help your case or at least to be 
identified came from the FBI or the Justice Department?
    Mr. Miller. I have no idea, sir.
    Mr. LaTourette. Thank you very much. I yield back.
    Mr. Burton. Boy, I will tell you, you read that exhibit 6, 
and I hope everybody in the media gets a chance to read that. 
It is really something. Those FBI agents were given authority 
by the Attorney General to impeach Mr. Hughes' testimony. I 
just can't believe that.
    Mr. Tierney.
    Mr. Tierney. Mr. Chairman, at this time, all I wanted to do 
was to make sure that through unanimous consent that all of the 
exhibits in the exhibit book be admitted into the record.
    Mr. Burton. Without objection, it is so ordered.
    Mr. Tierney. The only remaining question that I have was 
for Mr. Brown. Was that gun ever found?
    Mr. Brown. Yes.
    Mr. Tierney. In time for the trial?
    Mr. Brown. Yes.
    Mr. Tierney. With respect to Agent Ahlstrom, do you know 
whether or not he ever registered formally his disappointment 
over the Justice Department and FBI's assistance in his trial?
    Mr. Miller. You know, I don't know that he did, no.
    Mr. Tierney. Thank you. I will yield to Mr. Delahunt if he 
has any questions.
    Mr. Delahunt. Yes, if I may, Mr. Chairman, Mr. Miller, did 
Barboza ever discuss with you the arrangements that he had made 
relative to his cooperation with the Federal Government that 
led to his arrival in Santa Rosa, CA?
    Mr. Miller. He liked to brag a lot. He said he was the 
first witness of this type and he was placed in--where do they 
keep all the gold in this country? Fort Knox. That he was held 
there under the witness protection and from there I think he 
was placed somewhere else and eventually to Santa Rosa, CA.
    He indicated that he was being rewarded for his testimony 
against, I guess it is Raymond Patriarca and he mentioned a few 
other names.
    Mr. Delahunt. Did he tell you the benefits and the reward 
that he received for his testimony, albeit his perjured 
testimony in the case of Mr. Salvati and others?
    Mr. Miller. Well, he went from Baron to Bentley.
    Mr. Delahunt. Then he was given training to become a cook?
    Mr. Miller. He was given with the Marine Cooks and 
Stewards, a union hall, yes, he was given employment there.
    Mr. Delahunt. And presumably, he was provided a stipend of 
sorts?
    Mr. Miller. Oh, sure.
    Mr. Delahunt. He was given money, taxpayers' money.
    Mr. Miller. I'm sure.
    Mr. Delahunt. And he was relocated, his travel expenses 
were paid to start all over again in Santa Rosa, CA?
    Mr. Miller. Correct.
    Mr. Delahunt. And out in Santa Rosa, he begins a new phase 
of his criminal career. Did he ever explain that the benefits 
that he was to receive as a result of his negotiations with the 
Federal Government were to continue ad infinitum?
    Mr. Miller. Only for his protection, but not for any 
illegality, I'm sure. That wasn't discussed, but that--he had 
done the Government a tremendous favor, and in response they 
were going to take care of him, as long as he behaved himself, 
the rest of his life.
    Mr. Delahunt. So in behaving yourself, you're charged with 
a first degree capital case, that's behaving yourself?
    Mr. Miller. Well, no, as it turned out, evidently he did 
not behave himself in a manner in which they had hoped.
    Mr. Delahunt. But the benefits continued. Mr. Cameron.
    Mr. Cameron. That was always my question, where does it 
stop.
    Mr. Delahunt. Where does it end.
    Mr. Cameron. If a man commits murder, in my book, it should 
stop there.
    Mr. Delahunt. This was after the deal was done, though, Mr. 
Cameron, wasn't it?
    Mr. Cameron. This was after the deal was done. He committed 
another murder and the Federal Government was still supporting 
him, as best I understand it.
    Mr. Delahunt. And the benefits just kept accruing?
    Mr. Cameron. As I understand it, sir, yes, sir.
    Mr. Delahunt. Would you, Mr. Brown, or you, Mr. Cameron, be 
disturbed if you discovered that this career criminal of great 
notoriety was granted parole and early release because of the 
intervention of the Federal Government? How would you feel 
about that, Mr. Brown?
    Mr. Brown. Well, it's a terrible, terrible system, if 
that's how it's going to operate.
    Mr. Delahunt. Mr. Cameron, how would you feel about it?
    Mr. Cameron. It's a travesty of justice to have that 
happen, and to have had that happen.
    Mr. Delahunt. What do you suspect, Mr. Miller? You've been 
around a while?
    Mr. Miller. Well, if the allegations by the chairman are 
true, it's saddening and heartbreaking and a travesty.
    Mr. Delahunt. Well, we do know that he ended up on the 
street, didn't he? That's one fact we know. We don't know if 
there was a parole hearing, we don't know how he ended up back 
in the street. Mr. Salvati, he couldn't get paroled, and he was 
sitting there for 30 some odd years, innocent. And you received 
no cooperation. Is that what justice is about in America?
    Mr. Cameron. Not in my book.
    Mr. Delahunt. Not in mine, either. I yield, Mr. Chairman.
    Mr. Burton. We have a vote on the floor. We've got about 11 
minutes until the vote closes. So let me just go through a 
couple of things here real quickly.
    I think this is something that's very interesting. John 
Doyle was the chief investigator for the Suffolk County 
District Attorney's office in Boston. He had been in touch with 
this Hughes, and he was also going to be there, was asked if he 
would, he indicated he would go out there and impeach Hughes as 
a witness.
    Mr. Miller, I don't know if you were asked this question or 
not, I may have missed it. Did the Suffolk County District 
Attorney's office ever talk to you about him coming out and 
testifying on behalf of----
    Mr. Miller. I have no recollection of that. However, my 
investigator may have been in touch with him. I have no 
recollection.
    Mr. Burton. So Harrington from the U.S. Attorney's Office 
and the Suffolk County District Attorneys' Office both were 
willing to come out and testify on behalf of Mr. Barboza if he 
had wanted it to?
    Mr. Miller. I was aware of the FBI, yes. But not aware of 
any other person.
    Mr. Burton. Now, Judge Harrington, Rico and Condon all 
testified on the same day, is that right?
    Mr. Miller. Probably. I'm not sure.
    Mr. Burton. Did Judge Harrington or Rico or Condon have any 
knowledge of the murder or the circumstances surrounding the 
murder of Clay Wilson, to your knowledge?
    Mr. Miller. Only after it happened. And that was probably 
from the communication from Mr. Geraway to Mr. Hyland.
    Mr. Burton. According to the transcript, Judge Harrington 
and Rico and Condon were all basically asked the same 
questions. The questions concerned Barboza's cooperation with 
the Federal Government and the Mafia attempts to kill Barboza. 
There were no questions about the murder of Clay Wilson. As 
Barboza's attorney, what was more important to you, what Mr. 
Harrington and the agents were saying about Barboza, the fact 
that a senior Justice Department official and two FBI agents 
were there testifying on his behalf? He just wanted them there 
because of their credibility as an agency?
    Mr. Miller. That's all.
    Mr. Burton. OK. Did you ever wonder why they sent out three 
instead of one?
    Mr. Miller. Again, I just thought they were deathly afraid 
that he would get the death penalty and that he would recant 
his testimony and that's the last thing they wanted.
    Mr. Burton. Did they ever say that to you?
    Mr. Miller. No, that's just something that I assumed.
    Mr. Burton. That you surmised?
    Mr. Miller. Yes.
    Mr. Burton. OK. Since their testimony had nothing to do 
with the murder, you thought that they were just going to be 
able to influence them by their presence and saying he was 
cooperating?
    Mr. Miller. That's correct.
    Mr. Burton. Was there a discussion with the prosector, Mr. 
Hyland, about whether to be more aggressive with Mr. Harrington 
and the FBI agents, do you know, Mr. Cameron or Mr. Brown? Was 
there any discussion saying he should be----
    Mr. Cameron. Was there a discussion in our office?
    Mr. Burton. Yes, regarding cross examination, that they 
should be more aggressive, either in cross examination or in 
asking the Justice Department not to allow these people to come 
out.
    Mr. Cameron. We talked about that during the trial, whether 
or not to really tear into them. And we all came to the 
conclusion that it wasn't going to do us any good, it was going 
to hurt us even more, because they weren't going to say 
anything that was going to help us. By that time, they had 
taken our first degree murder case, and I truly believe with 
our testimony, they had colored it to the point where we were 
not going to get a first degree murder.
    Mr. Burton. That's why the plea bargain took place?
    Mr. Cameron. Yes, sir.
    Mr. Burton. We have a few more questions we'd like to ask 
you. Would you mind waiting until we come back, probably about 
15 minutes, then we'll wind this thing up?
    We'll recess for about 15 minutes for the vote, then we'll 
be right back. Thank you.
    [Recess.]
    Mr. LaTourette [assuming Chair]. If we could ask the 
witnesses to come back to the table, we'll try and conclude 
things in an expeditious fashion. And we appreciate your 
indulgence. As you may know, the House is taking up the rather 
non-controversial issue of campaign finance reform today. So 
we're called to come back and forth once in a while.
    Mr. Delahunt, for 5 minutes.
    Mr. Delahunt. Thank you, Mr. Chairman, and I'll be brief. 
Let me just conclude by thanking Mr. Miller and Mr. Cameron and 
Mr. Brown. I mean, you have really provided your Nation a 
service today, you truly have. I know maybe it doesn't seem 
like that, but it is. It's been extremely informative.
    The chairman, Mr. Burton, announced at the beginning of the 
hearing today that there would be in lieu of an appearance by 
former Special Agent Condon a deposition to be conducted in 
Massachusetts, in Boston, presumably. And I have consulted with 
my friend, Mr. LaTourette from Ohio. We share a State 
prosecutorial experience. I'm pleased to say, and I'm making 
this a matter of record so it will box him in, that he and I 
will also attend and participate with chief counsel, Mr. 
Wilson, in that particular deposition. And through you, Mr. 
LaTourette, to Mr. Wilson.
    I think it's very important, particularly given what we 
heard today in terms of post-plea, if you will, and what 
happened in terms of parole, release back into the community, 
that in stark contrast to what occurred in the case of Mr. 
Salvati up in Massachusetts, that this committee attempt to 
work an agreement with a number of individuals that may have 
information regarding the reason that Mr. Salvati was not 
granted a parole permit, that we do make an effort also to 
depose those individuals that might have that information.
    I think it's important. I think there's a theme here that 
we're talking about. And again, the lack of sharing of this 
information with State and local officials.
    With that, I'll conclude, Mr. Chairman and reiterate my 
thanks to Mr. Miller, Mr. Cameron and Mr. Brown.
    Mr. LaTourette. I thank you very much, Mr. Delahunt. I look 
forward to traveling to Boston with you. I'm thinking seafood 
and Patriots memorabilia might make it go down a little bit 
better. [Laughter.]
    Gentlemen, I know that you've been patient all day. I just 
have about six or seven more questions, and our counsel, Mr. 
Wilson, may have a few questions. Then we'll be concluded.
    I'm always reminded, I'm 47 years old and I can remember 
when I was growing up there was a show on television called the 
FBI, Efram Zimbalist, Jr. was in it. I think many of us thought 
that J. Edgar Hoover and Efram Zimbalist, Jr. were infallible 
and they were solving all the world's problems.
    I know where we left off when the chairman recessed the 
hearing to go for the votes. It's my understanding, Mr. 
Cameron, that there may have been a discussion between, in the 
District Attorney's office, whether Mr. Hyland, the District 
Attorney, should be more aggressive or not with the FBI agents 
who were coming to testify. Do you recall a discussion of that?
    Mr. Cameron. That was during the trial, yes, sir.
    Mr. LaTourette. Can you relate for us now, some 30 years 
later, what was Mr. Hyland's concern, what was he thinking and 
what he eventually did relative to whether or not to be 
aggressive with these FBI guys who were really ruining his 
case?
    Mr. Cameron. Well, our concern was that, we thought we had 
a pretty good capital murder case. And we didn't have the best 
witnesses in the world, but we had witnesses, and we had 
evidence. And we had testimony from people who, and all of 
that. And we got to the end and we're having FBI agents 
suddenly appear as almost character witnesses. We had a long 
talk about what we should do with them as far as attacking 
them.
    And you have to keep in mind, this is in the early 1970's. 
The FBI, as far as we were concerned, was pretty sacrosanct. 
And our feeling was that if they really started getting into it 
and we knew what was going to happen, they were going to say, 
we can't go into that because of this, that and the other 
thing. Plus they had damaged our case to the point we didn't 
think the jury was going to convict on a first degree murder 
case.
    So we thought we'd better take what we got offered.
    Mr. LaTourette. As I understand it, eventually the decision 
was made, because of the esteem that the FBI was held in, to 
not go after them, as you might another negative witness to 
your case. Is that your recollection?
    Mr. Cameron. I'm sorry sir, I didn't hear you.
    Mr. LaTourette. The decision was made by Mr. Hyland, if I 
understand it right, to not go after them, as it were----
    Mr. Cameron. That's right.
    Mr. LaTourette [continuing]. When they were on the stand, 
because of who they were and who they represented.
    Mr. Cameron. We felt that we were only going to get damaged 
more.
    Mr. LaTourette. Sure. Mr. Miller, do you have an opinion as 
to--I know this was resolved by plea, but do you have an 
opinion as to whether or not these agents, Mr. Harrington had 
an impact on the jury?
    Mr. Miller. No question they had an impact, sir.
    Mr. LaTourette. And it's my understanding that 2 days after 
they hit the stand is when the State decided to come forward, 
and you made the offer of plea, did you not, Mr. Miller?
    Mr. Miller. That's correct.
    Mr. LaTourette. And if I understood you earlier, Mr. 
Cameron, it was your feeling that the agent's testimony and 
Harrington's testimony had put you in a position where you were 
now willing to listen to, or the prosecution was now willing to 
listen to a plea of something other than capital murder, is 
that right?
    Mr. Cameron. Absolutely.
    Mr. LaTourette. And is that pretty much how that all 
happened, after they testified you guys decided, we'd better 
take this and get out of Dodge?
    Mr. Cameron. We were willing and eager to go ahead with the 
capital case up until that time and then, you're right, it was 
time to get out of Dodge.
    Mr. LaTourette. Aside from the agent's testimony, was 
anything else going wrong with your case? In other words, up 
until the fact that they hit the stand and you decided, this is 
not good for us, was there anything else negative going on in 
your case that caused the district attorney to come off of a 
capital murder charge?
    Mr. Cameron. We were always concerned when Mr. Miller was 
defending a murder. He's a good attorney and he did a good job 
in this case. Did I personally think that we still had a 
capital case? Yes, sir. Did our office think that? Yes, sir.
    Mr. LaTourette. What was it then that caused you to accept 
his offer of plea to a lesser charge?
    Mr. Cameron. It wasn't anything but having the FBI there, 
and the color of their authority painting him an honest person 
and truthful and what-not.
    Mr. LaTourette. Mr. Miller, I mentioned earlier a fellow by 
the name of Ted Sharliss, I think, who was a bookmaker and 
gambler, if I understand it, from back east. Were you aware of 
him, Mr. Sharliss, first of all?
    Mr. Miller. Yes, sir. I was aware of him before the trial, 
and I was aware of his involvement in the execution of Mr. 
Barboza after.
    Mr. LaTourette. But were you aware back in the early 1970's 
that Mr. Sharliss was an informant for the FBI? Did you know 
that at the time?
    Mr. Miller. Yes.
    Mr. LaTourette. OK. Did you during the contact that you 
might have had with him during your representation of Mr. 
Barboza ever believe that he was recording conversations that 
you and he were having, that is you and Sharliss?
    Mr. Miller. Yes.
    Mr. LaTourette. Can you describe why it is you felt that?
    Mr. Miller. A friend of mine knew Mr. Sharliss and knew 
that he always had a recording apparatus. And I went to a 
birthday party, and Mr. Sharliss is where I met him. He told me 
what great friends he was with Mr. Barboza. Offered me several 
hundred dollars just for cigarettes for Mr. Barboza. And I 
said, why don't you just go deliver that yourself. And that 
conversation was played back to me by some law enforcement 
agent.
    Mr. LaTourette. One of the witnesses to the murder, my 
understanding, one of the eyewitnesses to the murder of Mr. 
Clay Wilson was Wilson's wife, Dee.
    Mr. Miller. That's correct.
    Mr. LaTourette. There may have been some questions asked 
earlier of you as to, I think, Mr. Cameron or maybe Mr. Brown, 
you became concerned that there were threats made against your 
eyewitnesses, contracts taken out on them, is that an accurate 
observation?
    Mr. Brown. Yes, that's true.
    Mr. LaTourette. OK. Were any of you aware that Dee Wilson 
was an FBI informant at that time?
    Mr. Cameron. No.
    Mr. Brown. No.
    Mr. LaTourette. Mr. Miller.
    Mr. Miller. No, I don't think so, sir. By the way, she was 
held in protective custody around the clock by three agents.
    Mr. LaTourette. In order to, Mr. Wilson has some questions 
about Dee Wilson and some of the things that occurred. I want 
to yield to him and hopefully we can be about finished.
    Mr. Delahunt. Mr. Chairman, before the counsel makes an 
inquiry, if I may.
    Mr. LaTourette. Certainly.
    Mr. Delahunt. The line of questioning that I was pursuing 
relative to the parole of Mr. Barboza, I think that a partial 
answer might be a letter that I was just handed by minority 
counsel. If I may just have a moment to inquire of Mr. Miller 
whether he has any recollection of hearing about or reading 
this letter.
    It would appear that it was dated in July 1975. It purports 
to be from Mr. Barboza. It's signed Joseph Bentley, but I 
presume that is his pseudonym. It's signed off as, always, Joe. 
It's addressed to a Gary Evans. Was he an investigator?
    Mr. Miller. Gregory Evans, yes.
    Mr. Delahunt. Gregory Evans?
    Mr. Miller. Yes.
    Mr. Delahunt. He was an investigator that worked for you 
during the course of this?
    Mr. Miller. That's correct.
    Mr. Delahunt. Let me just read some pertinent extracts, and 
then I'll provide you or the clerk will provide you a copy of 
this letter to see if it refreshes your recollection. I'm just 
seeing this myself for the first time.
    Halfway down the first page, he writes, I'm inserting the 
parole board decision in this letter. California is rather slow 
in reply, so I guess I'll be here 2 to 3 months more. Greg, I 
plan to come to Santa Rosa for a visit and I'll make my 
presence known immediately to the police. Why bring this up? 
Because I truly, truly feel no ill.
    Mr. Miller. Feels what, sir?
    Mr. Delahunt. No ill will. It was my fault and not theirs 
in regard to the case breaking wide open. So when I go into 
Santa Rosa, I don't want nobody getting paranoid.
    Then he proceeds to say, and this is probably the most 
germane part of the letter in terms of the issue of early 
release. The parole board said that this is the fastest hearing 
in the history of Montana. You have made parole. I didn't even 
say one word except thank you. And I floated out in a dream 
that I never thought would come truthfully. You, Marty and Ted 
H. made this all come true. Nobody did I ever owe so much to. 
Always, Joe.
    Mr. Miller. Ted H?
    Mr. Delahunt. Ted H presumably would be Ted Harrington. 
Does this in any way refresh your recollection?
    Mr. Miller. I had no contact with him really, as I recall. 
But I did give, from my files a number of correspondences. I 
guess this was one of the letters I gave to Mr. Wilson.
    Mr. Delahunt. OK. Mr. Chairman, I would request that this 
letter be submitted and made part of the record.
    Mr. LaTourette. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.026
    
    [GRAPHIC] [TIFF OMITTED] T8662.027
    
    [GRAPHIC] [TIFF OMITTED] T8662.028
    
    [GRAPHIC] [TIFF OMITTED] T8662.029
    
    [GRAPHIC] [TIFF OMITTED] T8662.030
    
    Mr. Delahunt. Thank you.
    Mr. LaTourette. Thank you. Mr. Wilson.
    Mr. Wilson. Just to followup on that, Mr. Miller did 
provide this correspondence, very graciously allowed us to 
review a number of letters that Mr. Barboza sent to his 
investigator, Greg Evans. We also do have information from the 
Montana and California authorities, and we're aware of the 
various parole proceedings. In fact, Judge Harrington did in 
fact testify at one of the parole proceedings on behalf of Mr. 
Barboza. So that is something that did happen and tomorrow 
we'll be able to ask Judge Harrington a question about that.
    Mr. Brown, I just wanted to clarify one thing. There were 
two witnesses to the murder of Clay Wilson, Dee Wilson and 
Paulette Ramos.
    Mr. Brown. Yes.
    Mr. Wilson. Before you talked a little bit about them and 
security concerns. Could you just walk us through in a 
narrative fashion what happened with those two witnesses, from 
your recollection?
    Mr. Brown. OK. The exact date I'm not sure of. It was 
before the trial, maybe 3 months before the trial, 4 months 
before the trial. But at a point, we were told that three 
individuals, and they were named for us, were coming from the 
East Coast to eliminate our witnesses.
    Mr. Wilson. Before you go to that, at this point, it's our 
understanding that Ms. Wilson's house had been burned down.
    Mr. Brown. Yes.
    Mr. Wilson. Had this already taken place?
    Mr. Brown. Yes.
    Mr. Wilson. So is it correct to say that Ms. Wilson's house 
had been burned down, and then after the house was burned down, 
individuals came to you with information?
    Mr. Brown. Yes. The house burned down before we knew we had 
a body, before we knew her husband had been killed. We were 
trying to identify these people that were coming. In the 
meantime, we took the two witnesses and put them from house to 
house. We moved them around.
    Mr. Wilson. So they were in your protective custody?
    Mr. Brown. Yes, sir. We tried, we asked the FBI to help us 
out. We wanted them, who are these people, we need a 
description of them, etc. Nothing happened. We tried to, all 
avenues, we sought out. Anyway, Massachusetts has got this blue 
book on criminals, and they were identified in this, we were 
told if we could just find out the particulars, they were in 
this book. And we got no help from the FBI. Weeks went by.
    So we made a phone call to an attorney in Boston. I believe 
his number and name were given to us by Geraway, call this guy, 
you'll get it. We did and we got it. We got the information on 
these three people.
    Mr. Wilson. So to just restate this, you were worried that 
your two eyewitnesses would be murdered?
    Mr. Brown. Yes.
    Mr. Wilson. And the only person that ended up helping you 
was a man who was serving a life sentence himself?
    Mr. Brown. Yes, he got mail, we went through his mail. How 
he got information, I really don't know how he found out 
things. He was locked up, we had him isolated. I don't remember 
anybody coming to visit him. Anyway, so we made this phone call 
to an attorney in Boston. And it wasn't too long after that we 
had this information of who these individuals were. In fact, it 
was pages, or copies of pages from this book, blue book.
    Mr. Wilson. Just before we resumed this session of the 
hearing, you mentioned that you had information at the time 
that Barboza may have been involved in other homicides?
    Mr. Brown. Yes.
    Mr. Wilson. Could you tell us a little bit about that?
    Mr. Brown. I was looking at exhibit 6 about the bonds, the 
DeCarli bonds. There was a young man from Santa Rosa that made 
a trip back to New Bedford with Barboza before we knew we had a 
homicide. And he was present at a meeting with the individuals 
discussed, named here in this book, or in exhibit 6. And what 
he told us, what he told me is exactly what you have got in 
this report.
    Barboza moved freely. He moved freely across the country. 
He did what he wanted to do. But the bonds had a large bearing 
on things as far as Barboza was concerned. Because these bonds 
started turning up across the country in other lands, in back 
rooms of stock companies. And they were the DeCarli bonds who 
our witness said he was with Barboza when he met with Bailey 
and all this happened.
    Sure enough, it was after Barboza's trial that things 
started coming to light, these bonds started appearing in these 
back rooms of stock companies.
    Mr. Wilson. What about, there were a couple of homicides?
    Mr. Brown. Yes. That same man, and I can't remember his 
name, the same man told us, myself and another investigator, 
that he thought Barboza had shot another man, and he was buried 
on a hill across the street from his house, which was up, I 
think it was on Saint Elena Road outside of Santa Rosa. We 
spent a lot of time up there, we took infrared pictures, we 
couldn't find anything. We couldn't find a body.
    However, on a Halloween before Barboza was arrested in 
Massachusetts, we were told by two individuals, Geraway was one 
of them, that Barboza shot a man riding a bicycle on Halloween 
night, a black man. Drove by and shot him with a 45 automatic. 
You know, that information was passed on the New Bedford police 
and I don't know whatever became of that.
    Mr. Wilson. Are you aware of any Federal efforts to try and 
solve these crimes?
    Mr. Brown. No. This information was passed on, though. 
Agent Ahlstrom was advised of this.
    Mr. Wilson. I ask that because we received all of the 
records that appear to be relevant to this from the FBI and 
we've not seen any of the information that you apparently 
passed on to them.
    Mr. Brown. Agent Ahlstrom was informed. He was told, an 
ongoing deal.
    Mr. Wilson. Thank you very much.
    Mr. LaTourette. Thank you, Mr. Wilson.
    Just to sum up the point, Dee Wilson was in your custody, 
and she was, somebody in the FBI's protective custody was 
trying to kill people in your custody, is that what we had 
going on pretty much, Mr. Brown?
    Mr. Brown. No, sir. At the time we had those two witnesses 
under protection, it was individuals who were, I don't think 
they were in the Witness Protection Program.
    Mr. LaTourette. No, but Mr. Barboza was in the Witness 
Protection Program?
    Mr. Brown. Yes, sir.
    Mr. LaTourette. And he was the one on trial, so the person 
that would benefit from Dee Wilson's destruction would have 
been Mr. Barboza, who was in the Federal Witness Protection 
Program?
    Mr. Brown. You're correct.
    Mr. LaTourette. OK. Mr. Chairman, is there anything you'd 
like to ask?
    Mr. Burton. No, I just wanted to conclude by saying pretty 
much the same thing as Mr. Delahunt, and that is, we appreciate 
very much all three of you coming out here from the West Coast, 
Nevada and California and testifying. Hopefully your testimony 
and answering of questions will be very helpful in getting us 
to the answers we want and getting the information we want from 
the Justice Department. You helped us make our case and we 
appreciate it very, very much.
    With that, Mr. Chairman, thank you.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Delahunt, any closing words?
    Mr. Delahunt. I would make a note that tomorrow we will be 
continuing this inquiry.
    Mr. Miller. Thank you.
    Mr. Burton. Let me just ask, if the Chair would yield, do 
you plan to leave tomorrow, or when are you planning to go back 
out west? Would it be possible for you to stay tomorrow?
    Mr. Brown. Yes, sir. We're going home Friday.
    Mr. Burton. Just in case, it might jog your memory and 
there may be some additional information you could give to us. 
If you do, I hope you'll contact Mr. Wilson or myself and let 
us know.
    Mr. Cameron. Do we get that fabled lobster, sir? 
[Laughter.]
    Mr. LaTourette. I think you have to go to Boston to get the 
lobster.
    Mr. Burton. I don't know if I can get you lobster, but 
we'll certainly take care of your expenses until you leave.
    With that, thank you, Mr. Chairman.
    Mr. LaTourette. Thank you, Mr. Chairman.
    And gentlemen, you go with the committee's thanks. By the 
power invested in me by Chairman Burton, this hearing is 
adjourned.
    [Whereupon, at 2:06 p.m., the committee was recessed, to 
reconvene on Thursday, February 14, 2002.]












  THE CALIFORNIA MURDER TRIAL OF JOE ``THE ANIMAL'' BARBOZA: DID THE 
 FEDERAL GOVERNMENT SUPPORT THE RELEASE OF A DANGEROUS MAFIA ASSASSIN?

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to recess, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Dan Burton (chairman 
of the committee) presiding.
    Present: Representatives Burton, Barr, Morella, Horn, 
LaTourette, Cummings, Kucinich, Tierney, and Lynch.
    Also present: Mr. Delahunt.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy chief counsel; 
Mark Corallo, director of communications; Thomas Bowman, senior 
counsel; Chad Bungard and James J. Schumann, counsels; 
Elizabeth Clay, professional staff member; Robert A. Briggs, 
chief clerk; Robin Butler, office manager; Elizabeth Crane, 
legislative assistant; Elizabeth Frigola, deputy communications 
director; Joshua E. Gillespie, deputy chief clerk; Nicholis 
Mutton, assistant to chief counsel; Leneal Scott, computer 
systems manager; Corinne Zaccagnini, systems administrator; 
Michael Yeager, minority deputy chief counsel; Ellen Rayner, 
minority chief clerk; and Jean Gosa and Earley Green, minority 
assistant clerks.
    Mr. Burton. The Committee on Government Reform will come to 
order.
    I ask unanimous consent that a statement by John Cavicchi, 
attorney for Peter Limone--is that how you pronounce his name, 
Limone--be included in the record. Without objection, so 
ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.037
    
    [GRAPHIC] [TIFF OMITTED] T8662.038
    
    [GRAPHIC] [TIFF OMITTED] T8662.039
    
    [GRAPHIC] [TIFF OMITTED] T8662.040
    
    Mr. Burton. We are resuming the hearing which we began 
yesterday morning. I will make a brief opening statement.
    As everyone knows, we have been reviewing the way the 
Justice Department and the FBI have been investigating 
organized crime over the last three or four decades. We have 
been looking very hard at the way the FBI handled their 
confidential informants in Boston--which has been a disaster.
    We have held 2 days of hearings. We focused on two 
different trials--Joe Salvati's trial and Joe ``the Animal'' 
Barboza's trial. The way the FBI and the Justice Department 
behaved during those two trials was as different as night and 
day.
    What happened says a lot about why we are conducting this 
investigation.
    Joe Salvati was on trial for the murder of Teddy Deegan in 
1967. He had no history of involvement in organized crime. The 
FBI had all kinds of evidence that other people committed the 
murder. But the FBI allowed their star informant, Joe ``the 
Animal'' Barboza, to testify against Salvati. He lied. He 
committed perjury and convicted four men who did not commit the 
crime. The FBI knew Barboza was lying and they did not lift a 
finger to stop him. They let Joe Salvati go to prison for 30 
years. And as I understand it, they initially asked for the 
death penalty but they gave him life imprisonment and he spent 
30 years there.
    Joe Barboza went on trial for murder in 1971. Here you had 
a known mob hit man. The FBI believed that he had already 
committed 26 murders. The evidence against Barboza in the 1971 
trial was overwhelming. The detectives and even Joe Barboza's 
lawyer testified yesterday that it appeared to be slam-dunk 
capital murder case. And then the FBI pulled out all the stops 
to try to help Joe Barboza get off.
    They flew out to California. They worked with the defense 
team. They testified on Barboza's behalf. According to our 
witnesses to date, 2 days after FBI agents Paul Rico and Dennis 
Condon testified, along with Justice Department lawyer Edward 
Harrington, the prosecutors agreed to a lenient plea bargain.
    Mr. Cameron said it all yesterday: ``The FBI at the time 
was considered pretty sacrosanct. They had damaged our case to 
the point that we didn't think the jury would give us a first 
degree murder verdict.'' Mr. Cameron said that what was really 
damaging was, ``having the FBI there and the color of their 
authority painting him [Barboza] as honest and truthful.''
    So in 1967, they had an innocent man on trial--Joe Salvati. 
The FBI had all the evidence showing that he was innocent. And 
they let their star witness commit perjury and put Mr. Salvati 
away for 30 years. Four children and a wife, and they missed 
him for 30 years.
    In 1971, they had a known Mafia hit man on trial. The 
evidence against him was overwhelming. And the Justice 
Department and the FBI flew all the way across the country, 
testified on his behalf, and helped him get a soft sentence. I 
think it was 5 years to life, and he was out in about 3 years 
or something like that.
    But it does not stop there.
    Joe Salvati spent 30 years in prison. His lawyer, Victor 
Garo, spent decades trying to get his sentence commuted. When 
Mr. Garo submitted petitions to the Massachusetts pardon 
commission, it appears that the FBI helped stop Mr. Salvati 
from getting a pardon.
    Joe Barboza spent less than 5 years in prison. At his first 
opportunity for parole, Mr. Harrington, from the Justice 
Department, flew out to Montana to testify on his behalf. In a 
1973 letter, Joe Barboza wrote, ``the parole board said this is 
the fastest hearing in the history of Montana, how you made 
parole, I didn't even say one word!''
    In the same letter, he thanked Mr. Harrington profusely: 
``How can I ever thank you and Marty for what you two and Ted 
H. did for me today. Words can never even begin to express what 
I feel.'' This is a man that killed 26 people at least, 
murdered 1 while he was in the Witness Protection Program. The 
FBI and the Justice Department helped him get a light sentence 
instead of first degree murder which was a death penalty in 
those days, and then they helped him get parole. While Mr. 
Salvati rotted in prison for 30 years. That was in 1973. Joe 
Barboza, who murdered a bunch of people and lied on the witness 
stand, was about to be a free man. Joe Salvati, who never 
killed anyone, had another 20 years to spend in prison.
    I do not know about anyone else, but it seems to me like 
Justice was stood on its head.
    That is why we are conducting this investigation. We had a 
Justice Department that was determined to break the back of the 
mob, and that is good. But in Boston, we had a group of FBI 
agents who decided to throw the rules out the window. They let 
a lying witness send innocent men to death row and life in 
prison. They had a group of mob informants committing murders 
with impunity. They tipped off killers so they could flee 
before being arrested. They interfered with local 
investigations of drug dealing and arms smuggling. And when 
people went to the Justice Department with evidence about 
murders, some of them wound up dead.
    We cannot allow this type of conduct. We need to know how 
extensive it was. We need to know how far up the food chain 
this went. How many people at the Justice Department and the 
FBI knew what was going on? J. Edgar Hoover received two memos 
every week about the illegal wiretaps in New England. We have 
dozens of other memos written to him about the Deegan murder 
and other topics.
    We cannot have the FBI or the Justice Department being 
complicitous in giving innocent men life sentences or possibly 
the death penalty. We cannot have the FBI winking and looking 
the other way when their informants go on a crime spree.
    I cannot understand why Mr. Rico and Mr. Condon and Mr. 
Harrington did what they did in the Clay Wilson murder trial.
    Joe Barboza was a cold-blooded killer. They gave him a new 
identity. They put him in the middle of an unsuspecting 
community. They put him on the payroll. And he killed again. At 
that point, they should have locked him up and thrown away the 
key. But they did just the opposite. They did everything they 
could to get him back out on the street. Joe Barboza was 
murdered himself in 1976. I just have to wonder, if he had not 
been killed, how many more murders would they have let him 
commit before the Justice Department decided to rein him in?
    On our first panel, we have two of the three men who 
participated in that trial in California. Paul Rico, who was an 
FBI agent, is here. Edward Harrington, who was the chief of the 
Justice Department's Strike Force Against Organized Crime in 
New England, is here. Mr. Rico is now retired. Mr. Harrington 
is now a Federal judge.
    We appreciate both of you being here today. We have lots of 
questions about the things that you did and the reasons that 
you did them. And we are looking forward to hearing what you 
have to say.
    We were also going to have Dennis Condon, the other FBI 
agent, testify today. But because of his health problems, we 
have excused him for today. However, he will be interviewed 
under oath by the committee members and staff next week. We are 
going to send I think two or three committee members. I think 
you are going to be going up there next week along with the 
gentleman from Ohio.
    On our second panel, we have Jay Bybee, the head of the 
Justice Department's Office of Legal Counsel. We asked Mr. 
Bybee to be here because of the ongoing dispute that we have 
over this committee getting access to documents that we need.
    I think everyone knows that last fall we subpoenaed a set 
of Justice Department memos that deal directly with the issues 
we are looking at. The Justice Department found 10 memos that 
comply with the subpoena, but they refuse even to let us see 
them. Now we did see one yesterday, they finally acquiesced on 
that one. After all of the terrible things that happened up in 
Boston--perjury, murders, obstruction of justice, an innocent 
man spending 30 years in prison--they refuse to let us see 
those documents, with the exception of one.
    Let me be clear. This is the People's House. We are the 
elected Representatives of the people. Our constituents send us 
here to oversee the Government and to protect their rights. And 
that is the system of checks and balances.
    I want to say also that we asked for documents pertaining 
to this case in addition to the ones we subpoenaed 6 months 
ago, I think it was over 6 months ago, in June of last year. 
And yesterday, the Justice Department dumped thousands of pages 
of documents on my chief counsel's desk, knowing full well that 
we could not go through them before today's hearing. Now he did 
review some of those last night and some of those documents are 
very, very important to this investigation.
    So I just want to say to the Justice Department, if you 
think because you dropped those on our desk last night and 
knowing that we would not have a chance to review them before 
the hearing today, you made a mistake. Because we will review 
those documents and if we have to we will haul everybody back 
in here, including the Justice Department, to go over those 
documents. So this kind of nonsense has to stop. If we ask for 
documents and you are going to give them to us, do not give 
them to us at the last minute so we cannot look at them. We are 
not going to let that stand.
    This is not going to end until we get the documents we want 
and find out what happened and bring this case to a close. We 
had a bunch of criminals running around killing people under 
virtual FBI protection. The FBI let innocent men die in prison. 
And we have an obligation, as I said, to get to the bottom of 
it.
    Yesterday, we had a little crack in the dike. The Justice 
Department let us read one of the memos. They did not let us 
keep it, but they let us read it. It was written by Judge 
Harrington over 30 years ago. It goes right to the heart of 
what we are investigating. It would have been helpful if we had 
read this weeks ago before we interviewed Judge Harrington up 
in Boston. But we have read it now and that is a step in the 
right direction.
    I have told the Justice Department, I will tell everyone 
here today, as I said a moment ago, with probably more passion 
than is in this document, we are not going to let this stand. 
We are going to get to the bottom of it.
    We had one other little surprise yesterday, and I alluded 
to that as well.
    I want to ask my friends from the Justice Department, how 
are we supposed to conduct an investigation when we have these 
kinds of problems? We have a Federal judge testifying. We have 
a former FBI agent appearing under subpoena. And we get 
thousands of new documents in at the last minute. It is not 
fair to those who are staying here till 3 a.m. and then finding 
out about this the next day. My staff has been working till 2 
and 3 a.m. the last 2 or 3 weeks to prepare for these hearings. 
I appreciate what they do and I am very sorry that after all 
that work we get all this thrown at us at the last minute. But 
we will get to the bottom of it.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.041
    
    [GRAPHIC] [TIFF OMITTED] T8662.042
    
    [GRAPHIC] [TIFF OMITTED] T8662.043
    
    [GRAPHIC] [TIFF OMITTED] T8662.044
    
    Mr. Burton. Do you have an opening statement that you would 
like to make?
    Mr. Delahunt. I do not have an opening statement, Mr. 
Chairman. Again, thank you for extending the invitation to 
myself and my colleagues from Massachusetts, Mr. Frank and Mr. 
Meehan, to serve on the committee. Obviously, we have a 
parochial interest as well as an interest in discovering the 
truth.
    But let me take this opportunity while I am here to welcome 
as a witness Judge Harrington. Judge Harrington and I have 
interfaced and intersected on many occasions; when I was a 
District Attorney in the greater Boston area, and when he was 
the U.S. Attorney. I just read through his statement and this 
is at the conclusion, but I think it is important that I read 
it. ``Today, many believe that Joseph Salvati was falsely 
implicated by Baron.'' I happen to feel confident about that 
conclusion, Mr. Harrington. ``I do not know whether this 
allegation is true or not, but I wish to make clear that the 
government's campaign against organized crime could never 
justify the false conviction of any man and that I would never 
knowingly participate in any scheme to elicit false testimony 
or to cover up a false conviction.''
    I want you, Mr. Chairman, to know and I want to say it 
publicly that I am absolutely convinced of the veracity of that 
statement. I've known Mr. Harrington for 30 years. We have had 
some disagreements along the way. But I know him to be a man of 
integrity, and I believe Ted Harrington. I yield back.
    Mr. Burton. Mr. Barr. Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. I praise you for the 
tenacity and the focus you have on this situation. And I would 
hope that the Attorney General of the United States will wake 
up and say let's clean house. The new Director of the FBI seems 
to be a very fine person and he ought to look at C-SPAN and 
walk out of his luxurious office there and say the FBI is not 
going to be corrupt and we are going to get to the bottom of 
it.
    And the business of dumping box after box of memoranda at 
the last minute reminds me of most of what we have listened to 
from the Clinton administration. I would hope that this Bush 
administration will not be sort of having a problem of not 
doing anything because the President is invoking executive 
privilege. I think that is just wrong. And it will be a sad 
story if that happens. Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Horn. Mr. Tierney, I believe you 
said you wanted to pass on an opening statement.
    Mr. Tierney. That is correct.
    Mr. Burton. OK. We will get right to it. We will start with 
you, Mr. Rico. Let me swear you in first. Would both of you 
please stand.
    [Witnesses sworn.]
    Mr. Burton. Mr. Rico, do you have an opening statement?
    Mr. Rico. I am accompanied by counsel today. On advice of 
counsel, it is my intention to invoke my fifth amendment rights 
to remain silent in response to every question asked by the 
committee today.
    Mr. Burton. We certainly understand you exercising your 
fifth amendment rights. However, when you were here the last 
time we asked you, I think I had my counsel come out and talk 
to you directly, and I asked you if you wanted to have legal 
counsel advise you. I think you were very graphic, I will not 
comment on exactly what you said, but you said something about 
your age and you did not have anything, that you were not 
concerned about testifying, and you testified. And I am just 
curious about why there is a different attitude today than 
there was the last time you appeared before the committee.
    Mr. Rico. I have my counsel here today and he advised me, 
and I am taking his advice and am invoking my fifth amendment 
right to remain silent in response to every question asked by 
the committee today.
    Mr. Burton. Very well. Could you at least identify your 
counsel, please.
    Mr. Rico. Yes. Peter Parker.
    Mr. Burton. OK. And he is your local counsel from up in 
Massachusetts?
    Mr. Rico. Yes.
    Mr. Burton. OK. Thank you. Judge Harrington, do you have an 
opening statement you would like to make?

   STATEMENT OF EDWARD F. HARRINGTON, SENIOR JUDGE, FEDERAL 
         DISTRICT COURT, FORMER ASSISTANT U.S. ATTORNEY

    Judge Harrington. First of all, I want to thank the 
chairman and the committee for the opportunity to answer your 
questions. I would ask that my full statement be made part of 
the record of these proceedings as well as the one attachment 
which is a memorandum that I prepared on August 28, 1970. With 
the permission of the chairman, I would like to just read 
approximately 10 paragraphs from that statement.
    Mr. Burton. That is fine. And the rest of your statement 
will appear in the record and we will take a look at it.
    Judge Harrington. From 1961 to 1966, over 60 gangland 
figures were murdered in the Boston Gang Wars. Prior to 1968, 
none of these murders was prosecuted. Law enforcement was 
unable to prosecute organized crime because of the essential 
characteristics of organized crime, namely, the insulation of 
the ``boss'' from the overt criminal act, the underworld's code 
of silence, and the threat of reprisal should anyone testify 
against its members. Because of these realities, in order to 
prosecute a major racketeer, accomplice witness testimony was a 
necessity. This was especially so before the legalization of 
court authorized electronic surveillance in 1970.
    In 1967 Joseph Baron was the first of the organized crime 
accomplice witnesses to be developed in New England and one of 
the first such witnesses in the entire Nation. Baron was the 
original witness in the Witness Protection Program and the 
Government's experience gained in protecting him provided the 
basis for the congressional establishment of the formal Witness 
Protection Program in October 1970.
    In the spring of 1967, Baron expressed to the FBI a 
willingness to testify in three prosecutions, namely, the 
Patriarca case involving the charge of conspiracy to travel 
interstate to murder Willie Marfeo, which was tried in the 
Federal court in March 1968; and the DeSeglio and Deegan murder 
cases which were both tried in State court, by District 
Attorney Garrett Byrne's office.
    I was an assistant U.S. attorney assigned to the Federal 
Patriarca case and was not involved in the prosecution of the 
two State murder cases. I never knew the details of Baron's 
testimony concerning the conspiracy to murder Deegan. I never 
discussed the case with him. According to the Massachusetts 
Supreme Judicial Court, Baron's testimony in the Deegan case 
was developed by the District Attorney's office ``in pieces'' 
from July through October 1967.
    I was not cognizant of any information provided by 
confidential informants concerning the Deegan murder. I never 
had any knowledge of the confidential informant reports that 
have recently come to light.
    Walter T. Barnes and I interviewed Baron at Walpole Prison 
on August 28, 1970, after he had been arrested on a gun 
carrying charge in the Commonwealth of Massachusetts. Baron 
requested to see Barnes and me. The information contained in 
our memorandum to James Featherstone of that same date fully 
sets forth what Baron told us during that interview. Baron told 
us that his recantation was false, that it was induced by the 
payment of money funded by the organization, and that his trial 
testimony in the Deegan murder case was truthful. I have asked 
that a copy of that memorandum be made a part of the record in 
these proceedings. At the time of this interview, Barnes and I 
were unaware of Baron's alleged involvement in the killing of 
Clay Wilson in California.
    I was authorized by the Attorney General of the United 
States, after being subpoenaed by defense counsel, to testify 
on Baron's behalf in the Wilson murder case in California in 
1971, to bring to the attention of the court the extent of 
Baron's cooperation with prosecuting authorities in their fight 
against organized crime. The reason for this testimony was 
threefold: The Government had promised to bring the extent of 
his cooperation to sentencing authorities at the time he was 
developed as an accomplice witness; in that Baron was the 
original witness for the Witness Protection Program and as the 
Government's experience gained in protecting him served as the 
basis for the congressional establishment of that program in 
1970, the Government supported Baron to provide needed support 
to the fledgling Witness Protection Program; and three, it 
provided the Government an opportunity to send a signal to 
potential informants and accomplice witnesses that the 
Government would honor its commitments in their cooperation 
with the Government in its fight against organized crime.
    The Justice Department's strategy was very successful. In 
the next several years the Government was able to develop many 
significant accomplice witnesses.
    In summary, I did not try the Deegan murder case and was 
not cognizant of the details of its evidence. I did not believe 
that any information of which I was aware was exculpatory. I 
believed that any recantation by Baron would have been 
perjurious. And I testified at the Wilson murder trial under 
the explicit instructions
of the Attorney General of the United States, after having been 
subpoenaed by Baron's defense counsel.
    Thank you, Mr. Chairman, for the opportunity to make an 
opening statement.
    [The prepared statement of Judge Harrington follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.045
    
    [GRAPHIC] [TIFF OMITTED] T8662.046
    
    [GRAPHIC] [TIFF OMITTED] T8662.047
    
    [GRAPHIC] [TIFF OMITTED] T8662.048
    
    [GRAPHIC] [TIFF OMITTED] T8662.049
    
    [GRAPHIC] [TIFF OMITTED] T8662.050
    
    [GRAPHIC] [TIFF OMITTED] T8662.051
    
    [GRAPHIC] [TIFF OMITTED] T8662.052
    
    [GRAPHIC] [TIFF OMITTED] T8662.053
    
    Mr. Burton. Just 1 second.
    Mr. Barr. Mr. Chairman, the witness kept referring to the 
name ``Baron.'' For clarification, that is Joseph ``the 
Animal'' Barboza, is that correct?
    Mr. Burton. Yes. Mr. Barboza, when he went into the Witness 
Protection Program, that was one of the pseudonyms that he 
used, an alias.
    Mr. Barr. OK.
    Mr. LaTourette. Mr. Chairman, could I make an inquiry of 
the staff. Judge Harrington, when he made his opening remarks, 
referred to a memo I think that was prepared following a visit 
to Walpole Prison. Is that in our exhibit book?
    Mr. Burton. I do not think--did we have that exhibit?
    Mr. Wilson. Mr. LaTourette, that is not in the exhibit 
book. There was a prosecution memo prepared in 1967 that we 
were allowed to review yesterday that the Justice Department 
has not provided to us. Now there was another memorandum that 
was referred to that is attached to Judge Harrington's 
statement.
    Mr. Burton. He wanted to make it part of the record.
    Mr. Wilson. And we have that.
    Mr. Burton. Do members of the committee have that?
    Mr. Wilson. Yes.
    Mr. Burton. They do have that. OK.
    All right, we will proceed. Before we get to questioning, I 
have a couple pages of background information we want to read 
into the record and then we will get started with the 
questioning.
    Teddy Deegan was murdered in 1965. The FBI had considerable 
information about the Deegan murder in 1965. It knew from 
informants and microphone surveillance, wiretaps, and 
surveillance that Joe ``the Animal'' Barboza and Jimmy ``the 
Bear'' Flemmi were involved in the murder. But before this 
information was developed, both Special Agents Rico and Condon 
knew that Flemmi wanted to become a professional assassin.
    On May 25, 1964, Dennis Condon wrote a memo that talks 
about Jimmy ``the Bear'' Flemmi. Mr. Condon said that ``all he 
wants to do now is kill people'' and that ``it is better than 
hitting banks.'' Mr. Condon then indicated that the informant 
told him that Jimmy Flemmi feels he can be the top hit man in 
the area, and he intends to be. That is in exhibit 8 of our 
documents that we have.
    [Exhibit 8 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.058
    
    Mr. Burton. Five months later, Mr. Rico, you wrote a memo 
that says, an informant told you that Jimmy Flemmi wants to be 
considered the best hit man in the area. That is exhibit No. 9. 
A few days later, Mr. Rico, you wrote a memo that says an 
informant told you that ``Jimmy Flemmi wants to kill Teddy 
Deegan.'' That is exhibit No. 10.
    [Exhibits 9 and 10 follow:]
    [GRAPHIC] [TIFF OMITTED] T8662.059
    
    [GRAPHIC] [TIFF OMITTED] T8662.060
    
    Mr. Burton. In late December 1964 Director Hoover was 
informed that Jimmy Flemmi stabbed FBI informant George Ash 50 
times and then shot him. Yet in early 1965, even though it knew 
that Flemmi's professional goal in life was to be an assassin, 
the FBI targeted Jimmy Flemmi to be an informant. That is 
exhibit No. 11.
    [Exhibit 11 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.061
    
    [GRAPHIC] [TIFF OMITTED] T8662.062
    
    Mr. Burton. The day after the FBI indicated that it wanted 
Flemmi as an informant, Mr. Rico wrote a memo that came from 
information that was obtained through microphone surveillance 
of Raymond Patriarca. The memo said that Patriarca gave 
permission for Jimmy Flemmi to kill Edward Teddy Deegan. In 
fact, the memo even says that a dry run had already been made 
and that Deegan would be set up by a close associate. This 
information was important enough that it was sent to FBI 
Director J. Edgar Hoover in Washington. Two days later, 
Director Hoover and three office supervisors in Albany, 
Buffalo, and Miami were sent the following information by 
AirTel: ``James Flemmi and Joseph Barboza contacted Raymond 
Patriarca and they explained that they are having a problem 
with Teddy Deegan and desired to get the OK to kill him. Flemmi 
stated that Deegan is an arrogant, nasty sneak and should be 
killed.''
    Mr. Rico, I will skip the questions for you right now. And 
I think I will yield time starting off to--well, we will skip 
the questions for right now.
    Later the same day that the FBI Director got the 
information about the plan to kill Deegan, Deegan was murdered 
in an alley in Chelsea, MA. The day after the Deegan murder, 
Agent Rico wrote a memo describing in detail who killed Deegan 
and how the murder was carried out. This memo says that 
``Informant advised Vincent Jimmy Flemmi contacted him and told 
him that the previous evening Deegan was lured to a finance 
company in Chelsea and that the door to the finance company had 
been left open by an employee of the company, and when they got 
to the door Roy French, who was setting Deegan up, shot Deegan 
and Joseph Romeo Martin and Ronnie Cassesso came out the door 
and one of them fired into Deegan's body. While Deegan was 
approaching the doorway, he [Flemmi] and Joe Barboza walked 
over toward the car driven by Tony Stats and they were going to 
kill Stats but Stats saw them coming and drove away before any 
shots were fired. Flemmi told informant that Ronnie Cassesso 
and Romeo Martin wanted to prove to Raymond Patriarca that they 
were capable individuals and that is why they wanted to hit 
Deegan. Flemmi indicated they did an awful sloppy job.''
    A few days later, on March 19, 1965, the head of the FBI 
office in Boston sent an AirTel to FBI Director Hoover. It 
states: ``Informants report that Cassesso, Martin, Vincent 
James Flemmi, and Joseph Barboza were responsible for the 
Deegan killing.''
    On June 4, 1965, the head of the Boston office sent another 
memo to Director Hoover. It is about Jimmy Flemmi. It states: 
``It is known through other informants and sources that this 
individual [Jimmy Flemmi] has been in contact with Raymond 
Patriarca and other members of La Cosa Nostra in this area and 
potentially could be an excellent informant. Concerning the 
informant's emotional stability, the agent handling the 
informant believes from information obtained from other 
informants and sources that [the FBI code number for Vincent 
Jimmy Flemmi] murdered,''--and then we have some redacted 
information that we do not have--``Edward Teddy Deegan and 
[blank] as well as a fellow inmate at the Massachusetts 
Correctional Institution at Walpole, Massachusetts, and from 
all indications he is going to continue to commit murder. 
Although the informant will be difficult to contact once he is 
released from the hospital because he feels that [blank] will 
try to kill him, the informant's potential outweighs the risk 
involved.''
    The FBI Director was told, Mr. Hoover was told that Flemmi 
had previously murdered seven people, including Teddy Deegan. 
There are dozens of additional details that are important, but 
that provides a summary of what was known by the FBI in 1965.
    Joe Barboza and Jimmy Flemmi killed people for money and 
they killed people for pleasure. The FBI wanted Jimmy Flemmi 
and his brother Stevie ``the Rifleman'' Flemmi to be 
informants. The FBI had microphone surveillance information 
that Flemmi and Barboza were going to kill Deegan, and the FBI 
had information that Flemmi and Barboza did kill Deegan. 
Neither Flemmi nor Barboza appear to have been questioned about 
the Deegan murder in 1965 and nothing happened to them.
    Two years passed and Joe Barboza was arrested in 1967 on an 
unrelated crime and faced a 70 year prison sentence. The FBI 
assigned H. Paul Rico and Dennis Condon to work with Barboza to 
see if they could get him to become a cooperating witness. They 
convinced Barboza to testify in three different trials. One of 
the trials was for the murder of Teddy Deegan. Before the 
trial, however, Barboza told Mr. Rico and Mr. Condon something 
that was very important. In one of those very first interviews, 
Barboza told Mr. Rico and Mr. Condon he would never provide 
information that would allow James Vincent Flemmi to ``fry.''
    We will now go to the questions and we will start off with 
Mr. Barr. I will reserve my time, Mr. Barr.
    Mr. Barr. Mr. Rico, I would like to ask you a question that 
has nothing to do with testimony in this case. But over the 
years, I am sure as an FBI Special Agent you had a lot of 
witnesses that took the fifth. You knew they were guilty of 
something and that is why they took the fifth. Are you 
comfortable being in that position yourself today?
    Mr. Rico. I invoke my fifth amendment right to remain 
silent in response to that question.
    Mr. Barr. I heard you. I am just looking at you, something 
to look at. Very interesting. I hope you sleep well at night.
    Judge Harrington, on December 20, 2001, committee staff 
interviewed you and you told us that you were not privy, and 
that is consistent with your statement today, to information 
that Barboza was providing Rico and Condon. But 3 days ago you 
made the following statement to Boston reporter Dan Rea, and I 
would like to run that tape, exhibit No. 18: ``. . . Vincent 
Jimmy Flemmi. [Mr. Harrington:] He told the Bureau, and I was 
informed of it, that of all the murders that he was involved 
in, and Baron was reputed to be in over twenty murders, he 
would not testify in those murders in which Jimmy Flemmi was 
involved.''
    [Exhibit 18 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.075
    
    Judge Harrington. That is a correct statement, sir.
    Mr. Barr. OK. And how do you square that with your 
statement today, basically sort of the Ken Lay approach, that 
you knew nothing and do not know anything?
    Judge Harrington. I do not think I meant to convey that. If 
I did, I am sorry. I indicated in my opening statement I 
thought that I was unaware of any informant information 
relating to the Deegan murder case. When I heard that, what I 
just spoke of, from the FBI agents, that is what they conveyed 
to me from Joseph Baron, not from any informant. Joseph Baron, 
in my mind, was an accomplice witness at that time and not an 
informant. So if there is any ambiguity, I am quite sorry. But 
my statement there on TV was absolutely correct and I do not 
believe that it is inconsistent with my opening statement.
    Mr. Barr. It is your testimony here today that whatever you 
now know about or previously knew about information that 
Barboza was providing to Rico and Condon about committing 
murders that was all information conveyed to you long after the 
fact.
    Judge Harrington. That is not so.
    Mr. Barr. When was it that you found out what Barboza----
    Judge Harrington. My statement is that I had no detailed 
knowledge of Baron's testimony in the Deegan murder case and 
that I had no information regarding informant information that 
had been provided to the Bureau on the Deegan murder case. I 
knew what Baron was going to testify on the Federal Patriarca 
case because I was assigned to that case, I tried that case. So 
I am making the distinction between the Federal Patriarca case 
in which I was assigned as an assistant U.S. attorney and the 
Deegan murder case which was tried in State court by the 
District Attorney of Suffolk County. I did not know anything--
anything--about Baron's testimony with respect to the Deegan 
murder case nor any informant information regarding it.
    Mr. Barr. Did you ever discuss it with Mr. Rico?
    Judge Harrington. Did I ever discuss what with Mr. Rico?
    Mr. Barr. Mr. Barboza.
    Judge Harrington. Of course, I discussed with Mr. Rico 
about Mr. Barboza, but with respect to the Federal Patriarca 
case, not the State Deegan murder case.
    Mr. Barr. Give me some feel for how such a conversation 
would take place. You have Mr. Rico who is well aware of 
basically the entirety of Mr. Barboza's criminal activities, 
both historical and current, and you are sitting there talking 
to him as an assistant U.S. attorney tasked with a prosecution 
and Mr. Rico starts to tell you something about the State case, 
do you say, please, do not go into that, I do not want to know 
about that. How could you compartmentalize----
    Judge Harrington. I do not think I said that.
    Mr. Barr. How could you compartmentalize the information 
about this?
    Judge Harrington. I do not think I said----
    Mr. Barr. As a prosecutor, wouldn't you have wanted to find 
out everything there is to know about this person?
    Judge Harrington. I will say it again. I never discussed 
the Deegan murder case with Joseph Barboza or with Mr. Rico. I 
was assigned to the Federal case. That is what I concentrated 
on.
    Mr. Burton. Would you yield to me, please?
    Mr. Barr. I yield to the chairman.
    Mr. Burton. There was a wiretap----
    Judge Harrington. There was a bug. It was a bug.
    Mr. Burton. OK, there was a bug. And in that bug, we looked 
at the document yesterday which came from the bug, and in that 
there was a conversation between Joe ``the Animal'' Barboza, 
who you keep calling Baron, and Flemmi and Patriarca, and in 
that they said they wanted to kill Deegan. That information was 
never brought out in the State trial but you knew about it. No, 
wait a minute----
    Judge Harrington. No, I am----
    Mr. Burton. Just a minute. I know that you were not 
involved in that trial but you knew about it ahead of time. And 
I cannot understand as a prosecutor, knowing that Barboza and 
Flemmi had asked Patriarca for permission to kill Deegan, you 
knew they were involved, you knew that it was not bought up in 
the trial, you knew that four people were being prosecuted for 
it, but not Barboza and Flemmi, and you had exculpatory 
information at your disposal and yet it never was brought out 
during that trial. Now you were the prosecuting attorney in the 
Patriarca case but you knew while this very infamous trial was 
going on that it was Barboza and Flemmi that wanted to kill 
Deegan. Why didn't you tell somebody that? Why didn't that come 
out in the trial? You knew about it ahead of time.
    Judge Harrington. Could I explain it.
    Mr. Burton. Yes. I would like for you to explain it.
    Judge Harrington. There are certain matters and sequence of 
events that would have to be explicated, and I am prepared to 
do it. First of all, I would like to tell the staff that when 
they saw me on December 20 they were asking me questions 
relating to matters that were 35 years ago and I told them that 
at that time I had no memory of the references in the Patriarca 
bug, and that was truthful.
    Approximately a few weeks later, the FBI Task Force came to 
me and provided me with my pros memo that Walter Barnes and I 
had prepared in May and April 1967. Prior to their providing me 
with the pros memo, I had no memory that I had even written 
this pros memo which was, looking at it, 30 or 40 pages. This 
pros memo related to our need to have the Department of Justice 
approve the prosecution of Raymond Patriarca in the Federal 
case. There were two references, at least two references were 
shown to me about the logs from the Patriarca bug. I want to 
just give you the sequence so you will know.
    In preparing that pros memo, I was focusing on two things: 
One, whether the results of the illegal Patriarca bug would 
taint the Federal Patriarca case; and second, whether there was 
anything in the logs of the Patriarca bug that would 
corroborate Baron's testimony in the Patriarca case. I reviewed 
those logs with Walter Barnes, 3 years of logs, in April and 
May 1967. Baron's testimony in the Deegan State murder case was 
developed in pieces by the District Attorney's office of 
Suffolk County, according to the Supreme Judicial Court's 
opinion in that case, from July 1967 to October 1967.
    Now why did we have two references at least in the Deegan 
murder case in the Patriarca pros memo? The fact that reference 
that Patriarca gave authority to Baron to kill Deegan tended to 
corroborate his testimony in the Federal Marfeo case because it 
showed two things. One, that Joseph Baron had personal access 
to the boss of the New England Mafia. That was something that 
some people, including me, thought might not have been valid. 
The second reason why it tended to corroborate Baron's 
testimony in the Federal Patriarca case is it showed that he 
received authorizations to kill from Patriarca. And that, 
again, substantiated his testimony in the Federal Marfeo case.
    So at the time, 5 months later, when the Deegan murder 
indictments came down, 5 months after I had gone through the 
logs, and James Flemmi's name was not named as a defendant, I 
had no memory at that time of these two references. That is the 
fact. And the reason is because I was exclusively involved on a 
daily basis for prosecuting the major criminal figure in New 
England for 35 years and that was my object.
    Mr. Burton. With the consent of the committee, I want to 
followup on this. Now Patriarca would have been guilty of 
complicity in a murder by giving permission to Barboza and 
Flemmi to kill Deegan.
    Judge Harrington. No doubt about it.
    Mr. Burton. There is no question about that.
    Judge Harrington. No doubt about it.
    Mr. Burton. Now if you knew that Patriarca had given 
approval to kill Deegan, then why didn't you prosecute him for 
that case? Because that was before the case in which you did 
prosecute him.
    Judge Harrington. The reason why we would not prosecute him 
for that case is because it was a murder case. But the fact 
that I said nothing when I did not see Patriarca's name as a 
defendant in the Deegan murder case proves that at that time, 5 
months later, I had no memory of the one reference in 3 years 
of logs that I had looked at 5 months earlier.
    Mr. Burton. Well, it stretches credulity as far as this 
Member is concerned. It stretches credulity, Judge, that you 
would have bugged recordings that showed that Barboza and 
Flemmi asked Patriarca for permission to kill Deegan. That was 
a murder charge that could have been used against him and that 
would have stuck in your memory like a hot iron because you 
were after this guy. And if that information stuck in your mind 
and then you saw the Deegan murder trial at which four people, 
not Barboza and not Flemmi, were on trial, that you would have 
had this exculpatory memory emblazoned in your mind because you 
were after Patriarca in the first place. And for you to say 
that you did not remember it just stretches my imagination, 
stretches credulity.
    Judge Harrington. I think the record should be clear. These 
logs, of which one reference I was supposed to remember 5 
months later, were available to counsel for the defendants in 
the Patriarca case, two of which counsel were counsel for the 
defendants in the Deegan murder case. So the defendants in the 
Deegan murder case were well aware of this reference to 
Patriarca, Baron, and Flemmi.
    Mr. Burton. How do you know that the defense counsel for 
the defendants in that murder case, the Deegan murder case had 
access to this information about Barboza and Flemmi asking 
Patriarca for permission to kill Deegan?
    Judge Harrington. It is my understanding and memory that 
they were so authorized under court order.
    Mr. Burton. We will have to check that out, because I 
cannot imagine defense counsel not bringing that exculpatory 
information before when there are four people up on a murder 
charge and three of those people were not involved in that 
murder. It would be a dereliction of their responsibility to 
not bring that out. And so I am going to find out if they had 
that information.
    Judge Harrington. Could I answer the chairman. The reason 
they did not bring it out is because if they had brought out 
the fact on cross-examination that the Deegan murder was a 
sanctioned hit coming from Rhode Island and also concurred in 
by the Boston mob, two other individuals would have gone down, 
obviously; namely, Henry Tameleo, the alter ego of Raymond 
Patriarca, and Peter Limone, the alter ego of Gennaro Angiulo.
    Mr. Burton. So?
    Judge Harrington. So if it was an authorized hit, as the 
logs seem to say it was, then Limone and Tameleo are there. 
Because at that time there was no authorized hit in 
Massachusetts that was not authorized by Patriarca or Tameleo 
and concurred in by Angiulo and Limone.
    Mr. Burton. I know, but that is not the point. You had four 
people, three of whom were not guilty of the Deegan murder, on 
trial. Their defense attorneys, you are telling us, had access 
to this information, this exculpatory information that Barboza 
and Flemmi asked Patriarca for this hit on Deegan. And for 
defense counsel to have that information when their people are 
up on a murder charge and not bring that out in court does not 
make any sense. It just does not make any sense.
    Judge Harrington. I did not say all of them. I said the 
counsel for Henry Tameleo and counsel for Ronald Cassesso, who 
were the defendants in the Federal Patriarca case, were also 
counsel for those two same defendants in the Deegan murder case 
and they had access to the logs under court order.
    Mr. Burton. What about the counsel for Mr. Salvati?
    Judge Harrington. Mr. Salvati was represented by the law 
firm of Henry Tameleo's lawyer.
    Mr. Burton. And so you are saying that there was collusion 
between them to keep this under wraps.
    Judge Harrington. I am not saying it at all.
    Mr. Burton. His attorney is right here right now, Mr. 
Salvati's attorney.
    Judge Harrington. I am not saying that. Mr. Garo was not 
counsel for Mr. Salvati at that time.
    Mr. Burton. So Mr. Salvati's counsel was connected to the 
law firm that was----
    Judge Harrington. He was. He was an associate of the lead 
attorney in the Deegan murder case.
    Mr. Wilson. Judge Harrington, just to try and clarify this 
one issue. It is my understanding that in the Patriarca case, 
the Federal case, the information that would have been turned 
over to the defense might not have been all of the Patriarca 
logs but it would have been information that was germane to 
Patriarca's involvement in the Marfeo murder conspiracy. Is 
that correct?
    Judge Harrington. I do not know. I do not know. But I was 
told, when I was interviewed by the Task Force of the FBI, when 
for the first time in 35 years they showed me my exhaustive 
prosecution memo on the Patriarca case, they advised me and 
they refreshed my recollection that Tameleo and Cassesso's 
lawyer had access to the logs of the Patriarca bug. How much 
they were, I do not know, they did not say that and I did not 
question it.
    Mr. Wilson. Well this is an important distinction, because 
in the Taglianetti case it is true that the Taglianetti defense 
lawyers only got a very small subset of the Patriarca logs. 
Correct?
    Judge Harrington. That is correct.
    Mr. Wilson. So it would stand to reason that in the 
Patriarca Federal case the defense lawyers would only get 
information that was germane to the Patriarca case.
    Judge Harrington. I do not think that is true. And the 
reason is this, sir, if I can explain. The real first reason we 
were obligated by the Department of Justice to review the 3-
years of the logs of the illegal Patriarca bug was to ensure 
that there would be no taint, no taint that would prevent our 
proceeding in the Federal case. Therefore, we reviewed all the 
logs and it is my belief, sir, my belief, that all the logs 
were made available to defense counsel in the Federal case.
    Mr. Burton. Let me just followup. But you did know from the 
illegal bug, you did know while the case was going on in which 
these four defendants were up for murder on the Deegan case, 
you did know at that time that there had been a conversation 
between Flemmi, Barboza, and Patriarca about the murder. 
Barboza, Flemmi, and Patriarca had a conversation. You knew 
when the trial was going on that these four people were on 
trial in the Deegan murder case, you already knew that 
conversation took place. So you had exculpatory information at 
your disposal. And what you are saying is that you were 
prohibited from divulging that information because of the 
Patriarca case that you wanted to prosecute later on.
    Judge Harrington. No. That was not the reason, sir.
    Mr. Burton. Well why did--when you were reading in the 
newspapers that these four people were going to be convicted 
and you knew that Barboza and Flemmi had talked to Patriarca 
about this hit, why didn't you say something? These four guys--
he spent 30 years in jail for a crime he did not commit and you 
had this exculpatory information at your disposal and you did 
not say anything about it. Why?
    Judge Harrington. In brief, sir, I reviewed the logs in 
April and May 1967. There was one reference or two to the 
Deegan case. When the indictment came down 5 months later I had 
no memory of this particular reference. But if I had--if I 
had--it would have been consistent with my general 
understanding of the Deegan prosecution; namely, that it was an 
authorized hit emanating from Providence and concurred in by 
the Boston faction.
    Mr. Burton. I understand that. But two of the people that 
were involved in the hit, Barboza and Flemmi, were never 
prosecuted for that and innocent people went to jail. And that 
information that you had was never brought out. So 30 years of 
a man's life went by and some other people's lives went by. I 
cannot understand when you did read that it did not ring a bell 
in your head saying why in the world was this not brought out 
in the trial.
    Judge Harrington. Because, Mr. Chairman, I did not know the 
details of Baron's testimony in the Deegan case and at the time 
of that trial I had no memory of this one reference or two 
references to the Deegan case in logs that I had checked out 5 
months earlier. I just didn't.
    Mr. Burton. I am not going to belabor this. But you were 
trying to nail this mob boss and you knew this conversation----
    Judge Harrington. It was the policy of the U.S. Department 
of Justice.
    Mr. Burton. I know. But you were trying to nail this mob 
boss and you knew he had this conversation with these two 
people, and you are telling us that you just forgot it and 5 
months later you did not remember it. That does not make any 
sense because he would have been complicitous in a murder 
because he authorized the hit. And you are telling us you 
forgot that 5 months later and that is why you did not bring 
this exculpatory evidence out.
    Judge Harrington. The proof that I forgot it is that if I 
had remembered I think I would have gone to Garrett Byrne and 
said how come you are not prosecuting Raymond Patriarca for 
murder. The fact that I did not do it proves that I had no 
memory of this reference 5 months earlier.
    Mr. Burton. Well, that does not sit with me because I do 
not think you would have forgotten that.
    Mr. LaTourette. Mr. Chairman, before you yield to Mr. 
Tierney, could I just ask a procedural matter, with Mr. 
Tierney's indulgence.
    Mr. Burton. Sure.
    Mr. LaTourette. I heard the Judge in your questioning talk 
about the fact that the Department of Justice came to him with 
a 30 to 40 page prosecution memorandum to help refresh his 
recollection after our counsel met with him in December. And my 
question is, do we have a copy of that? Then the question I 
have is--and I took in response to Mr. Barr's questioning of 
Mr. Rico and his previous observation that he is not going to 
answer any questions and he is going to invoke the fifth 
amendment. I see on the second panel you have a member of the 
Department of Justice. I think it is unusual that the Justice 
Department will not give to the Congress of the United States 
these documents, however they are giving them to people who are 
about to appear in front of us. I do not have any problem with 
the Judge reviewing his own memo from 35 years ago. But my view 
would be that if the Judge can see it, I cannot quite figure 
out why we cannot see it, too, as we go through the questioning 
of Judge Harrington today.
    There is also some questions about redactions that have 
been made by the Department of Justice in some of these 
reports. This Member, speaking only on behalf of myself, would 
find it instructive to perhaps replace the silent Mr. Rico with 
the member from the Department of Justice so that we have Judge 
Harrington and the Department of Justice side by side on the 
same panel so we can explore those issues.
    Mr. Burton. I think that makes sense. Mr. Rico is not going 
to testify today because of his fifth amendment rights. So why 
don't we excuse you now, Mr. Rico, you and your counsel.
    And let's have the Department of Justice come up and we 
will swear him in right now. And then we will let the members 
of the panel quiz them side by side. We will stand in recess 
for just a moment.
    [Recess.]
    Mr. Burton. The attorney for the Justice Department will 
come forward. If he chooses not to--because this information, 
for the media and for everybody, this information was given to 
Judge Harrington over 2 weeks ago and the Justice Department 
decided to let us see it last night knowing full well that we 
would not have time to digest everything. And so the attorney 
for the Justice Department will come forward now or else we 
will move on a contempt citation. This stuff has got to stop. I 
do not know what the heck is going on over there, but this is 
nonsense.
    Let me swear in the witness, Mr. Bybee.
    [Witness sworn.]
    Mr. Burton. OK, I think Mr. Tierney is next.
    Mr. Tierney. Thank you, Mr. Chairman. Judge, let me ask 
some questions from another point in time in this process. 
While the prosecution was going on in California with respect 
to the allegation and what turned out to be the murder of Clay 
Wilson by Mr. Baron [or Mr. Barboza]. There is information that 
you went to California and had a visit with Mr. Barboza while 
he was in prison.
    Judge Harrington. I did.
    Mr. Tierney. What occasioned that visit?
    Judge Harrington. I was sent out there by the Organized 
Crime Section of the Department of Justice to determine whether 
Baron had been set up on this charge; namely----
    Mr. Tierney. Not to be rude but we only have 5 minutes so I 
want to try to get this where I want to go.
    Judge Harrington. Sure.
    Mr. Tierney. And I do not get a chance to go after judges 
often so we get them to do what we want to do. Who contacted 
you and asked you to go? Who, specifically?
    Judge Harrington. I think it was either James Featherstone 
or Bill Lynch, who at that time were running the Organized 
Crime Section of the Department of Justice. But in view of the 
fact that Baron was charged with a murder and he was such a 
significant breakthrough in the Government's effort in 
organized crime, and we knew that the organization was going to 
retaliate against him, either kill him, as they ultimately did, 
or get him in trouble, our first decision was to determine 
whether he was in fact involved in this murder. So I went out 
there to speak with him to find out if this was a set up, are 
you being framed, or were you involved.
    Mr. Tierney. Do you think it was a little unusual that you 
went out there without first contacting the prosecuting 
attorney involved in that murder case?
    Judge Harrington. I think that has been overblown. It was 
my intention to find out first what the situation was and then 
immediately report to the District Attorney's office. I had no 
reason not to go to him. But my main responsibility was to 
determine whether Baron was being framed. Here is a man who 
after 6 years of the Department of Justice conducting 
intelligence gathering but had not had one single case, we see 
Baron, the first witness in the Witness Protection Program, 
involved with being charged with murder. We had to go out and 
find out whether he was in fact involved. And that was my 
purpose.
    Mr. Tierney. But knowing his background, it could not have 
been a surprise to you that he was charged with a murder.
    Judge Harrington. Well, I thought that after he joined the 
Witness Protection Program that maybe he would try to stay 
within the bounds of the law. It is obvious that a mistake was 
made. However, the Witness Protection Program was authorized by 
the Congress of the United States because they saw that in the 
long run we are going to have some failures but overall it has 
been an effective tool against the organized underworld.
    Mr. Tierney. At the same time you went out to see Mr. 
Barboza, you did not even contact his lawyer to tell him that 
you were going to see him in person. Is that right?
    Judge Harrington. I think on that first trip I did meet 
with his lawyer.
    Mr. Tierney. Before you saw Barboza?
    Judge Harrington. In conjunction therewith. I do not know 
who I saw first. I wanted to see Baron first myself. But on 
that, it is my memory that in conjunction with that visit I 
spoke with both the District Attorney and----
    Mr. Tierney. But they may well both have been after you saw 
Barboza?
    Judge Harrington. There is no doubt I saw Barboza first.
    Mr. Tierney. OK. At the time you went out there, did you 
know that the prosecuting attorney had already written to both 
FBI Director Hoover and U.S. Attorney Mitchell indicating his 
concerns about the fact that you and FBI agents might be going 
out there to testify in that trial?
    Judge Harrington. I do not know when I knew that. But I 
knew that the prosecuting attorney was not happy with the 
Government's effort to support Baron.
    Mr. Tierney. In all of your career, on how many occasions 
did you testify as a character witness for a murderer?
    Judge Harrington. Well I never testified as a character 
witness. What I testified to was the extent of his cooperation 
with the U.S. Government. I never said that Joe Baron was a 
good fellow.
    Mr. Tierney. In all of your career, how often did you 
testify to somebody's involvement in the program or with the 
Government?
    Judge Harrington. Well, I think it was the only so-called 
accomplice witness who after he had been developed was engaged 
in a murder trial. So I would say he was the only one.
    Mr. Tierney. How is it the decision was made that you and 
the FBI agents would actually take the step of testifying for 
the defense in that trial?
    Judge Harrington. We were subpoenaed, first of all. I have 
my subpoena right here.
    Mr. Tierney. Were you a reluctant witness, Mr. Harrington?
    Judge Harrington. I was not. I was subpoenaed because 
defense counsel wanted us, and, second, I was authorized by the 
Attorney General under explicit instructions. So my appearance 
out there----
    Mr. Tierney. Did those instructions, your authorization 
from the Attorney General come after the Attorney General was 
contacted in writing by the prosecuting attorney expressing his 
concerns?
    Judge Harrington. I do not know when the prosecuting 
attorney wrote that letter to the Attorney General. But I was 
accepting my orders from the Attorney General and the Organized 
Crime Section. They thought it was an important effort at that 
time. And the reason why it was important is because we sent a 
signal for the first time to the underworld that the Government 
would abide by its commitments. And in so doing, many 
accomplice witnesses were developed in New England and 
throughout the United States.
    Mr. Tierney. At the time you testified in that Wilson trial 
in California, what was your knowledge about Mr. Barboza's 
criminal involvement at that time? Did you have an idea of how 
many murders he had been implicated in?
    Judge Harrington. I think he was reputed to have been 
involved in at least 20 murders.
    Mr. Tierney. And knowing that, it was still the 
determination of the Department to send you and FBI agents out 
to testify at that trial?
    Judge Harrington. It was. And it seems in retrospect 
different. But this was in the early days of a national 
governmental effort to root out a national scourge, and Baron, 
being what he was, was the only type of individual who would be 
able to provide the evidence necessary to convict major 
racketeers.
    Mr. Burton. Let me, before I yield to Mr. Horn, ask two 
quick questions. You were subpoenaed by the defense to testify. 
Was that after you went out to see Mr. Barboza?
    Judge Harrington. After I went out?
    Mr. Burton. Yes.
    Judge Harrington. Oh, yes. I was subpoenaed for the trial 
which took place I would say 6 months later.
    Mr. Burton. After. And the FBI agents, I do not know if 
they were subpoenaed or not, do you know about that?
    Judge Harrington. I am sure they were subpoenaed. I think 
they were subpoenaed.
    Mr. Burton. OK. So you go out and you meet with a man who 
is on trial for murder who has killed 26 people, and after you 
meet with Mr. Barboza you talk to his defense counsel, and the 
defense counsel knows a U.S. attorney very prominent in Boston 
is out there on Barboza's behalf, and then he subpoenas you. It 
sounds to me like you were subpoenaed because he knew you were 
going to be a friendly witness because you were out there 
seeing Barboza.
    Judge Harrington. There is no doubt about it.
    Mr. Burton. Yes. So you probably would not have been 
subpoenaed if you had not gone out there?
    Judge Harrington. That is true. But it was a judgment of 
the Department of Justice, for the reasons I gave in my opening 
statement, that we wished to support this person.
    Mr. Burton. Did you suggest to the defense counsel that you 
would be willing to be a witness if you were subpoenaed?
    Judge Harrington. I am sure I did.
    Mr. Burton. Ah. OK. Now the other thing I want to ask is, 
obviously when you are dealing with the underworld and you have 
an informant that is going to cooperate in exchange for 
leniency and you are going to put them in the Witness 
Protection Program, obviously you want to help them for past 
offenses. The big problem is he killed 26 people before that. 
You were out there after he was put in the Witness Protection 
Program and he murdered another person. If a person is in the 
Witness Protection Program and you have given them free rein 
because they are cooperating with you, have cooperated in the 
past, why do you excuse another murder? And how many will you 
excuse before you take them to task? How many times do you go 
to defend these crudballs?
    Judge Harrington. All I can say is that he was the first. 
He was more significant than most accomplice witnesses. He was 
the breakthrough. He was a very significant figure not only in 
the fight against organized crime, but in the establishment of 
the Witness Protection Program. He was somewhat unique, Mr. 
Chairman.
    Mr. Burton. Judge, Judge, Judge, the guy murdered 26 
people. I can understand you working with him, putting him in 
the Witness Protection Program. But then he murdered another 
guy, and maybe more than that, and you are out there defending 
him. You got him into a prison on a 5-year sentence for a 
murder that was a slam-dunk murder case and then he was out in 
about 3 or 4 years. And when he was in prison his attorney told 
us yesterday he was making calls on a regular basis like he was 
at some country club, he was smoking marijuana while he was in 
there. He had the life of Riley. And he was out early. He 
killed this Mr. Wilson and God only knows who else he might 
have killed. I can understand working with these crudballs to 
get other crudballs higher up the food chain. But he had 
murdered another person and you are out there defending the 
guy.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. We have already had 
exhibit No. 18 and I just want to get moving. On December 20, 
committee staff interviewed Judge Harrington and, Judge, you 
told the staff that you were not privy to the information that 
Barboza was providing to Rico and Condon. But 3 days ago Judge 
Harrington made the following statement to Boston reporter Dan 
Rea, that is exhibit No. 18 that we showed already, and that 
is, ``Barboza told the Bureau, and I was informed of it, that 
all of the murders he was involved in, and Barboza was reputed 
to be in over twenty murders, he would not testify in those 
murders in which Jimmy Flemmi was involved.'' Judge, the 
Justice Department apparently let you review some documents 
between December 20th and this week, is that correct?
    [Exhibit 18 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.075
    
    Judge Harrington. I do not think they let me review it. 
They are conducting I think a concurrent investigation and they 
questioned me about some of these matters that this committee 
is. And during the course of the questioning they showed me 
certain documentation. One such documentation was my pros memo 
of 35 years ago, which when I spoke with your staff I had no 
memory of. But in answer to your question, I hope that pros 
memo is made public because it shows one thing; that as far as 
the Federal Patriarca case was concerned, there was an 
exhaustive enolization of the statute, the corroborative 
evidence, and the credibility of Baron with respect to that 
case. So I would hope that some day that pros memo is made 
public.
    Mr. Horn. Well, I can understand that. After December 20, 
did you have any discussions with Justice personnel about any 
documents relating to Barboza more than what we know about?
    Judge Harrington. I do not know what you know. But they did 
show me some informant reports that I was unaware of back in 
1967, but not for the purpose of so-called prepping me for 
these proceedings, but to undergo interrogation by them on the 
same subject matter.
    Mr. Horn. Now my understanding is that the statement that 
was just part of exhibit No. 18, did you review the Patriarca 
tapes and was there any information against Flemmi? What was 
the statement on that, and were you aware of that?
    Judge Harrington. When I spoke with the FBI Task Force 
representative sometime in January I remember one log from the 
Patriarca bug which showed that Baron-Barboza and James Flemmi 
sought permission from Raymond Patriarca to kill Edward Deegan. 
I did see that.
    Mr. Horn. When Barboza was interviewed were Federal 
officials always with him?
    Judge Harrington. When Baron was interviewed on the 
Patriarca case those statements were taken by FBI agents. When 
Baron was interviewed with respect to the State Deegan murder 
case, those statements were taken by the District Attorney's 
office.
    Mr. Horn. Did you at that time have discussions with the 
Suffolk County District Attorney, I assume that is Garrett 
Byrne's office that you are referring to, and----
    Judge Harrington. I am.
    Mr. Horn. And regarding the information the FBI had 
developed through informants and the secret Patriarca and the 
Angiulo listening devices regarding the Deegan murder. I think 
when you were going through the confirmation process to become 
a Federal judge you pointed to the development of Barboza as a 
cooperating witness as one of your major professional triumphs. 
Were you always satisfied that Barboza was telling the truth?
    Judge Harrington. I was.
    Mr. Horn. We have exhibits No. 20 and 21, Mr. Chairman, 
that I would put into the record.
    Mr. Burton. Without objection.
    [Exhibits 20 and 21 follow:]
    [GRAPHIC] [TIFF OMITTED] T8662.081
    
    [GRAPHIC] [TIFF OMITTED] T8662.082
    
    [GRAPHIC] [TIFF OMITTED] T8662.083
    
    [GRAPHIC] [TIFF OMITTED] T8662.084
    
    [GRAPHIC] [TIFF OMITTED] T8662.085
    
    [GRAPHIC] [TIFF OMITTED] T8662.086
    
    [GRAPHIC] [TIFF OMITTED] T8662.087
    
    [GRAPHIC] [TIFF OMITTED] T8662.088
    
    Judge Harrington. Could I make one response, sir, on your 
question that I do not think I fully responded to. Just Tuesday 
of this week in the Boston Herald Jack Zalkind, the District 
Attorney who tried the Deegan murder case, stated: ``I never 
spoke with Edward Harrington with respect to this matter.''
    Mr. Burton. We will come back to you.
    Mr. Horn. Just one question, if I might.
    Mr. Burton. OK. Sure.
    Mr. Horn. How did you learn about Barboza's statement that 
he would not give any information about Vincent Flemmi? How did 
you learn that?
    Judge Harrington. That was provided to me by the FBI agents 
who spoke with Baron very early on. My statement and my opening 
statement is that I never had any information regarding 
informants, not that the FBI did not tell me something after 
Baron had been turned as a witness.
    Mr. Burton. Thank you, Mr. Horn. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. Judge Harrington, I 
just asked a staff member to give you a memorandum, it is 
exhibit No. 15. If you will just take a moment to review it. It 
is entitled ``AirTel to the Director of the FBI from the SAC, 
the Special Agent in Charge, in the Boston Office,'' and it is 
the criminal intelligence program of the Boston division.
    [Exhibit 15 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.068
    
    [GRAPHIC] [TIFF OMITTED] T8662.069
    
    Judge Harrington. I have read it, sir.
    Mr. Delahunt. The pertinent language there is, ``Informants 
report that Ronald Cassesso, Romeo Martin, Vincent James 
Flemmi, and Joseph Barboza, prominent local hoodlums, were 
responsible for the killing. They accomplished this by having 
Roy French, another Boston hoodlum, set Deegan up in a proposed 
breaking-and-entering in Chelsea, Massachusetts.'' Again, this 
is dated March 19, 1965. It is your testimony--let me pose the 
question to you, you never saw this memorandum?
    Judge Harrington. Never did. In fact, I just note the date 
was March 19, 1965. At that time, I was a trial attorney with 
the Department of Justice here in Washington. I came to Boston 
as an assistant U.S. attorney approximately 10 days later. But 
to answer your question, I never saw it.
    Mr. Delahunt. But even during the course of your 
prosecution of Patriarca and your efforts in terms of dealing 
with organized crime?
    Judge Harrington. My memory is that I never saw this 
informant report.
    Mr. Delahunt. In this case there is no reference to Joseph 
Salvati, there is no reference to Peter Limone, there is no 
reference, and if someone could help me with those that were 
charged with the Deegan murder, I think there are two other--
Louie Greco and Henry Tameleo, there is absolutely no reference 
to those four individuals.
    Judge Harrington. Not in this informant report. But I do 
not think, on review of the Supreme Judicial Court's opinion in 
the Deegan murder case, that anybody ever claimed that Peter 
Limone and Henry Tameleo, major figures, had anything to do 
with the actual killing.
    Mr. Delahunt. Right. Let me suggest to you that Special 
Agent Dennis Condon testified in the State case on Deegan. You 
know that Special Agent Rico and Dennis Condon worked together 
in tandem over a long period of time.
    Judge Harrington. I do know that, yes, at least during this 
era. I know later Mr. Rico teamed up with Mr. Robert Sheehan.
    Mr. Delahunt. Right. In your opinion as a trial lawyer, as 
a judge, as a former prosecutor, this particular memorandum one 
would consider, in terms as it relates to Mr. Salvati, and I 
mention him because he is present here today, this would be 
considered an exculpatory report.
    Judge Harrington. I would concur.
    Mr. Delahunt. And if you had knowledge of the existence of 
this memorandum, you, as an officer of the court, as an 
attorney sanctioned to practice in Massachusetts, as a member 
of the Department of Justice, would have disclosed this to 
counsel for Mr. Salvati. Is that a fair statement?
    Judge Harrington. I think I would have.
    Mr. Delahunt. Because you would not have wanted to see an 
innocent man go to jail.
    Judge Harrington. There is no doubt about that.
    Mr. Delahunt. You are aware that subsequently the former 
Director of the FBI for the past 6 or 7 years, Mr. Freeh 
acknowledged that what occurred to Mr. Salvati was an injustice 
after reviewing all of the documents. Maybe you are not aware 
of that.
    Judge Harrington. I am not.
    Mr. Delahunt. You also say in your opening statement that 
throughout your tenure as a Federal prosecutor you never knew 
the identity of any FBI informant.
    Judge Harrington. That is correct.
    Mr. Delahunt. In retrospect, and, Mr. Harrington, I know 
things look different in retrospect, I think we all look back 
and maybe would have done some things different, this committee 
is interested in developing and crafting policy to ensure that 
justice is done and that the guilty are prosecuted and are 
removed from society if they are dangerous to society and, at 
the same time, that the innocent people are protected.
    Judge Harrington. I concur.
    Mr. Burton. The gentleman's time has expired. We will come 
back. We will have a second round.
    Mr. Barr, I took most of your time before. Why don't I 
yield to you what time I had, and then we will go to Mrs. 
Morella.
    Mr. Barr. OK. I will just take part of your time, Mr. 
Chairman, because I know you probably have some additional 
questions also.
    Early this morning, Judge, we played exhibit No. 18, which 
was your statement to a TV reporter earlier this week that 
Barboza had told the Bureau, and that you were informed of it, 
that all the murders he was involved in, and Barboza was 
reputed to be in over 20 murders, but that he would not testify 
in those murders in which Jimmy Flemmi was involved. There was 
also information from the microphone surveillance that Flemmi 
was involved in the Deegan murder. Given the fact that the 
Government knew that Flemmi was involved in the Deegan murders 
and that Barboza was saying that he would not testify in any 
way that could implicate Flemmi, what was the implication of 
Barboza's statements? Is it not a clear implication that he was 
going to lie, that he would not tell the truth?
    Judge Harrington. Well, in review of the case called 
Commonwealth v. Limone that came down from the Superior Court 
in 2001, Judge Hinkle in that case indicated that Baron 
testified in the Deegan case that Flemmi was involved in the 
scheme. The fact that Flemmi was not named as a defendant, 
there could have been a lot of reasons, but I think that 
question should be propounded of the District Attorney who made 
that judgment and not an assistant U.S. attorney who had 
nothing to do with the case.
    Mr. Barr. You have testified that you stand by your 
statement that you are always satisfied that Barboza was 
telling the truth. And yet, you have to know that he was not.
    Judge Harrington. I do not know that.
    Mr. Barr. Really?
    Judge Harrington. But with respect to the case that I was 
intimately involved in, I am convinced that he was telling the 
truth.
    Mr. Barr. In that case maybe.
    Judge Harrington. In that case. With respect to the Deegan 
case, I had no knowledge----
    Mr. Barr. But you have testified under oath that you are 
satisfied that Barboza was always telling the truth.
    Judge Harrington. In the cases that I was involved in. But 
even now----
    Mr. Barr. That was not the question that was just asked of 
you before. I do not want to speak for Mr. Horn, but I do not 
think he asked you if in the cases in which you were intimately 
involved were you always satisfied that Barboza was telling the 
truth. Your testimony and your confirmation and your answer to 
the question that Mr. Horn propounded just a few moments ago 
was were you always satisfied that Barboza was telling the 
truth, and you said, yes. Yet it seems clear I think to anybody 
that he was not telling the truth.
    Judge Harrington. I do not think that is true. I think if 
you review the testimony in the Deegan murder case, you will 
find out one thing--that Baron did not stand alone. John 
Fitzgerald testified. Stats testified. Glavin testified. Baron 
was on the stand for 8\1/2\ days. If I had to look at it just 
from a review of the Supreme Judicial Court's opinion, which I 
have done in the last 5 weeks, I have learned more about the 
Deegan murder case in the last 5 or 6 weeks than I have known 
in the last 35 years, but he was on the stand for 8\1/2\ days 
and he was corroborated to some degree by three other 
witnesses. So at this time, I am not prepared to say that Baron 
lied in that case. But I was not involved in it and I did not 
know the----
    Mr. Barr. A man served 30 years for that murder that we all 
know he did not commit. And we know that Barboza could have 
testified and had testimony that could have cleared Mr. Salvati 
and that he did not testify that Flemmi was responsible or 
implicated or involved in that murder. How can you sit there 
and defend this guy, Judge?
    Judge Harrington. I am not defending him.
    Mr. Barr. You are saying that you still believe that he is 
a truthful man.
    Judge Harrington. All I am saying is that I think the 
question would be better propounded to the individual who made 
the prosecutorial decision on what defendants to proceed, and 
not me.
    Mr. Barr. When Barboza was interviewed, is it not true that 
Federal officials were always with him?
    Judge Harrington. I cannot answer that question. But I will 
tell you this, that I was never, I was never involved with any 
questioning of Joseph Barboza-Baron with respect to the Deegan 
murder case.
    Mr. Barr. I am asking is it not true that Federal agents 
were always with him when he was interviewed?
    Judge Harrington. I cannot answer that. I do not know.
    Mr. Barr. You do not know.
    Judge Harrington. I do not know.
    Mr. Barr. Would that not be standard practice?
    Judge Harrington. I would think--now let me go back. I 
would think since Baron had been turned by Federal agents that 
they at least would have been there as introduction to the 
State District Attorney's representatives who would have taken 
his statement. I would think so. I was not there, but I think 
that would be the approved practice.
    Mr. Burton. Let me just say that we have limited time left 
before there is a vote on the floor. So if those members want 
to go and come back, we will get right back to questioning. And 
Mr. Barr, if you go vote, maybe you could come back and take 
the Chair because I am going to stay here a few more minutes, 
and then you can take the Chair when you get back and then go 
right to Mrs. Morella and then to Mr. LaTourette. We have two 
votes I understand.
    Let me just ask you this question, Mr. Harrington. You said 
you do not remember much about what happened 30 years ago. This 
information on the duration of the trial, the State trial, did 
you get that from the Justice Department? Is that stuff you 
just reviewed just recently?
    Judge Harrington. No. What I did since I met with your 
representatives, and I met with them fairly cold on December 
20, I have read all the cases regarding this, not only the 
Supreme Judicial Court's case in the so-called Deegan murder 
case, and all the motions for the new trial. So as I indicated, 
I am familiar with the case now; 35 years ago I was not.
    Mr. Burton. You did not follow the case? It was a pretty 
famous case.
    Judge Harrington. I followed it in the paper but I had my 
own case.
    Mr. Burton. I understand. But I want to go back to this one 
point and then we will recess.
    Judge Harrington. Sure.
    Mr. Burton. And that one point I want to go back to is you 
had exculpatory evidence that you had heard. You heard Flemmi 
and Barboza talking to Patriarca asking if they could murder 
Deegan. You could have prosecuted him for murder on that case. 
You knew that. I cannot believe that you say 5 months later you 
forgot that, because you were after Patriarca, you were after 
him and you heard two people talking about getting permission 
to murder Deegan, and you are saying you forgot that. And if 
you had that and you were following this case in the paper, you 
had to know you had exculpatory information that you were 
keeping from that State trial. And that really is almost----
    Judge Harrington. It is not exculpatory information, to 
tell you the truth.
    Mr. Burton. Why wasn't it exculpatory?
    Judge Harrington. Because it was consistent with my general 
understanding of the prosecution that it was a sanctioned hit.
    Mr. Burton. Yes. But do you mean to tell me you do not 
think the defense counsel for Mr. Salvati and others would not 
have been able to make a stronger case if two people that were 
not on trial were brought forward, Mr. Barboza and Mr. Flemmi?
    Judge Harrington. It was available to them. It was.
    Mr. Burton. Well even though it was available to them, they 
may have been tied in with the mob themselves. Who knows? How 
do you know it was available to them?
    Judge Harrington. Because under court order in the 
Patriarca case the two defense counsel were provided access to 
the logs so that they could move later for a motion to dismiss 
the Patriarca case because it was tainted. That would have been 
the ground.
    Mr. Burton. How do you know that everything was made 
available? Did you see it? How do you know?
    Judge Harrington. Because I participated in the trial. I 
think the court allowed--I think the court, and I was so 
advised by the FBI when I talked with them, that the trial 
court in the Patriarca case made the logs available.
    Mr. Burton. Who told you that, Condon?
    Judge Harrington. No. The Task Force who I spoke with just 
in the last several months.
    Mr. Burton. Oh, they told you that.
    Judge Harrington. They told me during the course of their 
inquiry.
    Mr. Burton. I see. Why was the Patriarca case different 
than the Taglianetti case?
    Judge Harrington. In Taglianetti, the only thing that was 
made available in Taglianetti was a certain segment of the so-
called Patriarca logs. They were made public. The Taglianetti 
case was tried in Rhode Island. I had nothing to do with that. 
With respect to the Patriarca case, since it was well known 
that the FBI had illegally bugged Patriarca's office, in order 
for the defendants in the Patriarca case to file a motion to 
dismiss or a motion to suppress, they were allowed by the trial 
counsel in the Patriarca case to have complete access to all 
the logs so that they could bring a motion to dismiss or 
suppress. And they had it.
    Mr. Burton. Well, I think we need to find out if those logs 
were made available to the defense counsel. If they were and it 
was not brought up in the case, there has got to be something 
funny that went on there, otherwise why would they not have 
brought that up. And the other thing is there is still one 
issue that I do not think is going to be resolved, and that is 
you had this information that Barboza and Flemmi were involved 
in that hit, you had information that Patriarca gave his 
consent for the hit, and you were reading all about this in the 
paper and nothing was ever said by you that might have helped 
keep these guys out of jail for 30 years.
    Judge Harrington. It was consistent. It showed it was a 
sanctioned hit.
    Mr. Burton. Yes, but you did not know that all these four 
people were involved in the hit. You knew that Barboza was and 
you knew that Flemmi was and that was never brought out in the 
court. You knew that information and you knew Patriarca gave 
his OK and you were trying to nail this guy to the wall. Why 
were Patriarca and Flemmi not involved in the prosecution?
    Judge Harrington. That is the question that should be asked 
to the District Attorney who was involved in the murder 
prosecution. If I had known, if I had remembered the reference 
to Patriarca in the Deegan murder case, I would have asked 
Garrett Byrne. But I am saying that establishes that 5 months 
later that one reference or two references in the logs I had 
completely forgotten. I would have loved to have seen Patriarca 
charged with the murder case.
    Mr. Burton. Your whole purpose was to nail Patriarca to the 
wall. And here you have him giving authority to kill somebody 
and you are telling me that 5 months later you forgot that? I 
cannot understand how you could forget that. Anyhow, we will 
talk about that later.
    We stand in recess. We will be back in about 15 minutes.
    [Recess.]
    Mr. Burton. We will reconvene the committee.
    Mr. LaTourette, we will recognize you for questioning.
    Mr. LaTourette. Thank you very much, Mr. Chairman. Mr. 
Bybee, when we were chatting with Judge Harrington earlier and 
he talked about a pros memo from 1967, and we can explore with 
him later whether he read it from page to page or whether he 
was just shown it and reviewed it, but anyway it appears that 
the Task Force has shared this prosecution memo from 1967 with 
Judge Harrington in the course of an investigation. Are you 
familiar with that set of facts?
    Mr. Bybee. Yes, I am.
    Mr. LaTourette. OK. Are you aware whether or not the 
Justice Department Task Force investigating this issue has 
reviewed any of the 10 other documents, deliberative memoranda 
that are being withheld currently from this committee by the 
Department of Justice?
    Mr. Bybee. I cannot comment on matters that are under open 
investigation, Congressman.
    Mr. LaTourette. OK. So you are not answering the question. 
You are saying that you are prohibited somehow from answering 
my question?
    Mr. Bybee. Well I think it would be inappropriate for me to 
comment on matters that are under open investigation by the 
Joint Task Force.
    Mr. Burton. Excuse me. Would the gentleman yield just a 
moment?
    Mr. LaTourette. Certainly.
    Mr. Burton. Now we have been trying to get these documents 
for a long time and you are now hiding behind this is under 
investigation so we cannot see those documents. Is that what 
you are saying?
    Mr. Bybee. No, Mr. Chairman, that is not what I am saying.
    Mr. Burton. Well we got one document yesterday.
    Mr. Bybee. Yes.
    Mr. Burton. Why did we see that?
    Mr. Bybee. Because the committee gave a demonstrable effort 
to the administration for the need for that document.
    Mr. Burton. We did not ask for review of the document 
first. We said we wanted to see the document and you let us see 
it. Now you are saying the other nine documents that we 
subpoenaed we cannot get because it is under investigation.
    Mr. Bybee. No.
    Mr. Burton. They were all 10 subject to the investigation.
    Mr. Bybee. Mr. Chairman, I believe you have asked a 
different question than what the Congressman asked me, at least 
I answered the question I thought he asked me. I will be happy 
to answer your question. With respect to the remaining nine 
documents, Mr. Chairman, we will be happy, and we have 
indicated in repeated letters to the committee, the 
administration will be happy to sit down with the committee and 
discuss your need and our interests in those documents. That 
process would be a very salutary process for both of us in 
trying to accommodate the needs of the committee. And those are 
our instructions from the President.
    Mr. Burton. Well, we will have to talk to the President 
about that. Because those documents we want to see, we do not 
want your interpretation of them.
    Go ahead, Mr. LaTourette.
    Mr. LaTourette. Thank you. Mr. Bybee, that actually leads 
to my next question. I understood your response about the Task 
Force. But the executive privilege that the President claimed 
on December 12th, he said he has decided to assert executive 
privilege with respect to these documents and to instruct you 
``not to release them or otherwise make them available to the 
Committee.'' You are aware of the Order of the President of the 
United States to the Department of Justice?
    Mr. Bybee. Yes, I am.
    Mr. LaTourette. Well yesterday, as the chairman indicated, 
the Justice Department shared with our staff 1 of those 10 
documents. And my question to you is, is it your understanding 
that the President of the United States has withdrawn his 
executive privilege claim as to these 10 documents?
    Mr. Bybee. No, Congressman, the President has not withdrawn 
his claim of executive privilege. In that same letter, 
Congressman, the President also instructs us, consistent with 
separation of powers, to meet with the committee and to try to 
accommodate our mutual interests. And we have been prepared to 
meet with the committee to sit down and discuss what your needs 
are for these documents and see if we can work something out.
    Mr. LaTourette. Mr. Bybee, I do not have any difficulty 
with that and I favor meetings and I have met with 
representatives of the Justice Department. I think meetings are 
great things. But I am not one to parse words and I really am 
interested when the President of the United States instructs 
you not to release them, I understand you have not released 
them, but you are not to otherwise make them available to the 
committee, isn't that what you did last night?
    Mr. Bybee. Well, again, with respect to one document as to 
which we felt that the committee had demonstrated its need, we 
shared the document with the committee. It was not left in the 
committee's possession, it was shared with you last night.
    Mr. LaTourette. And you believe that that activity does not 
otherwise make it available to the committee in contravention 
of the President's executive privilege claim?
    Mr. Bybee. That is the way that the Executive has 
historically accommodated the committee.
    Mr. LaTourette. OK. Now again in response to the chairman's 
question, Assistant Attorney General Bryant, who I think was 
with us last week, states that ``the Committee has now 
demonstrated a particular and critical need for access to the 
Harrington memo and that satisfies the constitutional 
standards.'' Can you explain to us what it is that we all did 
on the committee that all of a sudden we are able to meet this 
high bar that we were not able to meet a week ago?
    Mr. Bybee. It is a combination of different things, 
Congressman, including the chairman's letter to the Department 
of Justice this week that indicated the witness that was coming 
forward and demonstrated--I can pull the letter here--but there 
was language in there that satisfied us that you had a 
particularized need for that document. And we indicated to the 
committee that on that basis we were willing to meet with you.
    Mr. LaTourette. And the fact that Judge Harrington was 
going to appear today, is that what distinguishes this 
memorandum from the nine documents that we have requested?
    Mr. Bybee. Well, that would be a contributing factor. It 
would not be the only factor.
    Mr. LaTourette. Can you tell us what the other factors are 
so we can try in this committee to satisfy whatever this high 
standard is?
    Mr. Bybee. Congressman, we will be happy to meet with you 
and talk with you about those remaining documents and about the 
interest of the committee in those.
    Mr. LaTourette. Well, I have to tell you, Mr. Chairman, I 
would hope that you would draft a letter to President Bush 
because in my mind this says that they are not supposed to make 
the stuff available and they have now made some of the items 
available to us based upon a showing that I cannot find a 
difference between the showing that you might have made in this 
letter, it must have been a great letter you wrote last week, 
because I do not see any difference between our needs this week 
and last week. And I think what I expressed last week, in an 
unartful way, and I apologize for being coarse in my language 
last week, but it occurs to me what has occurred is that we do 
not have the President of the United States making the 
decision, we have assistant attorneys at the Department of 
Justice figuring out when it is the U.S. Congress has satisfied 
the requirements of the President of the United States.
    I am at a total loss to figure out how that fits under any 
scheme that is appropriate. And I would hope you would perhaps 
contact President Bush and ask him to look into this matter for 
us. I thank you for your courtesy.
    Mr. Burton. If the gentleman would yield the balance of his 
time to me. Let me just say it was not until it became apparent 
that Judge Harrington was going to be here and you folks at the 
Justice Department had already shown Judge Harrington the 
document in question that you probably knew that we might find 
out that you were showing witnesses before this committee 
information that you would not share with the committee and 
that would have been embarrassing as the dickens to you, 
wouldn't it?
    Mr. Bybee. Mr. Chairman, the Joint Task Force is conducting 
an investigation of the matters surrounding the handling of FBI 
informants in Boston.
    Mr. Burton. Right.
    Mr. Bybee. Judge Harrington evidently, I am not part of 
that Task Force, is relevant to that investigation. They are 
talking with him on their schedule.
    Mr. Burton. Well they went up and they gave Judge 
Harrington access to the document that you gave to us last 
night.
    Mr. Bybee. Right. It was the----
    Mr. Burton. Now you do not think it would have been 
embarrassing for the committee to find out today that Judge 
Harrington reviewed these documents that you would not give to 
the committee because the President said that it should not be 
given to anybody because of the national interest, you do not 
think that would have been embarrassing?
    Mr. Bybee. Mr. Chairman, in the course of the Joint Task 
Force investigation, they showed Judge Harrington a document 
that he had authored.
    Mr. Burton. Yes?
    Mr. Bybee. That is a responsible way for prosecutors to 
behave in refreshing the recollection of people that they are 
interviewing.
    Mr. Burton. You guys just really get to me, I swear. It is 
funny. [Laughter.]
    You know, do you want me--you just tell me whether you want 
me to do this or not because I am willing to do it--do you want 
me to get all the Democrats in the House and about 30 
Republicans to move a contempt citation against the 
administration to force you to give us these documents? Do you 
want me to do that?
    Mr. Bybee. No, Mr. Chairman.
    Mr. Burton. Well that is what we are going to do if you do 
not give us the documents. I do not know what is wrong with you 
guys. We are responsible for the oversight of the executive 
branch, all areas of the executive branch. And you guys are not 
above congressional scrutiny. Now we have put an innocent man 
in jail, our Government, for 30 years for a crime he did not 
commit and you do not want us to find out why. And I want you 
to know we want to see those documents.
    We subpoenaed documents 6 months ago and last night you 
dumped several thousand pages of documents on my chief 
counsel's desk expecting us to go through those last night I 
suppose. Well we did not have time, obviously. And you gave us 
this other document to review yesterday and we did not have 
time to really scrutinize that like we should. So we are going 
to and we will probably haul you guys back up here again. And I 
do not know why you want to go through this. Let us see the 
documents.
    Now if there is something there that you think should be 
hidden from the American people or the Congress, then you have 
got a problem. I mean, an innocent man and possibly other 
innocent people across this country were put in jail. Now we 
found out that there was a guy in Rhode Island that was put in 
jail for 18 years by the Federal Government for a crime he did 
not commit. We found out Mr. Salvati was put in jail for 30 
years for a crime he did not commit. There were other people 
that got the death penalty--the death penalty--which was 
commuted to life in prison for crimes they did not commit. Now 
granted, those guys may have been crudballs associated with the 
Mafia, but they did not kill Deegan. They got the death 
penalty. We want to find out if there are other people in this 
country that are incarcerated or have been put to death by the 
Justice Department for crimes they did not commit. And you guys 
are obstructing justice, in my opinion, by not giving us those 
documents.
    Now if you want to go through this week after week for the 
next year, then you can do it. And if you want me to go to the 
floor of the House and have to fight with my own party, a lot 
of the people in my own party to get these documents, I am 
willing to do that as well. Now I do not think you want to do 
that. You guys are nuts. In fact, if you have any doubt, ask 
these gentlemen right here if I can get every Democrat to sign 
this. Ask them. And I will tell you how many Republicans I can 
get to sign this thing to force this issue to the floor.
    Are you ready, Mr. Tierney?
    Mr. Tierney. Thank you. I am not going to spend a lot of 
time with you, sir, because I just think what happens is we get 
from the Department a bunch of professional witnesses up here 
to stonewall on what I think is a ridiculous claim of executive 
privilege that is nonsense. I think the chairman has made it 
clear pretty much where that is going and we will deal with 
that another time. But we do have with us this morning Judge 
Harrington and I think we will take this opportunity to 
continue to question him.
    Judge, what is it about Barboza's background that you 
shared with the prosecuting attorney in the Clay Wilson case 
when you went out there before the trial?
    Judge Harrington. With the prosecuting attorney?
    Mr. Tierney. Right.
    Judge Harrington. I think, again, I think what I shared 
with him what I testified to on my approximately 10 minutes on 
the stand; namely, the extent of his cooperation with 
prosecuting authorities in their effort against organized 
crime.
    Mr. Tierney. Did you tell him that he was implicated in 
some 20-odd other murders elsewhere?
    Judge Harrington. I do not know if I told him that but I 
think it was understood that he was a hit man for the Mafia.
    Mr. Tierney. And you would not have gone into detail with 
him about all of the background you had on this individual 
knowing he is prosecuting the guy for murder?
    Judge Harrington. Again I am drawing on my memory, but I 
think it was understood that he was a professional killer. But 
it was the judgment of the Department of Justice at that time 
that more important than professional killers were those 
leaders of the organization who could reach out and, if Baron 
was not around, there would be other professional killers to 
carry out their contracts.
    Mr. Tierney. You knew all the evidence that had been 
compiled against Barboza in the Wilson case. You knew how 
strong a case that was against him?
    Judge Harrington. I have to admit I knew he was involved in 
killing Wilson. I think his defense was self-defense. I did not 
go into the details of that murder case because my involvement 
as a witness was very limited.
    Mr. Tierney. So you are saying it would not have mattered 
to you one way or the other. This guy had an incredibly strong 
case by his own attorney's account against him in a prosecution 
for involvement in this murder. Knowing that you are going out 
there with a couple of FBI agents to testify, you do not think 
it is important as to whether or not your testimony might help 
him get off from that charge or not, or was it in fact the 
purpose of going out there to help him get off or get lighter 
treatment in that charge?
    Judge Harrington. Our job was not to get him off. Our job 
was to fulfill our commitment on a singular witness, a person 
who opened up for Federal authorities, their assault on the 
underworld for the first time in the history of American law 
enforcement.
    Mr. Tierney. Regardless of the consequences?
    Judge Harrington. Regardless of the nature of Baron. If 
Baron was not a serial hit man, if would not have been 
invaluable to prosecuting authorities.
    Mr. Burton. Will the gentleman yield briefly.
    Mr. Tierney. I will yield to the chairman.
    Mr. Burton. Let me say, you say you thought it was self-
defense----
    Judge Harrington. No, I did not say----
    Mr. Burton. You say you thought it might be self-defense. 
He was shot in the head, he was buried under a stump, and 
Barboza allegedly made love to his wife right after the murder. 
I mean, this guy is an animal. And you are out there and you 
said you were told it might be self-defense. Bullet holes in 
his head, buried under a stump, and his cellmate tells exactly 
where the guy is, exactly where he is buried, how he was shot 
and killed, and what he was wearing.
    Judge Harrington. I did not say I thought it was self-
defense. I said that his defense was self-defense.
    Mr. Burton. And you were out there defending him.
    Judge Harrington. I was. But, Mr. Chairman, with the 
authority of the Attorney General of the United States.
    Mr. Tierney. So let me follow that for a second. The 
Attorney General of the United States knows that this guy is a 
serial murderer, knows that he is on defense for a murder that 
more than likely he committed because of all the circumstances 
the chairman stated, and you are telling us he then instructs a 
member of the Justice Department and two FBI agents to go and 
testify on behalf of this individual?
    Judge Harrington. That is true.
    Mr. Tierney. OK. And to your knowledge, did the Director of 
the FBI also know that this was the scenario that was 
unraveling?
    Judge Harrington. I am sure he knew his two agents went 
out.
    Mr. Tierney. Further, did the attorney for Barboza in that 
Clay Wilson murder case give you any reason to believe that 
Barboza might not have committed the crime other than this wild 
assertion that it was self-defense?
    Judge Harrington. It was my understanding from talking with 
the attorney that he was involved in the killing but his 
defense was self-defense.
    Mr. Tierney. You did not have any doubt the guy had 
murdered him, had you? I mean, you knew the guy murdered 
Wilson.
    Judge Harrington. I knew he killed him. I did not want to 
evaluate his defense.
    Mr. Tierney. When you met with Barboza in California before 
you talked to the prosecutor, before you talked to Mr. Miller, 
his defense attorney, what transpired in that jail cell?
    Judge Harrington. Well, I have to reconstruct it. But in 
essence, I wanted to find out whether he was framed or was he 
involved in it.
    Mr. Tierney. So he told you he was involved in it, he was 
guilty, right?
    Judge Harrington. No. He told me that it was self-defense.
    Mr. Tierney. But then you became familiar with the 
circumstances of the case and you did not believe that for a 
second.
    Judge Harrington. It was irrelevant. I was out there----
    Mr. Tierney. Please, Judge. You did not believe it. You are 
a seasoned attorney at that time, you did not believe that at 
all, right?
    Judge Harrington. Well, if forced to answer, I would say I 
would have thought that he killed him.
    Mr. Tierney. Now did you report that back to the Director 
of the FBI, or your superiors, or John Mitchell, or anybody 
else that this guy that you have me going out there to testify 
for is a cold-blooded murderer and he is guilty of this one 
too?
    Judge Harrington. They all knew it. That is why he was 
important. He was a cold-blooded killer for the Mafia. That is 
why we used him.
    Mr. Tierney. When you were with Barboza in that jail cell 
prior to his trial in the Clay Wilson case, did he tell you 
that if you and the FBI guys or if the Government did not do 
something for him in that trial he was going to rescind his 
testimony or recant his testimony in the Patriarca or other New 
England cases?
    Judge Harrington. He did not.
    Mr. Tierney. Did you have that fear?
    Judge Harrington. No. But I will tell you this. I always 
knew that it was a possibility for the reasons I said in my 
opening statement; namely, they tried to bribe him, he could 
not make a living on the outside so he had to curry favor with 
the mob, and I think that if he offered to recant falsely that 
it might keep him alive. But it did not keep him alive too 
long. He paid the penalty for cooperating with the U.S. 
Government.
    Mr. Tierney. Are we going to have another round, Mr. 
Chairman?
    Mr. Burton. We will have another round.
    Mr. Tierney. Fine. I will stop here then.
    Mr. Burton. Mr. Horn, are you prepared or do you want to 
wait a minute?
    Mr. Horn. Thank you, Mr. Chairman. Let's go into after the 
acquittals in the Rocco DeSeglio murder trial. After the 
acquittals there, did you have any concerns regarding Barboza's 
credibility?
    Judge Harrington. No. I think an evaluation of the DeSeglio 
murder case at the time depended primarily on the technical 
ground of venue. I think the jury was charged that the murder 
had to have been completed in one county--and the information 
was that Baron testified very strongly in the DeSeglio case--
but it was on a technicality that an acquittal was rendered 
because I think the jury found that the killing had taken place 
in a county other than Suffolk. That is my memory at this time, 
sir.
    Mr. Horn. If so, were any steps taken to make sure 
Barboza's testimony was corroborated in the upcoming Teddy 
Deegan and William Marfeo murder trials?
    Judge Harrington. With respect to the Federal Marfeo case, 
he was corroborated. And although, again, I had nothing to do 
with preparing him for trial in the Deegan murder case, from 
reading the opinion in the Supreme Judicial Court's opinion in 
the Deegan murder case three other individuals testified in 
support of Baron's testimony, namely, attorney John Fitzgerald, 
Stathopoulos, an individual who was there the night of the 
murder of Deegan, and another individual by the name of Glavin. 
So there was some--and it just comes to mind, in the Boston 
Herald of Tuesday of this week when the attorney who prosecuted 
the Deegan murder case said that he had no conversations with 
me with respect to that matter, he also said that it was his 
judgment that Baron was strongly corroborated in the Deegan 
murder case. That was his testimony Tuesday of this week.
    Mr. Horn. Since Barboza's testimony resulted in the 
acquittal of all of the defendants in the DeSeglio murder 
trial, did you have any concerns on using Barboza as your 
principal witness at the William Marfeo murder trial?
    Judge Harrington. Not at all because the Marfeo Federal 
trial was a solid case. It was solid not only because Baron was 
corroborated, but there were references in the so-called 
Patriarca logs which tended to corroborate him. We felt very, 
very strong on that Federal case. And my prosecutive memo which 
was approved by the Criminal Division of the Department of 
Justice proves that the Department of Justice thought that 
Baron's credibility in that case was very strong.
    Mr. Horn. Now, as I gather the history of it, the New 
England Mafia, and others being the Deegan and DeSeglio murder 
trials, Barboza was an unindicted co-conspirator whom they 
allegedly tried to hire as the hit man to kill Marfeo. Unable 
to use the information obtained from illegal wiretaps of 
Patriarca's headquarters in Providence, the prosecutors had to 
rely on the testimony of Barboza to obtain a conviction. Is 
that your recollection?
    Judge Harrington. That is true. That is true.
    Mr. Horn. And there are quite a few here. You have got the 
prosecution team along with yourself, Markum, Walter Barnes, 
and Paul Rico and Dennis Condon were the two FBI agents largely 
responsible for convincing Barboza to testify in this case. On 
March 4, 1968, a jury found Patriarca, Tameleo, and Cassesso 
guilty and a few days later they were each sentenced to 5 years 
in prison and a $10,000 fine. You helped prosecute Patriarca, 
Henry Tameleo, Ronald Cassesso for their involvement in the 
William Marfeo murder. Is that accurate?
    Judge Harrington. It is. It was a conspiracy to murder. The 
reason it was a Federal case is that, unlike the Deegan murder 
which was carried out, the Marfeo case did not result in a 
murder of Marfeo at that time. It was merely a conspiracy to 
travel interstate to kill Marfeo and that is why it was tried 
in Federal court.
    Mr. Horn. Barboza was not indicted for his involvement. 
What deal was Barboza given in exchange for his testimony?
    Judge Harrington. Part of what he was granted was he was 
named I think as an unindicted co-conspirator. He was not named 
as a defendant. We made the promise that the extent of his 
cooperation would be brought to any sentencing authorities. We 
also assumed the responsibility of after the termination of his 
testimony that he would be relocated, provided a job, and 
obtain a new identity. And that process formed the basis for 
the Witness Protection Program which was later endorsed by the 
Congress of the United States.
    Mr. Horn. The Marfeo trial was really important, as our 
records seem to show here. Raymond Patriarca was one of the 
highest ranking Mafia bosses ever to be tried. The lead counsel 
in the case said, ``If we did not win, it would be all over.'' 
And that was exhibit No. 25, Mr. Chairman, to put in the 
record. If everything depended on Barboza, you must have been 
very attentive to what was in the Patriarca tapes and logs to 
make sure Barboza was telling the truth; is that correct?
    [Exhibit 25 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.094
    
    [GRAPHIC] [TIFF OMITTED] T8662.095
    
    [GRAPHIC] [TIFF OMITTED] T8662.096
    
    Judge Harrington. It is correct, we were attentive to what 
was in the logs. And he was I think the first of the Mafia 
leaders to be convicted in the United States since I think 
Frank Nitti was convicted in 1943.
    Mr. Horn. Did you use any information obtained from the 
Patriarca wiretap to help prepare for the Marfeo trial?
    Judge Harrington. We did not. That would have been tainted 
evidence and that was one of the reasons we reviewed the 3-
years of logs of the Patriarca bug to ensure that we did not 
use anything that would taint our case.
    Mr. Horn. And I take it you did not get much testimony out 
of Barboza, is that right? Because after the Deegan trial, the 
protective custody Witness Protection Program came about for 
Barboza.
    Judge Harrington. That is right. He indicated that he was 
willing to testify in three cases, one Federal and two State.
    Mr. Horn. That is an interesting program the Witness 
Protection Program. Was it created strictly for Barboza or was 
he the first one in it?
    Judge Harrington. He was the first one and, as I indicated 
in my opening statement, the experience gained in administering 
his protection formed the basis for the Congress a year and a 
half later to establish the program on a formal basis. And I 
still think the program is in effect and is used quite 
successfully over the years.
    Mr. Horn. Who defined the terms and the conditions of a 
person in the program, let's take Barboza, what was he supposed 
to get out of this witness program?
    Judge Harrington. I think it was formulated by a unit 
within the Organized Crime and Racketeering Section of the 
Criminal Division. At that time, I think it was, my memory is 
it was Mr. Jerry Shur was in charge of the Witness Protection 
Program and maintained certain supervision of the members of 
the program throughout the United States.
    Mr. Horn. Was Barboza's going there to protect him from 
other people in the Mafia, was that basically----
    Judge Harrington. We hoped that it would have. But it is 
obvious that later when Baron left prison he no longer was 
desirous of being a member of the program and within 2 months 
he was assassinated by a Mafia hoodlum from Boston in 
retaliation for his testimony on behalf of the United States.
    Mr. Horn. In the process, you all testified on behalf of 
Barboza's defense at the Clay Wilson murder trial, is that 
correct?
    Judge Harrington. That is correct, sir.
    Mr. Horn. What was the situation there with Clay Wilson, 
had he been involved or attempted to be using Barboza, or what?
    Judge Harrington. Would you please repeat the question.
    Mr. Horn. Did the terms and conditions of the program 
really require the Federal Government to assist and support 
Barboza in his defense on any future crimes that he might 
commit?
    Judge Harrington. In October 1970, the Congress formulated 
or established the Witness Protection Program. A few months 
prior thereto was when it came to the Government's attention 
that he was involved in a killing. It was a time I think that 
the Government was desirous of doing all it could to assist 
Barboza in order to protect the viability of the Witness 
Protection Program and, as I indicated previously, to send a 
signal to other potential accomplice witnesses that the 
Government would abide by its commitments.
    Mr. Horn. Now you testified at the Clay Wilson murder 
trial, is that correct?
    Judge Harrington. I did.
    Mr. Horn. And what led you to that?
    Judge Harrington. It was a decision made by the Organized 
Crime and Racketeering Section that we had to support the first 
witness in the Witness Protection Program and one who had made 
a singular contribution to the Government's fight against 
organized crime. It was a judgment made at the beginning of 
this effort against organized crime. Whether 35 years later the 
same decision would be made, I am not sure. But it was a 
unanimous decision and a belief by all those who participated 
that it was in the best interest of the United States.
    Mr. Horn. You wrote a letter to the director of the parole 
board for the Montana State Prison urging the board to consider 
parole for Barboza. That is exhibit No. 26. Is it true that you 
wrote a letter?
    [Exhibit 26 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.097
    
    [GRAPHIC] [TIFF OMITTED] T8662.098
    
    Judge Harrington. I have no memory that I wrote it, but I 
most likely did. And not only did I write a letter in his 
behalf, but I was assigned, even though I was in private 
practice, assigned by Attorney General Elliot Richardson to 
appear at the parole hearing sometime in 1973.
    Mr. Horn. In fact, you later testified on Barboza's behalf 
before the parole board, is that right? Exhibit No. 27.
    [Exhibit 27 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.099
    
    Judge Harrington. I did. The Attorney General, at that time 
Mr. Richardson, asked me to come out of private practice 
because I was aware of the Patriarca case and asked me to go to 
Butte, MT to testify on his behalf.
    Mr. Barr [presiding]. Does the gentleman have a final 
question and then we will----
    Mr. Horn. One final question. When was he moved to Santa 
Rosa, CA?
    Judge Harrington. I remember that he finished his testimony 
in the Deegan murder case sometime in the summer of 1968. I 
think for some months he was sent to Fort Knox, KY, I would say 
approximately 4 to 6 months, that is my best memory, and that 
sometime in 1969 he was relocated by the Department of Justice 
pursuant to the Witness Protection Program to Santa Rosa, CA.
    Mr. Horn. I am just curious as a Californian why this nice 
little town of orchards and blossoms and all that. He was put 
down in the middle of it I take it, and here is a guy that has 
more than 20 murders. Whose great decision was that one?
    Judge Harrington. I think it was a joint decision by 
those--ultimately, I would think it was the head of the 
Organized Crime and Racketeering Section of the Justice 
Department.
    Mr. Horn. Thank you, Judge. We appreciate having you here.
    Mr. Barr. Thank you. The gentleman from Massachusetts is 
recognized for 5 minutes.
    Mr. Delahunt. Judge, I want to get back to that statement 
about ``throughout my tenure as a Federal prosecutor I never 
knew the identity of an FBI informant.''
    Judge Harrington. That is true.
    Mr. Delahunt. And you also in your written statement 
indicated it was also the policy of the FBI to protect the 
confidentiality of the identity of informants to ensure their 
safety and thereby maintain the FBI's continued access to 
criminal intelligence. Why during your entire tenure did you 
not know the identity of informants?
    Judge Harrington. Because I always considered myself a 
professional. I know this, that if any attorney for the 
Department of Justice or an assistant U.S. attorney ever asked 
an FBI agent the identity of an informant, that not only would 
they not tell you but they would lose confidence in you. 
Because in those days people worked for the Government 3 or 4 
years and then they would be outside. So I would never ask and 
I was never told and I was not interested.
    Mr. Delahunt. Right. And that was the context of the time.
    Judge Harrington. Absolutely.
    Mr. Delahunt. But we have learned a lot since, and I 
understand that. It was as if you were asking questions which 
should not be asked.
    Judge Harrington. That is true.
    Mr. Delahunt. As if the FBI implicitly did not trust you--I 
do not mean you Ted Harrington, but you who were not part of 
that particular agency.
    Judge Harrington. I think it is fundamental in order to 
have a relationship with an informant, especially in the deadly 
world of organized crime, that confidentiality of the identity 
has to be absolutely maintained and any breech thereof would 
have I think dire consequences.
    Mr. Delahunt. I would suggest that the time has come to 
reassess that. That those who benefit from their status as 
informants and their status as accomplice witnesses, in the 
case of accomplice witnesses it is revealed, but over the 
course of the past several decades, particularly in Boston, 
there has been misconduct, there have been indictments of FBI 
agents. Because of the court order in the decision and the 
opinion rendered by Judge Wolf, information was revealed which 
I suggest is eroding the confidence not only of the FBI, but of 
our system of justice. It is unfortunate.
    We have members of the U.S. Senate describing a culture of 
concealment, a culture of arrogance within the agency. You 
heard the Chairman today in his remarks directed to the 
Department of Justice. And this is not just peculiar to the 
Boston area. It really goes I believe to the heart of our 
system. Because by that concealment, and there is a series of 
reports filed here by Special Agent Rico that clearly would 
have exculpated Joseph Salvati, that you never had knowledge of 
and, according to press reports, neither did Assistant District 
Attorney Jack Zalkind have knowledge of, and I am confident 
that if Mr. Zalkind had knowledge of it, if you had knowledge 
of it, the miscarriage of justice that occurred in that case 
never would have occurred. He lost 30 years because of a 
culture, because of an attitude. And, yes, I respect the need 
for confidentiality, I think it is really important. But it is 
about time that culture change. It ought to be considered as a 
check and balance, if you will. There is not a U.S. attorney 
that I am aware of that is not an individual of appropriate 
ethics that would never risk the life or the personal safety of 
an individual.
    But there has to be oversight of the FBI and there is none 
today. In fact, Judge Wolf, before the names of Bulger and 
Flemmi were revealed, Judge Wolf, whom you served with and 
continue to serve with, had to threaten the Deputy Attorney 
General of the United States with contempt before they did it. 
That is wrong. That is wrong. And Mr. Horn was asking the 
question of how Joe Barboza, who was an animal, ended up in a 
community and committed another crime, committed a murder. I do 
not know if you are aware, Ted, but two of the investigators in 
the homicide investigation of Mr. Wilson are present here, 
yesterday they testified that they had no idea that Joe Barboza 
was in their community. And here is someone who was 
acknowledged by J. Edgar Hoover to be one of the most vicious 
of criminals in the annals of criminal justice, and he 
committed a murder there. I think we can presume that because 
he pled guilty to it.
    There has to be a policy, since it is this Congress that 
makes policy, there truly in my opinion has to be a hard look 
at the FBI as an agency and its appropriate role and function 
in a democracy. I understand in the early 1960's Bobby Kennedy 
was there and there was a zeal to get organized crime. It has 
been part of our history of the ``red scares,'' if you will, 
the ``blacklisting,'' etc. But what America is about, and I 
think you agree with this, sure, we are about public safety, 
but we are about individual rights and not seeing injustices 
done. It has been painful to sit here over the past 4 or 5 
months and see what has happened to people like Joe Salvati and 
his wife and his children and his family. It is painful. And 
here we are today, the chairman of this committee has to 
threaten the Department of Justice to get information. I will 
give you an opportunity to examine the exhibits in this case.
    And let me ask Mr. Bybee, these are the redactions that we 
are talking about. This is exhibit No. 15, March 19, 1965, Mr. 
Chairman. Someone thought it was necessary to redact the 
following--if the staff could provide Mr. Bybee, Mr. 
Harrington, if you could provide him. What was so important, 
Mr. Bybee, if you know, to redact the name of the Director of 
the FBI? Is that some state secret?
    [Exhibit 15 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.068
    
    [GRAPHIC] [TIFF OMITTED] T8662.069
    
    Mr. Bybee. Congressman, the ``F'' next to that I understand 
indicates that that was an administrative designated file 
number and that is what has been redacted from there is the 
file number.
    Mr. Delahunt. God forbid if we should get those file 
numbers.
    Mr. Bybee. I understand, Congressman.
    Mr. Delahunt. Now from the SAC Boston ``P''--is that 
another administrative file number?
    Mr. Bybee. I do not know what the ``P'' would indicate.
    Mr. Delahunt. Was that a national security interest that 
required the redaction of that name?
    Mr. Bybee. Well, the FBI when it provides these documents 
there are certain things that we have to designate, some things 
are for national security, some things are because we have 
confidential informants, some----
    Mr. Delahunt. Is it confidential the name of the FBI 
Director and the name of the Boston Special Agent in Charge in 
March 1965?
    Mr. Bybee. Congressman, I have not seen this document in 
its original form. Again, from the code that is on there, I 
believe that would not disguise the name of the Director of the 
FBI J. Edgar Hoover, but it would have been a file number.
    Mr. Delahunt. I only point this out because it is absurd, 
isn't it. This is truly absurd. This gives credence to 
everything that Chairman Burton has said, everything that 
Senator Grassley has said, everything that a variety of Members 
of Congress have said. This is about a culture of concealment. 
And when you operate in this level of secrecy without any 
transparency whatsoever you become very susceptible to the 
miscarriages of justices that have occurred in this case. And 
here we have the prosecuting attorney back in the 1960's, sure, 
I know he is reflecting the attitude you did not dare ask the 
FBI the name of an informant because they would have believed 
that you were going to do something nefarious with it. Times 
are changing and the FBI has to be held accountable and that 
culture has to change.
    This is totally unacceptable. We have a series of documents 
here that are going on 40 years old that have no relevancy 
whatsoever to any investigation that I am aware of that are 
redacted in a way that just--imagine getting this document 
being a Member of Congress trying to make some decisions as to 
public policy. Again, the Director of the FBI is redacted--this 
is exhibit No. 16, Mr. Chairman--and the SAC in Boston is again 
redacted. I mean, this could not have happened in the Soviet 
Union. I bet they do better in Iran. Look at that. Who made the 
decisions, Mr. Bybee, about the redaction?
    [Exhibit 16 follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.070
    
    [GRAPHIC] [TIFF OMITTED] T8662.071
    
    [GRAPHIC] [TIFF OMITTED] T8662.072
    
    Mr. Bybee. Congressman, now that I have a copy of the 
document, again the ``F'' next to the SAC Boston is a file 
number. It is a routine redaction by the FBI.
    Mr. Delahunt. OK. Let's go up to the Director of the FBI, 
no number there, no letter there.
    Mr. Bybee. I do not know whether the ``F'' up there 
indicates that would be also part of a file number or not, I do 
not know. I do not think that we would see any reason for us to 
hide the name of the Director of the FBI.
    Mr. Delahunt. Right.
    Mr. Bybee. The ``M'' down there indicates that it was 
irrelevant to the request from the committee.
    Mr. Delahunt. Irrelevant. You made the decision that it was 
irrelevant to the request of the committee?
    Mr. Bybee. Well----
    Mr. Delahunt. Can I ask this, who makes these decisions as 
to redactions?
    Mr. Bybee. Congressman, there is a----
    Mr. Delahunt. Is there a special redaction room? 
[Laughter.]
    Mr. Bybee. No. There is a Civil Discovery Review Panel over 
at the FBI that responds to all of these requests.
    Mr. Delahunt. A what kind of panel?
    Mr. Bybee. There is a review panel, a Civil Discovery----
    Mr. Delahunt. What are the names of the----
    Mr. Bybee. I do not have their names.
    Mr. Delahunt. Can you provide the committee with the names 
of those people?
    Mr. Bybee. I am not sure. I will see whether we can provide 
you with those names.
    Mr. Delahunt. Because that might violate some sense of 
national security too?
    Mr. Bybee. Well, Congressman, we are happy to respond on 
the documents and try to get you the information that you need. 
But we do not generally provide the names of attorneys or other 
employees of the Department or the FBI who are involved at a 
much lower level.
    Mr. Delahunt. Un-huh. Well I----
    Mr. Barr. Would the gentleman yield?
    Mr. Delahunt. I yield to the Chair.
    Mr. Barr. Certainly, if the chairman asked you for those 
names, you would have no problem furnishing them to the 
chairman.
    Mr. Bybee. Again, Congressman, if we are talking about 
providing you with the names of line attorneys, that is not 
something that we ordinarily provide simply because we want our 
people to be able to provide us with candid advice and not be 
subject to inquiry by Congress. We are happy to provide the 
decisionmakers----
    Mr. Barr. This is candid advice, what you just said, if 
routine redactions require candid advice such as might require 
the invocation of executive privilege, where would it end, Mr. 
Bybee?
    Mr. Bybee. Well, Congressman, let me see if I can back up. 
When the committee sends us a request for documents we have to 
exercise some kind of judgment as to what is responsive to you 
and what is not responsive to you. You do not want us dumping 
all of the files of the Department of Justice that are found in 
Boston. That would bury all of us. It would not serve you, it 
would not serve us, it would not serve any purpose to do so.
    Mr. Barr. I do not believe, staff correct me, I do not 
believe that was the request, that every document----
    Mr. Bybee. No. But what I am getting at, Congressman, is 
that when we get a request from the committee we have to 
exercise some kind of judgment as to what is responsive and if 
there are matters that are not responsive----
    Mr. Barr. Hold on just a second. I think all the gentleman 
from Massachusetts is saying is if we then have a subsequent 
possible argument over your, the Department's judgment, we 
might like to know who it was that made that judgment so we can 
get to the bottom of it. And you are saying even that 
information would be protected and would not be provided to the 
committee.
    Mr. Bybee. Well, again, we do not ordinarily make the--we 
can make the decisionmakers, the ultimate policy decisionmakers 
at the Department or the FBI available to talk with the 
committee. But we generally do not make our line attorneys, 
whether that is an assistant U.S. attorney, or it is an 
attorney in the Federal program----
    Mr. Barr. I do not think the gentleman from Massachusetts 
is arguing with the general policy. We are saying that in a 
situation where there is a specific request from the committee, 
the committee Chair and there is a potential disagreement, what 
is there that is so secret or would do great injustice to the 
policies of the Department or its ability to carry out its 
legitimate functions by providing the names that Mr. Delahunt 
is asking for?
    Mr. Bybee. Well, Mr. Chairman, if you want to make that 
request, I will certainly take it back to the Department. If 
you want to challenge the information that has been omitted 
here, then again we will be happy to discuss that with you----
    Mr. Barr. Well, thank you very much. That is very big of 
you.
    Mr. Delahunt. Reclaiming my time for a minute. It is 
interesting that we can challenge what we do not know. Because 
we do not know obviously what information is redacted, do we? 
And that puts the member of a committee that has oversight 
jurisdiction at a somewhat disadvantage. Would you agree with 
that, Mr. Bybee.
    Mr. Bybee. Congressman Delahunt, that would be true of any 
document that we did not provide to the committee.
    Mr. Delahunt. Right.
    Mr. Bybee. Some judgment would have to be exercised as to 
any document in our possession.
    Mr. Delahunt. But then you make the statement that if the 
committee or a member wishes to challenge the information that 
is redacted, then proceed. That is similar in my mind to what 
two families are experiencing in Massachusetts today. The 
family of one McIntyre, I think his name is James or William, 
where it is claimed, it is alleged that he was murdered as a 
result of the misconduct of the FBI providing information to 
Mr. Bulger and Mr. Flemmi. The family, the estate then proceeds 
to file a civil suit against the Government. The Government's 
response is you should have known about it, it was in the 
newspaper. Without any access to the documents, without any 
access to any of the information. My colleague from 
Massachusetts, Mr. Frank described that action as 
representative not of a Department of Justice but a Department 
of Litigation.
    Recently, it was brought to my attention that another 
family is experiencing the same response. They filed a claim 
but the claim was too late because they should have known 
somehow without access to information that the deceased in 
their family, who was also allegedly murdered because of 
information provided by FBI agents, appeared in the newspaper. 
What is happening? Are you familiar with those cases?
    Mr. Bybee. I am not, Congressman.
    Mr. Delahunt. Well, I know myself and Mr. Meehan and Mr. 
Frank sent a letter and we got no response.
    I will yield.
    Mr. Barr. I thank the gentleman from Massachusetts.
    Judge Harrington, going back to the prosecution of 
Patriarca, there has been discussion of the Marfeo case which 
was a Federal case, as I understand it, because it involved a 
conspiracy to travel across State lines to commit murder.
    Judge Harrington. That is correct.
    Mr. Barr. In the Deegan prosecution, Barboza and Flemmi 
went to Rhode Island to ask Patriarca's permission to kill 
Deegan and then they went back across State lines to kill 
Deegan in Massachusetts. Why was a Federal case against 
Patriarca not brought for the Deegan murder?
    Judge Harrington. Because the object of the conspiracy, the 
killing of Marfeo, was not completed at that time. He was 
killed sometime later as a result of another conspiracy. The 
Patriarca case and so-called Marfeo conspiracy was brought 
federally because the object was not attained, therefore we 
tried that as a travel act case in Massachusetts. Whereas in 
Deegan and in DeSeglio the murder was accomplished, therefore 
at that time it had to be a State prosecution.
    Mr. Barr. So you are saying that according to the case law 
at that time, if the object of a conspiracy which was a murder 
was actually carried out, the case could not be brought 
federally, but if the object of the conspiracy was somehow 
frustrated or thwarted or was not carried out that it could be. 
Are you saying that?
    Judge Harrington. No. What I am saying, sir, is that the 
DeSeglio and Deegan cases involved murders, therefore they had 
to be tried in State court.
    Mr. Barr. But they also involved interstate travel in 
support of a conspiracy to commit murder.
    Judge Harrington. I know, but you would not prosecute 
someone for conspiracy to commit murder where you could get 5 
years at that time when you could prosecute them for murder in 
the State court. That is what was done. With respect to the 
Marfeo case, that conspiracy was a conspiracy to travel 
interstate under Title 18 United States Code 1952 to commit the 
murder which was not accomplished at that time. Therefore, 
since there was no murder case that we had information on with 
regard to Willie Marfeo, we proceeded under the travel act and 
the conspiracy to violate it.
    Mr. Barr. Was there any consideration given to prosecuting 
Patriarca federally for the Deegan murder, the conspiracy 
relating thereto?
    Judge Harrington. To prosecute Patriarca federally? No, 
there was not because the Deegan murder case was developed and 
prosecuted by State authority, not by the Federal authority. It 
was a murder case. The State had jurisdiction. The Federal 
Government did not.
    Mr. Barr. Well, the Federal Government could have on the 
conspiracy if nothing else, interstate travel in support of----
    Judge Harrington. But you would not have split the case if 
it even had been considered. It was a murder case. Deegan was 
dead. Garrett Byrne was going to prosecute it.
    Mr. Barr. Who killed him?
    Judge Harrington. Who killed who?
    Mr. Barr. Deegan.
    Judge Harrington. The jury found the seven defendants plus, 
my understanding, that there were other people who were 
involved in it who died prior to the prosecution.
    Mr. Barr. Mr. Salvati did not kill him, right?
    Judge Harrington. I cannot make a judgment with regard to 
that. I did not try the case. Why ask me that question? I had 
nothing to do with it. I have read the opinion and I know, as I 
said in my statement----
    Mr. Barr. As we sit here today, Mr. Salvati--would you 
stand please, Mr. Salvati--who spent 30 years in jail for a 
crime he did not commit, you are still not willing to say as 
you sit here today that this man is innocent, you still think 
he might have been guilty of that murder?
    Judge Harrington. Here is what I say. I am not accusing 
this man. But I do not think I can make that opinion. But I say 
this. If he is innocent, I sympathize with him. And if through 
any inadvertence that my conduct did to cause problems with him 
and his wife and his family, I am immensely sorry. But I will 
tell you at that time I considered myself conducting myself 
with competence and with integrity and I thought I was making a 
great contribution to the Government's fight against organized 
crime.
    Mr. Barr. Do you realize now that swept up, that zeal to 
prosecute mafioso, swept up an innocent man and caused him to 
spend 30 years in jail?
    Judge Harrington. If that is so, I am extremely sorry. But 
I was not there. All I have done in the last 6 or 8 weeks, 
maybe 6 weeks, read the opinions on that case. And I would say 
that because of people like Dan Rea and other people who 
believe in his innocence, there is no doubt that I have some 
doubt at this time, at least with respect to Mr. Salvati. But I 
did nothing knowingly, willfully, or even through inadvertence 
to cause him the injustice that at least he believes and other 
people believe was rendered against him.
    Mr. Barr. Thank you, Mr. Salvati. On December 20th of last 
year you told our staff that you did not believe that any of 
the Deegan defendants were innocent. Why did you reach that 
conclusion, and that includes Mr. Salvati?
    Judge Harrington. Because I read the Supreme Judicial 
Court's opinion. I knew that Baron had been corroborated by 
three other witnesses in part.
    Mr. Barr. So you believed Barboza?
    Judge Harrington. Yes, I did. And in addition, I knew the 
background of the hit. I understood, without going into all the 
details of why Deegan was killed and why his two associates, 
Hannan and Delaney, were hog-tied and killed, there was one 
clear thing--it was a sanctioned hit.
    Mr. Barr. We can all agree that these were bad guys.
    Judge Harrington. I am not saying they were bad guys. I am 
saying it was a sanctioned hit. And a sanctioned hit means two 
things--it meant it was approved by Raymond Patriarca and Henry 
Tameleo in Providence and it was concurred in by Gennaro 
Angiulo and Peter Limone in Boston.
    Mr. Barr. And we also know that Mr. Barboza had told the 
Government that he would never testify in a way that would 
result in Mr. Flemmi, who was truly culpable, being found 
guilty.
    Judge Harrington. I understand that.
    Mr. Barr. Well then how can you continue to this day to 
profess such great confidence in Mr. Barboza and yet there is 
still doubt in your mind that Mr. Salvati is innocent? I am 
trying to get at what is there about Mr. Barboza that he has 
this hold on you all, that even in his death you still----
    Judge Harrington. I am just saying that he was a strong 
witness, he carried a lot of baggage but he was corroborated, 
and the fact that----
    Mr. Barr. But you know he lied.
    Judge Harrington. I do not know that. I always believed, I 
always believed that Baron was telling the truth. Whether he 
lied, now in retrospect I am not sure. But I believed firmly in 
his testimony.
    Mr. Barr. But he told the Government on March 8, 1967 that 
he was going to lie. He said I will give you information on 
murders but I am not going to say anything that would put 
Flemmi in jail. And yet then they testify later and put this 
man in jail. I mean, if that is not a lie, Judge, what is?
    Judge Harrington. Well, the fact of the matter is, 
according to Commonwealth v. Limone that the Superior Court 
rendered in the year 2001, the judge in that case who reviewed 
the entire trial transcript in the Deegan murder case, which I 
have never done, testified that Baron testified--no, the judge 
cited in her opinion that Baron testified that Flemmi was 
involved in the scheme to kill Deegan. The fact that he was not 
indicted was a decision made by the prosecutors.
    Mr. Barr. By the Government.
    Judge Harrington. Not by the Government. By the State 
prosecutors.
    Mr. Barr. That is the Government.
    Judge Harrington. Well it is not the Federal Government.
    Mr. Barr. I did not say Federal Government. It is the 
Government. The Government made a decision not to prosecute him 
because they wanted to protect Barboza and they did not care 
whether an innocent man went to jail in order to protect him in 
order to go after these other folks.
    Judge Harrington. All I can say, Congressman, that decision 
was not made by the Federal----
    Mr. Barr. But you do agree that is an accurate statement?
    Judge Harrington. I agree that the Federal Government, the 
U.S. Attorney's Office did not make the decision whether to 
prosecute James Flemmi in the Deegan murder case.
    Mr. Barr. The gentleman from Massachusetts.
    Mr. Tierney. Thank you. Judge, in 1970 there came a point 
in time where you became aware and I think others with the FBI 
and the prosecutor's office that attorney Bailey was 
representing Mr. Barboza and there were indications that he was 
ready to recant his testimony and that, in fact, he had signed 
an affidavit and there was speculation that he was going to 
take a lie detector test. Do you recall that period in time?
    Judge Harrington. I remember the time period. I remember 
that what Baron advised me as to who Mr. Bailey was 
representing.
    Mr. Tierney. And that was?
    Judge Harrington. He was representing Barboza and he was 
representing other interests.
    Mr. Tierney. Which were?
    Judge Harrington. The organization.
    Mr. Tierney. And you found this out on a visit that you 
made to Mr. Barboza while he was imprisoned at around that 
time?
    Judge Harrington. Joseph, according to my memorandum of 
that date, Joseph Barboza requested that Walter Barnes, the 
head of the Strike Force at that time, and Dennis Condon go 
down to see him at Walpole. I accompanied Mr. Barnes.
    Mr. Tierney. Why?
    Judge Harrington. Because we were requested to go down and 
see him. He wanted to see us.
    Mr. Tierney. Now you say that you have a memorandum of that 
occasion?
    Judge Harrington. I have and it was attached to my opening 
statement.
    Mr. Tierney. Did you make any personal notes of that visit?
    Judge Harrington. Yes. As soon as I came back, Barnes and I 
wrote a memorandum of our interview with Joseph Baron to James 
Featherstone, Deputy Chief, Organized Crime and Racketeering 
Section, and I indicate at the last paragraph that Garrett 
Byrne was so advised.
    Mr. Tierney. Now those documents were in your possession 
all this time, or they have been given to you recently?
    Judge Harrington. I think it was given to me by, I think, 
by members of the staff of this committee. I really had no, I 
do not think I had, no memory of this. Like I did not have a 
memory of my pros memo when I spoke with the staff, I do not 
know whether I had a memory of this.
    Mr. Tierney. Would that be the only document that you 
prepared as a result of that visit?
    Judge Harrington. Yes, it was.
    Mr. Tierney. Now flashing back to the California Clay 
Wilson scenario when you went out there and visited Mr. Barboza 
in jail prior to that prosecution, did you file a report or any 
other written documentation of that visit?
    Judge Harrington. I do not recall any but I am sure I 
reported to my superiors at the Department of Justice that, in 
essence, it was not a frame, Baron was----
    Mr. Tierney. But you would have put that report in writing, 
is that correct?
    Judge Harrington. I do not know whether I put it in writing 
or--we were, in those days we were in constant communication 
with Washington. Our superior, the Deputy Chief, Mr. 
Featherstone, we talked to him three or four times a day. I do 
not know whether I put it in writing or not.
    Mr. Tierney. Well wouldn't it be your general practice that 
when you go on official business and you have an appointment 
with somebody and do an interview that you would commit that to 
writing in some fashion, either file it in your office files or 
send it to Washington, or both?
    Judge Harrington. I very well could have. But I just have 
no memory of doing it. But I know that I reported to 
Featherstone the result of my trip to see Baron in California.
    Mr. Tierney. Was it your practice, Judge, at that time 
generally to file that kind of report after meeting with 
somebody to interview?
    Judge Harrington. I suppose it would be.
    Mr. Tierney. When you met with Mr. Barboza in Boston at the 
time of the reported recantation, what transpired during that 
meeting?
    Judge Harrington. You mean at Walpole?
    Mr. Tierney. That is correct.
    Judge Harrington. It is set forth in detail.
    Mr. Tierney. But generally for us, if you would.
    Judge Harrington. Well, the main thing is that he said that 
he was being paid by money funded by the mob to induce him to 
change his testimony, that his testimony in the Deegan case was 
truthful and that any recantation would have been perjurious.
    Mr. Tierney. And what did anybody, either you or the others 
from the Government side, say to him?
    Judge Harrington. My only memory of that entire interview 
is contained therein. I would like to find out what I did say. 
But what transpired on that meeting is fully reported in this 
memorandum.
    Mr. Tierney. Which was prepared simultaneously with your 
return from that visit?
    Judge Harrington. As soon as I returned. In fact, it does 
show there in the first paragraph that Baron requested in 
writing to speak to Barnes and Special Agent Dennis Condon. My 
memory of the interview with Baron on that date is contained in 
that memorandum.
    Mr. Tierney. Did anybody tell him not to go forward with 
his lie detector test and not to go forward with his affidavit 
or recantation?
    Judge Harrington. I did not, nor anybody in my presence. 
Because the only two who went down was, my memory, although he 
asked for Condon, I accompanied Barnes down there.
    Mr. Tierney. And the fact of the matter is that shortly 
after that visit, however, Mr. Bailey was fired and there never 
was a recantation and there never was a lie detector test, as 
far as you know, right?
    Judge Harrington. He had already signed his recantation.
    Mr. Tierney. The affidavit.
    Judge Harrington. The affidavit.
    Mr. Tierney. But after that visit that you made, Mr. Bailey 
was fired and there was no further action on that. Is that 
correct?
    Judge Harrington. There were hearings on motions for new 
trials.
    Mr. Tierney. But no lie detector test?
    Judge Harrington. No lie detector test.
    Mr. Burton. Would the gentleman yield real quickly.
    Judge, your memory is remarkable on most issues, except you 
cannot remember that 5 month period when you were trying to get 
Patriarca, you were trying to nail him and you heard that 
bugged conversation where he gave his OK to murder Deegan. You 
have forgotten that. But your memory is very, very good on all 
this other stuff.
    Judge Harrington. Well, I will tell you this, as I 
indicated previously, I have spent the last 6 weeks refreshing 
my recollection with respect to a matter that occurred 35 years 
ago because I wanted when I came down here, I was invited down 
and I was happy to come, to provide you, Mr. Chairman, with as 
much information as I had.
    Mr. Burton. I appreciate that. But it just seems strange to 
me that when you were after the head of the mob and you heard 
him give the OK to murder somebody that you would forget that 
in 5 months. But sometimes our memories do slip. And you being 
a judge, I am sure that you have a lot on your mind.
    One thing I want to followup on. Now Mr. Bailey, who you 
say was representing the mob, I presume, or the organization in 
addition to----
    Judge Harrington. Well, Baron told me he was representing 
Raymond Patriarca.
    Mr. Burton. OK. And you believed this man who killed 27 
people? I am sure he would not lie to you.
    Judge Harrington. Well somebody was paying him the money. 
Baron said he was receiving money as an inducement to recant.
    Mr. Burton. OK. So Mr. Bailey is about to have him take a 
lie detector test, and then you go see Mr. Barboza without 
telling his counsel, without telling the prosecuting attorney 
you are there until after you have talked to him, and he 
immediately changes his mind and does not take the lie detector 
test. Did you say anything to him at all about that lie 
detector test?
    Judge Harrington. I did not.
    Mr. Burton. You did not. Was anybody else there besides the 
two of you when you talked to him?
    Judge Harrington. Barnes and I were there and we said 
nothing with respect to the lie detector test.
    Mr. Burton. Barnes and you?
    Judge Harrington. Yes, Barnes and I.
    Mr. Burton. Who is Barnes?
    Judge Harrington. Barnes was the attorney in charge of the 
Strike Force at that time.
    Mr. Burton. And he went with you when you went to see 
Barboza?
    Judge Harrington. He was called--Baron asked him to come 
down.
    Mr. Burton. So that when you went to the prison he was with 
you?
    Judge Harrington. That is right. And we both prepared that 
memorandum.
    Mr. Burton. I see. And the two of you never mentioned 
anything about the lie detector test?
    Judge Harrington. Baron mentioned the lie detector test. He 
said as soon as I do a lie detector test for Bailey, I will be 
killed. And he said he would not do it because--well, it is 
contained right in the paragraph.
    Mr. Burton. And you did not encourage him in any way?
    Judge Harrington. I did not.
    Mr. Burton. OK.
    Mr. Tierney. Thank you, sir. Judge, where do our 
prosecutors in the Government draw the line of where an 
informant's value is outweighed by the potential harm that 
would be done by protecting that witness in a particular 
situation?
    Judge Harrington. It is a judgment call. But you have to 
put yourself back in the context of 35 years ago.
    Mr. Tierney. Can I interrupt. Just policy-wise going 
forward, I am really asking for your judgment on today's 
situation. And knowing what you know now, if we were crafting 
policy or reviewing the situation, what process should exist 
for reviewing those situations where those kind of decisions 
must be made and how do we go about making sure that any 
determination is done properly and has appropriate scrutiny and 
review before a situation arises that we might regret later?
    Judge Harrington. I think you would have to weigh two 
factors. On the one hand, the quality of the intelligence. And 
on the other hand, the type of criminal activity that the 
informant must, by definition, be engaged in.
    Mr. Tierney. And who would you have making that 
determination?
    Judge Harrington. I think that the FBI should make that 
decision under rules propounded by the Congress of the United 
States, as Mr. Delahunt so eloquently professed.
    Mr. Tierney. Would you have anybody in the Justice 
Department other than the FBI reviewing the determination or 
overseeing that, or would you leave it with the agency?
    Judge Harrington. I do not know, I am not an expert in that 
area. But I think that in the investigation of crime and the 
cultivation of intelligence that is an investigative function 
and not a legal decision. But I could be wrong.
    Mr. Tierney. My curiosity on that is how do we find out or 
how do we make sure that relationship between the informant and 
the FBI agents who are supposedly working with them does not 
become so cozy that it creates a problem, and that if there is 
no other person or entity reviewing what is going on we end up 
with a situation that we may well have--or it looks like we do 
have here--a couple of rogue agents out there getting too close 
and causing us all sorts of difficulty?
    Judge Harrington. Maybe you could have a unit in the 
Department of Justice, people who might review that type of 
decision.
    Mr. Tierney. Hopefully, not the same one that reviews 
documents. But let me ask another question. How would you 
describe your relationship with Baron or Barboza?
    Judge Harrington. I think I had a good relationship with 
him.
    Mr. Tierney. What was your responsibility professionally 
with respect to the Department and his activities?
    Judge Harrington. Well, I was involved with the prosecution 
of the Federal case. I was kind of a liaison with the Marshal's 
Office and the District Attorney to ensure his protection and 
his transportation for purposes of trial. So I had a 
relationship with him.
    Mr. Tierney. Did you have regular contact with him?
    Judge Harrington. Not regular. During that period of time 
he was guarded by 16 marshals in a mansion on an isthmus or 
tangent out in Gloucester and periodically Paul Markum, Walter 
Burns and I, who were the prosecutors on the Patriarca case, 
would go up and speak to him about the testimony in the Federal 
case.
    Mr. Tierney. Would you say that you were closer to him than 
the other gentlemen that you mentioned, Barnes and Markum?
    Judge Harrington. I think we were all close to him but I 
think he liked me better. And I think the reason might be 
because Joseph Barboza came from New Bedford, MA, I came from 
Fall River, MA, both of them are in southeastern Massachusetts, 
and we had I think a little regional rapport.
    Mr. Tierney. Did you have anything to do with his 
whereabouts, his travels, or his eventual situation where he 
was imprisoned on the Wilson murder and then eventually ended 
up on the street in a relatively short period of time? What was 
your involvement with him or with that process where he got 
sort of run through the system and out?
    Judge Harrington. I think that I testified in the Wilson 
murder case, as I have testified here, about his extent of his 
cooperation. I think I most likely was in contact with the 
Parole Board and I know that I testified before the Parole 
Board.
    Mr. Tierney. In California?
    Judge Harrington. He was transferred from California to 
Montana.
    Mr. Tierney. Did you arrange for that transfer?
    Judge Harrington. I do not want to say yes or no. I have no 
memory of what happened. But at that time, you have got to 
realize----
    Mr. Tierney. No, no, I understand that there were other 
things----
    Judge Harrington. But I think, to tell you the truth, my 
best memory is that the authorities in California wanted to get 
him out of that area because of the risk that he would be 
assassinated in prison because of his cooperation with the 
Government against the organization.
    Mr. Tierney. Is there any potential that he called you and 
he asked you to help him go somewhere else?
    Judge Harrington. I have no memory of that.
    Mr. Tierney. But it would have been the kind of 
relationship that you had with him?
    Judge Harrington. I will tell you this, I do not recall 
contacting the authorities in California to have him 
transferred to Montana. I could have done it. It would have 
been standard practice if we thought he was going to be killed 
in California. I just have no memory of it.
    Mr. Tierney. How did it end up that you ended up in Montana 
testifying in front of the Parole Board?
    Judge Harrington. Because Elliot Richardson called me while 
I was in private practice and asked me to go out there because 
I was involved with Baron in the Patriarca case and had some 
connection with him and knew his contribution to the Government 
in its fight against organized crime.
    Mr. Tierney. And Mr. Richardson's position at that time?
    Judge Harrington. He was Attorney General of the United 
States.
    Mr. Tierney. And he personally called you and asked you to 
go up there?
    Judge Harrington. I do not want to say that he personally 
did. But I was advised that the Attorney General, and I must 
have got some authority because I was not a member of the 
Department of Justice, he reinstated me to be a Special 
Attorney for the purposes of that trip.
    Mr. Tierney. And then you went up there with the intention 
that your testimony would be helpful to Mr. Barboza's cause?
    Judge Harrington. Absolutely.
    Mr. Tierney. And last, why would you suspect, as was 
reported I guess in the Hartford Current by a gentleman named 
Edmund Mahoney who wrote an article back on February 10th of 
this year, ``When Barboza wrote his book, 'Barboza,' it was 
billed as the nakedly brutal story of his life in crime and he 
dedicated it to Edward Harrington with respect.''
    Judge Harrington. What is your question?
    Mr. Tierney. Did you have that great a relationship with 
the man?
    Judge Harrington. He must have liked me.
    Mr. Tierney. Thank you.
    Mr. Burton. You know, Barboza did like you. I am not sure I 
would want to brag about that too much. He murdered at least 27 
people even if he did come from your neck of the woods. And he 
wrote you a nice letter saying, you know, I did not even have 
to say one word to the parole board. Here is a guy that 
murdered Wilson while in the Witness Protection Program. You go 
out and testify on his behalf along with two FBI agents. The 
guy does not get the death penalty, they plea bargain and he 
gets 5 years in prison, goes to Montana, and his defense 
attorney says it was like a country club because he was calling 
him all the time, he was smoking pot, and he was just living 
the life of Riley. And then he writes to you and says the 
parole board said this is the ``fastest hearing in the history 
of Montana'' that I made parole, ``I did not even say one 
word.'' Do you know, you did a great job. He really was your 
friend. You did a great job for him.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. Judge Harrington, let me 
go into just a couple of other exams. Prior to Condon's 
testimony, moving to that, was he restricted in any manner by 
the FBI or the Department of Justice authorities regarding what 
information related to the Deegan murder you could reveal? The 
information is in our records from the Patriarca tapes or 
either from FBI informants. Did you have a chance to look at 
that material?
    Judge Harrington. Is your question, did I have a chance to 
look at the logs from the Patriarca bug? If that was your 
question, yes, I did in preparation for my prosecution memo.
    Mr. Horn. OK. And what did you think of Condon's testimony?
    Judge Harrington. Think of what?
    Mr. Horn. What did you think about the testimony of Condon?
    Judge Harrington. At the Deegan case, or in the Shore case?
    Mr. Horn. This would be the Deegan trial. Condon testified 
there and prior to his testimony in the Deegan murder case that 
he received permission from the Department of Justice.
    Judge Harrington. I do not know whether he received 
permission. I assume that he did because that was the practice 
at that time. I do not know what Condon testified to in the 
Deegan murder case, so I cannot evaluate the quality of his 
testimony.
    Mr. Horn. Were you involved in that decision as to whether 
Condon would testify or not?
    Judge Harrington. I was not.
    Mr. Horn. OK. Let me move then to, prior to that, was he 
restricted in any manner by the FBI or the Department of 
Justice authorities regarding what information related to the 
Deegan murder. Could you reveal any of that for us?
    Judge Harrington. All I can say is that at that time, and I 
think even today, when a Federal witness is asked to testify in 
a State trial he testifies under explicit written authorization 
of the Attorney General and must contain his testimony within 
the ambit of that authority.
    Mr. Horn. Now Mr. Condon then, did he use the Patriarca 
tapes or were they using FBI informants?
    Judge Harrington. Again, I do not know what Mr. Condon 
testified to in the Deegan murder case. So I cannot answer your 
question, sir.
    Mr. Horn. Prior to Condon testifying, did you review with 
him the Deegan murder information that was obtained from the 
FBI's secret monitoring devices or from the FBI informants?
    Judge Harrington. I had absolutely--absolutely--no 
involvement in the Deegan murder case.
    Mr. Horn. Did you perceive any ethical obligation to ensure 
that all the information developed by you and other Federal 
sources indicated that some of the Deegan defendants, Mr. 
Salvati, or Greco, Tameleo, and Limone, were innocent and were 
they provided to the Suffolk County District Attorney's office 
at the time of the Deegan trial? If not, why not?
    Judge Harrington. I know, or I believe from reviewing the 
record that no orders issued from the State court. And I had no 
involvement in it. So I gave no advice to anyone with regard to 
that matter.
    Mr. Horn. On another part of this interesting parade. Jimmy 
Flemmi before the grand jury, did he ever testify before a 
grand jury regarding the Deegan murder?
    Judge Harrington. Not that I know of.
    Mr. Horn. Was he called before the grand jury to give him 
cover?
    Judge Harrington. At the early stages, after Baron was 
turned in March or early April 1967, James Flemmi and a fellow 
by the name of Fabiano were brought in to speak with the FBI in 
an attempt to see if the FBI could turn them. My understanding 
is, I did not talk with Flemmi, but my understanding from 
talking with the Bureau agents is that he was unwilling to turn 
State's evidence and that he was put before the grand jury in a 
pro forma manner so as to provide him with an excuse when he 
returned to prison.
    Mr. Burton. Would the gentleman yield real briefly. Was 
this a Federal or State grand jury?
    Judge Harrington. Federal.
    Mr. Burton. Federal.
    Mr. Horn. Did you put Jimmy Flemmi before the grand jury?
    Judge Harrington. I did.
    Mr. Horn. And we have been told that he was brought before 
a grand jury in order to give him cover, and that is what we 
are curious about.
    Judge Harrington. By the term ``cover,'' Congressman, it 
meant that he would be able to advise his prison associates 
that he was brought in to the U.S. Attorney's Office because of 
his testimony before a grand jury, where the real purpose was 
to talk with FBI agents to see if they could turn him.
    Mr. Horn. Let me mention Jack Zalkind, is that----
    Judge Harrington. Jack Zalkind.
    Mr. Horn. Zalkind. He refused to cooperate with the 
committee and was the prosecutor in the Deegan case. His 
assistant has signed an affidavit that he had exculpatory 
evidence at the time of the trial and that evidence was not 
turned over to the defense. Do you know whether Zalkind had 
information that Jimmy Flemmi was involved in the Deegan 
murder?
    Judge Harrington. I have no information. And as I indicated 
previously, Jack Zalkind said in the Boston Herald Tuesday of 
this week that he never discussed the Deegan murder case with 
me.
    Mr. Horn. Was any information from the Patriarca logs 
discussed with him at all?
    Judge Harrington. I have no memory that anything on the 
Patriarca logs were discussed with Zalkind because I never 
discussed that case with him. However, as I indicated 
previously, the Patriarca logs were made available to two of 
the defense counsel who subsequently defended the same 
defendants in the Deegan murder case. So they were available.
    Mr. Horn. Did Barboza tell Zalkind or any State law 
enforcement officials that he would not provide information 
against Jimmy Flemmi?
    Judge Harrington. I do not know what he said to Zalkind or 
State law enforcement officials.
    Mr. Horn. Did you tell Zalkind or any State law enforcement 
officials that Barboza had said he would not provide 
information against Jimmy Flemmi?
    Judge Harrington. I did not. I never talked with Zalkind 
about the prosecution of this case.
    Mr. Horn. That is fine. The first sentence of one document 
reads: ``The investigation is being initiated in connection 
with the TECIP''--perhaps you know that, Mr. Bybee, what is the 
TECIP?
    Mr. Bybee. I do not know what that is, Congressman.
    Mr. Horn. Judge, was that a group within the Department of 
Justice?
    Judge Harrington. What is it?
    Mr. Horn. T-E-C-I-P. For short, probably TECIP.
    Judge Harrington. I do not recall the term at this time.
    Mr. Horn. And the question was, ``Investigation is being 
initiated in connection with TECIP,'' this group, ``to develop 
the subject as a top echelon criminal informant. Therefore, 
subject is being designated a target under this program.'' The 
date of this document is April 14, 1969. And I do not see an 
exhibit on this, counsel.
    Mr. Burton. Excuse me, Mr. Horn. We have about 4 or 5 
minutes left on this vote. If you would like, we can come back 
and you can wrap it up then. Would you like to do that?
    Mr. Horn. OK. Fine.
    Mr. Burton. OK. We will try to wrap this up very shortly as 
soon as this vote is over. We will be back very shortly. Thank 
you.
    Judge Harrington. Thank you.
    [Recess.]
    Mr. Burton. The committee will reconvene.
    I think we have covered everything we need to cover. So 
rather than have you sit around, even though we have more 
questions for the Justice Department, because of the lateness 
of the day, we will adjourn this hearing and we will conduct 
further hearings down the road.
    Judge Harrington. Mr. Chairman, I want to thank you and the 
courtesy you have shown me.
    Mr. Burton. Thank you, Judge.
    So we stand adjourned.
    [Whereupon, at 2:10 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The exhibits referred to follow:]
    [GRAPHIC] [TIFF OMITTED] T8662.054
    
    [GRAPHIC] [TIFF OMITTED] T8662.055
    
    [GRAPHIC] [TIFF OMITTED] T8662.015
    
    [GRAPHIC] [TIFF OMITTED] T8662.016
    
    [GRAPHIC] [TIFF OMITTED] T8662.017
    
    [GRAPHIC] [TIFF OMITTED] T8662.018
    
    [GRAPHIC] [TIFF OMITTED] T8662.019
    
    [GRAPHIC] [TIFF OMITTED] T8662.020
    
    [GRAPHIC] [TIFF OMITTED] T8662.021
    
    [GRAPHIC] [TIFF OMITTED] T8662.022
    
    [GRAPHIC] [TIFF OMITTED] T8662.023
    
    [GRAPHIC] [TIFF OMITTED] T8662.024
    
    [GRAPHIC] [TIFF OMITTED] T8662.025
    
    [GRAPHIC] [TIFF OMITTED] T8662.056
    
    [GRAPHIC] [TIFF OMITTED] T8662.057
    
    [GRAPHIC] [TIFF OMITTED] T8662.058
    
    [GRAPHIC] [TIFF OMITTED] T8662.059
    
    [GRAPHIC] [TIFF OMITTED] T8662.060
    
    [GRAPHIC] [TIFF OMITTED] T8662.061
    
    [GRAPHIC] [TIFF OMITTED] T8662.062
    
    [GRAPHIC] [TIFF OMITTED] T8662.063
    
    [GRAPHIC] [TIFF OMITTED] T8662.064
    
    [GRAPHIC] [TIFF OMITTED] T8662.065
    
    [GRAPHIC] [TIFF OMITTED] T8662.066
    
    [GRAPHIC] [TIFF OMITTED] T8662.067
    
    [GRAPHIC] [TIFF OMITTED] T8662.068
    
    [GRAPHIC] [TIFF OMITTED] T8662.069
    
    [GRAPHIC] [TIFF OMITTED] T8662.070
    
    [GRAPHIC] [TIFF OMITTED] T8662.071
    
    [GRAPHIC] [TIFF OMITTED] T8662.072
    
    [GRAPHIC] [TIFF OMITTED] T8662.073
    
    [GRAPHIC] [TIFF OMITTED] T8662.074
    
    [GRAPHIC] [TIFF OMITTED] T8662.075
    
    [GRAPHIC] [TIFF OMITTED] T8662.076
    
    [GRAPHIC] [TIFF OMITTED] T8662.077
    
    [GRAPHIC] [TIFF OMITTED] T8662.078
    
    [GRAPHIC] [TIFF OMITTED] T8662.079
    
    [GRAPHIC] [TIFF OMITTED] T8662.080
    
    [GRAPHIC] [TIFF OMITTED] T8662.081
    
    [GRAPHIC] [TIFF OMITTED] T8662.082
    
    [GRAPHIC] [TIFF OMITTED] T8662.083
    
    [GRAPHIC] [TIFF OMITTED] T8662.084
    
    [GRAPHIC] [TIFF OMITTED] T8662.085
    
    [GRAPHIC] [TIFF OMITTED] T8662.086
    
    [GRAPHIC] [TIFF OMITTED] T8662.087
    
    [GRAPHIC] [TIFF OMITTED] T8662.088
    
    [GRAPHIC] [TIFF OMITTED] T8662.089
    
    [GRAPHIC] [TIFF OMITTED] T8662.090
    
    [GRAPHIC] [TIFF OMITTED] T8662.091
    
    [GRAPHIC] [TIFF OMITTED] T8662.092
    
    [GRAPHIC] [TIFF OMITTED] T8662.093
    
    [GRAPHIC] [TIFF OMITTED] T8662.094
    
    [GRAPHIC] [TIFF OMITTED] T8662.095
    
    [GRAPHIC] [TIFF OMITTED] T8662.096
    
    [GRAPHIC] [TIFF OMITTED] T8662.097
    
    [GRAPHIC] [TIFF OMITTED] T8662.098
    
    [GRAPHIC] [TIFF OMITTED] T8662.099
    
    [GRAPHIC] [TIFF OMITTED] T8662.100
    
    [GRAPHIC] [TIFF OMITTED] T8662.101
    
    [GRAPHIC] [TIFF OMITTED] T8662.102
    
    [GRAPHIC] [TIFF OMITTED] T8662.103
    
    [GRAPHIC] [TIFF OMITTED] T8662.104
    
    [GRAPHIC] [TIFF OMITTED] T8662.105
    
    [GRAPHIC] [TIFF OMITTED] T8662.106
    
    [GRAPHIC] [TIFF OMITTED] T8662.107
    
    [GRAPHIC] [TIFF OMITTED] T8662.108
    
    [GRAPHIC] [TIFF OMITTED] T8662.109
    
    [GRAPHIC] [TIFF OMITTED] T8662.110
    
    [GRAPHIC] [TIFF OMITTED] T8662.111
    
    [GRAPHIC] [TIFF OMITTED] T8662.112
    
    [GRAPHIC] [TIFF OMITTED] T8662.113
    
    [GRAPHIC] [TIFF OMITTED] T8662.114
    
    [GRAPHIC] [TIFF OMITTED] T8662.115
    
    [GRAPHIC] [TIFF OMITTED] T8662.116
    
    [GRAPHIC] [TIFF OMITTED] T8662.117
    
    [GRAPHIC] [TIFF OMITTED] T8662.118
    
    [GRAPHIC] [TIFF OMITTED] T8662.119
    
    [GRAPHIC] [TIFF OMITTED] T8662.120
    
    [GRAPHIC] [TIFF OMITTED] T8662.121
    
    [GRAPHIC] [TIFF OMITTED] T8662.122
    
    [GRAPHIC] [TIFF OMITTED] T8662.123
    
    [GRAPHIC] [TIFF OMITTED] T8662.124
    
    [GRAPHIC] [TIFF OMITTED] T8662.125
    
    [GRAPHIC] [TIFF OMITTED] T8662.126
    
    [GRAPHIC] [TIFF OMITTED] T8662.127
    
    [GRAPHIC] [TIFF OMITTED] T8662.128
    
    [GRAPHIC] [TIFF OMITTED] T8662.129
    
    [GRAPHIC] [TIFF OMITTED] T8662.130
    
    [GRAPHIC] [TIFF OMITTED] T8662.131
    
    [GRAPHIC] [TIFF OMITTED] T8662.132
    
    [GRAPHIC] [TIFF OMITTED] T8662.133
    
    [GRAPHIC] [TIFF OMITTED] T8662.134
    
    [GRAPHIC] [TIFF OMITTED] T8662.135
    
    [GRAPHIC] [TIFF OMITTED] T8662.136
    
    [GRAPHIC] [TIFF OMITTED] T8662.137
    
    [GRAPHIC] [TIFF OMITTED] T8662.138
    
    [GRAPHIC] [TIFF OMITTED] T8662.139
    
    [GRAPHIC] [TIFF OMITTED] T8662.140
    
    [GRAPHIC] [TIFF OMITTED] T8662.141
    
    [GRAPHIC] [TIFF OMITTED] T8662.142
    
    [GRAPHIC] [TIFF OMITTED] T8662.143
    
    [GRAPHIC] [TIFF OMITTED] T8662.144
    
    [GRAPHIC] [TIFF OMITTED] T8662.145
    
    [GRAPHIC] [TIFF OMITTED] T8662.146
    
    [GRAPHIC] [TIFF OMITTED] T8662.147
    
    [GRAPHIC] [TIFF OMITTED] T8662.148
    
    [GRAPHIC] [TIFF OMITTED] T8662.149
    
    [GRAPHIC] [TIFF OMITTED] T8662.150
    
    [GRAPHIC] [TIFF OMITTED] T8662.151
    
    [GRAPHIC] [TIFF OMITTED] T8662.152
    
    [GRAPHIC] [TIFF OMITTED] T8662.153
    
    [GRAPHIC] [TIFF OMITTED] T8662.154
    
    [GRAPHIC] [TIFF OMITTED] T8662.155
    
    [GRAPHIC] [TIFF OMITTED] T8662.156
    
    [GRAPHIC] [TIFF OMITTED] T8662.157
    
    [GRAPHIC] [TIFF OMITTED] T8662.158
    
    [GRAPHIC] [TIFF OMITTED] T8662.159
    
    [GRAPHIC] [TIFF OMITTED] T8662.160
    
    [GRAPHIC] [TIFF OMITTED] T8662.161
    
    [GRAPHIC] [TIFF OMITTED] T8662.162
    
    [GRAPHIC] [TIFF OMITTED] T8662.163
    
    [GRAPHIC] [TIFF OMITTED] T8662.164
    
    [GRAPHIC] [TIFF OMITTED] T8662.165
    
    [GRAPHIC] [TIFF OMITTED] T8662.166
    
    [GRAPHIC] [TIFF OMITTED] T8662.167
    
    [GRAPHIC] [TIFF OMITTED] T8662.168
    
    [GRAPHIC] [TIFF OMITTED] T8662.169
    
    [GRAPHIC] [TIFF OMITTED] T8662.170
    
    [GRAPHIC] [TIFF OMITTED] T8662.171
    
    [GRAPHIC] [TIFF OMITTED] T8662.172
    
    [GRAPHIC] [TIFF OMITTED] T8662.173
    
    [GRAPHIC] [TIFF OMITTED] T8662.174
    
    [GRAPHIC] [TIFF OMITTED] T8662.175
    
    [GRAPHIC] [TIFF OMITTED] T8662.176
    
    [GRAPHIC] [TIFF OMITTED] T8662.177
    
    [GRAPHIC] [TIFF OMITTED] T8662.178
    
    [GRAPHIC] [TIFF OMITTED] T8662.179
    
    [GRAPHIC] [TIFF OMITTED] T8662.180
    
    [GRAPHIC] [TIFF OMITTED] T8662.181
    
    [GRAPHIC] [TIFF OMITTED] T8662.182
    
    [GRAPHIC] [TIFF OMITTED] T8662.183
    
    [GRAPHIC] [TIFF OMITTED] T8662.184
    
    [GRAPHIC] [TIFF OMITTED] T8662.185
    
    [GRAPHIC] [TIFF OMITTED] T8662.186
    
    [GRAPHIC] [TIFF OMITTED] T8662.187
    
    [GRAPHIC] [TIFF OMITTED] T8662.188
    
    [GRAPHIC] [TIFF OMITTED] T8662.189
    
    [GRAPHIC] [TIFF OMITTED] T8662.190
    
    [GRAPHIC] [TIFF OMITTED] T8662.191
    
    [GRAPHIC] [TIFF OMITTED] T8662.192
    
    [GRAPHIC] [TIFF OMITTED] T8662.193
    
    [GRAPHIC] [TIFF OMITTED] T8662.194
    
    [GRAPHIC] [TIFF OMITTED] T8662.195
    
    [GRAPHIC] [TIFF OMITTED] T8662.196
    
    [GRAPHIC] [TIFF OMITTED] T8662.197
    
    [GRAPHIC] [TIFF OMITTED] T8662.198
    
    [GRAPHIC] [TIFF OMITTED] T8662.199
    
    [GRAPHIC] [TIFF OMITTED] T8662.200
    
    [GRAPHIC] [TIFF OMITTED] T8662.201
    
    [GRAPHIC] [TIFF OMITTED] T8662.202
    
    [GRAPHIC] [TIFF OMITTED] T8662.203
    
    [GRAPHIC] [TIFF OMITTED] T8662.204
    
    [GRAPHIC] [TIFF OMITTED] T8662.205
    
    [GRAPHIC] [TIFF OMITTED] T8662.206
    
    [GRAPHIC] [TIFF OMITTED] T8662.207
    
    [GRAPHIC] [TIFF OMITTED] T8662.208
    
    [GRAPHIC] [TIFF OMITTED] T8662.209
    
    [GRAPHIC] [TIFF OMITTED] T8662.210
    
    [GRAPHIC] [TIFF OMITTED] T8662.211
    
    [GRAPHIC] [TIFF OMITTED] T8662.212
    
    [GRAPHIC] [TIFF OMITTED] T8662.213
    
    [GRAPHIC] [TIFF OMITTED] T8662.214
    
    [GRAPHIC] [TIFF OMITTED] T8662.215
    
    [GRAPHIC] [TIFF OMITTED] T8662.216
    
    [GRAPHIC] [TIFF OMITTED] T8662.217
    
    [GRAPHIC] [TIFF OMITTED] T8662.218
    
    [GRAPHIC] [TIFF OMITTED] T8662.219
    
    [GRAPHIC] [TIFF OMITTED] T8662.220
    
    [GRAPHIC] [TIFF OMITTED] T8662.221
    
    [GRAPHIC] [TIFF OMITTED] T8662.222
    
    [GRAPHIC] [TIFF OMITTED] T8662.223
    
    [GRAPHIC] [TIFF OMITTED] T8662.224
    
    [GRAPHIC] [TIFF OMITTED] T8662.225
    
    [GRAPHIC] [TIFF OMITTED] T8662.226
    
    [GRAPHIC] [TIFF OMITTED] T8662.227
    
    [GRAPHIC] [TIFF OMITTED] T8662.228
    
    [GRAPHIC] [TIFF OMITTED] T8662.229
    
    [GRAPHIC] [TIFF OMITTED] T8662.230
    
    [GRAPHIC] [TIFF OMITTED] T8662.231
    
    [GRAPHIC] [TIFF OMITTED] T8662.232
    
    [GRAPHIC] [TIFF OMITTED] T8662.233
    
    [GRAPHIC] [TIFF OMITTED] T8662.234
    
    [GRAPHIC] [TIFF OMITTED] T8662.235
    
    [GRAPHIC] [TIFF OMITTED] T8662.236
    
    [GRAPHIC] [TIFF OMITTED] T8662.310
    
    [GRAPHIC] [TIFF OMITTED] T8662.311
    
    [GRAPHIC] [TIFF OMITTED] T8662.312
    
    [GRAPHIC] [TIFF OMITTED] T8662.313
    
    [GRAPHIC] [TIFF OMITTED] T8662.314
    
    [GRAPHIC] [TIFF OMITTED] T8662.315
    
    [GRAPHIC] [TIFF OMITTED] T8662.316
    
    [GRAPHIC] [TIFF OMITTED] T8662.317
    
    [GRAPHIC] [TIFF OMITTED] T8662.318
    
    [GRAPHIC] [TIFF OMITTED] T8662.319
    
    [GRAPHIC] [TIFF OMITTED] T8662.320
    
    [GRAPHIC] [TIFF OMITTED] T8662.321
    
    [GRAPHIC] [TIFF OMITTED] T8662.322
    
    [GRAPHIC] [TIFF OMITTED] T8662.323
    
    [GRAPHIC] [TIFF OMITTED] T8662.324
    
    [GRAPHIC] [TIFF OMITTED] T8662.325
    
    [GRAPHIC] [TIFF OMITTED] T8662.326
    
    [GRAPHIC] [TIFF OMITTED] T8662.327
    
    [GRAPHIC] [TIFF OMITTED] T8662.328
    
    [GRAPHIC] [TIFF OMITTED] T8662.329
    
    [GRAPHIC] [TIFF OMITTED] T8662.330
    
    [GRAPHIC] [TIFF OMITTED] T8662.331
    
    [GRAPHIC] [TIFF OMITTED] T8662.332
    
    [GRAPHIC] [TIFF OMITTED] T8662.333
    
    [GRAPHIC] [TIFF OMITTED] T8662.334
    
    [GRAPHIC] [TIFF OMITTED] T8662.335
    
    [GRAPHIC] [TIFF OMITTED] T8662.336
    
    [GRAPHIC] [TIFF OMITTED] T8662.337
    
    [GRAPHIC] [TIFF OMITTED] T8662.338
    
    [GRAPHIC] [TIFF OMITTED] T8662.339
    
    [GRAPHIC] [TIFF OMITTED] T8662.340
    
    [GRAPHIC] [TIFF OMITTED] T8662.341
    
    [GRAPHIC] [TIFF OMITTED] T8662.342
    
    [GRAPHIC] [TIFF OMITTED] T8662.343
    
    [GRAPHIC] [TIFF OMITTED] T8662.344
    
    [GRAPHIC] [TIFF OMITTED] T8662.345
    
    [GRAPHIC] [TIFF OMITTED] T8662.346
    
    [GRAPHIC] [TIFF OMITTED] T8662.347
    
    [GRAPHIC] [TIFF OMITTED] T8662.348
    
    [GRAPHIC] [TIFF OMITTED] T8662.349
    
    [GRAPHIC] [TIFF OMITTED] T8662.350
    
    [GRAPHIC] [TIFF OMITTED] T8662.351
    
    [GRAPHIC] [TIFF OMITTED] T8662.352
    
    [GRAPHIC] [TIFF OMITTED] T8662.353
    
    [GRAPHIC] [TIFF OMITTED] T8662.354
    
    [GRAPHIC] [TIFF OMITTED] T8662.355
    
    [GRAPHIC] [TIFF OMITTED] T8662.356
    
    [GRAPHIC] [TIFF OMITTED] T8662.357
    
    [GRAPHIC] [TIFF OMITTED] T8662.358
    
    [GRAPHIC] [TIFF OMITTED] T8662.359
    
    [GRAPHIC] [TIFF OMITTED] T8662.360
    
    [GRAPHIC] [TIFF OMITTED] T8662.361
    
    [GRAPHIC] [TIFF OMITTED] T8662.362
    
    [GRAPHIC] [TIFF OMITTED] T8662.363
    
    [GRAPHIC] [TIFF OMITTED] T8662.364
    
    [GRAPHIC] [TIFF OMITTED] T8662.365
    
    [GRAPHIC] [TIFF OMITTED] T8662.366
    
    [GRAPHIC] [TIFF OMITTED] T8662.367
    
    [GRAPHIC] [TIFF OMITTED] T8662.368
    
    [GRAPHIC] [TIFF OMITTED] T8662.369
    
    [GRAPHIC] [TIFF OMITTED] T8662.370
    
    [GRAPHIC] [TIFF OMITTED] T8662.371
    
    [GRAPHIC] [TIFF OMITTED] T8662.372
    
    [GRAPHIC] [TIFF OMITTED] T8662.373
    
    [GRAPHIC] [TIFF OMITTED] T8662.374
    
    [GRAPHIC] [TIFF OMITTED] T8662.375
    
    [GRAPHIC] [TIFF OMITTED] T8662.376
    
    [GRAPHIC] [TIFF OMITTED] T8662.377
    
    [GRAPHIC] [TIFF OMITTED] T8662.378
    
    [GRAPHIC] [TIFF OMITTED] T8662.379
    
    [GRAPHIC] [TIFF OMITTED] T8662.380
    
    [GRAPHIC] [TIFF OMITTED] T8662.381
    
    [GRAPHIC] [TIFF OMITTED] T8662.382
    
    [GRAPHIC] [TIFF OMITTED] T8662.383
    
    [GRAPHIC] [TIFF OMITTED] T8662.384
    
    [GRAPHIC] [TIFF OMITTED] T8662.385
    
    [GRAPHIC] [TIFF OMITTED] T8662.386
    
    [GRAPHIC] [TIFF OMITTED] T8662.387
    
    [GRAPHIC] [TIFF OMITTED] T8662.388
    
    [GRAPHIC] [TIFF OMITTED] T8662.389
    
    [GRAPHIC] [TIFF OMITTED] T8662.390
    
    [GRAPHIC] [TIFF OMITTED] T8662.391
    
    [GRAPHIC] [TIFF OMITTED] T8662.392
    
    [GRAPHIC] [TIFF OMITTED] T8662.393
    
    [GRAPHIC] [TIFF OMITTED] T8662.394
    
    [GRAPHIC] [TIFF OMITTED] T8662.395
    
    [GRAPHIC] [TIFF OMITTED] T8662.396
    
    [GRAPHIC] [TIFF OMITTED] T8662.397
    
    [GRAPHIC] [TIFF OMITTED] T8662.398
    
    [GRAPHIC] [TIFF OMITTED] T8662.399
    
    [GRAPHIC] [TIFF OMITTED] T8662.400
    
    [GRAPHIC] [TIFF OMITTED] T8662.401
    
    [GRAPHIC] [TIFF OMITTED] T8662.402
    
    [GRAPHIC] [TIFF OMITTED] T8662.403
    
    [GRAPHIC] [TIFF OMITTED] T8662.404
    
    [GRAPHIC] [TIFF OMITTED] T8662.405
    
    [GRAPHIC] [TIFF OMITTED] T8662.406
    
    [GRAPHIC] [TIFF OMITTED] T8662.407
    
    [GRAPHIC] [TIFF OMITTED] T8662.408
    
    [GRAPHIC] [TIFF OMITTED] T8662.409
    
    [GRAPHIC] [TIFF OMITTED] T8662.410
    
    [GRAPHIC] [TIFF OMITTED] T8662.411
    
    [GRAPHIC] [TIFF OMITTED] T8662.412
    
    [GRAPHIC] [TIFF OMITTED] T8662.413
    
    [GRAPHIC] [TIFF OMITTED] T8662.414
    
    [GRAPHIC] [TIFF OMITTED] T8662.415
    
    [GRAPHIC] [TIFF OMITTED] T8662.416
    
    [GRAPHIC] [TIFF OMITTED] T8662.417
    
    [GRAPHIC] [TIFF OMITTED] T8662.418
    
    [GRAPHIC] [TIFF OMITTED] T8662.419
    
    [GRAPHIC] [TIFF OMITTED] T8662.420
    
    [GRAPHIC] [TIFF OMITTED] T8662.421
    
    [GRAPHIC] [TIFF OMITTED] T8662.422
    
    [GRAPHIC] [TIFF OMITTED] T8662.423
    
    [GRAPHIC] [TIFF OMITTED] T8662.424
    
    [GRAPHIC] [TIFF OMITTED] T8662.425
    
    [GRAPHIC] [TIFF OMITTED] T8662.426
    
    [GRAPHIC] [TIFF OMITTED] T8662.427
    
    [GRAPHIC] [TIFF OMITTED] T8662.428
    
    [GRAPHIC] [TIFF OMITTED] T8662.429
    
    [GRAPHIC] [TIFF OMITTED] T8662.430
    
    [GRAPHIC] [TIFF OMITTED] T8662.431
    
    [GRAPHIC] [TIFF OMITTED] T8662.432
    
    [GRAPHIC] [TIFF OMITTED] T8662.433
    
    [GRAPHIC] [TIFF OMITTED] T8662.434
    
    [GRAPHIC] [TIFF OMITTED] T8662.435
    
    [GRAPHIC] [TIFF OMITTED] T8662.436
    
    [GRAPHIC] [TIFF OMITTED] T8662.437
    
    [GRAPHIC] [TIFF OMITTED] T8662.438
    
    [GRAPHIC] [TIFF OMITTED] T8662.439
    
    [GRAPHIC] [TIFF OMITTED] T8662.440
    
    [GRAPHIC] [TIFF OMITTED] T8662.441
    
    [GRAPHIC] [TIFF OMITTED] T8662.442
    
    [GRAPHIC] [TIFF OMITTED] T8662.443
    
    [GRAPHIC] [TIFF OMITTED] T8662.444
    
    [GRAPHIC] [TIFF OMITTED] T8662.445
    
    [GRAPHIC] [TIFF OMITTED] T8662.446
    
    [GRAPHIC] [TIFF OMITTED] T8662.447
    
    [GRAPHIC] [TIFF OMITTED] T8662.448
    
    [GRAPHIC] [TIFF OMITTED] T8662.449
    
    [GRAPHIC] [TIFF OMITTED] T8662.450
    
    [GRAPHIC] [TIFF OMITTED] T8662.451
    
    [GRAPHIC] [TIFF OMITTED] T8662.452
    
    [GRAPHIC] [TIFF OMITTED] T8662.453
    
    [GRAPHIC] [TIFF OMITTED] T8662.454
    
    [GRAPHIC] [TIFF OMITTED] T8662.455
    
    [GRAPHIC] [TIFF OMITTED] T8662.456
    
    [GRAPHIC] [TIFF OMITTED] T8662.457
    
    [GRAPHIC] [TIFF OMITTED] T8662.458
    
    [GRAPHIC] [TIFF OMITTED] T8662.459
    
    [GRAPHIC] [TIFF OMITTED] T8662.460
    
    [GRAPHIC] [TIFF OMITTED] T8662.461
    
    [GRAPHIC] [TIFF OMITTED] T8662.462
    
    [GRAPHIC] [TIFF OMITTED] T8662.463
    
    [GRAPHIC] [TIFF OMITTED] T8662.464
    
    [GRAPHIC] [TIFF OMITTED] T8662.465
    
    [GRAPHIC] [TIFF OMITTED] T8662.466
    
    [GRAPHIC] [TIFF OMITTED] T8662.467
    
    [GRAPHIC] [TIFF OMITTED] T8662.468
    
    [GRAPHIC] [TIFF OMITTED] T8662.469
    
    [GRAPHIC] [TIFF OMITTED] T8662.470
    
    [GRAPHIC] [TIFF OMITTED] T8662.471
    
    [GRAPHIC] [TIFF OMITTED] T8662.472
    
    [GRAPHIC] [TIFF OMITTED] T8662.473
    
    [GRAPHIC] [TIFF OMITTED] T8662.474
    
    [GRAPHIC] [TIFF OMITTED] T8662.475
    
    [GRAPHIC] [TIFF OMITTED] T8662.476
    
    [GRAPHIC] [TIFF OMITTED] T8662.477
    
    [GRAPHIC] [TIFF OMITTED] T8662.478
    
    [GRAPHIC] [TIFF OMITTED] T8662.479
    
    [GRAPHIC] [TIFF OMITTED] T8662.480
    
    [GRAPHIC] [TIFF OMITTED] T8662.481
    
    [GRAPHIC] [TIFF OMITTED] T8662.482
    
    [GRAPHIC] [TIFF OMITTED] T8662.483
    
    [GRAPHIC] [TIFF OMITTED] T8662.484
    
    [GRAPHIC] [TIFF OMITTED] T8662.485
    
    [GRAPHIC] [TIFF OMITTED] T8662.486
    
    [GRAPHIC] [TIFF OMITTED] T8662.487
    
    [GRAPHIC] [TIFF OMITTED] T8662.488
    
    [GRAPHIC] [TIFF OMITTED] T8662.489
    
    [GRAPHIC] [TIFF OMITTED] T8662.490
    
    [GRAPHIC] [TIFF OMITTED] T8662.491
    
    [GRAPHIC] [TIFF OMITTED] T8662.492
    
    [GRAPHIC] [TIFF OMITTED] T8662.493
    
    [GRAPHIC] [TIFF OMITTED] T8662.494
    
    [GRAPHIC] [TIFF OMITTED] T8662.495
    
    [GRAPHIC] [TIFF OMITTED] T8662.496
    
    [GRAPHIC] [TIFF OMITTED] T8662.497
    
    [GRAPHIC] [TIFF OMITTED] T8662.498
    
    [GRAPHIC] [TIFF OMITTED] T8662.499
    
    [GRAPHIC] [TIFF OMITTED] T8662.500
    
    [GRAPHIC] [TIFF OMITTED] T8662.501
    
    [GRAPHIC] [TIFF OMITTED] T8662.502
    
    [GRAPHIC] [TIFF OMITTED] T8662.503
    
    [GRAPHIC] [TIFF OMITTED] T8662.504
    
    [GRAPHIC] [TIFF OMITTED] T8662.505
    
    [GRAPHIC] [TIFF OMITTED] T8662.506
    
    [GRAPHIC] [TIFF OMITTED] T8662.507
    
    [GRAPHIC] [TIFF OMITTED] T8662.508
    
    [GRAPHIC] [TIFF OMITTED] T8662.509
    
    [GRAPHIC] [TIFF OMITTED] T8662.510
    
    [GRAPHIC] [TIFF OMITTED] T8662.511
    
    [GRAPHIC] [TIFF OMITTED] T8662.512
    
    [GRAPHIC] [TIFF OMITTED] T8662.513
    
    [GRAPHIC] [TIFF OMITTED] T8662.514
    
    [GRAPHIC] [TIFF OMITTED] T8662.515
    
    [GRAPHIC] [TIFF OMITTED] T8662.516
    
    [GRAPHIC] [TIFF OMITTED] T8662.517
    
    [GRAPHIC] [TIFF OMITTED] T8662.518
    
    [GRAPHIC] [TIFF OMITTED] T8662.519
    
    [GRAPHIC] [TIFF OMITTED] T8662.520
    
    [GRAPHIC] [TIFF OMITTED] T8662.521
    
    [GRAPHIC] [TIFF OMITTED] T8662.522
    
    [GRAPHIC] [TIFF OMITTED] T8662.523
    
    [GRAPHIC] [TIFF OMITTED] T8662.524
    
    [GRAPHIC] [TIFF OMITTED] T8662.525
    
    [GRAPHIC] [TIFF OMITTED] T8662.526
    
    [GRAPHIC] [TIFF OMITTED] T8662.527
    
    [GRAPHIC] [TIFF OMITTED] T8662.528
    
    [GRAPHIC] [TIFF OMITTED] T8662.529
    
    [GRAPHIC] [TIFF OMITTED] T8662.530
    
    [GRAPHIC] [TIFF OMITTED] T8662.531
    
    [GRAPHIC] [TIFF OMITTED] T8662.532
    
    [GRAPHIC] [TIFF OMITTED] T8662.533
    
    [GRAPHIC] [TIFF OMITTED] T8662.534
    
    [GRAPHIC] [TIFF OMITTED] T8662.535
    
    [GRAPHIC] [TIFF OMITTED] T8662.536
    
    [GRAPHIC] [TIFF OMITTED] T8662.537
    
    [GRAPHIC] [TIFF OMITTED] T8662.538
    
    [GRAPHIC] [TIFF OMITTED] T8662.539
    
    [GRAPHIC] [TIFF OMITTED] T8662.540
    
    [GRAPHIC] [TIFF OMITTED] T8662.541
    
    [GRAPHIC] [TIFF OMITTED] T8662.542
    
    [GRAPHIC] [TIFF OMITTED] T8662.543
    
    [GRAPHIC] [TIFF OMITTED] T8662.544
    
    [GRAPHIC] [TIFF OMITTED] T8662.545
    
    [GRAPHIC] [TIFF OMITTED] T8662.546
    
    [GRAPHIC] [TIFF OMITTED] T8662.547
    
    [GRAPHIC] [TIFF OMITTED] T8662.548
    
    [GRAPHIC] [TIFF OMITTED] T8662.549
    
    [GRAPHIC] [TIFF OMITTED] T8662.550
    
    [GRAPHIC] [TIFF OMITTED] T8662.551
    
    [GRAPHIC] [TIFF OMITTED] T8662.552
    
    [GRAPHIC] [TIFF OMITTED] T8662.553
    
    [GRAPHIC] [TIFF OMITTED] T8662.554
    
    [GRAPHIC] [TIFF OMITTED] T8662.555
    
    [GRAPHIC] [TIFF OMITTED] T8662.556
    
    [GRAPHIC] [TIFF OMITTED] T8662.557
    








  JUSTICE DEPARTMENT MISCONDUCT IN BOSTON: ARE LEGISLATIVE SOLUTIONS 
                               REQUIRED?

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2002

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:42 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Barr, Morella, Shays, 
LaTourette, Waxman, Norton, Cummings, Kucinich, Tierney, 
Turner, Watson, and Lynch.
    Also present: Representatives Frank, Delahunt, and Meehan.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy chief counsel; 
Mark Corallo, director of communications; Elizabeth Frigola, 
deputy communications director; Chad Bungard and James J. 
Schumann, counsels; Robert A. Briggs, chief clerk; Joshua E. 
Gillespie, deputy chief clerk; Robin Butler, office manager; 
Nicholis Mutton, assistant to chief counsel; Corrine 
Zaccagnini, systems administrator; Phil Barnett, minority chief 
counsel; Michael Yeager, minority deputy chief counsel; Ellen 
Rayner, minority chief clerk; and Jean Gosa, minority assistant 
clerk.
    Mr. Burton. Good morning.
    A quorum being present, the Committee on Government Reform 
will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written and opening statements be included in the record, and 
without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record, and without objection, so ordered.
    I also ask consent that Representatives Frank, Delahunt and 
Meehan, who are not members of the committee, be permitted to 
participate in today's hearing. Without objection, so ordered.
    I ask unanimous consent that the statement by Professor 
Bennett L. Gershman be included in the record and without 
objection, so ordered. He is one of the Nation's leading 
experts on prosecutorial misconduct.
    The committee invited Professor Gershman to testify today. 
Unfortunately, he is teaching abroad and cannot be here. In his 
statement, he refers to a recent study by the Chicago Tribune 
that documented some 300 homicide convictions that were 
reversed because prosecutors suppressed exculpatory evidence. 
The landmark study describes the connection between 
prosecutorial misconduct and suppressing exculpatory evidence 
in the conviction and capital sentencing of scores of innocent 
defendants. I want to thank him for his valuable contribution. 
I hope to get a chance to meet with him at some future date.
    [The prepared statement of Mr. Gershman follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.260
    
    [GRAPHIC] [TIFF OMITTED] T8662.261
    
    Mr. Burton. We are meeting again today to talk about FBI 
misconduct in Boston and possibly elsewhere. This is an 
investigation we are very serious about. I think it is clear to 
everyone at this point. We have held 4 days of hearings. We 
have heard testimony about some things I think everyone finds 
pretty shocking.
    A lot of people in this country, myself included, grew up 
revering the FBI. I still believe there are a great many, in 
fact, the vast majority of FBI agents, are honest people, who 
are doing a good job as well as the Justice Department. I think 
they are dedicated to protecting the public and their 
reputation should not be stained by the actions of a few people 
but it has been very sobering to hear about some of these 
terrible abuses going on at an agency I have always had on a 
pedestal.
    It was a sad day 2 weeks ago when we had a former FBI agent 
take the fifth amendment. When I was growing up, criminals took 
the fifth amendment. I never thought we would see an FBI agent 
before a congressional committee taking the fifth.
    Last year, we heard about Joe Salvati for the first time. 
The FBI had a prize mob witness, Joe ``the Animal'' Barboza. 
Joe ``the Animal'' Barboza testified against Joe Salvati and 
others. He implicated Salvati in a murder that happened in 
1965. Mr. Salvati was sent to prison for life and could have 
gotten the death penalty. Others went to prison for crimes they 
might not have been involved in.
    Joe Barboza lied and the FBI knew he was lying. They had 
document after document in their possession showing who the 
real killers were and they never turned them over to the 
defense. Joe Salvati had never been involved in organized 
crime. He had four little children when he went to prison. When 
he was finally cleared, after 30 years, his kids were all 
grown.
    How could the FBI stand by and let this happen? Two weeks 
ago, we held a hearing about Joe ``the Animal'' Barboza's 
murder trial. The Justice Department put Joe Barboza in the 
Witness Protection Program. In fact, it was created for him. 
They put him in California and he committed another murder. He 
went on trial and the FBI and the Justice Department went out 
to California and helped him get a lighter sentence. The 
sentence was so light he was out in less than 3 years for 
murder, premeditated.
    A Justice Department lawyer and an FBI agent testified on 
Barboza's behalf during the trial. Their testimony was 
devastating to the prosecutors. I can't forget one of the 
statements we heard at the hearing, ``The FBI at the time was 
considered pretty sacrosanct. They had damaged our case to the 
point that we didn't think the jury would give us a first 
degree murder verdict.'' So as a result, they plea bargained.
    This man who had already committed more than 20 murders, a 
man who the FBI said was the most dangerous criminal known, a 
man who murdered again after they put him in the Witness 
Protection Program and they helped him get a light sentence. He 
would have gotten the death penalty according to the 
prosecutors who thought they had an ironclad case. Because the 
FBI and the prosecutor in the case testified in his behalf, he 
got 5 years most of which was suspended and he was out in about 
2\1/2\ to 3 years.
    Joe ``the Animal'' Barboza, who had probably killed two 
dozen people, was up for parole in 3 years and at the very 
first parole hearing, the Justice Department lawyer flew out 
and testified on his behalf. That Justice Department lawyer is 
now a Federal judge in Massachusetts. His name is Edward 
Harrington. He testified here 2 weeks ago. We asked him why he 
did all this. His response was they had just created the 
Witness Protection Program and they wanted to send a message to 
people that if you went into the program, the Justice 
Department would stand by you. I want you to think about that.
    They put him in the Witness Protection Program because he 
turned in some of the mafiosi but then he murdered someone else 
and after he murdered someone else, they said, we are going to 
stand by you and went out and testified to get him a lighter 
sentence and keep him out of the electric chair. What kind of 
message is that? If you go into the Witness Protection Program 
and you murder somebody, we are going to stand by you? I think 
that is outrageous.
    We need to have a Witness Protection Program. The people 
who go into that program are obviously criminals in many cases 
but I think we have to lay down the law that if the Government 
pays you money and protects you and you murder somebody, you 
are finished, period.
    What we have looked at so far is just the tip of the 
iceberg. What the FBI did in Boston was tragic. They had a 
group of mob informants committing murders with impunity. They 
tipped off killers so they could flee before they were 
arrested. This is the FBI. They interfered with local 
investigations of drug dealing and arms smuggling. Some FBI 
agents were getting payoffs. When people went to the Justice 
Department with evidence about murders, some of them ended up 
dead. In other words, the FBI was tipping off the guys in the 
mafia there was somebody that was coming with evidence against 
them. They would tell the mafioso about it and they would go 
out and kill them. So the FBI, in some cases, was complicitous 
in these murders.
    We are conducting this investigation because there are some 
basic questions we want answered. How extensive were the 
abuses? We need to find out the extent of what government 
officials did and explain it to the American people. How high 
up the food chain did this go? We know that memo after memo was 
sent to J. Edgar Hoover. In fact, he asked for information 
twice a week. Did he sign off on all these things that were 
done? It is hard for me to believe he didn't know. I am 
confident he did know. Breaking the back of the mob was his No. 
1 priority and all indications are that he paid very close 
attention to these memos and what was happening.
    There are other cases where people were knowingly sent to 
prison for crimes they did not commit. We have an obligation to 
find out who those people were, who was involved and if they 
were innocent, to get them out of jail. There may be people who 
were put to death for crimes they did not commit. There may be 
a lot of people in jail still for crimes they did not commit. 
We need to find out who they are, make sure justice is done, 
and bring to justice those rogue FBI agents and Justice 
Department officials that were involved.
    Finally, are there legislative responses to this that we 
ought to consider? That is the point of today's hearing. What 
kind of legislation or action is called for? Do we need tougher 
penalties? Should the statute of limitations be extended for 
prosecutorial misconduct? As we have seen in Boston, corruption 
on the part of a government official can go undetected for 
decades. Are there other types of legislation we ought to 
consider?
    We have a distinguished panel of witnesses today. First, we 
have Victor Garo. Victor was the attorney for Joe Salvati. He 
spent 25 years fighting to get Joe Salvati out of prison. He 
didn't get paid a penny but Victor wasn't going to abandon 
Marie Salvati and her four kids. His perseverance paid off and 
I am looking forward to hearing what he has to say today.
    We have a former Connecticut State's Attorney, Austin 
McGuigan. Mr. McGuigan was the chief prosecutor on 
Connecticut's Statewide Organized Crime Task Force. He is going 
to testify about a whole new part of the scandal we haven't yet 
focused on, the corruption of the World Jai Alai. The State of 
Connecticut was investigating mob infiltration of the sport of 
Jai Alai in Bridgeport. The State prosecutors were trying to 
get some cooperation from the FBI in Boston and they could not 
get any help. As it turned out, World Jai Alai was being 
infiltrated by Whitey Bulger and Steve ``the Rifleman'' Flemmi, 
the same thugs who were informants for the FBI. In fact, one of 
those FBI agents, Paul Rico, retired and went to work for the 
World Jai Alai. He is the same guy we had here a couple of 
weeks ago who took the fifth amendment against self 
incrimination.
    There were a series of murders. The head of World Jai Alai 
was murdered in Tulsa, OK. A member of the Winter Hill Gang 
went to the FBI to offer them information. He was murdered. 
Connecticut prosecutors went down to Florida to interview 
another person tied to World Jai Alai and the day they arrived, 
his dead body was found. Who was tipping off the mob and 
causing all these murders? That is one of the things we want to 
find out and want to thank you for being here today.
    We also have two distinguished law professors, Frederick 
Lawrence of Boston University and Stephen Duke of Yale. Mr. 
Lawrence used to work as a prosecutor for Rudy Giuliani in New 
York. He has extensive experience in the area of prosecutorial 
misconduct. Mr. Duke is a distinguished professor at Yale Law 
School and teaches a course entitled, ``Freeing the Innocent.'' 
We appreciate both of you being here with us today.
    Mr. Waxman is not with us but we will turn to Mr. Tierney 
and let him make his opening statement.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.246
    
    [GRAPHIC] [TIFF OMITTED] T8662.247
    
    [GRAPHIC] [TIFF OMITTED] T8662.248
    
    [GRAPHIC] [TIFF OMITTED] T8662.249
    
    Mr. Tierney. Thank you.
    Again, I applaud you for once again determining to pursue 
justice in these matters. I am going to ask that my formal 
remarks be placed on the record and submitted if that is 
acceptable to the committee.
    Mr. Burton. Without objection.
    Mr. Tierney. I want to say briefly that we have had 
extensive hearings, and the people in this room may know by now 
what the chairman says about the testimony and conduct of the 
FBI is true and is more than just a little bit disturbing to 
all of us. There apparently remains two things left to discuss. 
One is how do we make sure that justice or as close to justice 
as can be done is achieved with respect to Mr. Salvati and 
others badly treated by the FBI and Federal authorities. The 
second thing is what do we do about looking at the law or what 
has to be changed to make sure these behaviors are preempted in 
the future? I think these two things were ultimately at the 
heart of these hearings from the beginning.
    I have had an opportunity to review the testimony submitted 
by you gentlemen and I appreciate that. I have to tell you that 
I have other committee meetings and out of no disrespect, I 
will be in and out of this hearing. What you have provided in 
writing and what I am sure I will be able to look at in the 
transcript will be extremely helpful to us. I appreciate that 
and all the comments you make with respect to both of those 
issues, how we might try to afford some sort of justice to the 
people involved and how we might try to make sure our laws more 
properly reflect what this country is about and how we expect 
our law enforcement agencies to act will be extremely useful to 
us all.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.250
    
    [GRAPHIC] [TIFF OMITTED] T8662.251
    
    [GRAPHIC] [TIFF OMITTED] T8662.252
    
    [GRAPHIC] [TIFF OMITTED] T8662.253
    
    [GRAPHIC] [TIFF OMITTED] T8662.254
    
    [GRAPHIC] [TIFF OMITTED] T8662.255
    
    Mr. Burton. Mr. Shays.
    Mr. Shays. As well, I want to thank you for holding these 
hearings. I consider these hearings some of the most important 
hearings Congress could have. I am very proud my chairman and 
this committee is involved.
    Twenty-eight years ago as a young, new State legislator, I 
met this State's attorney involved in an organized crime task 
force who later became the chief State's attorney for 
Connecticut and during my time of getting to know and admire 
him, one of our witnesses, Austin McGuigan, he told me about 
FBI agents who were working for Jai Alai operations in 
Connecticut and how they were retiring and then working for 
these organizations that were very much involved in organized 
crime, and that the FBI was working for organized crime.
    I listened to it, I heard what he was saying but I thought 
there had to be explanations that went beyond the implication 
that the FBI was connected with organized crime. Then he told 
me that he was losing some of his witnesses, that they were 
being murdered, that these witnesses had sought protection from 
the FBI and other law enforcement officials and that they were 
literally being eliminated and in some cases, being put in 
positions that were a keen message to him and the work he was 
doing.
    He basically described an FBI in New England that had 
become very corrupt and dangerous. I thought there was some 
exaggeration to his expressions because as you will find he has 
a way of telling a story that will captivate you and then we 
had hearings earlier this year. I put them both together and 
Marie and Joseph Salvati because both of them are the story and 
the fact that FBI agents would be involved in sending an 
innocent man to prison with a young family, and then when he 
was able to get out--people worked to keep him there, even 
though he could have gotten out and he wasn't going to be found 
innocent. They were just going to say he had been there long 
enough and they fought to keep an innocent man in prison which 
just blows your mind.
    Having said that, this isn't a hearing about Marie and 
Joseph Salvati. As amazing as this is, about what happened to 
two precious Americans and how outrageous, this is an even 
bigger story. It is a story of innocent people sent to jail, 
who died in prison, a story of people trusting the criminal 
justice system and having it basically turn against them.
    I believe that ultimately this is a story that we are going 
to get a handle on. One of the things that amazes me in a way 
is I know the people in the FBI today want a clean force but 
they are not cooperating with this committee. So in a way the 
FBI and the crooks in the FBI are still getting away with it. 
That is what is so astounding. I guess what it amounts to is 
are they going to win or are the people going to win. I believe 
this is a hearing that will move the ball forward and in the 
end, we will get at the story and see the story fully told. I 
think we will see major reforms come from it. Legislation is 
necessary.
    Mr. Burton. Let me say I appreciate your comments, Mr. 
Shays. One of the things we are doing right now, and I know 
members will be coming and going, is we are still running into 
the Justice Department and the FBI not giving us documents 
relevant to our investigation. This is a 30-year old case. So 
right now we are having our legal staff prepare a contempt 
citation on this issue. I don't really want to do that and I 
have told the Justice Department this time and again but if 
they continue to be recalcitrant and we cannot get cooperation 
from them to get these documents, I hope everyone on this 
committee will assist me in getting the support we need in the 
Congress to move this forward.
    I think once the White House and the Justice Department 
realize that we are going to go all the way to the mat with 
this thing, then they will give us the documents. It is not in 
the national interest to keep this under wraps. I will urge 
your support and I know you are one of the guys I don't think 
is concerned about controversy, so I think I am going to have 
your help.
    Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    First, let me state that this past week myself and 
Congressman LaTourette were in Boston conducting depositions. 
It would be remiss of me not to stress to you the excellent 
work and performance of your staff, Jim Wilson, and on the 
Democratic side, Mike Yeager. They put a lot of time and effort 
into that particular aspect of the committee's work and they 
were most helpful. I want to make that a matter of record.
    I also have had the opportunity to read the testimony of 
the witnesses here today. It is like an echo that rings with 
much truth. I think clearly the tragedy of the Salvati family 
is as a result of a failure to disclose information to counsel 
representing Mr. Salvati and others. I think what we will hear 
today is the result of the failure to disclose information to 
other law enforcement agencies, whether they be State or 
whether they be Federal.
    You just made reference to the fact that you are prepared 
to go forward with a citation for contempt. It was interesting 
to read the decision just last night of Judge Wolf where he had 
to threaten contempt of the Deputy Attorney General before 
information was disclosed to him. If there is the need for any 
further evidence that there exists within the FBI particularly, 
and I dare say the Department of Justice, a culture of 
concealment, we have overwhelming evidence already. I think it 
is a question now of how do we encourage a new attitude, a 
willingness to provide information to State and local law 
enforcement where terrible crimes have been committed so that 
we can bring the guilty to justice, and in the case of the 
innocent, to provide information so that an injustice is not 
done.
    I think these hearings are probably the most significant 
hearings I have participated in during my time in Congress 
because they go to the very heart of American democracy which 
is the integrity of the justice system. Unless the American 
people have confidence in the integrity of that system, we put 
at risk not just the justice system, but our democracy.
    With that, I yield back. Again, thank you for inviting me 
to participate.
    Mr. Burton. Thank you, Mr. Delahunt.
    Mr. LaTourette, I understand you went up to Boston for our 
recent depositions?
    Mr. LaTourette. I did, Mr. Chairman. If you will permit me 
to make some brief opening remarks?
    I do want to commend Mr. Delahunt of the other side for his 
conducting those depositions in Boston and also our staff, Mr. 
Wilson, for the outstanding preparation in the deposition of 
former FBI Special Agent Dennis Condon over 2 days up in 
Boston.
    I do want to thank you, Mr. Chairman, for the continuing 
conduct of these hearings. I share Mr. Delahunt's observations. 
It is a fine line, both he and I used to prosecute cases, I 
used to defend cases. I don't know if he was ever on the dark 
side but I was and it is always a fine line. A prosecutor is 
different than a defense lawyer. A prosecutor is charged with 
doing justice and that creates an obligation. I think today's 
hearing is going to point to some of those abuses.
    I would hope that the testimony that is developed doesn't 
indict or paint with a broad brush all prosecutors because my 
experience is that there are many, many fine men and women in 
the prosecutorial field in this country who do their job and do 
it within the bounds of not only the law but the ethical 
constraints of the bar.
    I did want to make one comment about something that 
happened in Boston. We had the opportunity, the Justice 
Department was kind enough to send to us during the course of 
that deposition the prosecution memorandum prepared by Judge 
Harrington that had been billed by testimony that the Justice 
Department and the President's observation that national 
security was at risk if these documents were released, I think 
it was about 20-plus pages. We had the opportunity to review it 
and then it was taken back from us by U.S. Marshals as is law 
in Boston.
    I can tell you from reviewing the document, I am hard 
pressed to determined what national security was endangered by 
our viewing that document or what national security would be 
endangered by the release of that document to the public. I 
think it was a well done memorandum by Judge Harrington. I 
think the only jeopardy it put anybody in is that in pertinent 
part it clearly indicated the FBI in Boston was aware of 
information through electronic surveillance information that 
indicated the people that participated in the murder of Ted 
Deegan in 1965, that they knew in 1965 it was Mr. Barboza and 
some of the others that have come to our attention in the 
course of these hearings, not Mr. Salvati and others who were 
eventually convicted, but other than that there was no national 
security compromised by that memorandum.
    I know that you, Mr. Chairman, have been a champion in 
attempting to bring forward these documents. I want you to know 
you have my assistance in that endeavor and I hope you continue 
on that course.
    Mr. Burton. Thank you, Mr. LaTourette.
    Let me say that it is not just the Salvati case that 
troubles me. It is what may be beyond that. When we got that 
executive privilege document from the President saying it was 
not in the national interest, what troubled me and still 
bothers me is there may be other Salvatis out there who are 
still in prison or who may have been worse, put to death. That 
may be something the Government of the United States doesn't 
want in the public forum but that is something that needs to 
come out.
    Ms. Watson.
    Ms. Watson. No thank you.
    Mr. Burton. Mr. Cummings. Nice seeing you.
    Mr. Cummings. It is good to see you, Mr. Chairman. It is 
good to be here this morning.
    First, I want to thank you and I really do appreciate your 
holding the series of hearings you have held. I think it draws 
attention to some of the problems in our justice system. So 
often people complain about the justice system and their 
complaints fall on deaf ears because they hear the words come 
forth ``hear they go again.'' The inquiry you have conducted, I 
must tell you, I applaud you.
    In the case of Mr. Salvati, released FBI documents show 
that agents not only concealed evidence that he was framed in 
order to protect informants, but they also knew in advance 
about the murder plot and did nothing to stop it. I am outraged 
that the FBI not only allowed Mr. Salvati to spend 30 years in 
prison, but were partly responsible for him being their in the 
first place. Such an injustice should never happen. A case like 
the one before us leaves a very bad taste in anyone's mouth and 
it is shocking to the conscience.
    This committee has spent months investigating Justice 
Department and FBI misconduct in Boston. Today, we explore the 
need for legislative changes in the laws governing misconduct 
on the part of Federal prosecutors and law enforcement agents. 
I guess you could say that we need to police the police. It is 
always difficult and regrettable to recognize the need for 
oversight of our protective agencies. The FBI and other law 
enforcement organizations are charged with the enormous 
responsibility of protecting us. They should not be the ones to 
harm us. It all comes down to trust. If we cannot trust the 
very people who are supposed to protect us and prevent crimes 
in our cities, then who can we trust? What parent has not 
taught their child that in a crisis, they should seek the help 
of a police officer? I definitely taught this lesson to my 
children.
    Unfortunately, fear of police corruption may cause many 
parents to teach their children a different lesson. Sadly, I 
feel that due to this corruption, thousands of men and women 
are spending time in prison for crimes they may not have 
committed. I suspect a number staggering for minorities, 
especially among African Americans.
    Mr. Chairman, I know the streets in my district and around 
the Nation are tired of the injustices heaped upon them by this 
type of law enforcement corruption. I want to be clear that I 
am not condemning all law enforcement officers and the FBI. 
Ninety-nine percent of law enforcement are honest, hardworking, 
good police officers. They are honorable and hardworking law 
enforcement officers doing their job the best they can trying 
to keep our communities safe, stop violence and keep drugs off 
the streets. But when there are reports of corruption, 
especially of this magnitude, we lose faith in law enforcement 
officers, including FBI agents.
    After widely publicized disclosures of law enforcement 
abuses in the Boston office of the FBI, former Attorney General 
Janet Reno convened a task force to review the Department of 
Justice's policy in the use of information from confidential 
informants. On January 8, 2001, Attorney General Reno issued 
revised guidelines designed to address many of the problems 
that arose in the Boston case. Some of the revisions required 
the Department of Justice must conduct a high level, periodic 
review of long-term informants and that Federal prosecutors 
must be told when an informant has committed a crime or is 
under investigation.
    These proposals appear to be reasonable requirements but it 
is my understanding that the committee has not evaluated the 
effectiveness of these guidelines as a means of preventing law 
enforcement and prosecutorial abuses such as those that 
occurred in Boston. Mr. Chairman, I would recommend that the 
committee fully review the revised guidelines. I would also say 
engraved on the front of the U.S. Supreme Court, the highest 
court in our land, are the words ``Justice for All.'' Never 
before have those words meant as much as they do now.
    This committee needs to explore legislative options to make 
certain this sort of injustice does not occur again, thus 
ensuring true justice for all.
    Again, thank you for holding this hearing. I look forward 
to hearing from today's witnesses who will offer additional 
insight into possible legislative solutions.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] T8662.256

[GRAPHIC] [TIFF OMITTED] T8662.257

[GRAPHIC] [TIFF OMITTED] T8662.258

[GRAPHIC] [TIFF OMITTED] T8662.259

    Mr. Burton. I can assure you, Mr. Cummings, we will be 
looking at legislative proposals. Obviously that would have to 
go through the Judiciary Committee but we have a couple of 
esteemed members of that committee with us and I am sure they 
will be very helpful in getting things moved there.
    We will now turn to our panel. Would you please rise so I 
may swear you in?
    [Witnesses sworn.]
    Mr. Burton. Since Mr. Garo has been with us before and we 
all know him, I think we will start with Mr. Garo and then move 
right down the line, Mr. Garo, Mr. McGuigan, Professor Lawrence 
and Professor Duke.
    Mr. Garo.

  STATEMENT OF VICTOR GARO, ESQ., ATTORNEY FOR JOSEPH SALVATI

    Mr. Garo. Thank you, Mr. Chairman.
    I wish to thank you once again for holding this hearing. It 
is a story that has to be told and should be told.
    I am very honored to be with this panel today. I have known 
all of them for many years. Mr. McGuigan grew up in Medford 
with me and I haven't seen Austin for over 40 years. We are 
very proud of him in Medford. Professor Duke has a reputation 
that is beyond compare and he has been very helpful to me in 
many aspects of the Salvati case. To my left is also a good 
friend, Professor Fred Lawrence, who to this day is still a 
consultant to me on the Joe Salvati matter and has been a great 
help to us.
    I always thought how do I begin when I address this 
honorable committee on matters so serious and I don't take it 
lightly, so I would like to begin as follows, Mr. Chairman.
    Life, liberty and the pursuit of happiness, famed words 
from our Constitution but the Federal Government in Boston and 
to the FBI these words meant nothing because it was the FBI who 
determined who had life, who got liberty and who was able to 
pursue happiness. They alone made that decision. Now we know 
those who did get life, liberty and the pursuit of happiness. 
They were serial killers. They were Joe ``the Animal'' Barboza, 
Steven ``the Rifleman'' Flemmi, James Whitey Bulger. They were 
allowed to pursue their happiness with the protection of the 
FBI. Their pursuit of terror allegedly included killing of 
witnesses, killing respectable businessmen, raping young women 
in their neighborhood and killing girlfriends as they tired of 
them, and the list goes on and on.
    On the other hand, we have Joe Salvati. Joe Salvati, not a 
man of power, position or means but yet a human being who was a 
husband, a father. He was denied and they were denied their 
American dream of life, liberty and the pursuit of happiness 
for circumstances that were beyond their control.
    The Federal Government, as we have seen, has allowed 
Barboza to kill again and again. I say to you, Mr. Chairman, 
under full oath before this committee, there was more evidence 
that Barboza killed more than one person while in the Federal 
Witness Protection Program and I say to you, Mr. Chairman, that 
under oath, the Government knew and had evidence of 
complicities of Joe Barboza killing other people while in the 
Federal Witness Protection Program.
    We had a recent witness who stated that he believes to this 
day that Joe Barboza told the truth, even though there is an 
incredible volume of evidence showing it the other way. The 
Federal Government wants this committee and wants those people 
out there listening to this, and for those write about this, to 
believe that Joe Barboza would kill 25 to 30 people, that he 
would maim them, disfigure them, stab them, but he would never 
lie because that is where he drew the line. Not once in that 
testimony was there a hint of maybe we didn't believe him, 
maybe we shouldn't have believed him but we did believe him.
    The following questions beg answers. What was so important 
from the information that Steven Flemmi was giving to the FBI 
in the early 1960's that warranted him to be so protected in 
the top echelon informant program? What cases were brought? Who 
got indicted? What murders did the FBI prevent from all the 
intelligence they received? We now know, Mr. Chairman, under 
your guidance, that they knew Teddy Deegan was going to get 
killed and they didn't prevent that murder.
    Mr. Salvati and his wife are here, Mr. Chairman and members 
of the committee, because they wanted to show respect to the 
committee. They know how hard and how diligent the committee 
has worked for well over a year. You have shown not only to us 
but to the entire country that the little people have access to 
the government.
    You all know I am not a hot shot lawyer. I come from a 
small town. I am a one-man law office, born of a mother who was 
an orphan at age 3 and a father born into abject poverty. Joe, 
his wife and four children, just ordinary citizens, had their 
lives taken away from them.
    I was always told by my parents that when people do 
something good, you should tell them while they are alive and 
you have the opportunity. Mr. Chairman, I would just like to 
make these statements. I want to thank the following members: 
Representative Barr for the understanding and knowledge he 
showed in his questioning throughout these hearings; I want to 
thank Mr. LaTourette for the zeal and tenacity that he has 
always shown in his questioning, even regarding how he felt 
about the testimony of the Justice Department; I would like to 
also thank Representative Waxman for his ability to gather 
support from the Democratic side so as to not make this a 
partisan issue; I would like to thank Representative Tierney 
for doing much legal research and his ability to ask the tough 
questions; and I would also like to thank Representative 
Delahunt, a former prosecutor who had the courage to stand up 
and be counted when he didn't have to. I respect you, Mr. 
Delahunt for your willingness to spend your free home time to 
come to my office and sit with me for hours upon hours to learn 
about this case. I thank you highly.
    Representative Shays, I thank you for your ability to grasp 
the importance of this case and bringing it to the attention of 
the chairman. I also wish to thank you personally for your kind 
and gentle words that you have always spoken to my clients, Mr. 
and Mrs. Salvati.
    Mr. Chairman, if we were to look up the definition of what 
a leader is, your picture has to be in the dictionary. You have 
shown to all that you are a man of great principle and that you 
believe in what you fight for, even to the degree that you are 
willing to take on the President of the United States. How much 
more does our country need to know where a leader is willing to 
do that, even in his own party. You have been an example to all 
of those, Mr. Chairman, that want to do the right thing.
    Last, I would like to make some comments about Mr. Jim 
Wilson. I cannot believe, Mr. Wilson, it has been over a year 
since we started talking about this case. I have found Mr. 
Wilson to be a man of great principle. I think he is a great 
example of dedication and his staff has followed him and worked 
so closely with him. He is a man I have known that never leaves 
a stone unturned, a man who has tried to get to the bottom of 
this cesspool that we call the Deegan murder case. His work 
ethic should be a shining example of how our tax dollars are 
being spent and many don't know what a heavy heart he has had 
for these last couple of months for something personal in his 
life. All I can say, Mr. Wilson, you are a man among men and I 
am proud and honored to call you my friend.
    I am here to make some suggestions to this committee for 
appropriate legislation. As you know, our quest has always been 
to use your power and wisdom to enact appropriate legislation 
so that another family will never have to endure the nightmare 
and hardships that this family has experienced. The time has 
come to prosecute the dishonest prosecutors, not those that 
work on a daily basis and do the work they have taken a sacred 
oath to perform. I, along with Mr. LaTourette, agree that most 
do but sadly some don't follow their sacred oath.
    What I am going to suggest is not going to affect the 
honest prosecutors. It is only going to affect the dishonest 
prosecutors. My first suggestion is that when there is an 
intentional withholding of exculpatory evidence from the 
defense in a criminal case, there should be no statute of 
limitations defense for the parties who have violated their 
oath. Suggestion two, when there has been an intentional 
withholding of exculpatory evidence from the defense in a 
criminal case, there should be a mandatory minimum jail 
sentence. The sentence might be that equal to under the statute 
if there was a 10-year punishment, 10 years, or equal to what 
the defendant received as a sentence in the case. This is after 
the case has been overturned and dismissed and the evidence is 
shown to be hidden intentionally.
    I was sent recently a document and I would like to quote 
from it. It is ``Federal Grand Jury Reform Bill and Bill of 
Rights'' put out by the National Association of Criminal 
Defense Lawyers. It was sent to me by Mr. Kyle O'Dowd, a 
legislative director for the National Association. I would like 
to read from page 3.
    ``Indeed, as far back as 1990, what disciplinary action it 
had taken in each of the ten cases in which Federal judges had 
made written findings of prosecutorial misconduct. After a 
lengthy delay, the panel was finally informed by the Office of 
Professional Responsibility that `No disciplinary action has 
been taken in any of the ten cases.' The subcommittee observed 
repeated findings of no misconduct and the Department's failure 
to explain its disagreements with findings of misconduct by the 
courts raises serious questions regarding what it considers 
prosecutorial misconduct.''
    Mr. Burton. Mr. Garo, first of all, let me just say we 
really, really appreciate your testimony. Could we have the 
rest submitted for the record and then we will get to any 
additional comments you would like to make at the end of 
questioning?
    Mr. Garo. Yes, sir.
    Mr. Burton. If you have a final comment or two you would 
like to make real quickly, we can go ahead with that.
    Mr. Garo. That I do.
    I believe there is an epidemic here in the United States 
and that is about the criminal cases that are being overturned 
on a daily and weekly basis through DNA testing, overzealous 
prosecution and hidden evidence. But what happens to those 
people who have hidden that evidence? What happens to them? My 
evidence and research shows that since 1963 when Brady v. 
Maryland came down from the Supreme Court of the United States, 
in over 40 years, there has been less than a handful of 
prosecutions of thousands of cases that have been overturned.
    In conclusion, we all know what awesome power the 
government has over our lives. It becomes even more evident 
when they are trying to take away a person's freedom or worse 
yet, their life. In seeing the tragedy of the Deegan murder 
investigation and prosecution unfold, we are mindful that our 
justice system is not perfect.
    When the justice system hurts one of us, it has a ripple 
effect on all of us. We cannot allow the justice system to 
function as it has in Boston for the last 40 years. You, the 
Congress, have the right and the power to right this wrong.
    Thank you.
    [The prepared statement of Mr. Garo follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.262
    
    [GRAPHIC] [TIFF OMITTED] T8662.263
    
    Mr. Burton. Mr. Garo, I can assure you that your 
recommendations on legislative action will be closely 
scrutinized and there will be some legislation put forth to the 
Judiciary Committee that will deal with those issues.
    Mr. McGuigan, I understand you are from Connecticut but you 
grew up in Massachusetts, is that right?
    Mr. McGuigan. That is correct, Congressman.
    Mr. Burton. I just wanted to make sure because Mr. Shays 
brought that to my attention.
    Mr. McGuigan. Mr. Shays has regretted my birth in 
Massachusetts for many years.
    Mr. Burton. Yes, I know. He is a real strong supporter of 
Connecticut but we will let that pass.
    Mr. McGuigan, you can testify now.

STATEMENT OF AUSTIN MCGUIGAN, FORMER CONNECTICUT CHIEF STATE'S 
                            ATTORNEY

    Mr. McGuigan. First of all, I would like to thank you and 
the Members of Congress and counsel for the opportunity to be 
here today. I would say just in passing that after the death of 
witnesses in 1982, quite frankly, I never thought that I would 
be testifying in Congress about the events that happened in the 
1970's and 1980's, and the coverups that we perceived. I 
thought they had done their job and they had won. To me, it is 
touching today that I am here. Some people who worked so hard 
to uncover the truth have long passed away and didn't have an 
opportunity to see justice finally have an opportunity to come 
out.
    It has been many years since the President's Report on the 
Administration of Justice and Organized Crime which urged us to 
conduct this great war in 1967, and we passed legislation for 
wiretapping and the RICO statutes and there was funding for 
organized crime units where Federal units were established in 
most of the major cities in America. Local units were formed, 
many times with Federal assistance. I will say at the beginning 
there were promises that this war would be fought in a 
cooperative manner between State and local prosecutors and the 
Federal Government, but that promise never happened.
    I would also comment that the war on the LCN, if viewed 
through the rearview mirror, has resulted in a substantial 
reduction, if not destruction, of most of its business 
activities. There were a great many convictions. I could say 
that the legalization of gambling and other things may have 
deprived their revenue source and cut out those groups to a 
great degree in and of itself, and there has been a rise in all 
new organized crime units in the drug trade, but I will leave 
that for another day.
    I would point out there were tensions that were clear 
between State and local prosecutors and investigators and the 
Federal Government from the very beginning. These tensions have 
been exacerbated over the years and I think it is something not 
for this committee to deal with today, but for Congress to 
think that what has occurred over the last 30 years is the 
Federalization of the criminal laws. Many criminal statutes 
which were the province of the District Attorney and the 
State's Attorney and the Attorney General have been 
Federalized. They have been Federalized and the funding has 
been skewed to the Federal Government, with the idea that 
somehow the Federal Government can provide better answers.
    I think in looking at this case, we see that federalism did 
not work, that federalism went astray, that the proper balance 
between State and local prosecutors and Federal prosecutors was 
unhinged, and the growing arrogance and power of the Federal 
Government's ability to prosecute denied State prosecutors the 
information they were entitled to because they had the primary 
jurisdiction to prosecute these cases.
    In Boston, the war we started on organized crime went 
amuck. It is clear that major organized crime figures operating 
as informants or, better still, under the guise of informants, 
were permitted to engage in racketeering activities with a 
wink, if not the tactic approval, of Federal agents. Violent 
crimes, including murders by so-called informants, were ignored 
at the whim of law enforcement officers, and I think this is 
important, who were apparently accountable to no one in the 
name of intelligence gathering. I was a foreign military 
intelligence special agent and I understand this. State and 
local prosecutions of violent criminals were undermined and 
investigations were betrayed.
    Many, and I have heard this argument, have ascribed this 
behavior to overzealous agents using informants in the mistaken 
belief that the end justified the means. In other words, they 
wanted convictions and tended to ignore exculpatory 
information. I would point out that this explanation defies the 
logic of what occurred in Boston, MA, and throughout New 
England. It oversimplifies a process where Federal officers 
betrayed the public trust out of more than overzealousness. 
Some of these people have already pled guilty to crimes 
involving corruption in their decisionmaking process.
    Federal agents, while they were denying State and local 
requests for information, were providing information to former 
FBI agents who were employed by the very businesses that were 
under investigation. This is more incredible when one realizes 
that despite official requests by State and local officials, 
the same information provided to those agencies was denied to 
the agencies mandated by law to prosecute. I am going to give 
you examples of this.
    The Connecticut Statewide Organized Crime Task Force, and I 
was the chief prosecutor from 1975 to 1978 and the assistant 
from 1973 to 1974, began in the fall of 1975 an investigation 
into the opening of a Bridgeport Jai Alai gambling facility or 
``fronton.'' We uncovered in our investigation meetings between 
major New York and New Jersey LCN figures and the President of 
Bridgeport Jai Alai. We determined that a loan from the Central 
State Teamsters Fund had funded the entire operation. We did 
not have the jurisdiction to investigate this case to the 
fullest. The meetings were occurring in New Jersey and New 
York; the loans were coming out of Chicago.
    We initiated a grand jury and then we conducted a license 
revocation hearing. Bridgeport was supposed to open in a couple 
weeks. We revoked their license for connections to organized 
crime figures. We attempted to turn over that information to 
the Federal Government because frankly we thought the 
individuals involved were LCN, one of whom supposedly had been 
implicated in the Hoffa murder, Tony Provenzano, we turned over 
that information and frankly we seemed to get no interest from 
the Federal Government whatsoever.
    We then conducted an investigation and we could not 
understand why but in looking through the rearview mirror, why 
becomes clear. We then conducted an investigation regarding 
World Jai Alai. We were doing the licensing investigation to 
determine whether or not they were suitable. They were going to 
open in Hartford with its president, John B. Callahan, formerly 
of Boston, MA. We requested information about Callahan from 
Federal law enforcement agencies, official requests for a 
Statewide Organized Crime Task Force background investigation. 
We wanted derogatory information. We came up with a big zero. 
We had nothing on this gentleman, no derogatory information.
    World Jai Alai had, and we met a number of ex-FBI agents 
engaged in security. One of them who has testified before this 
committee, was the head of security and formerly worked in 
Boston on organized crime involving the Winter Hill Gang. He 
was thoroughly familiar with this information. He had no 
derogatory information. It was Paul Rico.
    Despite the lack of Federal help, literally on a whim we 
decided to do a surveillance of John B. Callahan when he left 
the meeting with us in Hartford. He said he was going to Miami. 
We followed him to Boston. He went to Clarks Turn of the 
Century Cafe. We watched him there. He said he was in Miami. We 
had no idea of the people with whom he was meeting. We couldn't 
identify any of these people. We knew one thing: Callahan told 
us he was in Miami. He called us the next day and said he was 
in Miami and he was actually in a motel room in Boston.
    We couldn't figure out why, so I took a trip to Boston. 
With the assistance of the Suffolk County Organized Crime 
Prosecution Unit, Chief Prosecutor Tom Dwyer, when I brought up 
Callahan's name, he said, ``organized crime connections, Winter 
Hill Gang.'' I almost fell on the floor since we had zero on 
this guy. He said, ``we did surveillances. He was a character 
witness in a shooting involving one Brian Halloran. We 
surveilled him and he had meetings with the Winter Hill Gang, 
John Martorano, the Flemmis, Howie Winter, and so forth.'' He 
provided me with that information and I was somewhat puzzled 
how this information was not available to the FBI security 
people at World Jai Alai, who formerly worked in Boston and had 
access to this information. They were seemingly unable to 
develop this information until we scheduled a hearing for 
Callahan on May 3, 1976. At that time, shortly before the 
meeting, Callahan resigned because World Jai Alai's security 
officer was able to learn of our investigation.
    Mr. Delahunt. Could you identify that security officer?
    Mr. McGuigan. That is H. Paul Rico.
    Mr. Delahunt. The former FBI agent who took the fifth 
amendment a couple of weeks ago?
    Mr. McGuigan. That is correct. He then received the 
information, and I know not from whom. Someone told the World 
Jai Alai people. They had him resign before we could secure his 
testimony and before he was to attend our meeting. We had no 
interstate subpoena for him and were unable to secure his 
testimony. They replaced him with his former partner and these 
people were licensed.
    A correction in my written statement, on page 4, the second 
line, it should read January 1976 not 1975. We did learn that 
the Federal Government was made aware that allegations 
concerning Callahan were made that he might be involved in loan 
sharking with the Winter Hill Gang and James Martorano. This 
information was provided to Mr. Rico who did not provide it to 
us. It was not provided to us and I do not know what Federal 
officials provided the information or what officials provided 
it to Rico. All I know is we were not given the information 
when we made official requests, while the information was 
provided to others.
    Not only did they fail to learn this, when they did learn 
it, they didn't disclose it to us. Until we surveilled 
Callahan, this information was not available to us. When they 
realized we had him, he resigned.
    We also learned that a Winter Hill Gang associate had been 
made the head of the food and beverage concession at World Jai 
Alai, Miami. The gentleman was identified by an FBI 
intelligence report from Boston, as a Winter Hill known 
associate by the name of Bryan McNeilly. How he got to be in 
this position given the fact that FBI agents in Boston were 
running the security is best left for somebody else to explain. 
We looked with sort of a jaundiced eye. They were given a 
situation of keeping organized crime out and from our 
perspective, organized crime in World Jai Alai were being made 
to feel at home.
    After the resignation of Callahan, World Jai Alai opened 
and we started to conduct investigations involving player 
fixing in Jai Alai. These were first revealed by an 
investigative reporter for the Hartford Courant, Ted Driscoll. 
We followed up on this information. He was able to find this 
out. We had not been looking at it but we followed up and 
obtained a number of convictions in a game we had been assured 
was unfixable, absolutely unfixable. They all confessed to 
fixing it.
    Our jurisdiction did not allow us to conduct an 
investigation on that outside our borders. To my knowledge, no 
national agency has ever conducted an investigation regarding 
that, despite the fact that the Winter Hill people who were 
attempting to infiltrate World Jai Alai were involved in a 
major horse race fixing scandal all over the northeast. Howie 
Winter and others were convicted of that. I believe John 
Martorano was in that case but fled.
    In 1980, Roger Wheeler was the president of World Jai Alai. 
Roger Wheeler bought the company in 1978. Apparently he had 
been offered the company for sale by Mr. Callahan in mid-1976. 
This was strange since Callahan supposedly resigned in April 
1976, but far be it for me to understand the connections 
between Mr. Callahan and who was really running World Jai Alai. 
Roger Wheeler bought it. He told our investigator, Inspector 
George Ryalls, that he felt confident that he was OK because he 
had numerous FBI agents who were there to ensure the integrity 
of the process.
    He was licensed because there was absolutely no derogatory 
information about him and he seemed to be an outstanding 
businessman. He was killed in 1981 at the Southern Hills 
Country Club in Tulsa. We immediately decided to open an 
investigation to see if there was a link between the 
allegations being made in the Courant of skimming in Jai Alai, 
the Winter Hill Gang and the killing of Mr. Wheeler. There were 
law enforcement rumors that the Winter Hill Gang had conducted 
this murder. We were unable to confirm it.
    In May 1982, Mr. Brian Halloran, who comes back as the 
person involved in an assault where Callahan testified, was 
killed in south Boston. We learned he was killed after being 
denied Federal witness protection. Mr. Halloran, and I cannot 
understand his logic, had naively decided to provide firsthand 
information concerning the Wheeler killing to the FBI in 
Boston. I would have questioned his wisdom but I wasn't 
involved. He implicated John B. Callahan, John Martorano, 
Whitey Bulger and Steve Flemmi and other members of the Winter 
Hill Gang, and we have heard that he implicated possible law 
enforcement officers. I do not know that since I do not have 
the report. We were not given this information.
    Not surprisingly, the Federal authorities in Boston having 
firsthand information corroborated by the guys connected to 
Callahan regarding these individuals, decided that Mr. 
Halloran's testimony or information was not credible. I believe 
the information has now borne out to be true. Mr. Halloran was 
killed and when he was being killed perhaps he was surprised 
his information wouldn't warrant witness protection. He was 
talking about the killing of the president of Telex. You would 
think that would warrant witness protection.
    I must tell you we in Connecticut were not surprised he 
didn't get Federal witness protection. In fact, we firmly 
believed he had somehow been burned by the people with whom he 
was talking. That is what we believed.
    Callahan was killed in Florida shortly thereafter. We had 
contacted the Dade County Strike Force to try to interview 
Callahan on August 3, 1982. We flew down there and when we 
arrived, they called us and told us his body had just been 
found at the Miami Airport.
    These murders remain unsolved and it seemed the coverup had 
succeeded until a Winter Hill Gang member, Steve Flemmi, I 
believe, decided to claim that he had a free pass on the crime 
train because of his status as an FBI informant. He claimed 
essentially, they were allowing me to do this, so I get a free 
ride on the railroad.
    Judge Wolf had the integrity and the perseverance to 
conduct prolonged hearings to unravel this tangled web but I 
must say for all he has done, the tangled web needs more 
unraveling, and I commend this committee for doing it. We dare 
not forget that the discovery of these massive crimes based on 
the tenacity of a few defense lawyers like Victor was more than 
somewhat fortuitous. No one could have predicted that Steve 
Flemmi would have claimed a free pass on the crime train. Had 
he been tipped off slightly earlier, he would have fled like 
Mr. Bulger and never made the claim.
    Therefore, reforms must be instituted to stop the cozy 
arrangements between informants and agents. They must be 
subject to strict scrutiny and constant review. Contact between 
prior and current agents must be circumscribed, particularly 
when the agents are working in businesses that are under 
investigation. They provide a veneer of respectability for 
those businesses. When you are investigating, I can tell you 
that you do not receive a warm reception from present agents 
because they believe your thought process is wrong, having been 
guaranteed that all is well in the world of Jai Alai. All was 
not well in the world of Jai Alai.
    Information regarding State and local crimes must be 
presumptively provided to local prosecutors unless there are 
documented reasons why such should not be done. I believe they 
should be submitted to a court, requiring the contrary 
conclusion on the basis of what crimes we permit people to 
commit in this country and have no one accountable for the 
decision to allow that to happen. In that regard, I have a 
quote from Justice Brandeis from a 1928 wiretapping case: ``If 
the Government becomes a lawbreaker, it breeds contempt for 
law; it invites every man to become a law unto himself; it 
invites anarchy. To declare that in the administration of the 
criminal law the end justifies the means, to declare that the 
Government may commit crimes in order to secure the conviction 
of a private criminal, would bring terrible retribution. 
Against that pernicious doctrine this Court should resolutely 
set its face.'' I would echo those comments of Judge Brandeis. 
This Congress should resolutely set its face against that 
pernicious doctrine.
    [The prepared statement of Mr. McGuigan follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.264
    
    [GRAPHIC] [TIFF OMITTED] T8662.265
    
    [GRAPHIC] [TIFF OMITTED] T8662.266
    
    [GRAPHIC] [TIFF OMITTED] T8662.267
    
    [GRAPHIC] [TIFF OMITTED] T8662.268
    
    [GRAPHIC] [TIFF OMITTED] T8662.269
    
    Mr. Burton. We are going to do our best to do that. Let me 
ask you one question. That is, these documents you alluded to, 
do you believe they are in the control of the FBI at the 
present time?
    Mr. McGuigan. I am positive, they have to be.
    Mr. Burton. Those are documents we ought to see if we can 
get as well. We ought to send another subpoena over there and 
beat on that issue as well, which we will.
    Mr. Duke and Mr. Lawrence, I am sorry to keep you waiting 
for your testimony. We have a vote on the floor. I would urge 
the Members to rush over there, vote and come right back 
because we want to get to questioning as quickly as possible. 
We will be back in about 10 or 15 minutes.
    [Recess.]
    Mr. Burton. If we could get everybody reassembled, we will 
get back to the hearing. There will be Members coming back in. 
I appreciate your tolerance and waiting for so long while we 
have to run back and forth to vote. I do not think there will 
be any more interruptions.
    OK, our next witness according to my schedule here would be 
Mr. Lawrence. Mr. Duke, we are saving the best for last. So, 
Mr. Lawrence, do you want to proceed.

STATEMENT OF FREDERICK M. LAWRENCE, ESQ., BOSTON UNIVERSITY LAW 
                           PROFESSOR

    Mr. Lawrence. Thank you, Mr. Chairman. I am honored by the 
opportunity to appear before this committee and testify this 
morning. I will be submitting an expanded version of my remarks 
this morning and I would hope those could be incorporated into 
the record.
    Mr. Burton. They shall be.
    Mr. Lawrence. Mr. Chairman, Federal civil rights 
enforcement and civil rights crimes, in particular, have been 
the key focus of my career. During my 14 years at Boston 
University, and I would be remiss if I did not briefly mention 
that we take Victor Garo as one of our most distinguished 
alumni, I cannot take any personal credit for this since 
Victor's time at BU was a little before my time, but----
    Mr. Burton. Excuse me, didn't Bob Cousey go to Boston?
    Mr. Lawrence. I am a New York Knicks fan myself, Mr. 
Chairman.
    Mr. Burton. I know, but I just thought I would point that 
out. Mr. Garo, did you play basketball?
    Mr. Garo. Yes, sir.
    Mr. Burton. Did you. Well, Cousey, I think, went to Boston 
University. He was one of my heroes because he was a shorter 
guy like me. But, anyhow, go ahead.
    Mr. Lawrence. I think he was at Boston College, actually.
    Mr. Burton. Oh, he went to Boston College?
    Mr. Garo. Holy Cross.
    Mr. Burton. Oh, he went to Holy Cross. Well, excuse my 
ignorance. Go ahead, Mr. Lawrence.
    Mr. Lawrence. I hope all of this does not come out of my 
time, Mr. Chairman.
    For centuries, Mr. Chairman, societies have asked the 
question first posed by the famous Roman writer Juvenal: ``Who 
will guard us from the guardians? Who will guard the guardians 
themselves?'' I say as a former assistant U.S. attorney and I 
believe as a former assistant U.S. attorney that the vast 
majority of people involved in law enforcement are decent, 
committed, hard-working, dedicated, and law-abiding public 
servants.
    There is unfortunately, however, also no doubt that there 
are those cases in which the public trust placed in law 
enforcement officials is abused to a serious degree. Many of 
these cases can be handled or might be handled sufficiently as 
administrative matters within a law enforcement agency, 
although, as Mr. Garo mentioned earlier this morning, even the 
Department of Justice has had its limitations on what it can 
achieve administratively. But there are those cases that rise 
above the level that ought to be treated administratively and 
that constitute criminal violations of a victim's civil rights. 
Such cases call for the strongest possible response from the 
Federal criminal justice system and the imposition of serious 
criminal sanctions. It is these cases of criminal civil rights 
that I discuss in my testimony.
    I discuss a number of interrelated issues. First, the key 
role that criminal sanctions have in fact played in Federal 
civil rights enforcement. Second, the particular problems that 
arise when criminal civil rights laws are applied to misconduct 
by law enforcement officials. A suggested solution to these 
problems, in part, is to focus on the mental state requirement 
for these civil rights crimes. And finally, some particular 
concerns surrounding statutes of limitations.
    Criminal sanctions have, in fact, always played a key role 
in Federal civil rights enforcement. When we think about 
Federal civil rights statutes, it is typical today to think of 
the civil statutes primarily, sometimes exclusively, such as 
Section 1983 of Title 42. But, in fact, the Reconstruction Era 
statutes themselves were replete with criminal provisions, 
going back to the Civil Rights Act of 1866, the very first 
piece of legislation during the Reconstruction Era. In fact, in 
many ways, if you look at the 1866 and 1870 statutes, they were 
largely criminal statutes, in part because civil enforcement 
was not seen to be a very viable option for newly freed slaves 
or for Southern Unionists whose rights were being violated.
    So, in fact, the criminal sanctions available in this area 
are of long-standing. The enforcement story is a sadder story, 
particularly in the period following 1873 or 1875, when the 
Federal Government largely lost interest in enforcing these 
laws and the Supreme Court indeed struck down many aspects of 
them. But the laws remained on the books and in the 20th 
century criminal enforcement of civil rights became much more 
current and much more used.
    The application of these laws in the particular kind of 
area that we are discussing today, namely, misconduct by law 
enforcement officials, really did not start until the 1930's 
and 1940's. The celebrated, indeed notorious case of Screws v. 
United States, involving a case of Claude Screws, a sheriff 
from Newton, GA, and two of his colleagues, arrested and beat 
and left to die a man named Robert Hall who was what we would 
today call a civil rights activist. They would not necessarily 
have used that term at the time. But they beat Bobby Hall and 
they left him there to die and he did indeed die. No action was 
taken in the State courts in Georgia, not so surprisingly, and 
a Federal criminal civil rights charge was brought against 
Screws and his two co-defendants and that case was tried to a 
jury and they were convicted. And if the story ended there, I 
would be on to the next topic on my outline. Unfortunately, the 
story did not end there.
    The case went up to the Supreme Court and their convictions 
were struck down. Their convictions were struck down for a 
number of reasons, but the one I wish to focus on was that the 
court was concerned that the statute that would allow for 
punishment of civil rights violations, and read almost as 
broadly as that, Section 242, violation of rights under color 
of law, was potentially vague, did not specify what rights were 
involved. And that when you talked about a specific right, the 
right to serve on a jury, the right to vote, that was a 
specific right and there would be no vagueness problem in such 
a statute. But where the right was a civil right generally, 
indeed in Screws the rights were the rights that Mr. Garo 
talked about earlier, life, liberty, the right not to be beaten 
to death by law enforcement officers, one would not have 
thought that right had to be enumerated, but the Supreme Court 
of the United States said that indeed it did.
    As a result, the court read the word ``willfully'' in that 
statute in a very powerful and indeed very troublesome way, to 
require that law enforcement officers to be criminally liable 
under Section 242 would have to have willfully violated a 
Constitutional right which actually required in a ``mens rea''-
like sense some specific Constitutional intent, some specific 
state of mind with respect to the Constitution. Lest this 
seemed too hyper-technical and not have an impact on the 
ground, the impact on the ground was felt immediately. Screws 
and his two colleagues, co-defendants were retired. They were 
acquitted.
    The head of the Civil Rights Section, as it was then 
called, of the Department of Justice said afterwards, ``The 
judges' charge, while proper under the Screws case, was clearly 
very damaging. In short, the burden that the Government now has 
under the general theme of the Screws case in providing the 
necessary, willful intent in such cases is going to continue to 
buildup very high hills to climb.'' And indeed it has. It has 
built up very high hills to climb.
    As I suggest in greater length in my written testimony, 
what this committee ought to play a role in being involved in 
is to look to Congress, to the Judiciary Committee, to 
reconfigure the mental state requirement and to look to a kind 
of what I call Constitutional negligence, Constitutional 
negligence in the sense that a law enforcement officer has no 
business saying I did not realize that was a civil right 
violation. If the court finds he should have known, that ought 
to be sufficient.
    Justice Wiley Rutledge said it in Screws better than I can. 
He said, ``If law enforcement officers do not know the victim's 
basic civil rights, they should, for they assume that duty when 
they assume their office. They know or should know when they 
pass the limits of their authority. And when they enter such a 
domain in dealing with citizen's rights, they should do so at 
their peril.'' That was good advice in 1945, it remains good 
advice in 2002. That is a solution that Congress could play a 
significant part in.
    Finally, statutes of limitations on civil rights crimes 
committed by public officials must be interpreted in such a way 
that there is adequate time for these miscarriages of justice 
to be investigated and punished as Federal civil rights crimes 
violations. This is particularly true where the very gravamen 
of the crime involves withholding of documents, withholding of 
evidence, and a continued cover-up. There should never be a 
problem of a statute of limitations running out when the wrong-
doer himself is responsible for the difficulty in bringing the 
charges.
    The application of criminal civil rights sanctions to law 
enforcement officers is obviously a highly troublesome subject. 
Ordinarily, Mr. Chairman, we would wish to give law enforcement 
the widest possible berth in the performance of their vital 
functions. This is particularly true now in a time of threat 
from terrorism both abroad and as we found out so recently and 
so tragically here at home. But I would say it is not in spite 
of the current climate that law enforcement must be held to the 
highest standards, it is rather precisely because of the 
current climate that law enforcement must be held to these 
standards.
    It was during World War II, certainly a time of threat 
abroad and at home, that Justice Douglas in his opinion for the 
court in Screws described it as, ``This case involves a 
shocking and revolting episode in law enforcement.'' Could 
there be a better description, Mr. Chairman, of the events 
surrounding the false imprisonment of Joseph Salvati over three 
decades for a crime he did not commit? The crime of the way in 
which Mr. Salvati was treated is a shocking and revolting 
episode in law enforcement.
    The means by which Mr. Salvati came to be falsely 
imprisoned and the surrounding events of the misconduct of law 
enforcement in Boston and indeed in New England over this 
period have been discussed by other witnesses and I know will 
continue to occupy this committee, and I commend the committee 
for its attention. The purpose of my testimony is to take this 
shocking and revolting episode in law enforcement as a point of 
departure to begin to provide an answer to Juvenal's question 
centuries ago. The guarding of the guardians must begin with 
vigorous enforcement of this Nation's criminal civil rights 
laws.
    [The prepared statement of Mr. Lawrence follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.270
    
    [GRAPHIC] [TIFF OMITTED] T8662.271
    
    [GRAPHIC] [TIFF OMITTED] T8662.272
    
    [GRAPHIC] [TIFF OMITTED] T8662.273
    
    [GRAPHIC] [TIFF OMITTED] T8662.274
    
    [GRAPHIC] [TIFF OMITTED] T8662.275
    
    [GRAPHIC] [TIFF OMITTED] T8662.276
    
    [GRAPHIC] [TIFF OMITTED] T8662.277
    
    [GRAPHIC] [TIFF OMITTED] T8662.278
    
    [GRAPHIC] [TIFF OMITTED] T8662.279
    
    [GRAPHIC] [TIFF OMITTED] T8662.280
    
    [GRAPHIC] [TIFF OMITTED] T8662.281
    
    [GRAPHIC] [TIFF OMITTED] T8662.282
    
    [GRAPHIC] [TIFF OMITTED] T8662.283
    
    [GRAPHIC] [TIFF OMITTED] T8662.284
    
    [GRAPHIC] [TIFF OMITTED] T8662.285
    
    Mr. Burton. Thank you very much. I certainly appreciate 
that and we will try to take all of your recommendations and 
keep them in mind when we draft legislation to try to correct 
these inequities.
    Mr. Duke.

 STATEMENT OF STEVEN DUKE, ESQ., YALE UNIVERSITY LAW PROFESSOR

    Mr. Duke. Thank you, Mr. Chairman. I am tempted to use all 
of my allotted time praising the committee and the work it is 
doing. But rather than do that, I would just call your 
attention to some extensive praise in my written remarks, and I 
would incorporate Mr. Garo's earlier remarks, and simply say 
that I am very honored to have a small part in your 
deliberations.
    Before I go to my specific recommendations, I would like to 
respond briefly to your concern, Mr. Chairman, and the concern 
of others about how extensive this kind of misconduct is, that 
is, withholding of exculpatory evidence and allowing witnesses 
to testify falsely when the FBI knew that they were testifying 
falsely and failing to turn that over. I do not know, to use 
Mr. Delahunt's expression, that there is a culture of 
concealment in the FBI. But I do know, as I have indicated in 
my prepared remarks, that two decades after the Boston thing 
the same thing happened in New Jersey. The New Jersey FBI had a 
report which indicated who the murderers were and it allowed 
its witnesses to testify to implicate people that its own 
report said were innocent. And it continues to conceal that 
fact.
    As I am sure the committee has received many complaints 
from strangers----
    Mr. Burton. Excuse me, Mr. Duke. I do not want to interrupt 
your testimony, but I want to make sure that we know all the 
specifics about that case in New Jersey because we will be 
sending an additional subpoena over to Justice to make sure 
that we get those documents as well. So if there is anything 
that we do not have, be sure to talk to Mr. Wilson at the 
conclusion of the hearing so we get that information.
    Mr. Duke. Absolutely. Thank you very much.
    With respect to my specific recommendations, we need to do 
something to confine and regulate our bribery and extortion of 
prosecution witnesses. At the present time, there appears to be 
no legal limitation whatsoever on the deals that can be cut 
between prosecutors and potential witnesses. We have the Joe 
Barboza case where he essentially gets immunity from 20 or 30 
murders. We have Sammy Gravano, more recently, where he got 
immunity from 19 murders. We turn these people loose, we give 
them new identities, we give them phony Social Security 
numbers, and so forth, and set them loose on the unsuspecting 
public. It seems to me we need to take a hard look at whether 
we need to do that. Do we need to turn serial killers loose on 
the public. Should there not be some legislative limits on the 
kinds of deals that can be cut with witnesses of this type.
    I am first to confess I do not know exactly what the 
content of such legislation should be. But there must be some 
room for legislation. As it now stands, the matter is totally 
lawless. The Tenth Circuit Court of Appeals a couple of years 
ago said the prohibition against bribery of witnesses does not 
apply to the Federal Government. The statute prohibits bribery 
by whoever does it. The Tenth Circuit said ``whoever'' does not 
include agents of the U.S. Government.
    I think we also need to require corroboration from 
witnesses like Joe Barboza. As of now there is no corroboration 
requirement under Federal law. Anybody can get the death 
penalty on the testimony of Joe Barboza uncorroborated or 
anyone else.
    I think, second, we need to make it a crime for a 
prosecutor to willfully suppress evidence of innocence or 
evidence that contradicts the testimony of a witness offered by 
that prosecutor. The criminal statute should make clear that is 
a continuous obligation; the obligation to disclose exculpatory 
evidence does not end with the prosecution, it is ongoing and 
forever. And a criminal statute should make that clear.
    Mr. Garo suggested that we extend the time limit on 
prosecuting miscarriages of justice, and I endorse that. I 
think we also should take a look at the Anti-Terrorism and 
Effective Death Penalty Act of 1996 insofar as it imposes very 
strict time limits on collateral attacks by people who have 
been convicted of crimes. The ability of law enforcement and 
prosecutors to suppress and conceal evidence is a very powerful 
one, and as long as that remains in place, as long as we have 
not effectively remedied that, there will be cases in which the 
evidence of innocence comes long after the conviction. And that 
statute imposes some rather harsh limitations.
    I think we should also create an independent review 
commission, such as they have in Great Britain, that reviews 
claims of innocence by prisoners whose appeals have been 
exhausted. The commission has subpoena power and it has access 
to law enforcement files. It has been a very successful venture 
in Great Britain.
    Finally, I think we should eliminate absolute immunity of 
prosecutors. Under current law, a prosecutor can suborn 
perjury, can fabricate evidence, can lie to the court and 
cannot be sued by the victim of his dishonesty. He has absolute 
immunity. I do not think that is defensible. I think that 
should be changed to a qualified immunity.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Duke follows:]
    [GRAPHIC] [TIFF OMITTED] T8662.286
    
    [GRAPHIC] [TIFF OMITTED] T8662.287
    
    [GRAPHIC] [TIFF OMITTED] T8662.288
    
    [GRAPHIC] [TIFF OMITTED] T8662.289
    
    [GRAPHIC] [TIFF OMITTED] T8662.290
    
    [GRAPHIC] [TIFF OMITTED] T8662.291
    
    [GRAPHIC] [TIFF OMITTED] T8662.292
    
    [GRAPHIC] [TIFF OMITTED] T8662.293
    
    [GRAPHIC] [TIFF OMITTED] T8662.294
    
    [GRAPHIC] [TIFF OMITTED] T8662.295
    
    [GRAPHIC] [TIFF OMITTED] T8662.296
    
    Mr. Burton. Thank you, Mr. Duke.
    We will start our questioning now. We have looked at this 
Boston problem over a 35 year period and I am sure you all 
agree that it is proper for us to focus on this. I would like 
for each one of you to tell us, and I think you may have 
covered this, some of you, in your testimony, what specific 
things you think we ought to do as a Congress to correct these 
horrible atrocities that have taken place. I think Mr. Garo 
said we should increase the statute of limitations on perjury. 
The thing I am after and I hope that we are able to glean from 
you are the things that you feel are most important for us to 
do legislatively to make sure that our law enforcement agencies 
are stopped from doing this in the future.
    Mr. Garo. Sure. The problem that I have always seen, Mr. 
Chairman, in my over 37 years as an attorney is that there has 
always been a culture of hiding exculpatory evidence. And the 
playing field has never been level between the criminal defense 
bar and prosecution. I agree with Mr. LaTourette as he said 
that many prosecutors do the right thing and it is a tough 
business and it is a tough job, and I agree with that. But 
there are some out there that are just completely dishonest.
    With increasing the statute of limitation time and, I had 
been speaking, when I came here I had done my homework, I had 
spoken with an assistant U.S. attorney and others and I asked 
him, I said can you tell me, I told him what I was going to 
suggest, do you think those are good suggestions. He said 
absolutely. He said, and this was so key, Mr. Chairman, listen 
to his words, he said to me, ``Victor, there is no incentive 
for the prosecutor to give over these documents because they 
are never accountable for their actions.''
    Mr. Burton. So you think there should be a reasonable 
statute of limitations, No. 1. And No. 2, if they knowingly 
withhold exculpatory evidence, there ought to be some 
criminal----
    Mr. Garo. There should be a mandatory minimum jail 
sentence, minimum mandatory jail sentence.
    Mr. Burton. What kind of a sentence? How much?
    Mr. Garo. Two ways, in my opinion. It could either be for 
the crime for which the statute is, if it is a 10-year felony, 
then if the cases are thrown out or overturned, he gets 10 
years, or given the same penalty that the defendant received. 
That is both for the prosecutor and the law enforcement 
agencies that deal the same way.
    Mr. Burton. OK. What about the period of time you are 
talking about, the statute of limitations on this.
    Mr. Garo. My opinion? I do not think there should be any 
statute of limitations, defense, whatsoever for anybody who is 
involved in the intentional withholding of exculpatory 
evidence, especially in first degree murder cases.
    Mr. Burton. OK. Any of the rest of you have a comment on 
that?
    Mr. Duke. My proposal is that there be a tolling of the 
statute until the disclosure is made. So the statute----
    Mr. Burton. Explain to me what you mean by tolling.
    Mr. Duke. Well, in other words, the statute does not begin 
to run until the revelation or the discovery of the exculpatory 
evidence. That is, once you find that the crime has occurred, 
then the criminal statute of 5 years begins to run.
    Mr. Burton. Oh, I see. So you are saying if there is 
exculpatory evidence that they have withheld, once it has been 
discovered then there is a 5-year statute of limitations.
    Mr. Duke. Yes.
    Mr. Burton. Instead of having it open-ended.
    Mr. Duke. Yes.
    Mr. Burton. Mr. McGuigan.
    Mr. McGuigan. I do not quite understand who is discovering 
it. I do not understand. Are you saying that the prosecution 
has discovered it? I do not understand the concept because who 
is discovering the evidence. If the prosecutors are discovering 
the evidence 10 years after the case is closed, are you 
suggesting that the statute begins to run at that point?
    Mr. Duke. It begins to run when the victim of the 
disclosure has the evidence. In Mr. Salvati's case, that would 
have been a year or two ago. Until that point, the statute 
would not run.
    Mr. Lawrence. Mr. Chairman, the criminal law could 
profitably borrow from the civil rights law in this respect. In 
a civil rights claim under Section 1983 for malicious 
prosecution, the cause of action is not deemed to accrue until 
the wrongful conviction is invalidated. Not just the evidence 
is discovered, but the wrongful conviction is in fact 
invalidated.
    Mr. Duke. Right.
    Mr. Lawrence. The criminal law could very profitably borrow 
that and start the 5-year Federal statute of limitations 
running from the time that a wrongful conviction is invalidated 
and not before.
    Mr. Burton. The Judiciary Committee, I am just kind of 
thinking, and maybe you could comment on this, Mr. Delahunt, I 
think to have an open-ended statute of limitations they might 
frown upon that. But if you are talking about from the point of 
discovery by the defense counsel, in this case Mr. Garo, 5 
years running after that, that might be OK. We would have to 
define that very clearly.
    Mr. Shays, do you have----
    Mr. Shays. I do not mind if you want to make them a 10-
minute series of questions.
    Mr. Burton. OK. If a Federal prosecutor encourages 
witnesses to lie, as in the case with Mr. Barboza where he was 
encouraged to lie in exchange, or he himself commits perjury or 
withholds evidence, should that be considered a major failing, 
and what should be done about it?
    Mr. Garo. In the sub----
    Mr. Burton. In other words, we have an FBI agent, i.e., the 
ones we have had before our committee, and they encourage false 
testimony and we are able to find out about that, what kind of 
penalty should be applied and what should be done?
    Mr. Garo. In my opinion, mandatory minimum jail sentence 
either equal to what the punishment is that was given for the 
case that was overturned, or for what the punishment is for 
that statute.
    Mr. Lawrence. Mr. Chairman, just to quibble a bit, I think 
if we focus too much on the length of the sentence, we are 
going to be focusing on what turns out not to be the key piece 
here. The hard thing in the Federal criminal civil rights area 
has not been what exposure the defendant has, it is getting 
convictions because of various kinds of traps that are laid for 
unwary prosecutors. And I would be concerned with just focusing 
on the sentence and then having a mandatory minimum sentence 
that never gets put in place because of all sorts of traps that 
fall in the way.
    What I have in mind is that traditionally ``willfully'' in 
this area has been thought of in a very strict term that makes 
it very hard to convict law enforcement officials who say ``I 
was trying to put a case together but I did not `willfully' in 
that sense try to violate anyone's civil rights'' and I can 
imagine ``I did not `willfully' suborn perjury. I was just 
trying to put a case together and work with a witness.'' So I 
think we are going to have to be very careful as to how----
    Mr. Burton. And how would you do it?
    Mr. Lawrence. I would say that the ``willful'' part refers 
only to the underlying conduct, what would be a crime if it 
were not a public official. That is to say, anyone who tells 
someone else to lie, not a matter of putting the case together, 
someone tells Barboza go ahead and say that: that is perjury.
    Mr. Burton. Commit perjury.
    Mr. Lawrence. That is perjury. And the only piece on top of 
that for a public official is that he knew or should have known 
that this was a violation of his duty, not that he willfully 
did that, that he willfully violated someone's rights or he was 
thinking in Constitutional terms.
    Mr. Burton. And what kind of penalty would you impose?
    Mr. Lawrence. I think the truth is the penalties that exist 
under 241 and 242 today are adequate, because my experience in 
prosecuting----
    Mr. Burton. What are those penalties? I am not conversant 
with that.
    Mr. Lawrence. Where death results, and it is an intriguing 
question here, if the death penalty were put in place because 
of some prosecutor's misconduct, then up to life imprisonment 
or death, otherwise 10 years.
    Mr. Burton. Otherwise 10 years.
    Mr. Lawrence. Yes.
    Mr. Duke. Mr. Chairman, I think a major problem we have 
overlooked in this discussion is who is going to prosecute the 
prosecutor. That is the major problem. You can call these 
things crimes all you want; they do not prosecute themselves. 
How many prosecutors have been prosecuted for suborning perjury 
in this country in the last decade? I can tell you none 
federally, and probably not in the last 30 years.
    Mr. Burton. What would you suggest be created to deal with 
that problem?
    Mr. Duke. Maybe it is a dirty word, but I think we ought to 
think about creating an independent prosecutor.
    Mr. Burton. Independent counsel.
    Mr. Duke. Independent counsel.
    Mr. Burton. Well I was not for doing away with the 
independent counsel statute in the first place, so I would 
support that.
    Let me go to Mr. Delahunt. Mr. Delahunt, do you have some 
questions?
    Mr. Delahunt. Thank you, Mr. Chairman. This has been very 
edifying testimony. And I think we are at the beginning stage 
of really what should be a thoughtful, deliberative examination 
of what we want to do in terms of addressing the obvious 
problem. But let me address this to Mr. McGuigan. I think we 
have achieved considerable progress in diagnosing the problem. 
And the consequences impact, as I said earlier, both the 
innocent defendant but also the community is put at risk 
because information is not forthcoming so that law enforcement 
other than, in this case, the FBI can do its job. In other 
words, you have a situation where Joe Salvati's attorney at 
trial did not receive exculpatory information, information that 
would have exonerated him, hopefully information that never 
would have been presented even to a grand jury. In the case 
that Mr. McGuigan speaks to, the case of Jai Alai, Mr. 
McGuigan, as a State prosecutor, wanted to proceed, 
investigate, and put bad people in jail out of the community.
    So I guess what I see as the essence of the problem is how 
do we encourage or compel disclosure in information sharing by, 
again in this specific case, the FBI. Mr. McGuigan, you know 
that I served in a similar role as you did in Massachusetts. I 
can tell you of a case involving a homicide in my jurisdiction, 
and I am going to ask the chairman to send an appropriate 
request for information to my old office, where an individual 
was murdered, it is reported to me subsequently, years later, 
that the FBI had information in its possession prior to the 
homicide that the individual was at-risk, was a target for what 
turned out to be a homicide. Subsequent to the homicide itself, 
this particular informant of the FBI had information relative 
to who committed the homicide, the perpetrators. It was never 
brought to our attention. Very similar, obviously with 
different players, different facts, but it was an organized 
crime hit, by the way.
    Mr. McGuigan. I have no doubt.
    Mr. Delahunt. And you never had that information, neither 
did I ever have that information. I just want to stress I think 
we understand that what we are doing here, in addition to 
protecting the innocent, is protecting the public. Mr. 
McGuigan, do you see the problem as one of compelling the 
Department of Justice and, specifically, the FBI to sharing 
information with Federal and State law enforcement and 
incorporating mechanisms so that this information is just not 
disseminated in an irresponsible way, but in an appropriate, 
responsible way to the Federal and State prosecutor and other 
Federal agencies, by the way, that ought to know this 
information to protect the American people and the people of 
the neighborhoods whom you and I represented?
    Mr. McGuigan. Absolutely. That is absolutely correct. I 
said presumptively there has to be a law that mandates 
disclosure in the absence of them providing an independent 
review board compelling reasons why the information should not 
be disclosed. If you look at the Salvati case, had they turned 
over the exculpatory information in that case, they would have 
known that Mr. Barboza was a liar, he would have never been in 
witness protection, other people would be alive, his testimony 
would have never been believed, and that would have been the 
end of the matter. People are dead because they refused to turn 
over the information.
    Mr. Delahunt. Can you just imagine in your role as a former 
chief prosecutor in the State of Connecticut putting an 
individual in a Witness Protection Program, sending them across 
the country knowing of the background, being aware that this 
particular individual was responsible for 20-plus homicides, 
without communicating that information to the local public 
safety officials?
    Mr. McGuigan. Absolutely incredible.
    Mr. Delahunt. Unconscionable.
    Mr. McGuigan. Unconscionable. And it is the arrogance of 
Federal power which is accountable to no one and has received 
Federal law after Federal law which has put them in a position 
where they keep encroaching on State and local prosecutors and 
have no respect for the true function of the State's attorney, 
the district attorney who is to prosecute those crimes and 
protect the people within his jurisdiction.
    Mr. Delahunt. Are you familiar with a recent report within 
the last 2 years that was authored by a commission chaired by 
the former Attorney General of the United States Edward Meese?
    Mr. McGuigan. I believe I am familiar with it.
    Mr. Delahunt. And what it dealt with was the issue of 
Federalization of crimes that are traditionally prosecuted at 
the local and State level.
    Mr. McGuigan. I am. I am a member of the American 
Prosecutors Research Institute.
    Mr. Delahunt. Then you know exactly what I am speaking to. 
And I think it is a fair statement to say that Mr. Meese would 
concur with what dialog we are having here today.
    Mr. McGuigan. In principle, he clearly agrees. Because this 
process has gone on for 30 years now, and it has gone on to the 
demise of the citizens who are supposed to be protected by the 
local district attorney.
    Mr. Delahunt. Right. I just had staff circulate to you a 
memorandum to an individual by the name of Mr. DeLoach, it is 
dated November 15, 1968, and it is from a J.H. Gale. If you 
could just peruse it for a moment and as I describe it. It is 
an FBI internal memorandum, dated, like I said, November 15, 
1968. You were speaking earlier about the concept of task 
forces.
    Mr. McGuigan. Correct.
    Mr. Delahunt. I think this is so apropos because I would 
suggest that one aspect of the problem is articulated in this 
memorandum in terms of the reluctance to share information with 
other law enforcement agencies.
    Mr. McGuigan. Absolutely.
    Mr. Delahunt. And let me read this into the record. This is 
1968. We wonder how we got here. How did we get here? Because 
this senior level, I believe that Mr. DeLoach was the deputy 
directly reporting to Mr. Hoover, the Deputy Director of the 
FBI, and I think the most pertinent sentence in this memorandum 
is, ``Another principal objection is that the FBI's 
accomplishments would be submerged in the claiming of credit by 
the Task Force beyond its actual contribution, and they will 
wind up grabbing the lion's share of favorable publicity.''
    We have been in the business a long time, Mr. McGuigan. But 
does this say it all? Let's just really put it right out on the 
table.
    Mr. McGuigan. This describes exactly what the relationship 
is with the FBI and the Federal Government in the investigation 
and prosecution of cases in State and local government.
    Mr. Delahunt. And that was the case in the 1960's, in the 
1970's, in 1980's----
    Mr. McGuigan. Never changes.
    Mr. Delahunt. And possibly led to the miscarriage of 
justice not just of Joseph Salvati, OK, but in the case of 
World Jai Alai.
    Mr. McGuigan. Absolutely. And quite frankly, as I said 
before, the cozy relationship between agents and former agents, 
they have a stronger affinity and affiliation with former 
agents and industries under investigation than they do with the 
State people who are investigating the industry. You turn 
around and see the people whom we are investigating, because 
they are retired Federal officers, getting the information we 
cannot get. Apparently, they trust them but they do not trust 
us.
    Mr. Delahunt. I will pose this question to the panel and 
anyone is welcome to participate. But I would suspect that 
there are statutes, Federal statutes today that would prohibit 
and make it a violation of the U.S. Criminal Code the 
dissemination of investigative material to anyone outside of 
that agency. And yet we hear Mr. McGuigan say, and I think that 
his statement is certainly credible, that after an agent 
retires and goes and does security work somewhere he has access 
to information that he or she has no right to access.
    Mr. Lawrence, are you familiar with any of the statutes 
that would apply to the dissemination of information coming 
from the FBI or any other Federal investigatory agency?
    Mr. Lawrence. At the very least, it would run afoul of 
Department of Justice internal regulations. But I believe as 
well it would violate Federal statutes. I think one of the 
concerns, and Professor Duke alluded to this earlier, is we 
have to think not only in terms of what laws are out there, 
but, systemically, who is going to enforce them. If the 
enforcement is going to come from the same people who are 
involved in the conduct, it is pretty obvious to see that the 
foxes are not going to be prosecuting themselves.
    One of the suggestions for using other statutes, the civil 
rights area is only one, is that you have prosecutors with a 
particular mandate outside of the mainstream. That is the 
theory of that approach.
    Mr. Delahunt. Could I just have one more question as a 
followup?
    Mr. Burton. Sure.
    Mr. Delahunt. Given that scenario that there possibly does 
exist applicable Federal criminal statutes or that clearly 
department policy would prohibit that dissemination, can any of 
you point to a particular instance of investigation or 
prosecution or some sort of civil action or administrative 
action that would punish either a current agent for sending or 
a retired agent from receiving confidential information 
regarding investigations or prosecutions?
    Mr. Lawrence. I know of no such case.
    Mr. Delahunt. Professor Duke.
    Mr. Duke. No.
    Mr. Delahunt. I think this goes to support your premise.
    Mr. Burton. Yes. That is one of the things that I think you 
and I and others on the committee ought to take a hard look at 
as far as legislation. And I am glad you are on the Judiciary 
Committee, you can help us over there.
    Mr. Shays.
    Mr. Shays. I am going to be here till the end and Mr. 
LaTourette has another meeting, so I am happy to yield.
    Mr. Burton. The gentleman from Ohio.
    Mr. LaTourette. Thank you, Mr. Chairman. I will not take a 
tremendous amount of time because I have to do some 
Transportation and Infrastructure business. I appreciate Mr. 
Shays courtesy.
    Mr. Burton. Well do not forget Indiana.
    Mr. LaTourette. Indiana is next to Ohio, so I am sure we 
will take care of it.
    Mr. McGuigan, I was interested in your observations. There 
is a lot of criticism being levelled at Federal agents and 
Federal prosecutors. But I think the Congress is to blame for a 
lot of this Federalization. There was a push in the 1960's to 
go get organized crime. When I was prosecuting cases we had a 
war on drugs. So a lot of us sit up here and we Federalize 
crimes that were historically under the venue of the local 
district attorney or prosecuting agency. My own experience was 
that you would have the DEA swoop into town and they would be 
interested in the big fish, the guy from Colombia or down 
somewhere in the Caribbean, but did not really care if he was 
selling rocks of crack cocaine to the kids in your 
jurisdiction. And you have experienced the same sort of thing. 
So while we rush to try and come up with more Federal 
legislation to deal with the problem of a few bad apples, I 
think we need to take a look in the mirror and maybe quit 
Federalizing so many crimes and leave law enforcement to local 
authorities where it historically belongs.
    When Mr. Delahunt talked to you about that memorandum, I 
can remember I had one pretty high profile case and DEA, FBI, 
ATF, they were all involved and they could not put their 
jackets on fast enough when the TV cameras showed up. So you 
not only have the tension between local and Federal, you have a 
budgetary tension between the ATF, the DEA, and the FBI. Does 
that agree with your experience?
    Mr. McGuigan. There is no question about that, the 
Federalization of the criminal laws. You look at something like 
the Economic Espionage Act and you really have to ask yourself, 
what was somebody thinking when they decided to pass this. And 
they Federalized one more. They have had about 30 prosecutions 
in 5 years and they devoted an incredible amount of resources. 
It does not seem to bear logic. Expansions into gang crimes 
that were well-handled by State prosecutors occurred and, quite 
frankly, cherry picking the few cases that they want, leaving 
the local DA to prosecute all the rest of the cases and 
undermining his funding abilities to get the sufficient 
resources to handle it.
    I think that we have come a long way from Henry Hyde's 
remark that Federal criminal jurisdiction is interstitial. It 
is now plenary in the sense that Congress over the last 30 
years has expanded it. Even when the courts cut down on the 
scope of the mail fraud statute, we turned right around and 
expanded it all over again.
    Mr. LaTourette. Right. I thank you for that. The other area 
that I want to explore, and again sometimes when we Federalize 
things we sort of rush to judgment, and from Professor Duke and 
Professor Lawrence, Mr. Garo, and I think the chairman, I heard 
mens rea standards that caused me some concern. I heard 
``knowingly,'' I heard ``willfully,'' I heard ``negligence.'' 
Again, my observation and experience is most of the men and 
women who engage in this work are good people. It is also my 
observation and experience that although you have tragedies 
like the Salvati case, you also have criminal defendants who 
play the system time and time and time again. And I would hate 
to give them another arrow in their quiver. I wish there was a 
way we could separate, either through mens rea or something--I 
sort of put criminal defendants in two categories. You have 
some where they are dead-bang losers and they deserve whatever 
punishment they get, and then you have some other cases where 
there are some questions, be it questionable eye witness 
testimony, be it scientific testimony, it could be a confession 
that was coerced if that is a claim. But just one quick story.
    I had a guy that stood up in court 1 day, he was accused of 
and convicted of killing five people, he is on Ohio's death 
row, he stood up during the sentencing phase and he said, ``I 
killed these five people. I have been commanded to kill ten 
thousand. So if you let me out, I am going to kill nine 
thousand, nine hundred and ninety-five more.'' Twelve years 
later he is still going through the habeas corpus system. In my 
view, he should have been taken out to the apple tree and hung 
years and years and years ago.
    And so I think before we enhance their rights and punish 
prosecutors, and I am really not in favor of this negligence 
thing because I think that really opens up--I do not disagree 
with you that if they have set the bar on ``willfully'' so high 
that is too high a bar to get over. But negligence I think 
really gives the criminal defendant, the dishonest criminal 
defendant a club over prosecution. I do not know that we want 
to go there.
    But I wish we could winnow out some of these cases and, 
sort of like when they separate the wheat from the chaff, the 
no-brainers go over here, and the ones where DNA may clear it 
up 10 years from now or we may have a Salvati case 35 years 
that they go over in this particular direction. I think they 
are not pretty simple but I think we could separate them, and I 
wish that we would.
    But Professor Lawrence, maybe you could just spend a couple 
minutes talking about the mens rea of this because, I 
understood how you are using negligence, but it concerns me 
just a little bit that we create a level that makes me a little 
uneasy.
    Mr. Lawrence. I appreciate the question, Congressman. You 
should always be careful asking a criminal law scholar to talk 
about mens rea because we could spend the rest of the day on 
that. I will be brief, but I think it is an important question.
    In my view, what makes civil rights crimes different from 
other crimes is that you can think of them as two tier crimes. 
There is an aspect of the crime which would be criminal if any 
private person were engaged in it. In the case of police 
brutality, let's say, the first-tier crime would be that of 
assault. In the case of suborning perjury in putting the case 
together for a prosecutor, it would be any other kind of 
subornation of perjury. What makes it a civil rights crime and 
creates Federal jurisdiction and also creates the extra 
penalties that go with a civil rights crime then is the 
additional element of being done under color of law.
    My suggestion is that all of the protections that mens rea 
properly gives to a case in terms of restricting punishment to 
people who are consciously, willfully, knowingly violating the 
law should apply to the first tier. Where I would not apply 
that is in the second tier, and that is precisely where the 
problems have come. So I think in many ways you can get the 
best of both worlds by viewing them as two tier crimes.
    Mr. LaTourette. I thank you very much.
    Mr. Chairman, I yield back.
    Mr. Shays [presiding]. I thank the gentleman. It is my turn 
to ask some questions. I would like to say that eventually, Mr. 
Duke, I am going to get to your eight recommendations, or 
whatever number they were, go through them and ask each of our 
witnesses what they think, and then see what we would add to 
it.
    But I would like to first start with Mr. McGuigan. Mr. 
McGuigan, my recollection during the time that you worked for 
the State and I was a State legislator and the interaction we 
had, your job when you were on the Crime Task Force was to 
validate whether these new gaming facilities that were being 
set up, the dog tracks and the Jai Alai frontons, that they 
were free of organized crime. Is that correct?
    Mr. McGuigan. That was the mandate given to me by Governor 
Grasso after they had already been cleared to open. But I 
opened an organized crime investigation based on a parallel 
case. In other words, the Task Force received the mandate after 
it had already uncovered organized crime connections.
    Mr. Shays. So, bottom line, these facilities and the owners 
were allowed to move forward. You had reason to believe that 
they were connected with organized crime. And, obviously, we in 
the State of Connecticut wanted to be protected from a gaming 
facility connected to organized crime.
    Mr. McGuigan. We had a public hearing on it. And the 
finding of the commission was they were connected to Buster 
Ardito, who was a capo in the Genovese crime family. They had 
meetings with him and Tony Provenzano, who was a capo in the 
DiCalvacanti crime family in New Jersey. So we had meetings 
with organized crime figures, including conversations with 
organized crime figures in Bridgeport, and they revoked the 
license.
    Mr. Shays. It was clear to you that the gaming facilities 
were very much connected with organized crime and you were in 
the process of looking at each one of these facilities, 
correct?
    Mr. McGuigan. Bridgeport was and we closed it before it 
opened. It was ready to open in a week and a half. There were 
not that many people in Connecticut who were dancing at the 
fact that their grand opening seemed to disappear. There were 
not kudos, if you want to know, for what happened.
    Mr. Shays. How did you determine that there was organized 
crime involved in the Bridgeport----
    Mr. McGuigan. I was doing an ancillary case in Bridgeport 
and someone mentioned Kasue Street and I said let's followup on 
the lead. I did a couple of interviews and then said something 
is wrong. We demanded to see their books. They had loans from 
Central States Teamsters Pension Fund. I decided to fly out 
there to see what it was all about. I then went down to New 
York and met with city of New York and OCTA force people and 
convinced them that we were on a legitimate investigation, and 
they gave me surveillance reports with Ardito and Provenzano.
    Mr. Shays. Would you be working with the FBI out of New 
York or out of Boston?
    Mr. McGuigan. We had received nothing from the FBI. I did 
not initiate. They were done by Mort Dinistein. I had never 
received anything from the FBI.
    Mr. Shays. Now why did you go down to Fort Lauderdale?
    Mr. McGuigan. Because I suspected the gentleman.
    Mr. Shays. And who was that you suspected?
    Mr. McGuigan. It was just a hunch.
    Mr. Shays. OK. You went down there. And what did you find?
    Mr. McGuigan. I found that he told me--he had to have his 
books ready and that when I got there----
    Mr. Shays. Got where, in New York or Fort Lauderdale?
    Mr. McGuigan. Fort Lauderdale. I went to Fort Lauderdale 
and he had no books. And when I analyzed his books, I realized 
that he had $250,000 in cash collections on April 4th and he 
had a dispersement of the money with nothing to indicate to 
whom the money had gone. Which convinced me that all was not 
right in the Land of Oz.
    Mr. Shays. Right. And did you see him with any organized 
crime figures?
    Mr. McGuigan. Well, I actually went to a place called the 
Gold Coast, which was Meyer Lansky's hang-out, because I heard 
from a Florida detective that he was associated with him. I met 
him there with two organized crime figures, I believe it was 
Tuna Boy Arcardo out of Chicago and Johnny Roselli. He was 
having dinner with them and was somewhat surprised to see me 
drop in for dinner.
    Mr. Shays. I do not think I would have wanted to fly back 
with you from Fort Lauderdale back to New York.
    Mr. McGuigan. That was a hunch. It worked out and we closed 
them down. We had public hearings, actually we were on 
television all day in the State, and we closed them down.
    Mr. Shays. Now this is a little off the picture but I would 
like it just for the public record. If you have someone who 
owns the facilities involved in organized crime, why do we make 
an assumption that when they transfer the license they are 
going to transfer it to someone who is not involved in 
organized crime?
    Mr. McGuigan. You should not make the assumption. You 
should investigate equally, if not triply so, more diligently, 
because it is highly unlikely that they just left the 
connection. This was not a warm political environment. They 
were planning to spend the revenue from opening these 
facilities and the facilities were not opening.
    Mr. Shays. OK. Courtesy of you. We had both Mr. and Mrs. 
Salvati here a number of months ago at which time they told 
their unbelievable story. And we also had a person who sat in 
the front row two seats over named Paul Rico. And I tried to 
listen and watch him at the same time to see how he would 
react. And when he took the stand, and this time he did not 
take the fifth, he showed no regret or concern. Now I made a 
comment to someone that having listened to it he clearly knows 
now that Mr. Salvati was innocent and he showed no remorse at 
all, almost contempt that we would even suggest that he should 
show remorse.
    How often did you interact with Mr. Rico, and what kinds of 
conversations would you have had with him?
    Mr. McGuigan. I only met him probably three times.
    Mr. Shays. What was his position at the time?
    Mr. McGuigan. He was the Director of Security for World Jai 
Alai. I presume his mandated function was to keep organized 
crime out.
    Mr. Shays. So he had retired from the FBI?
    Mr. McGuigan. Retired FBI, Boston Organized Crime Strike 
Force, Winter Hill Gang investigator, moved to Florida, and 
then became the Director of Security at World Jai Alai. I 
presume part of his duties were to ensure that organized crime 
was kept out.
    Mr. Shays. So you obviously began to have some suspicion 
about him when he started to work for the Jai Alai fronton?
    Mr. McGuigan. I had none. I had no derogatory information 
on Mr. Callahan and had no reason to believe that Mr. Rico was 
not as he was represented to me, a prominent organized crime 
investigator in Boston. Why would I doubt his word at all?
    Mr. Shays. OK. But when did you start to have some 
suspicions?
    Mr. McGuigan. I only became suspicious of Callahan and 
decided to follow him. Not any particular good reasons.
    Mr. Shays. So once, as you testified earlier, you learned 
from Boston law enforcement people that this man was clearly 
involved in organized crime, it was obvious to anyone who----
    Mr. McGuigan. That was by accident. I went to meet Tom 
Dwyer, the head of the Suffolk County investigation project. We 
had come up empty on Callahan and we had been in Boston on 
March 1st and did not know who was at Clarks Turn of the 
Century and I mentioned John Callahan, and he said he is 
connected to the Winter Hill gang and I have got surveillances 
on him. That was an accident.
    Mr. Shays. So did you make the assumption that they were 
doing their job and the FBI just was not aware of it, or did 
you begin to suspect the FBI?
    Mr. McGuigan. Well, I then learned that Brian McNeely was 
the head of beverage concessions at World Jai Alai that John 
Callahan was a known associate of Winter Hill Gang members John 
Martorano, I believe Stevie Flemmi, Whitey Bulger, Howie 
Winter, Ron Costello, Brian Halloran. He had a collection where 
he was a known associate. So I was a little concerned as to how 
he got to be president of the company when the person in charge 
of the security is someone who worked on these people. It 
seemed to me to be a confusing situation. I could not figure it 
out. I guess he was not up to snuff with what was going on at 
Boston.
    Mr. Shays. I just want to be clear as to who ``he'' is. 
``He'' is Rico?
    Mr. McGuigan. Well, Mr. Rico was the head of security. I do 
not know whether he----
    Mr. Shays. I just want to know, when you were mentioning 
``he'' you were referring to Mr. Rico? So now you begin to have 
obvious suspicions about someone who worked for the FBI in the 
past. So would you at this moment have said this guy was in the 
FBI, it is kind of weird, strange, and you have suspicions 
about him, do you then proceed to have suspicions about the 
FBI? You had suspicions about Rico. Then I want you to just 
tell me where did you go from there. When did you begin to 
suspect that more FBI people were involved?
    Mr. McGuigan. I realized that Mr. Rico had been given 
information regarding a potential loan-sharking transaction in 
January 1976. I sort of wondered why I did not have it. Since I 
was trying to clear this guy for a parimutuel license, I 
thought maybe we ought to have that. So I could not quite 
understand that either. So I said, well, now if he knew that 
information, why did he not show me that information and why 
did nobody else tell me that information? And then when I was 
going to have a hearing on Callahan--now Callahan resigned 
because Rico, and I do not know how he learned that we were 
doing an investigation--we were planning to ambush Callahan at 
a hearing in Hartford where his organized crime connections 
would come up unbeknownst to him and see what we could uncover. 
Callahan resigned. And as a commission might put it, all was 
not well in the Land of Oz, let's go on with the licensing.
    Mr. Shays. What I want to know though is, I want to know 
something that, you are telling me something that I need to 
know and I am following you to this point, but what I want to 
know is you are in charge of law enforcement for the State of 
Connecticut----
    Mr. McGuigan. At the time I was not. At that time I was the 
chief prosecutor for the State Organized Crime Task Force. 
Later on I became the chief prosecutor.
    Mr. Shays. OK. But at that time you had a very important 
statewide function dealing with organized crime and you are 
suspecting a former FBI agent, clearly suspecting, you believe 
somehow he is connected in protecting an organized crime 
figure. Did you at that moment, listen to the question, did you 
at that moment believe that other FBI agents were involved, or 
just a former retiree?
    Mr. McGuigan. I did not know the logic of how this 
information was not acted on. We were suspicious as to why it 
was not acted on.
    Mr. Shays. So you began to be suspicious that other FBI 
agents should have been--well it seems obvious to you, but I am 
trying to develop a record here and so that is why I am going 
through it like I am going through it. I want to understand. In 
your mind, this was just staring everybody in the face and it 
was so obvious to you that a former FBI agent is protecting an 
organized crime figure that you began to, what, suspect the New 
England branch of the FBI?
    Mr. McGuigan. No. I would say that I began to suspect that 
people were not working as hard as they should be in Miami 
World Jai Alai. They seemed not to have been able to uncover 
this and I was wondering what was going wrong. They were maybe 
having a bad hair day, I don't know. I do not know what it was 
but it was troubling. Troubling is a good word. I was troubled.
    Mr. Shays. OK. I just want to make sure you are not 
speaking like Alan Greenspan where there is more meaning to the 
word troubled. That is why I need to make sure that you are 
being----
    Mr. McGuigan. I admire the comparison, Mr. Chairman.
    Mr. Shays. But it is our job to make sure you speak not in 
tongues. So I want to be clear. Did you feel you could go to 
the head of the FBI in New England and say this is crazy, you 
have a former FBI agent who is basically shielding an organized 
crime figure and I want to know what you guys are doing about 
it? Did you feel you could do that? And did you do it?
    Mr. McGuigan. See, Callahan was gone from the company. 
Callahan was gone from the company, at least what we were told, 
and we had no jurisdiction. They sold the company to somebody 
else. I was unaware that Callahan had approached the new buyer 
so he actually was not out of the company. And Callahan's 
partner became the president of the company. And I was assured 
that he----
    Mr. Shays. And that was Roger Wheeler?
    Mr. McGuigan. It was Richard Donovan who I was assured was 
a Boy Scout.
    Mr. Shays. Of course, you knew that not to be the case.
    Mr. McGuigan. Well, he is a Boy Scout. Just ask anybody in 
law enforcement.
    Mr. Shays. OK. So ultimately you do not license him, 
correct?
    Mr. McGuigan. He was licensed. I do not license anybody. 
The Commission on Special Revenue decided to license Mr. 
Donovan.
    Mr. Shays. OK. And he lasted for how long?
    Mr. McGuigan. He was licensed for I think 6 or 7 years. 
Then Roger Wheeler bought the company in 1978.
    Mr. Shays. OK. By then you are the chief State's attorney?
    Mr. McGuigan. Well, probably just as he was buying I became 
chief State's attorney.
    Mr. Shays. OK. So we do not have anyone killed yet. None of 
your witnesses are killed.
    Mr. McGuigan. No. And we had a background investigation on 
Wheeler, who assured my inspector, George Ryalls, that he was 
safe because he had all these retired FBI agents in World Jai 
Alai who were going to protect him from the mob and he did not 
have any problems.
    Mr. Shays. And by all, how many? One? Two? Three?
    Mr. McGuigan. I could not give you a count. There is a 
count somewhere, but there were a number of them.
    Mr. Shays. So it was Rico and a number of others?
    Mr. McGuigan. Yes. There were a number of retired agents 
who were very experienced in this area.
    Mr. Shays. But being candid and not like Alan Greenspan----
    Mr. McGuigan. Oh, he told my inspector that he was safe.
    Mr. Shays. But by then though you did not know if he was 
safe or not?
    Mr. McGuigan. The operation essentially was in Florida. If 
anybody wanted to do this case, they could have done the case. 
The operation was in Florida. We were doing a Jai Alai player 
fixing case in three frontons. He was in Florida, he felt safe. 
What am I to say? But we then began a skimming investigation 
involving World Jai Alai and the other Jai Alai frontons.
    Mr. Shays. Let me just say to the gentleman, I am going to 
be yielding you time but I am going to go about 5 more minutes.
    But Mr. Wheeler ends up killed, assassinated really, at a 
golf course. They did not pick a dark alley or when he came out 
of his house. They went to a public place and he got murdered.
    Mr. McGuigan. Southern Hills. I understand they play the 
PGA there and the U.S. Open. It is a very nice place. I have 
not been there.
    Mr. Shays. That is a pretty dramatic way to kill someone. 
It was a high profile, it was probably sensational. What was 
your reaction when you heard he was killed?
    Mr. McGuigan. I figured they were sending him a message, 
sending everybody else a message. That is what I figured. It 
looked to me like they were whacking him. So, you know.
    Mr. Shays. But he was not a witness for you or anything 
else. But did you start to get interested in the Jai Alai----
    Mr. McGuigan. I believe he called George Ryalls on the day 
before he was killed or the day he was killed.
    Mr. Shays. George who?
    Mr. McGuigan. My inspector who had cleared his license. He 
wanted to talk to him about how Jai Alai was running.
    Mr. Shays. How what?
    Mr. McGuigan. How it was running and what was going on.
    Mr. Shays. OK. And by then are you back into thoroughly 
investigating this fronton?
    Mr. McGuigan. Well, again, we have limited jurisdiction in 
Connecticut. So we assisted Tulsa and we certainly tried to 
get----
    Mr. Shays. Did it raise an interest in who was going to run 
the new facility and did you start to begin to wonder more?
    Mr. McGuigan. Absolutely. We found out that they were 
planning to sell the fronton before Wheeler to one Jack B. 
Cooper who was a known associate of Meyer Lansky and apparently 
the security people had no problem with that. That might be 
troubling, but what do I know? The next thing that happened is 
that they sold the Hartford Jai Alai fronton, which meant that 
they did not have to deal with me anymore.
    Mr. Shays. OK. I am just trying to establish when you began 
to have real questions about the FBI in Boston and when you 
began to think that your witnesses were being killed before 
your very eyes.
    Mr. McGuigan. Well, you know, whether they are my 
witnesses. I think that Brian Halloran was a witness. He was 
not killed before my eyes, but he was killed before somebody's 
eyes.
    Mr. Shays. Was he someone that you were using as a witness?
    Mr. McGuigan. I knew Brian Halloran because he was actually 
the guy who was tried in Boston in 1974 by Tom Dwyer for 
shooting an MTA guard. And Callahan was surveilled because he 
was a defense witness. That was the first connection made to 
the Winter Hill Gang and to Callahan. So I knew who Halloran 
was because he had a rap sheet and he was a Winter Hill 
operator. I did not know he had gone into a Federal safe house 
and had fingered Callahan, Bulger, Flemmi, and John Martorano, 
who was a fugitive in Florida, for the hit. I have heard that 
he fingered other people. I do not know. We heard that from an 
informant, not from them because they never told us.
    Mr. Shays. Now Callahan was someone who was also killed 
eventually, correct?
    Mr. McGuigan. Halloran was killed in May, and Callahan was 
killed in August. Callahan was the last link to the case, at 
least the last what we call non-mob link.
    Mr. Shays. OK. Now you are referring to a case. What is 
that case?
    Mr. McGuigan. Pardon?
    Mr. Shays. What was the case? You said the last one linked 
to the case.
    Mr. McGuigan. Well, the Wheeler case. Halloran tied to the 
Wheeler case. Halloran is dead. He implicated Callahan in the 
conspiracy. OK? Callahan was the only non-mob guy implicated in 
the conspiracy. So if you were picking what is going to happen, 
you would say the next thing they are going to do is they are 
going to--I do not want to use the term but I will use it 
because it is easy--they are going to whack Callahan, that is 
what is going to happen.
    Mr. Shays. Where did they kill him, and where were you?
    Mr. McGuigan. They killed him on August 2. I landed in 
Florida on August 3. Our mission was that we would try to find 
Callahan and interview him.
    Mr. Shays. So the day before you were to fly there he was 
killed.
    Mr. McGuigan. He was found in a trunk in Miami Airport.
    Mr. Shays. Where you landed.
    Mr. McGuigan. We landed in Miami Airport. They put him in a 
trunk. They shot him in Fort Lauderdale and brought him over to 
Miami.
    Mr. Shays. Before giving the floor to Mr. Delahunt, I need 
to be clear, and I want to say the record right now is not 
clear, as to when you began to be uneasy about the New England 
FBI.
    Mr. McGuigan. Well, uneasy? I will tell you, when we heard 
from an informant----
    Mr. Shays. Let me ask you the question this way.
    Mr. McGuigan. When we heard from an informant that Halloran 
had been----
    Mr. Shays. Let me ask you the question this way. Did you 
trust the FBI in a way that you could give them information and 
share information and did you feel they would keep the 
information confidential, and did you feel they would cooperate 
with you? If the answer is no, when did you begin to feel no 
was the answer?
    Mr. McGuigan. Well, I want to say this. I deal with the FBI 
in Connecticut on a constant basis. The agents who I deal 
with--I have total confidence in them. I have had cooperating 
witnesses in numerous cases where they have treated these 
people with nothing but respect and conducted themselves in a 
totally honorable manner. So when I am talking about the FBI, 
it is not true that this is a systemic problem. I deal with 
these people every day and I consider them close friends and 
honorable people who do the right thing above all else. But, 
talking about this case and the people involved in this case, I 
would not give them any information.
    Mr. Shays. Would you have called the Boston FBI and given 
them any information?
    Mr. McGuigan. For what?
    Mr. Shays. Ask their cooperation.
    Mr. McGuigan. Mr. Halloran called the Boston FBI.
    Mr. Shays. Yes?
    Mr. McGuigan. Well he ended up dead. That is, you know, I 
am not calling.
    Mr. Shays. And you think there is a connection? I just want 
the record to show that.
    Mr. McGuigan. Well, he did. He called the FBI, he ended up 
in a safe house, and the next thing you know he ended up on a 
street gunned down. I do not know what happened. Maybe they can 
figure out what happened.
    Mr. Shays. OK. I am going to ask one last question. I am 
sorry, Mr. Delahunt.
    Mr. McGuigan. Somehow they must have found out about him.
    Mr. Shays. Mr. Delahunt.
    Mr. Delahunt. Let me just go for a few more minutes. Let me 
see if I can rephrase. I think what Mr. Shays is looking for is 
some context. Were you surprised when you initiated your 
efforts in terms of the licensing investigation that you heard 
nothing from the FBI but at some point in time heard from the 
Suffolk County District Attorney's Office that there was a 
problem with Callahan?
    Mr. McGuigan. Absolutely. This was shocking.
    Mr. Delahunt. But this was the first indication that maybe, 
just maybe some folks in the Boston office of the FBI were not 
being fully forthcoming?
    Mr. McGuigan. Yes. I attributed it at the time to not being 
fully forthcoming or perhaps not reading their reports.
    Mr. Delahunt. Right. It was an oversight.
    Mr. McGuigan. When I found out that they had handed over 
reports--I do not know who handed them over to the retired 
agent--but reports out of their office were handed over to a 
retired agent that I did not get, that got a little more than 
they just did read them then.
    Mr. Delahunt. You were annoyed at that point?
    Mr. McGuigan. That is annoying. That is annoying.
    Mr. Delahunt. That was annoying.
    Mr. McGuigan. Yes. You begin to think that maybe they are 
not really on your team.
    Mr. Delahunt. You get a feel.
    Mr. McGuigan. Yes.
    Mr. Delahunt. But then after those reports ended up--
presumably the retired FBI agent was Mr. Rico?
    Mr. McGuigan. I believe that is so, yes.
    Mr. Delahunt. Then you went from annoyed presumably to 
either really surprised or disturbed when in the course of your 
investigation as to whether a license should issue or not 
Callahan resigns.
    Mr. McGuigan. They tanked our investigation.
    Mr. Delahunt. Did you smell something at that point in 
time?
    Mr. McGuigan. Well, I realized that our investigation had 
been tanked. Who tanked it? I do not know.
    Mr. Delahunt. You do not know who tanked it.
    Mr. McGuigan. I do not know.
    Mr. Delahunt. But it did not pass the smell test, so to 
speak?
    Mr. McGuigan. No. It was disturbing. It did not look like 
everybody was playing on the same team. I do not know.
    Mr. Delahunt. OK. And then later on, after the license is 
issued to fronton, you develop information that someone is 
skimming.
    Mr. McGuigan. Actually, Ted Driscol originally developed 
that and I started to look at it.
    Mr. Delahunt. So then as a result of the efforts of an 
investigative reporter from the Hartford Courant, Mr. Driscol, 
you, in your role as State's attorney in charge of organized 
crime or State's attorney period, say, hey, I better take a 
look at this. And that is when you run across Callahan again.
    Mr. McGuigan. Callahan, player fixing, which came into 
that. We moved forward on player fixing for quite a while and 
then started to wonder if they were fixing the games, and if 
they were fixing them in Connecticut, were they fixing them 
everywhere?
    Mr. Delahunt. Right. But the time that had lapsed from when 
the license had issued to when you initiated your skimming 
investigation was what, 6 months, 2 years, 4 years?
    Mr. McGuigan. Probably about 3 years. It took about 4 
years.
    Mr. Delahunt. It took about 3 to 4 years.
    Mr. McGuigan. Yes.
    Mr. Delahunt. Let me ask this. Were you surprised that as a 
result of your investigation and your desire to interview Mr. 
Callahan, and your conversation I guess a day or two prior to 
that or at least a representative of your office with Mr. 
Wheeler, it must have been profoundly disturbing when you go to 
Miami and hear that Mr. Callahan has been whacked out.
    Mr. McGuigan. Yes. I was thinking that Miami was not the 
town I wanted to be in.
    Mr. Delahunt. Right. You did not want to establish deep 
roots there.
    Mr. McGuigan. Yes. The District Attorney that was with me 
said let's hit the silk and go home.
    Mr. Delahunt. But at that point in time, and again this is 
pursuing what Mr. Shays was, did you really start to wonder 
what was going on? Did the smell become more putrid at that 
point in time?
    Mr. McGuigan. Yes. I mean, it was troubling.
    Mr. Delahunt. It was troubling.
    Mr. McGuigan. It was troubling.
    Mr. Delahunt. Were you surprised later on, and this is 
recent, to learn that Mr. Flemmi, who was an informant for Mr. 
Rico, had put the contract out on Mr. Wheeler and that contract 
was executed, no pun intended, executed by Mr. Martorano? That 
has surfaced as a result of a case involved----
    Mr. McGuigan. I think Martorano pled to that, I am not 
sure.
    Mr. Delahunt. He did. Right.
    Mr. McGuigan. I was not surprised at all because we were 
told by some informant that is what Halloran said. Of course, 
for some reason the Organized Crime Strike Force in Boston and 
the FBI found Halloran's testimony to be incredible and they 
found him not deserving to be in witness protection. And I must 
say, to me, it is amazing Joe Barboza deserves to be in witness 
protection and a guy who is fingering someone who murdered the 
president of the Telex Corp.--a distinguished gentleman with no 
criminal connections whatsoever, a wonderful family man, living 
in Tulsa, a pillar of his community--is killed, and in a State 
where he bought a gambling facility where there were all kinds 
of allegations of skimming and player-fixing, in this case we 
do not want to believe somebody who says I am a first-hand 
witness. We kick him out of witness protection and he gets 
whacked in south Boston. And Joe Barboza, well, let's set him 
up in the Napa Valley.
    Mr. Delahunt. And teach him how to be a cook.
    Mr. McGuigan. Yes, teach him how to be a cook.
    Mr. Delahunt. Right. Let me ask you this. The decision to 
place an individual, if you know, Mr. McGuigan, in the Witness 
Protection Program, let's be specific, to the best of your 
knowledge in the instant case of Brian Halloran, what Federal 
officials would be involved in making that decision?
    Mr. McGuigan. I would think the FBI would be the principal 
people. I do not know if the Strike Force prosecutor has any 
input or not, I do not know.
    Mr. Delahunt. OK. Do you know, if you do know, who the FBI 
officials would have been at that point in time?
    Mr. McGuigan. No, I do not know who they were. They did not 
tell us they had him. They did not tell Tulsa, apparently, who 
had a murder that they have got a first-hand witness.
    Mr. Delahunt. Do you know who was the chief prosecutor at 
that point in time?
    Mr. McGuigan. For the Organized Crime Strike Force?
    Mr. Delahunt. For the Organized Crime Strike Force.
    Mr. McGuigan. I think it was Jeremiah O'Sullivan. I am not 
really sure.
    Mr. Delahunt. OK. That was an attorney by the name of 
Jeremiah O'Sullivan who would have been the head of the 
Organized Crime Strike Force.
    Mr. McGuigan. Yes, I think it was.
    Mr. Delahunt. What would be interesting I think, Mr. 
Chairman, is to ask Mr. O'Sullivan what his understanding was 
of the rejection of Mr. Halloran.
    You mentioned Tulsa. Now you said that you proffered 
whatever assistance that you had at your disposal to Tulsa.
    Mr. McGuigan. Oh, absolutely. Absolutely.
    Mr. Delahunt. Were they grateful for that?
    Mr. McGuigan. I believe that my inspector, George Ryalls, 
had an excellent relationship with Mr. Huff, who was struggling 
mightily for many years. I do not think he ever gave up on this 
case. He deserves a lot of credit because he never gave up on 
this case. And all the doors were closed, or most of them were 
closed.
    Mr. Delahunt. Did you or your inspector ever hear from 
anyone from Tulsa relative to the cooperation they were 
receiving, or lack thereof, from the Boston office of the FBI?
    Mr. McGuigan. I know that--but I really better not say what 
George Ryalls told me because you are testing my memory. I do 
not have notes or anything. George was friendly with Mr. Huff, 
but Mr. Huff did not seem like, you best ask him, he did not 
seem like they were exactly leaning over backward to give him 
the information.
    Mr. Delahunt. Like he really was not happy?
    Mr. McGuigan. Yes. That was my impression from Mr. Ryalls. 
Mr. Ryalls has passed away. He passed away about a year and a 
half ago. But he certainly felt that when this started to 
uncover and given Judge Wolf's hearings, he was a very happy 
investigator because he had spent many years frustrated by what 
happened.
    Mr. Burton [presiding]. I want to yield to Mr. Shays, and 
if you have more questions we will come back to you real 
quickly. But I just wanted to ask one question. How far do you 
think Congress should go with this investigation of FBI 
complicity in putting innocent people in jail? We know about 
Mr. Salvati, and we know about some other people that went to 
jail with Mr. Salvati, we know about a case I believe in New 
Jersey, and there is one I think in Rhode Island. How far do 
you think Congress should go with this investigation? I am 
asking all of you now.
    Mr. McGuigan. I think it is important that the record be 
clear as to what occurred if abuses are going to be ended and 
we are going to have a change. I think the agency today is not 
the agency it was 5 years ago. I think there are tremendous 
changes. I know that people I work with in Connecticut for the 
last 10 years, and I am a private defense attorney now, are 
wonderful people. I have no doubts.
    Mr. Burton. So you think the corruption level has decreased 
dramatically in the last 5 years?
    Mr. McGuigan. Yes. But apparently from everything I read in 
Boston it was a long fight. In other words, when people, one of 
the problems--I did corruption cases mostly when I was a 
prosecutor, that is really what I did. Corruption cases, by 
their very nature, when you involve people in one corrupt act 
you own them forever. You own them. And you can get them to do 
what you want again once they commit the first corrupt act. 
That is why corruption has to be rooted out.
    Mr. Burton. Mr. Shays.
    Mr. Shays. I am not an attorney, so I do not always know 
the answer to my question. I am going to ask the others of you 
a question later. But Mr. McGuigan, I still have some questions 
for you. The interesting thing about this relationship is that, 
given you are a witness, I get to ask the questions. It is the 
first time I have ever gotten to ask you so many questions, Mr. 
McGuigan. But what I am having trouble reckoning with is how 
you deal as a very powerful law enforcement official with 
another law enforcement agency when someone like Mr. Salvati or 
Mr. Garo does not have that same kind of clout.
    In my simple mind, and I want you to tell me why my simple 
mind just goes off the track here, if I was a U.S. attorney or 
ran an organized crime task force and I began to see FBI agent 
retirees that are working for organized crime in my State, not 
thinking that the Connecticut people are, but I would have 
wanted to go to the Director in Boston and say do you know what 
the hell is going on? Your people retire and then they work for 
organized crime. Now there is a reason you either did it or you 
did not. And if you did, I want to know. And if you did not do 
it, I want to know why because that will tell me a lot about 
how you were thinking this through. So if you would respond to 
that question.
    Mr. McGuigan. I do not quite----
    Mr. Shays. Do you want me to repeat the question?
    Mr. McGuigan. I do not understand the question.
    Mr. Shays. Let me repeat again because I want you to 
understand.
    Mr. McGuigan. No. I think I heard it, I just do not 
understand.
    Mr. Shays. No. I am going to repeat it again. And the 
reason I am going to repeat it is it is not that difficult, 
frankly, unless you are Alan Greenspan. What I am asking is you 
began to believe correctly that the retired FBI agents were 
working for organized crime. That is true. You believed that.
    Mr. McGuigan. No. I did not say that. What I said is that 
they were ignoring criminal connections or unexplainably not 
finding criminal connections of employees, which was troubling.
    Mr. Shays. Which was very troubling. That is an 
understatement, troubling. It is alarming. It is outrageous. It 
is all of those things.
    Mr. McGuigan. Those are your terms. They were troubling to 
me.
    Mr. Shays. OK. And troubling to a point where you would 
feel inclined to tell the Director in Boston or whatever his 
title is that you have got a problem in Hartford and I have got 
a concern? Or, troubling that--let's take the Callahan 
circumstance. You basically had the FBI in Boston not sharing 
with you information that everybody else seemed to know. Either 
they were idiots or they were covering up. Those are your only 
two logical conclusions. And so I am interested to know whether 
you went to the FBI Director in Boston and said you have got a 
cover-up here or you have got a bunch of idiots who do not know 
what everybody else in Boston seems to know, that Callahan is 
involved in organized crime. I want to know if you did that?
    Mr. McGuigan. No. And I do not think it would have been of 
any avail whatsoever.
    Mr. Shays. Why?
    Mr. McGuigan. Because it is just not the nature of the 
agency. The agency offered no explanation to me, and I do not 
need to compel one as to why they provided information to other 
people and not to us. The agency was negative on our case. We 
originally gave them information regarding organized crime 
figures in Bridgeport Jai Alai. They seemed to have no interest 
in that. And, quite frankly, they apparently did not think that 
there was infiltration of organized crime into Jai Alai, or 
they were not interested in it.
    Mr. Shays. So I am going to conclude from that you 
basically believed it would have been pointless.
    Mr. McGuigan. It was pointless. And history has borne me 
out on that. It was pointless.
    Mr. Shays. Well, it was pointless for a different reason. 
They were corrupt.
    Mr. McGuigan. That is what I said, it was pointless.
    Mr. Shays. That is how Alan Greenspan would have said it. 
Ted Driscol was a reporter working for the Hartford Courant. 
Are you aware of any efforts by any present or former FBI 
agents to cast doubt on Driscol's reporting?
    Mr. McGuigan. To what?
    Mr. Shays. Ted Driscol was a reporter for the Hartford 
Courant writing about some of these stories, a very fine 
reporter. Are you aware of any efforts to cast doubt on 
Driscol's reporting by any present FBI agent or any former FBI 
agent?
    Mr. McGuigan. I believe former FBI agents. But I think the 
committee will need to develop that.
    Mr. Shays. And who are the former FBI agents?
    Mr. McGuigan. Our understanding is that some of the former 
agents or one of the former agents may have said that Mr. 
Driscol was a possible suspect in the Wheeler homicide--him 
being an investigative reporter--rather than the people he was 
associated with. I am sure that is who would have done it, an 
investigative reporter.
    Mr. Shays. OK. Mr. Chairman, may I just----
    Mr. McGuigan. I do not know. I have never seen the report 
that says that is true.
    Mr. Shays. OK. Fair enough.
    Gentlemen, you have all been very willing to listen to my 
questions. Mr. McGuigan, did you have something else you wanted 
to say?
    Mr. McGuigan. Mr. Chairman, I have a 4:30 flight. I have a 
meeting in Miami. May I be excused. I have been grilled by 
Brother Delahunt, Congressman Delahunt, Congressman Shays, and 
I would hope that the other members of the panel would 
understand.
    Mr. Burton. I think that we are about to wrap up.
    Mr. Shays. I have about five more questions. But he is free 
to go.
    Mr. Burton. Do you have any more questions of Mr. McGuigan?
    Mr. Delahunt. I have none other than be careful of that 
Miami Airport, Mr. McGuigan.
    Mr. Burton. Do you have any more questions of Mr. McGuigan?
    Mr. Shays. Let me go quickly through these. Mr. Duke was 
very helpful in providing a number of recommendations.
    Mr. Burton. We will get you out of here in the next 5 or 10 
minutes, is that all right? I will get you to the airport, 
promise. Do not worry.
    Mr. Shays. Mr. Duke, the first one was confine and 
regulate--these are recommendations for reform. I just would 
like yes or no or quick qualifications. The first one was 
confine and regulate the bribery of witnesses. I think we are 
all agreed on that, correct?
    The second was criminalize the suppression of exculpatory 
evidence. I think we have addressed that. But that has to be 
dealt with, you all agree?
    Mr. Garo. Yes.
    Mr. Lawrence. Yes.
    Mr. Shays. Mr. Lawrence, do you want to qualify anything?
    Mr. Lawrence. No.
    Mr. Shays. OK. The third one was extend the time 
limitations on prosecutions. I think you all agree on that, is 
that correct?
    Mr. Garo. Agreed.
    Mr. Shays. OK. Thank you. On four, reduce the harsh time 
limits on collateral attacks. I am not quite sure what that 
means. Mr. Duke, real quick?
    Mr. Duke. The limitation is a prisoner cannot attack a 
conviction after the time periods permitted under the Anti-
Terrorism Act have expired. And I suggested that you might want 
to take a look at that and adjust those severe limitations.
    Mr. Shays. Mr. McGuigan, do you agree with that? Do you 
agree with that recommendation?
    Mr. McGuigan. No response.
    Mr. Shays. Your mind is somewhere else here. Mr. Garo.
    Mr. Garo. I do not have enough information about that, 
Congressman, so I really cannot answer that.
    Mr. Shays. OK. Mr. Lawrence.
    Mr. Lawrence. I really do not have an opinion on that, 
Congressman.
    Mr. Shays. Pardon me?
    Mr. Lawrence. I do not have an opinion on that, 
Congressman.
    Mr. Shays. OK. Create an independent innocence review 
commission?
    Mr. Garo. I think that is an interesting proposal. And the 
reason for that is, I agree with Mr. McGuigan, who is going to 
prosecute the prosecutors if they should be subjected to 
criminal prosecution?
    Mr. Burton. OK. But I think what we will do is if there is 
a commission, and we will be looking at that, if there is a 
commission appointed, one of the things we will ask them to 
make a possible recommendation on is how you prosecute 
prosecutors who are corrupt.
    And the last question?
    Mr. Shays. Yes. Eliminate the absolute prosecutorial 
immunity, is that what you are suggesting, Mr. Duke?
    Mr. Duke. Yes. That is the civil immunity for tort actions 
by victims of prosecutors. It is now absolute and I suggest 
that it be changed to a qualified immunity.
    Mr. Shays. Mr. Garo.
    Mr. Garo. I think the Salvati case speaks reams of why that 
should happen.
    Mr. Shays. Mr. Lawrence.
    Mr. Lawrence. I could support a movement to a qualified 
immunity.
    Mr. Shays. And then just this last question. Is there any 
one issue that you would recommend on top of this list? Mr. 
Lawrence.
    Mr. Lawrence. I would not support an immediate change in 
the immunity of the prosecutor--as a former prosecutor, I am 
concerned; I think it really has to be thought through. There 
would be a spate of new suits against prosecutors which we are 
not going to be able to dispose on motion and which are going 
to tie up huge amounts of time.
    Mr. Burton. That is why we said that what we are thinking 
about is possibly having some kind of a commission look into 
all of this and make a recommendation. I am sure that would be 
one of the things they would discuss.
    Anything else, Mr. Shays?
    Mr. Shays. No. I just wanted to make sure that there is not 
one key issue that you would add to this list. Mr. Lawrence.
    Mr. Lawrence. No, I do not think so, Congressman.
    Mr. Shays. Mr. Garo.
    Mr. Garo. No.
    Mr. Shays. Mr. McGuigan.
    Mr. McGuigan. No.
    Mr. Shays. Mr. Duke. Thank you all very much. I thank the 
tolerance of the committee.
    Mr. Burton. Thank you, Mr. Shays. You have been very 
patient, fellows, and I want to tell you you have really helped 
us a great deal. Hopefully, we will get this thing resolved and 
things will be better.
    Do you need somebody to get you to the airport? Do you have 
a way out there?
    Mr. McGuigan. I will get a cab.
    Mr. Burton. OK. You sure you are going to be all right?
    Mr. McGuigan. I will be all right. Thank you.
    Mr. Burton. All right. Thank you all very much.
    Did you have any more questions?
    Mr. Delahunt. Yes, but I can just make it a conversation. 
There is no need----
    Mr. Burton. Well, why don't we excuse Mr. McGuigan.
    Mr. Delahunt. Yes, whoever has to go. Mr. McGuigan, good 
luck and I hope to see you in Boston.
    Mr. McGuigan. Thank you, Congressman. Nice seeing you. I 
will see you in Boston.
    Mr. Delahunt. Good to see you, Austin.
    Mr. Burton. Do you have some more questions real quickly?
    Mr. Delahunt. Yes. I think it was Mr. Duke who raised I 
think, a problem that I do not know how to address. And that 
is, when an informant is developed, what is an appropriate 
bargain, if you will?
    We need, we, meaning the Government, the prosecutor, need 
on occasion informant information and sometimes informant 
testimony. But, for example, in the case of Salvati, with 
Barboza as a witness, this is the bargain, he puts four 
innocent people in jail because of perjured testimony. His 
second case is a case against an alleged ring leader or head of 
organized crime in Boston by the name of Angiulo. He loses that 
case with his testimony. In the third case three individuals 
are convicted and, as the chairman indicated, one being the 
head of organized crime in New England area. He gets 2\1/2\ 
years. Then he is relocated. Then the Federal Government 
intervenes to secure a parole in a non-Federal case, a State 
prosecution. It is as if there is a continuing obligation.
    In the case that I referenced earlier in my own experience, 
here I am a State prosecutor, I am investigating a murder case, 
and the information that would have been critical to solving 
that particular homicide was not disclosed to me because the 
FBI informant was being protected because he was providing 
information to the FBI on a ring that was receiving stolen 
property.
    There has to be some sort of balance, some sort of 
consultation with law enforcement, not just the district 
attorney's office necessarily, but with an agency, one that 
probably already exists, about whether the informant should 
receive what kind of a benefit. How do you go about the 
measurement of an appropriate benefit?
    You know, I always remember a major in the State Police 
telling me that if all of the informants in Massachusetts, 
informants of Federal, State, and local agencies, were 
arrested, we would see a decline in the crime rate of 
approximately 90 percent if we just went out and arrested our 
own informants. I am beginning to believe that was understated.
    But there has to be some, and I would ask for you to 
reflect on, what is the mechanism to determine whether it is an 
appropriate benefit to the people, whether it be the people of 
a State, or the people of the United States, in terms of the 
arrangements with an informant. I believe, and I would be 
interested again in any observations or comments that you have, 
we, and I mean all of law enforcement, tend to rely too heavily 
on informants. They are not, in my judgment, as necessary to 
the successful investigation and prosecution of those who would 
commit crimes against society as we have concluded.
    I think that could be a premise that has to be examined. We 
can use immunity. We can use other investigative techniques. 
When we sit down with these informants we can say, listen, you 
are going to go to jail for 10 years rather than 15 years. Not 
that we are going to put you out in Santa Rosa, not inform the 
community there that you have killed 20-some-odd people, and 
teach you how to be a cook.
    What is the mechanism of how we achieve an appropriate, 
ethical bargain when we do rely on the informants? Do any of 
you have any ideas? And if you do not, I would ask that you 
reflect on it.
    Mr. Garo. Congressman, I am going to say something that I 
do not think yet has been stated in all of our hearings and in 
all our testimony and everything that has gone on for the past 
year in the Salvati case and in the Deegan murder case. It is 
my opinion from all of the evidence that I know, and I know a 
lot more than has been brought out here, that Joe Barboza was 
extorting the FBI on a regular basis. You heard Mr. McGuigan 
say that once that you have committed an illegality, you have 
got them for life. Joe Barboza was cunning enough to know that. 
And in my opinion, he had them wrapped around his little 
finger. He got what he wanted because they did not want him to 
recant his testimony.
    Second of all, is that I think that what the Deegan murder 
case and your entire investigation that you worked so hard and 
diligently on for over a year shows the following: That there 
are no shortcuts to the truth. I believe that you will find out 
if you were to investigate, like I have, that the FBI's 
handling of investigations is to go get an informant or a rat, 
do not go and have to do the laborious investigations that your 
office had to conduct, that Mr. LaTourette's office had to 
conduct, and what Mr. McGuigan's office had to conduct. Because 
if we have informants, we cut down the time.
    Third, that the maximum sentences, minimum/maximum 
sentences that have been given, let's say, for drug offenses, 
that has created a whole new world of rats and informants. And 
in my opinion, it does the opposite of what it is supposed to 
do. In other words, it makes people say I will say anything you 
want so that I do not get a maximum/minimum penalty. And to try 
to get the punishment to say that we are going to keep 
increasing the punishment, all it is going to do, and I agree 
with you, is it is just going to proliferate the fact of 
informants getting more and more deals.
    And finally, I do not care what anybody says, when you make 
a deal with the devil, an informant mostly is, most of the time 
they are devils. When you make that deal, it is etched in 
stone. So that, you have a break on this one because you are 
informing. If you break the law, you are going down. No second 
chances. No protecting them from murders. No protecting them 
from life imprisonments. You are going down. If they enforce 
that type, Mr. Congressman, I think that we will have a better 
system of enforcing the truth from informants.
    Mr. Delahunt. Professor Duke.
    Mr. Duke. Yes. I think, ironically, one of the problems of 
our use of informants is that informants have more to offer in 
the bargain if they want to help convict innocent people. 
Because if you have got a case against somebody, you do not 
need the informant. If you do not have a case, you need the 
informant. That is an inherent problem in the use of 
informants.
    I think we should probably consider making the reward to 
the informant proportionate to his own criminality. I said 
earlier today I was not sure that I would want to prohibit 
absolutely deals with Barbozas and Gravanos. But I am inclined 
to think that probably I would. If you let somebody go who has 
committed multiple dozens of murders, what kind of a message 
are you sending to criminals? What you are saying to them is it 
does not matter what crime you commit, the worst possible crime 
imaginable, if we catch you, all you have to do is flip and 
give us valuable testimony and you will get away with your 
crime. That is the hole we have dug for ourselves.
    I think if we had a corroboration requirement, one that had 
real meat to it, real heft to it, we would make it less easy 
for informants to fabricate cases in order to cut a favorable 
deal because their testimony would not be that worthwhile.
    But I agree with you, it is an enormously difficult 
problem. I do not know of a more difficult problem in the 
criminal justice system.
    Mr. Delahunt. Mr. Lawrence.
    Mr. Lawrence. Congressman, I think I would just add a small 
cautionary note on this. I think when we talk about informants 
that the watchword ought to be vigilance but not over-kill. 
There is a proper use for informants in certain kinds of cases. 
There are certain cases that arguably could not be made without 
informants. So your suggestion that it be reconsidered is 
certainly I think a productive idea. And the suggestions that 
Professor Duke and Mr. Garo have made with respect to a 
corroboration rule I think I would share, and certainly that 
there ought to be no future-looking immunity. You know, Steven 
Flemmi had this idea of a free pass on the crime train. 
Immunity with respect to past deals is one thing; forward 
looking is certainly outrageous.
    That said, within the context of informants and plea 
bargains as well, vigilance but not over-kill.
    Mr. Delahunt. Can I have another question, Mr. Chairman?
    Mr. Burton. Certainly.
    Mr. Delahunt. I do not know if you have had a chance to 
review the guidelines that were promulgated by the Department 
of Justice in the initial aftermath of the Boston-Flemmi-Bulger 
situation. And this goes to the issue of mechanisms to ensure 
compliance, enforcement, if you will. There is a lot of good 
concepts in terms of what ought to happen and how the issues 
that we have been discussing now for a year ought to be 
addressed. But nowhere in those guidelines is there a mechanism 
to ensure compliance by prosecutors or by FBI or Federal 
agents. None whatsoever.
    I dare say that if we went back and examined the policies 
that were in effect at the time, whether they were Justice 
Department or FBI policies, they were simply ignored and there 
was no compliance whatsoever and no consequences if you ignored 
them.
    Now the Office of Professional Responsibility is talked 
about in the course of your testimony. Myself and the former 
Chair of the Judiciary Committee, Henry Hyde, requested and the 
GAO study, I think that you referred to, Professor Duke, was 
the end product. You know, it gets so confusing even for those 
of us who are experienced in the justice system as to whether 
there is an Office of Professional Responsibility for the FBI, 
is there an Office of Professional Responsibility for the DEA, 
is there an Inspector General for the Department of Justice. To 
understand the system you need a degree in engineering from 
MIT. It just gets so convoluted.
    To be perfectly honest with you, even though there has been 
some efforts made in terms of enhancing the authority and 
encouraging the Office of Professional Responsibility to 
monitor conduct and to enforce the standards and practices and 
polices of all of the Justice agencies, I do not think they 
even come close. It appears to me it is a recipe for disaster 
if we believe the answer is doing something with the Office of 
Professional Responsibility.
    It is my own sense, and I am just giving you my opinions 
without a lot of reflection, but the problem is so profound 
that we need radical surgery here. We have to come up with a 
new mechanism. I do not know what it is. Your suggestion, 
Professor Duke, about an Office of Independent Prosecutor, even 
though it makes me a little nervous, but if it was only within 
the agency itself and maybe if it reported only to the Attorney 
General. I do not know the answer. But if you have any 
suggestions, I would like to hear them. And, again, I ask for 
your reflection and consideration. You can communicate with the 
committee if you have any specific ideas.
    Mr. Duke. Well, I just agree entirely with your perception 
of the role of the Office of Professional Responsibility. It 
seems to me, at least in my experience with them, that their 
function is to paper over and insulate further these agencies 
from criticism. And that is all they do as far as I can tell. 
They create the appearance of independent review when, in fact, 
it is anything but independent, and in most cases it is not 
even review.
    Mr. Burton. Any other comments, gentlemen?
    I think that is one of the things that you and I and other 
members ought to take a look at and try to come up with some, 
maybe with some input from these gentlemen and others, come up 
with some kind of a recommendation that we can turn into 
legislation. But I am looking forward to working with you 
because you know what the heck is going on.
    Mr. Delahunt. Yes, sir.
    Mr. Burton. Mr. Shays, anything else?
    Mr. Shays. Nothing further.
    Mr. Burton. Gentlemen, thank you very much for your 
patience. We appreciate your being here.
    We stand adjourned.
    [Whereupon, at 2:10 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statement of Hon. Wm. Lacy Clay and 
additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T8662.297

[GRAPHIC] [TIFF OMITTED] T8662.298

[GRAPHIC] [TIFF OMITTED] T8662.299

[GRAPHIC] [TIFF OMITTED] T8662.300

[GRAPHIC] [TIFF OMITTED] T8662.301

[GRAPHIC] [TIFF OMITTED] T8662.302

[GRAPHIC] [TIFF OMITTED] T8662.303

[GRAPHIC] [TIFF OMITTED] T8662.304

[GRAPHIC] [TIFF OMITTED] T8662.305

[GRAPHIC] [TIFF OMITTED] T8662.306

[GRAPHIC] [TIFF OMITTED] T8662.307

[GRAPHIC] [TIFF OMITTED] T8662.308

[GRAPHIC] [TIFF OMITTED] T8662.309

                                   - 

</pre></body></html>
